<html>
<title> - A RATIONAL DISCUSSION OF CLIMATE CHANGE: THE SCIENCE, THE EVIDENCE, THE RESPONSE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                A RATIONAL DISCUSSION OF CLIMATE CHANGE: 
                THE SCIENCE, THE EVIDENCE, THE RESPONSE 

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 17, 2010

                               __________

                           Serial No. 111-114

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

62-618 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
JOHN GARAMENDI, California               
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  CHRIS KING Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
            ANNE COOPER Democratic Professional Staff Member
          ROBERT WALTHER Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant
                    ALEX MATTHEWS Research Assistant















                            C O N T E N T S

                           November 17, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    13
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    16

                                Panel I:

Dr. Ralph J. Cicerone, President, National Academy of Sciences
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    24

Dr. Richard S. Lindzen, Alfred P. Sloan Professor of Meteorology, 
  Department of Earth Atmospheric and Planetary Science, 
  Massachusetts Institute of Technology
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    50

Dr. Gerald A. Meehl, Senior Scientist, National Center for 
  Atmospheric Research
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    58

Dr. Heidi M. Cullen, CEO and Director of Communications, Climate 
  Central
    Oral Statement...............................................    58
    Written Statement............................................    64
    Biography....................................................    73

Discussion
  The Impacts of CO<INF>2</INF> Increases on Temperatures........    73
  Humans Have Caused Increases in Atmospheric CO<INF>2........</INF> 74
  The Greater Proportion of Record High Temperatures.............    74
  Quantifying Climate Sensitivity and Water Vapor................    76
  The Common Cause for Clean Energy Development..................    78
  Climate Skepticism.............................................    80

                               Panel II:

Dr. Patrick J. Michaels, Senior Fellow in Environmental Studies, 
  Cato Institute
    Oral Statement...............................................    85
    Written Statement............................................    89
    Biography....................................................    99

Dr. Benjamin D. Santer, Atmospheric Scientist, Program for 
  Climate Model Diagnosis and Intercomparison, Lawrence Livermore 
  National Laboratory
    Oral Statement...............................................    99
    Written Statement............................................   104
    Biography....................................................   104

Dr. Richard B. Alley, Evan Pugh Professor, Department of 
  Geosciences and Earth and Environmental Systems Institute, The 
  Pennsylvania State University
    Oral Statement...............................................   115
    Written Statement............................................   120
    Biography....................................................   125

Dr. Richard A. Feely, Senior Scientist, Pacific Marine 
  Environmental Laboratory, National Oceanic and Atmospheric 
  Administration
    Oral Statement...............................................   126
    Written Statement............................................   129
    Biography....................................................   134

Discussion
  Ocean Acidification and Coral Damage...........................   134
  Measuring Glacial Changes......................................   135
  Evidence of Anthropogenic Change...............................   135
  Ocean Acidification and Economic Impacts.......................   141
  Science and the Federal Government.............................   143
  More on Glaciers and Evidence of Anthropogenic Change..........   144
  Fossil Fuel Resources and Climate Change.......................   148
  The Impacts of Current CO<INF>2</INF> Emissions................   151

                               Panel III:

Rear Admiral David W. Titley, Oceanographer and Navigator of the 
  U.S. Navy
    Oral Statement...............................................   153
    Written Statement............................................   155
    Biography....................................................   157

Mr. James Lopez, Senior Advisor to the Deputy Secretary, U.S. 
  Department of Housing and Urban Development
    Oral Statement...............................................   158
    Written Statement............................................   160
    Biography....................................................   166

Mr. William Geer, Director of the Center for Western Lands, 
  Theodore Roosevelt Conservation Partnership
    Oral Statement...............................................   166
    Written Statement............................................   169
    Biography....................................................   172

Dr. Judith A. Curry, Chair of the School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology
    Oral Statement...............................................   172
    Written Statement............................................   174
    Biography....................................................   179

Discussion
  The U.S. Navy and Weather Conditions...........................   179
  Climate Monitoring Instrumentation.............................   181
  Adaptation Challenges and Poor Communities.....................   182
  A National Climate Service.....................................   184
  The Impacts of Climate Change on Recreational Fishing..........   186
  Adaptation of Animal Species to a Changing Climate.............   187
  Combined Factors Affecting Climate.............................   188
  Blogging, Scientific Integrity, and Public Information.........   189
  An Anecdote on Risk Management.................................   190

              Appendix: Answers to Post-Hearing Questions

Dr. Ralph J. Cicerone, President, National Academy of Sciences...   194

Dr. Richard S. Lindzen, Alfred P. Sloan Professor of Meteorology, 
  Department of Earth Atmospheric and Planetary Science, 
  Massachusetts Institute of Technology..........................   198

Dr. Patrick J. Michaels, Senior Fellow in Environmental Studies, 
  Cato Institute.................................................   200

Dr. Benjamin D. Santer, Atmospheric Scientist, Program for 
  Climate Model Diagnosis and Intercomparison, Lawrence Livermore 
  National Laboratory............................................   203

Dr. Judith A. Curry, Chair of the School of Earth and Atmospheric 
  Sciences, Georgia Institute of Technology......................   209


A RATIONAL DISCUSSION OF CLIMATE CHANGE: THE SCIENCE, THE EVIDENCE, THE 
                                RESPONSE

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 2010

                  House of Representatives,
                     Subcommittee on Energy and Environment
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:38 a.m. In 
Room 2325, Rayburn House Office Building, Hon. Brian Baird 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                     U.S. HOUSE OF REPRESENTATIVES

                A Rational Discussion of Climate Change:

                the Science, the Evidence, the Response

                     wednesday, november 17th, 2010
                                10:30 am
                   2325 rayburn house office building

Purpose

    On Wednesday, November 17, 2010 the Subcommittee on Energy and 
Environment of the House Committee on Science and Technology will hold 
a hearing entitled: ``A Rational Discussion of Climate Change: the 
Science, the Evidence, the Response''. The Subcommittee will receive 
testimony on the basic science underlying how climate change happens; 
the evidence and the current impacts of climate change; and the actions 
that diverse sectors are taking today to respond to and prepare for a 
changing climate.

Witnesses

Panel 1

        <bullet>  Dr. Ralph Cicerone is the President of the National 
        Academy of Sciences. Dr. Cicerone will explain the basic 
        science, including the fundamental physics, underlying how 
        climate change happens. He will also discuss the role of the 
        National Academy of Sciences in advancing climate science and 
        informing the public on the issue.

        <bullet>  Dr. Heidi Cullen is the CEO and Director of 
        Communications at Climate Central. Dr. Cullen will discuss the 
        basic science of climate change, including the fundamental 
        chemistry, the causes of production of greenhouse gases; and 
        the expected impacts on the climate.

        <bullet>  Dr. Gerald A. Meehl is a Senior Scientist in the 
        Climate and Global Dynamics Division at the National Center for 
        Atmospheric Research. Dr. Meehl will discuss the basic physics 
        underlying how climate change happens and how the physics is 
        incorporated into the development of the climate models.

        <bullet>  Dr. Richard Lindzen is the Alfred P. Sloan Professor 
        of Meteorology in the Department of Earth, Atmospheric, and 
        Planetary Sciences at Massachusetts Institute of Technology. 
        Dr. Lindzen will discuss how greenhouse gas emissions resulting 
        from human activities will only minimally contribute to 
        warming. He will also discuss the limitations in the global 
        climate models and the problems with the positive feedbacks 
        built into the models.

Panel 2

        <bullet>  Dr. Benjamin Santer is an Atmospheric Scientist in 
        the Program for Climate Model Diagnosis and Intercomparison at 
        the Lawrence Livermore National Laboratory. Dr. Santer will 
        discuss the evidence of climate change; how well the science 
        validates that climate change is happening; and the 
        computational climate models, including how the various climate 
        data sets are utilized and analyzed.

        <bullet>  Dr. Richard Alley is the Evan Pugh Professor in the 
        Department of Geosciences and an Associate of the Earth and 
        Environmental Systems Institute at Pennsylvania State 
        University. Dr. Alley will describe the effects of climate 
        change on ice dynamics and explain how changes in levels of 
        carbon dioxide in the atmosphere have led to a rise in global 
        temperatures.

        <bullet>  Dr. Richard Feely is a Senior Scientist at the 
        Pacific Marine Environment Laboratory of the National Oceanic 
        and Atmospheric Administration (NOAA). Dr. Feely will discuss 
        the current science and understanding of ocean acidification, 
        the factors that contribute to the acidification process, and 
        the resulting impacts.

        <bullet>  Dr. Patrick Michaels is a Senior Fellow in 
        Environmental Studies at the Cato Institute. Dr. Michaels will 
        discuss the rate of greenhouse-related warming; the 
        Endangerment Finding by the Environmental Protection Agency; 
        and scientific integrity.

Panel 3

        <bullet>  Rear Admiral David Titley is an Oceanographer and 
        Navigator for the United States Department of the Navy, 
        Department of Defense. RADM Titley will discuss the impacts of 
        climate change on U.S. Navy missions and operations, the 
        national security implications of climate change, and the role 
        of the U.S. Navy's Task Force Climate Change.

        <bullet>  Mr. James Lopez is the Senior Advisor to the Deputy 
        Secretary at the Department of Housing and Urban Development. 
        Mr. Lopez will discuss the impacts of climate change on 
        vulnerable populations and communities; HUD's proposed 
        Sustainable Communities Initiative; and how the Department is 
        working to improve the coordination of transportation and 
        housing investments to ensure more regional and local 
        sustainable development patterns, more transit-accessible 
        housing choices, and reduced greenhouse gas emissions.

        <bullet>  Mr. William Geer is the Director of the Center for 
        Western Lands for the Theodore Roosevelt Conservation 
        Partnership. Mr. Geer will discuss the threat of climate change 
        to hunting and fishing; its impacts on fish and wildlife; and 
        how the Theodore Roosevelt Conservation Partnership is 
        responding to the impacts of climate change.

        <bullet>  Dr. Judith Curry is the Chair of the School of Earth 
        and Atmospheric Sciences at Georgia Institute of Technology. 
        Dr. Curry will discuss how uncertainty in data and conclusions 
        is evaluated and communicated. She will also discuss how this 
        uncertainty should be incorporated into decision-making 
        efforts.

Background

    Human society is shaped by the climate in fundamental ways, and so 
for many decades researchers around the world have been working to 
understand how humans are affecting the climate, the impacts of these 
changes, and how society can mitigate and prepare for these effects. 
Since human settlement began, climate has influenced what we wear, the 
food that we eat, where we live, and how we build our houses. And 
despite our greatest technological advances, climate still affects how 
and where we live our lives today, as well as our economy and national 
security. Various sectors, from agriculture to transportation, rely on 
climate certainty. Climate change has increased uncertainty in many 
sectors; therefore, many decisions with significant economic impacts 
will have to be made with greater levels of associated risk. 
Advancements in climate science may reduce uncertainty in climate 
dependent sectors, thus better informing decisions that impact the 
quality of our lives.

Climate and Weather
    Climate can be defined as the product of several meteorological 
elements \1\ in a given region over a period of time. In addition, 
spatial elements such as latitude, terrain, altitude, proximity to 
water and ocean currents affect the climate. We experience climate on a 
daily basis through the weather. The difference between weather and 
climate is a measure of time--weather consists of the short-term 
(minutes to months) changes in the atmosphere. Weather is often thought 
of in terms of temperature, humidity, precipitation, cloudiness, 
brightness, visibility, wind, and atmospheric pressure. Weather is what 
conditions of the atmosphere are over a short period of time, and 
climate is how the atmosphere ``behaves'' over relatively long periods 
of time. In most places, weather can change from minute-to-minute, 
hour-to-hour, day-to-day, and season-to-season. Climate, however, is 
the average of weather over a period of years to decades. Generally, 
climate is what you expect, like a very hot summer in the American 
Southwest, and weather is what you get, like a hot day with pop-up 
thunderstorms.\2\
---------------------------------------------------------------------------
    \1\ Meteorological elements such as temperature, humidity, 
atmospheric pressure, wind, rainfall, and atmospheric particle count.
    \2\ See <http://www.nasa.gov/mission<INF>-</INF>pages/noaa-n/
climate/climate<INF>-</INF>weather.html>.

The Science
    Climate can be influenced by a variety of factors, including: 
changes in solar activity, long-period changes in the Earth's orbit, 
natural internal processes of the climate system, and anthropogenic 
(i.e. human-induced) increases in atmospheric concentrations of carbon 
dioxide (CO<INF>2</INF>) and other greenhouse gases (GHGs).\3\ As 
described above, ``climate'' is the long-term average of a region's 
weather patterns, and ``climate change'' is the term used to describe 
changes in those patterns. Climate change will not have a uniform 
effect on all regions and these differing effects may include changes 
to average temperatures (up or down), changes in season length (e.g. 
shorter winters), changes in rain and snowfall patterns, and changes in 
the frequency of intense storms. The scientific community has made 
tremendous advances in understanding the basic physical processes as 
well as the primary causes of climate change. And researchers are 
developing a strong understanding of the current and potential future 
impacts on people and industries.
---------------------------------------------------------------------------
    \3\ In addition to long-term climate change, there are shorter term 
climate variations. This so-called climate variability can be 
represented by periodic or intermittent changes related to El Nino, La 
Nina, volcanic eruptions, or other changes in the Earth system.
---------------------------------------------------------------------------
    Throughout Earth's history, the climate has changed in dramatic 
ways. What makes this point in time different from the past is the 
human influence on this change and the rate at which this change is 
occurring. Volumes of peer-reviewed scientific data show that CO<INF>2</INF> 
concentrations in the atmosphere have increased substantially since 
industrialization began. Fossil fuel use has become an increasingly 
important part of our lives, and as a result, CO<INF>2</INF> 
concentrations have increased approximately 30% since pre-industrial 
times.\4\ And the current level of CO<INF>2</INF> in the atmosphere is 
the highest in the past 650,000 years.\5\ According to the National 
Academies, there is strong scientific consensus that these increases in 
CO<INF>2</INF> concentrations intensify the greenhouse effect, and this 
effect plays a critical role in warming our planet.\6\
---------------------------------------------------------------------------
    \4\ See <http://www.wpro.who.int/NR/rdonlyres/33FA546E-7813-4E51-
BA89-48759FF45360/0/climate<INF>-</INF>factsheet.pdf>.
    \5\ Michael Hopkin, Greenhouse-Gas Levels Highest for 650,000 
Years: Climate Record Highlights Extent of Man-Made Change, Nature 
News. Published Online. (24 Nov 2005). doi:10.1038/news051121-14.
    \6\ National Research Council, America's Climate Choices: Advancing 
the Science of Climate Change (2010).

Greenhouse Effect
    Greenhouses work by trapping heat from the sun. The glass panels of 
the greenhouse let in light but keep heat from escaping. This causes 
the greenhouse to heat up, much like the inside of a car parked in 
sunlight. Greenhouse gases in the atmosphere behave much like the glass 
panes in a greenhouse. Sunlight enters the Earth's atmosphere, passing 
through the blanket of greenhouse gases. As it reaches the surface, the 
Earth's land, water, and biosphere absorb the sun's energy. Once 
absorbed, this energy is eventually transmitted back into the 
atmosphere through physical processes such as heat conduction, 
convection, and evaporation. Some of the energy passes back into space, 
but much of it remains trapped in the atmosphere by the greenhouse 
gases, causing the Earth to heat up.
    As a basis for discussion about GHGs and their influence on the 
climate, it should be noted that there is a natural, non-anthropogenic 
greenhouse effect, which Joseph Fourier discovered more than 150 years 
ago. Fourier argued that ``the atmosphere acts like the glass of a 
hothouse because it lets through the light rays of the sun but retains 
the dark rays from the ground''.\7\ This is a major simplification in 
describing the greenhouse effect, but it does provide insight into why 
the Earth's surface is considerably warmer than it would be without an 
atmosphere.
---------------------------------------------------------------------------
    \7\ Joseph Fourier, Remarques Generales Sur Les Temperatures Du 
Globe Terrestre Et Des Espaces Planetaires, 27 Annales de Chimie et de 
Physique p.136-67 (1824). and Joseph Fourier, Memoire Sur Les 
Temperatures Du Globe Terrestre Et Des Espaces Planetaires, 7 Memoires 
de l'Academie Royale des Sciences p.569-604 (1827).
---------------------------------------------------------------------------
    Several scientists built on Fourier's greenhouse theory by 
recognizing the importance of the selective absorption of some of the 
minor constituents of the atmosphere, such as CO<INF>2</INF> and water 
vapor. Swedish chemist Svante Arrhenius conducted an extensive analysis 
of the greenhouse effect.\8\ Arrhenius calculated the temperature 
increase caused by the greenhouse effect as a function of the 
atmospheric concentration of ``carbonic acid'' \9\, latitude, and 
season. The values Arrhenius obtained for the warming of the atmosphere 
are very much in agreement with what are now being obtained using 
complex climate models. Further research in the 1930s showed that, due 
to the more extensive use of fossil fuels, the atmospheric 
concentration of carbon dioxide was increasing, and the first 
projection of the atmospheric CO<INF>2</INF> concentration was made in 
the late 1950s.\10\ As these scientific findings were coming to light, 
operational data collection programs were initiated for measuring 
atmospheric CO<INF>2</INF> in Scandinavia, Mauna Loa, Hawaii and at the 
South Pole.
---------------------------------------------------------------------------
    \8\ Svante Arrhenius, On the Influence of Carbonic Acid in the Air 
upon the Temperature of the Ground 41 Philosophical Magazine p.237-276 
(1896). and Elisabeth T. Crawford, Arrhenius: From Ionic Theory to the 
Greenhouse Effect (Science History Publications) (1996).
    \9\ Carbonic acid is a byproduct of carbon dioxide when dissolved 
in water.
    \10\ Roger Revelle and Hans E. Suess, Carbon Dioxide Exchange 
Between Atmospheric and Ocean and the Question of an Increase of 
Atmospheric CO<INF>2</INF> during the Past Decades, 9 Tellus p.18-27 
(1957).
---------------------------------------------------------------------------
    Carbon dioxide (CO<INF>2</INF>) is a greenhouse gas (GHG) that 
traps the sun's radiation within the troposphere, i.e. the lower 
atmosphere. It has accumulated along with other man-made greenhouse 
gases, such as methane (CH<INF>4</INF>), chlorofluorocarbons (CFCs), 
nitrous oxide (N<INF>2</INF>O), hydrofluorocarbons (HFCs), 
perfluorocarbons (PFCs), and sulfur hexafluoride (SF<INF>6</INF>). GHGs 
are an important part of our atmosphere because they keep Earth from 
having an inhospitably cold surface temperature.\11\ That said, if the 
greenhouse effect becomes stronger, through increased concentrations of 
GHGs and water vapor, it could make the Earth warmer than human 
civilization and its surrounding ecosystem has currently adapted to. 
Even a small additional warming is predicted to cause significant 
issues for humans, plants, and animals.
---------------------------------------------------------------------------
    \11\ See <http://www.epa.gov/climatechange/glossary.html>.

The Scientific Process: Uncertainty, Consensus, and Peer Review
    Climate science, like all science, is an iterative process of 
collective learning: data are collected; hypotheses are formulated, 
tested, and refined; theories are constructed and models are built in 
order to synthesize understanding and to generate predictions; and 
experiments are conducted to test these hypotheses, theories, and 
models. New observations and refined theories are incorporated 
throughout this process, and predictions and theories will be further 
supported or refuted. Confidence in a theory grows if it is able to 
survive this rigorous testing process, if multiple lines of evidence 
converge in agreement, and if competing explanations can be ruled out.
    The scientific community uses a highly formalized version of peer 
review to validate research results and improve our understanding of 
the relevance of these results. Through this process, only those 
concepts that have been described through well-documented research and 
subjected to the scrutiny of other experts in the field become 
published papers in science journals and accepted as current scientific 
knowledge. Although peer review does not guarantee that any particular 
published result is valid, it does provide a high assurance that the 
work has been carefully vetted for accuracy by informed experts prior 
to publication. The overwhelming majority of peer-reviewed papers about 
global climate change acknowledge that human activities are substantial 
contributing factors.
    Science is based on observations and therefore uncertainty is 
inherent to the scientific process. Uncertainties about climate change 
will never be completely eliminated by scientific research, but science 
can enable decision makers to make informed choices in the face of 
risks.\12\
---------------------------------------------------------------------------
    \12\ National Research Council, America's Climate Choices: 
Advancing the Science of Climate Change p.15 (2010).

The Evidence
    There are numerous effects that can result from climate change. 
Some effects are already being felt today, and some are projected by 
scientists to occur in the future. Scientifically documented evidence 
of climate change includes:
    Sea Level Rise. The global sea level rose about 17 centimeters (6.7 
inches) in the last century. The rate in the last decade, however, is 
nearly double that of the last century.\13\
---------------------------------------------------------------------------
    \13\ J.A. Church and N.J. White, A 20th Century Acceleration in 
Global Sea Level Rise, 33 Geophysical Research Letters (2006).
---------------------------------------------------------------------------
    Global Temperature Rise. The major comprehensive global surface 
temperature reconstructions, which use a wide variety of data sources 
from satellites to weather stations, show that Earth has warmed since 
1880.\14\ Most recorded warming has occurred since the 1970s, with the 
twenty warmest years having occurred since 1981 and with all ten of the 
warmest years occurring in the past twelve years.\15\ Even though the 
2000s witnessed a solar output decline resulting in an unusually deep 
solar minimum in 2007-2009, surface temperatures continue to 
increase.\16\
---------------------------------------------------------------------------
    \14\ See <http://www.ncdc.noaa.gov/cmb-faq/anomalies.html>.
    \15\ T.C. Peterson et. al., State of the Climate in 2008, 90 
Special Supplement to the Bulletin of the American Meteorological 
Society p.S17-S18 (2009).
    \16\ I. Allison et. al., The Copenhagen Diagnosis: Updating the 
World on the Latest Climate Science, (UNSW Climate Change Research 
Center, Sydney, Australia) (2009).
---------------------------------------------------------------------------
    Warming Oceans. The oceans have absorbed much of the increased 
heat, with the top 700 meters (about 2,300 feet) of ocean showing 
warming of 0.302 degrees Fahrenheit since 1969.\17\
---------------------------------------------------------------------------
    \17\ Levitus et. al., Global Ocean Heat Content 1955-2008 In Light 
of Recently Revealed Instrumentation Problems, 36 Geophysical Research 
Letters (2009).
---------------------------------------------------------------------------
    Shrinking Ice Sheets. The Greenland and Antarctic ice sheets have 
decreased in mass. Data from NASA's Gravity Recovery and Climate 
Experiment show Greenland lost 150 to 250 cubic kilometers (36 to 60 
cubic miles) of ice per year between 2002 and 2006, while Antarctica 
lost about 152 cubic kilometers (36 cubic miles) of ice between 2002 
and 2005.\18\
---------------------------------------------------------------------------
    \18\ See <http://climate.nasa.gov/evidence/>, <http://
www.giss.nasa.gov/research/news/20100121/> and <http://
science.nasa.gov/headlines/y2009/
01apr<INF>-</INF>deepsolarminimum.htm>.
---------------------------------------------------------------------------
    Declining Arctic Sea Ice. Both the extent and thickness of Arctic 
sea ice has declined rapidly over the last several decades.\19\
---------------------------------------------------------------------------
    \19\ L. Polyak et. al., History of Sea Ice in the Arctic In Past 
Climate Variability and Change in the Arctic and at High Latitudes, 
U.S. Geological Survey, Climate Change Science Program Synthesis and 
Assessment Product 1.2. chapter 7 (2009). and R. Kwok and D.A. 
Rothrock, Decline in Arctic sea ice thickness from submarine and ICESAT 
records: 1958-2008, 36 Geophysical Research Letters (2009).
---------------------------------------------------------------------------
    Glacial Retreat. Glaciers are retreating almost everywhere around 
the world--including in the Alps, Himalayas, Andes, Rockies, Alaska, 
and Africa.\20\
---------------------------------------------------------------------------
    \20\ See <http://nsidc.org/sotc/glacier<INF>-</INF>balance.html> 
and <http://www.geo.unizh.ch/wgms/mbb/sum08.html>.
---------------------------------------------------------------------------
    Extreme Weather Events. The number of record high temperature 
events in the United States has been increasing, while the number of 
record low temperature events has been decreasing, since 1950. The U.S. 
has also witnessed increasing numbers of intense rainfall events.\21\
---------------------------------------------------------------------------
    \21\ See <http://lwf.ncdc.noaa.gov/extremes/cei.html>.
---------------------------------------------------------------------------
    Ocean Acidification. The carbon dioxide content of the Earth's 
oceans has been increasing since 1750, and is now increasing at a rate 
of approximately 2 billion tons per year. This has increased ocean 
acidity by about 30 percent.\22\
---------------------------------------------------------------------------
    \22\ C.L. Sabine et. al., The Oceanic Sink for Anthropogenic 
CO<INF>2</INF>, 305 Science p.367-371 (2004),; Copenhagen. Also see 
<http://www.pmel.noaa.gov/co2/OA/>.

The Response
    Scientific research is also invested in developing ways to respond 
and adapt to climate change, in addition to developing technologies and 
policies that can be used to limit the magnitude of future changes to 
the climate. The issues of mitigating, adapting, and responding to the 
impacts of climate change are currently being explored through global 
collaborative input from a wide range of experts, including physical 
scientists, engineers, social scientists, public health officials, 
business leaders, economists, and governmental officials. Demand for 
information to support climate-related decisions has grown as people, 
organizations, and governments have moved ahead with plans and actions 
to reduce greenhouse gas emissions and to adapt to the impacts of 
climate change. Today, however, the nation lacks comprehensive, robust, 
and credible information systems to inform climate choices and evaluate 
their effectiveness.
    Scientific research plays a role in guiding the nation's response 
to climate change by:

        <bullet>  projecting the beneficial and adverse effects of 
        climate changes;

        <bullet>  identifying and evaluating the likely or possible 
        consequences, including unintended consequences, of different 
        policy options to address climate change;

        <bullet>  improving the effectiveness of existing options and 
        expanding the portfolio of options available for responding to 
        climate change; and

        <bullet>  developing improved decision-making processes.
    Chairman Baird. The hearing will now come to order. Our 
hearing today is titled: ``A Rational Discussion of Climate 
Change: The Science, the Evidence, the Response.'' The purpose 
of today's hearing is to conduct an objective review of the 
science behind the greenhouse effect, climate change, and 
acidification.
    My impression has been for some time that many members of 
the public and perhaps some in Congress have never had the 
opportunity to consider the basic science and, for that matter, 
the long history of investigation and data that underlies 
scientific understanding of the greenhouse effect, and more 
recently, of ocean acidification.
    Therefore, today we have three panels of experts with us. 
The first will begin today's hearing by setting the foundation 
of basic science. They will explain to us the fundamental 
physics and chemistry underlying the role of CO<INF>2</INF> and 
other atmospheric gases in regulating or altering our planet's 
temperature and the acidity of the oceans. A bit of a 
scientific history lesson will be included as we learn that the 
science behind this issue goes back more than 100 years. The 
panel will also address questions about how much CO<INF>2</INF> 
has been entering the atmosphere, from what sources, and with 
what predicted effects.
    From basic scientific findings and methodologies described 
by the first panel, we will then consider whether or not the 
predicted impacts of CO<INF>2</INF> on temperature and ocean 
acidity are, in fact, occurring. In other words, we will ask 
the question if basic science makes certain predictions about 
what should happen if CO<INF>2</INF> levels increase in the air 
and oceans, what is actually happening in the real world? How 
do we know if it is happening or not, and what can we predict 
for the future?
    The third and final panel will then discuss the impacts 
that are being observed and that can be anticipated from 
climate change and ocean acidification. Our witnesses will 
discuss how we are already responding today and actions we need 
to take to prepare for the future. The analysis includes such 
matters as national security, social impacts, economic effects, 
and health concerns, among others.
    I have had the opportunity in preparation for this hearing 
to read all of the written testimony. I want to thank the 
witnesses for taking time from their busy schedules to prepare 
this material and submit it beforehand for the Committee's 
analysis. We are also going to post that on the Science 
Committee website for those of you who are interested. And I 
hope you will be. It is wonderful testimony and very 
illuminating.
    Before we hear from the witnesses, I want to make just a 
few key points. Having taught scientific methodology and basic 
statistics and having published, myself, in peer-reviewed 
journals, I personally place a paramount importance on 
scientific integrity. That is why in the America COMPETES Act, 
I authored the provision that insists that institutions seeking 
to receive NSF funding have specific course training in 
scientific ethics. My understanding is that from academia and 
from NSF that this is having a salutary impact, and I am proud 
of that impact.
    I mention it today because, after all, this is the Science 
and Technology Committee. We must, if we are to have any 
credibility at all, insist that our witnesses adhere to the 
highest standards of integrity, and simultaneously we, Members 
of Congress, must hold ourselves and this Committee as an 
institution to that standard in our study of the issues and in 
our conduct today and in the future.
    In the context of climate change and ocean acidification, I 
also believe that because our Nation is the biggest historical 
producer and second largest current producer of greenhouse 
gases, we have a profound moral responsibility to be sure we 
get this right. Scripture teaches us to love thy neighbor as 
thyself. If our disproportionate impacts on the rest of the 
world are harming billions of other people and countless other 
species, we are not living up to that scriptural guidance.
    Finally, even if one completely rejects the evidence that 
will be presented today in reports from the National Academies 
of Science and countless other respected bodies, I believe it 
still makes good sense to strive for our Nation to be a leader 
in clean-energy technology for economic self-interest alone.
    Is not the reality of sending hundreds of billions of 
dollars abroad, often to countries with values antithetical to 
our own, at least a bit troubling for all of us? Is not the 
national security risk this creates disconcerting? Are the 
known impacts of events such as Exxon Valdez, the Gulf oil 
spill, and numerous other events not of sufficient concern to 
argue for change, and are not the facts of red-alert days in 
our Nation's cities, in which it is unsafe for our children to 
breathe, sufficient cause for some degree of consternation and 
change?
    I personally believe the evidence of climate change and 
ocean acidification is compelling and troubling. But even 
without that conclusion, I am convinced we must change our 
energy policies for reasons of economics, national security, 
and environmental and human health. Our Nation has long been a 
leader in renewable-energy technology and I believe we must 
remain a leader.
    This Committee, under the leadership of Chairman Gordon, 
and before him Chairman Boehlert, have taken positive steps to 
ensure that continues. So too we have been at the forefront of 
climate research and should remain a leader there as well. We 
must continue this endeavor if we intend to leave our children 
and our grandchildren a strong economy and truly an independent 
and secure Nation and an environment in which to live, work, 
and play.
    Finally, as the parent of 5-1/2-year-old twin boys, the 
whole effort of my service in Congress and on this committee 
has been to ensure that they have a brighter and better future. 
If we don't address this issue well and responsibly, I fear we 
will fail in that mission and leave them a much less pleasant 
future than we have been able to enjoy.
    I am excited about today's hearing and these three panels 
of witnesses. I thank them for their time. They will help us 
better understand the concepts and impacts of climate change. 
And I personally thank each of you for being here. And I thank 
our outstanding Committee staff for their work in bringing such 
superb witnesses.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    Good morning and welcome to today's hearing--A Rational Discussion 
of Climate Change: the Science, the Evidence, the Response. Several 
months ago I suggested to our Science Committee staff that it was time 
this Committee held a comprehensive and in depth hearing to really 
discuss the science behind climate change and ocean acidification.
    I wanted the hearing to fully present the information as 
objectively and clearly as possible so that we could all have a sense 
of the basic science behind the greenhouse effect and ocean 
acidification, and the likely impacts. I also believed it would be 
important for our understanding to ensure that scientists with 
differing views be invited to testify.
    Therefore, today we have three panels of experts with us. The first 
panel will begin today's hearing by setting the foundation of basic 
science. They will explain to us the basic physics and chemistry 
underlying the role of CO<INF>2</INF> and other atmospheric gases in 
regulating or altering our planet's temperature and the acidity of the 
oceans. A bit of scientific history lesson will be included as we learn 
that the fundamental science behind this issue goes back more than one 
hundred years. This panel will also address questions about how much 
CO<INF>2</INF> has been entering the atmosphere, from what sources, and 
with what predicted effects.
    From the basic scientific findings and methodologies described by 
the first panel, we will then consider whether or not the predicted 
impacts of CO<INF>2</INF> on temperature and ocean acidity are, in 
fact, occurring. In other words, we will ask the question, ``If basic 
science makes certain predictions about what should happen if CO<INF>2</INF> 
levels increase in the air and the oceans, what is actually happening 
in the `real world,' how do we know if it is happening or not, and what 
can we predict for the future?''
    The third and final panel will then discuss the impacts that are 
being observed and that can be anticipated from climate change and 
ocean acidification. Our witnesses will discuss how we are already 
responding today and actions we need to take to prepare for the future. 
This analysis includes such matters as national security, social 
impacts, economic effects, and health concerns, among others.
    I have had the opportunity in preparation for this hearing to read 
all of the written testimony. I want to thank the witnesses for taking 
time from their busy schedules to prepare this material and submit it 
beforehand for the Committee analysis. I hope and trust many of my 
colleagues have taken the time as I have to read the testimony from all 
the witnesses.
    In addition to the written testimony provided by our panelists, I 
should note that I have personally gone well beyond to review published 
articles by many of those will testify before us today. I have also had 
the privilege to participate in various scientific forums domestically 
and globally that have examined this issue. Further, I have followed 
the matter very closely in the pages of Science magazine, which I 
subscribe to personally as a long time member of the American 
Association for the Advancement of Science.
    Before we hear from the witnesses, I want to make just a few key 
points. First, as someone who has taught scientific methodology and 
basic statistics, and having published in peer review journals myself, 
I place a great importance, paramount importance, on scientific 
integrity. That is why I authored the language in the America COMPETES 
Act which makes it mandatory for those institutions seeking National 
Science Foundation funding to include explicit training in scientific 
ethics as a required part of their curriculum. I am proud to say that 
initial reports from NSF and the academic community indicate that this 
policy is having a substantial and positive effect, as institutions 
that formally provided no such explicit training have indeed 
incorporated it into their training regimes.
    I mention this here because this is, after all, the Science and 
Technology Committee. We simply must, if we are to have any credibility 
at all, insist that our witnesses adhere to the highest standards of 
scientific integrity. Simultaneously, we must hold ourselves and this 
Committee as an institution to that standard in our study of the issues 
and in our conduct today and in the future.
    Recently, some of our colleagues and friends in Congress have 
suggested that we needn't worry about this issue of climate change 
because God has promised not to let anything happen to us. Speaking 
personally, I would be the last to presume that I know God's 
intentions. I would, however, suggest that we were given brains for a 
reason and the role of this Committee on Science and Technology is to 
use those brains to evaluate the information before us as thoroughly 
and objectively as possible and take responsible action on that basis. 
Perhaps, just perhaps, that is what God might want us to do and that is 
how we are supposed to prevent cataclysmic events from occurring.
    For those who are convinced, in spite of the evidence, that the 
threat of climate change and ocean acidification is not real, we must 
ask if the United States, as the biggest historical producer and second 
largest current producer of greenhouse gases, does not bear a great and 
indeed a moral responsibility to the rest of the world to be sure we 
get this right and do not impose adverse consequences on others as the 
result of disproportionate impacts from our own actions. Referring to 
scripture myself, the Golden Rule, ``love thy neighbor as thyself,'' 
and other pearls of wisdom seem especially relevant here.
    Moreover, even if one completely rejects the evidence that will be 
presented today and in reports from the National Academies of Science 
and countless other respected bodies, does it not make sense to strive 
for our nation to be a leader in clean energy technology for economic 
self-interest alone? Is not the reality of sending hundreds of billions 
of dollars abroad, often to countries with values antithetical to our 
own, at least a bit troubling? Is not the national security risk this 
creates disconcerting? Are the known impacts, such as Exxon Valdez, the 
recent Gulf Oil spill, and numerous other events not of sufficient 
concern to argue for change? Are not the facts of ``red alert'' days in 
our nation's cities, days in which it is ``unsafe to breathe'' for our 
children, cause for some degree of consternation?
    The United States has been a leader in renewable energy technology 
and I believe we must remain a leader. Likewise, we have been at the 
forefront of climate research and should remain a leader there as well. 
Many of the satellite monitoring capabilities, ground observations, and 
other tools that enable us to know our local weather and climate 
patterns, the health of our ecosystems and oceans, and the quality of 
the air we breathe, and that track the many changes occurring on Earth 
are available only because of our investments in science programs at 
our many federal agencies and academic institutions. We must continue 
our investments if we intend to leave our children and grandchildren an 
environment in which they too can live, work, and play.
    I am excited about this hearing and these three panels of star 
witnesses that will help us to better understand these concepts of 
climate change and ocean acidification. I want to personally and 
sincerely thank you for being here today and I look forward to each of 
your testimonies.

    Chairman Baird. And with that, I recognize my friend and 
colleague, Mr. Inglis, for opening remarks. Sorry. Mr. Hall has 
to leave. Are you ready, Mr. Hall? I am told you have to leave 
at some point.
    Mr. Hall. I am not ready, but I will go.
    Chairman Baird. All right. Then, we will recognize you out 
of respect for the likely-soon-to-be Chairman of this committee 
and a dear friend and a respected member. I recognize Mr. Hall 
for as much time as----
    Mr. Hall. Thank you, Mr. Chairman. Mr. Chairman, I do thank 
you for holding this hearing and I welcome all of the witnesses 
testifying on today's three panels. I think we have one witness 
for each panel, which is kind of an improvement. Usually we 
have one witness for each hearing. But one out of three is 
about a fair match, I think. It depends on the quality. But we 
are going to have a lot of different approaches to this and 
disagreements on it. And I appreciate everybody being here.
    Today our country finds itself at a crossroads and we face 
a staggering national debt of more than 13 trillion. Almost one 
in ten people are out of work, and a bloated Federal 
Government. These are serious problems that require solutions 
that are defined by restraint and discipline. No longer should 
the economy be strained by writing checks we can't afford and a 
burdensome regulatory regime brought about by policies that 
serve to hamper industry and productivity across our country.
    Despite this economic reality, the Administration is 
proceeding with regulations to reduce greenhouse gas emissions, 
a policy to supplant the cap and trade proposal that failed to 
win Congressional approval. The Secretary of Energy testified 
before this Committee that such a policy would raise energy 
prices for every American. The Energy Information 
Administration conducted an analysis of the cap and trade bill 
that passed the House in June. It was projected that this 
legislation would increase energy prices for consumers anywhere 
between 20 percent and 77 percent.
    The Administration claims that we must cut our emissions of 
carbon dioxide despite the cost, so that we stave off global 
climate disruption. They had been calling it global climate 
warming. First of all, this new terminology pronounced by the 
White House Office of Science and Technology Policy is just 
another example of this Administration attempting to rebrand 
events to suit their policy objectives. There is no more war. 
We don't have war now according to them. Now we have what they 
say is overseas contingency operations. There are no more 
terrorist acts, despite that guy that murdered those people at 
Fort Hood. There is no more terrorist acts. We now have man-
caused disasters, according to the Administration. Let me tell 
you something. Changing the name doesn't change what it is. It 
is high time the Administration learns how to call a bluebird 
blue.
    Secondly, this Administration argues--if cutting greenhouse 
gas emissions is the policy direction that is justified by the 
science, I think this hearing today will demonstrate and could 
demonstrate that reasonable people have serious questions about 
our knowledge of the state of the science, the evidence, and 
what constitutes a proportional response. Furthermore, there 
has been an escalating sense of public betrayal by those who 
would claim the science justifies these policy choices.
    The e-mails posted last November from the Climate Research 
Unit at the University of East Anglia in England expose a 
dishonest undercurrent within the scientific ethics community. 
This incident ignited a renewed public interest in the level of 
uncertainty of the scientific pronouncements and an increased 
concern that the policy of cap and trade may not achieve its 
objective of reducing the impacts of climate change.
    While there are only a few scientists involved in this 
unethical behavior, it only takes a few bad apples to spoil the 
whole bunch. It has created a general atmosphere of doubt with 
regards to all scientific endeavors involving the government. 
We need only look at how the Administration responded to the 
Deepwater Horizon oil spill and see how scientific information 
was distorted to promote a specific policy agenda or to change 
people's perception of the government's competence.
    To add insult to injury, this Administration has neglected 
to follow through on promises to issue basic guidelines for 
scientific integrity, a failure that has only served to further 
erode the public trust.
    Given these persistent problems, Mr. Chairman, the public 
has even more questions and concerns about how Federal 
officials use science to inform policy debates. Sorting 
scientific fact from rhetoric is essential and we have a long 
way to go on this topic. We must insist on information derived 
from objective and transparent scientific practices and we must 
hold this Administration accountable for meeting a level of 
scientific integrity that the public expects from their 
government. Above all, we cannot afford to enact policies that 
destroy jobs, hinder economic growth and whittle away our 
competitiveness.
    I look forward to hearing from our witnesses today and I 
yield back my time.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Mr. Chairman, thank you for holding this hearing and I welcome all 
of the witnesses testifying on today's three panels.
    Today, our country finds itself at a crossroads. We face a 
staggering national debt of more than $13.7 trillion, almost one in ten 
people are out of work, and a bloated federal government. These are 
serious problems that require solutions that are defined by restraint 
and discipline. No longer should the economy be strained by writing 
checks we cannot afford and a burdensome regulatory regime brought 
about by policies that serve to hamper industry and productivity across 
America.
    Despite this economic reality, the Administration is proceeding 
with regulations to reduce greenhouse gas emissions, a policy to 
supplant the ``cap and trade'' proposal that failed to win 
Congressional approval. The Secretary of Energy testified before this 
committee that such a policy would raise energy prices for every 
American. The Energy Information Administration conducted an analysis 
of the ``cap and trade'' bill that passed the House in June. It was 
projected that this legislation would increase energy prices for 
consumers anywhere between 20% and 77%.
    The Administration claims that we must cut our emissions of carbon 
dioxide, despite the costs, so that we stave off ``global climate 
disruption''. First of all, this new terminology pronounced by the 
White House Office of Science and Technology Policy is just another 
example of this Administration attempting to rebrand events to suit 
their policy objectives. There is no more war, now we have overseas 
contingency operations. There are no more terrorist acts; we now have 
man-caused disasters. Changing the name does not change what it is. 
It's high time the Administration learn, as we say, to call a bluebird 
blue.
    Secondly, this Administration argues that cutting greenhouse gas 
emissions is a policy direction that is justified by the science. I 
think this hearing today will demonstrate that reasonable people have 
serious questions about our knowledge of the state of the science, the 
evidence and what constitutes a proportional response.
    Furthermore, there has been an escalating sense of public betrayal 
by those who would claim the science justifies these policy choices. 
The emails posted last November from the Climate Research Unit at the 
University of East Anglia in England exposed a dishonest undercurrent 
within the scientific community. This incident ignited a renewed public 
interest in the level of uncertainty of the scientific pronouncements 
and an increased concern that the policy of ``cap and trade'' may not 
achieve its objective of reducing the impacts of climate change.
    While there were only a few scientists involved in this unethical 
behavior, it only takes a few bad apples to spoil the whole bunch. It 
has created a general atmosphere of doubt with regards to all 
scientific endeavors involving the government. We need only to look at 
how the Administration responded to the Deepwater Horizon oil spill to 
see how scientific information was distorted to promote a specific 
policy agenda or to change people's perception of the government's 
competence. To add insult to injury, this Administration has neglected 
to follow through on promises to issue basic guidelines for scientific 
integrity, a failure that has only served to further erode the public 
trust.
    Given these persistent problems, the public has even more questions 
and concerns about how federal officials use science to inform policy 
debates. Sorting scientific fact from rhetoric is essential, and we 
have a long way to go on this topic. We must insist on information 
derived from objective and transparent scientific practices. And, we 
must hold this Administration accountable for meeting a level of 
scientific integrity the public expects from their government.
    Above all, we cannot afford to enact policies that destroy jobs, 
hinder economic growth and whittle away our competitiveness. I look 
forward to hearing from our witnesses today, and I yield back the 
remainder of my time.

    Chairman Baird. I thank the gentleman. And I am pleased to 
recognize my friend and colleague, the Ranking Member of the 
Subcommittee, Mr. Inglis.
    Mr. Inglis. Thank you, Mr. Chairman. And this is the last 
time that you will be chairing a subcommittee, so I want to 
thank you for your service. And I hope everybody will join me 
in recognizing Mr. Baird for his excellent service here on this 
Committee.
    Chairman Baird. If I may, I am going to interrupt my friend 
because this is the last time he will be in the Ranking chair, 
and he has been an outstanding partner to work with and a real 
model of a distinguished Member of Congress. Please join me 
in--yeah.
    Mr. Inglis. There is a cautionary tale there about what 
happens when you get friendly with a Democrat. But actually he 
is a dear friend and a great guy. Anyhow, I am very excited to 
be here, Mr. Chairman, because this is on the record. And, you 
know, it is a wonderful thing about Congressional hearings, 
they are on the record.
    Kim Beazley, who is Australia's Ambassador to the United 
States, tells me that when he runs into climate skeptics, he 
says to them to make sure to say that very publicly, because I 
want our grandchildren to read what you said and what I said. 
And so we are on the record and our grandchildren or great-
grandchildren are going to read it.
    And so some are here suggesting to those children that here 
is the deal. Your child is sick--this is what Tom Friedman gave 
me as a great analogy yesterday. Your child is sick. Ninety-
eight doctors say treat him this way. Two say no, this other is 
the way to go. I will go with the two. You are taking a big 
risk with those kids. Ninety-eight of the doctors say do this 
thing. Two say do the other.
    So on the record, we are here with important decisions to 
be made. And I would also suggest to my free-enterprise 
colleagues, especially conservatives here, whether you think it 
is all a bunch of hooey that we have talked about in this 
Committee, the Chinese don't. And they plan on eating our lunch 
in this next century. They plan on innovating around these 
problems and selling to us and the rest of the world the 
technologies to lead the 21st century. So we may just press the 
pause button here for several years, but China is pressing the 
fast forward button. And as a result, if we wake up in several 
years and we say, gee, this didn't work very well for us, the 
two doctors turned out not to be so right. Ninety-eight might 
have been the ones to listen to. Then what we will find, is we 
are way behind those Chinese folks. Because, you know, if you 
have got a certain number of geniuses in the population, if you 
are one in a million in China, there are 1,300 of you. And you 
know what? They plan on leading the future. So whether you--if 
you are a free-enterprise conservative here, just think, if it 
is a bunch of hooey, this science is a bunch of hooey, if you 
miss the commercial opportunity, you have really missed 
something.
    And so I think it is great to be here on the record. I 
think it is great to see the opportunity that we have got ahead 
of us. And since this is sort of a swan song for me and Mr. 
Baird, I would encourage scientists that are listening out 
there to get ready for the hearings that are coming up in the 
next Congress. Those are going to be difficult hearings for 
climate scientists, but I would encourage you to welcome those 
as fabulous opportunities to teach. Don't come here 
defensively. Don't come to this committee defensively. Say I am 
glad you called me here today, I am glad you are going to give 
me an opportunity to explain the science of climate change. 
Because I am here to show you what you spent, say $340 million 
a year on the U.S. polar programs. So you spent the money.
    Now I am here to tell you what you got out of it. I am 
happy to educate you on what the data is. And hopefully we will 
have experts like some who are here today, but also--you know, 
on a trip from this committee to Antarctica to visit with the 
money, the $340 million a year we spent on the polar programs--
that Donald Manahan, who is a professor at USC--the other one. 
We claim the real one is in Columbia, South Carolina. But the 
other one, you know, the one out on the west coast. That one. 
Dr. Manahan is a master teacher. I hope he is one of the 
witnesses here, because he is the kind of guy that would 
welcome the inquiry and would lead a tutorial for folks that 
are skeptics so they could see the science.
    Meanwhile, we have got people that make a living and a lot 
of money on talk radio and talk TV pronouncing all kinds of 
things. They slept at Holiday Inn Express last night and they 
are now experts on climate. And those folks substitute their 
judgment for the people who have Ph.D.s and who are working 
tirelessly to discover the data.
    So we have some real choices ahead of us. But I hope in the 
future, as we have these hearings, that we realize it is all on 
the record and our grandchildren and great grandchildren are 
going to get to see. And it could turn out the science is all 
wrong. You know, we have had that before. We used to blood-let 
people, and I think John Quincy Adams, the Speaker, made the 
very helpful suggestion that we move him to the window, and the 
poor guy froze to death. Right? He had the stroke over there in 
the Lindy Boggs room. So sometimes science turns out to be 
wrong.
    But other times it turns out to be very right and the key 
to scientific endeavor is what we are here to discuss today, is 
openness, access to the data, and full challenging of the data. 
That is how we advance science.
    And I look forward to the hearing, Mr. Chairman. Thank you 
for the opportunity.
    Chairman Baird. Thank you, Mr. Inglis, for your opening 
remarks and for your many years of service in the Congress and 
on this committee.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning, and thank you, Dr. Baird for this hearing and for 
your great leadership as Chairman of this Subcommittee.
    I'm not a scientist; I just play one in Committee. That's why I'm 
so excited about this hearing. After years of intense conversations 
about climate policy, energy markets, and technology innovation, we're 
closing with a frank discussion about the science of climate change. 
This is our chance to ask lingering questions about whether the climate 
is changing, what the causes are, and what impacts we can expect to 
see. It's a great opportunity to get answers from some of the people 
that know best, and to engage people on all sides of the debate in an 
endeavor to understand the science.
    Right now, I think the most important questions about climate 
change are what impacts we can expect to see, and where. Changing 
rainfall, temperature patterns, and ocean acidity will have huge 
impacts on agriculture, energy infrastructure, ecosystems, and the 
marine-based economy. These changes will be very different in the 
upstate of South Carolina and in southwest Washington. Those 
differences mean big things for farmers, insurance agents, energy 
companies, government planners, and anyone else making long term 
investments on the ground. I hope to hear from our witnesses how 
scientists are working to fill the gaps in our knowledge and give us 
the tools we need to cope with a changing climate.
    I also hope that the panelists will touch on the Climategate 
scandal. While the hacked and leaked emails did not shake the 
foundations of scientific agreement on climate change, they exposed a 
breach of the public trust. We count on our scientists to live up to 
the highest standards of scientific integrity, collaborative science, 
and peer review. I'd like to hear about the status of scientific 
discourse in the climate community and what improvements need to be 
made.
    Finally, climate science is so important on capitol hill because of 
how climate policy will impact our energy markets. There is an 
irrefutable connection between the ways we use energy and the quantity 
of greenhouse gases that we emit. There is also an irrefutable 
connection between the ways that we use energy and the amount of risk 
we expose ourselves to in terms of our public health and our national 
security. It's difficult to get Congress to come to agreement on 
climate science, but I hope we'll bridge that gap to build a more 
prosperous, secure, innovation-driven economy.
    I look forward to hearing from our distinguished panelists about 
all these issues.
    Thank you again, Mr. Chairman, it has been a pleasure serving with 
you on this Subcommittee. I would yield to Mr. Hall for his opening 
remarks.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to receive testimony and engage in a discussion of the science, 
evidence, and actions different sectors are using to respond to climate 
change.
    This Committee has met several times in the 111th Congress to 
discuss the implications of the changing climate and what solutions are 
available to mitigate these impacts. I agree that we must have complete 
information from both sides of the debate about how and why our climate 
is changing based on science and what steps we can take to address 
these changes now and in the future.
    First, the majority of scientists now agree the planet is warming, 
based on dramatic increases in ocean acidification, rising temperatures 
and rainfall, the retreating of glaciers, and the shrinking of ice 
sheets. Based on this scientific evidence, these changes will impact 
our society and will require responses from public health officials, 
economists, scientists, and government officials worldwide. Along with 
our international partners, we are taking a variety of approaches to 
reduce emissions and improve energy efficiency, but to date no global 
response to climate change has been adopted. I would like to hear from 
our witnesses how the United States in collaboration with our 
international partners can respond to impacts of climate change.
    I welcome our panels of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

Panel I
    Chairman Baird. With that, it is my pleasure to introduce 
our distinguished first panel of witnesses. And I think Mr. 
Inglis' desire to have people who are thoughtful and critical 
analysts of the data will be realized with this outstanding 
panel. The panel includes Dr. Ralph Cicerone, the President of 
the National Academy of Sciences; Dr. Richard Lindzen, the 
Alfred P. Sloan professor of meteorology for the Department of 
Earth, Atmospheric and Planetary Science, at Massachusetts 
Institute of Technology; Dr. Gerald Meehl, Senior Scientist for 
the Climate and Global Dynamics Division at the National Center 
for Atmospheric Research (NCAR); and Dr. Heidi M. Cullen, the 
Chief Executive Officer and Director of Communications for 
Climate Central.
    Now, those introductions took me about five seconds to read 
each. If you read the distinguished biographies of these 
extraordinary individuals, it would take you almost five years, 
almost, to read. So forgive me for not going into such detail, 
but I hope you will check them out on their website. You will 
see this is indeed a very competent and capable group of 
individuals.
    As our witnesses know, we are asking you to summarize an 
entire career of research in five brief minutes, after which we 
will ask a series of questions. And this is the first panel. We 
have two other panels after this. And we will do our level best 
to make sure that each panel gets a proportionate amount of 
time at our hearing today.
    And with that, Dr. Cicerone, please begin.

STATEMENT OF RALPH J. CICERONE, PRESIDENT, NATIONAL ACADEMY OF 
                            SCIENCES

    Dr. Cicerone. Thank you, Chairman Baird and Members of the 
Subcommittee, for the opportunity to participate in your 
hearing today. With your permission, I will present only a 
summary of my written testimony.
    Scientists have records from geological history of many 
past climate changes. For example, there is physical evidence 
of past ice ages with warmer intervals in between and of a 
100,000-year cycle of ice ages in the past. Volcanoes have also 
caused climate changes. For example, a worldwide cooling 
followed the June 1991 explosive eruption of Mount Pinatubo in 
the Philippines. Our ability to calculate the amount of that 
cooling is very high if the volcanic cloud material amounts and 
types are measured well. Natural climate changes are likely to 
occur in the future.
    However, the main reason that we are here today in this 
hearing is that humans are also capable of causing Earth's 
climate to change. The underlying mechanism is the greenhouse 
effect, wherein certain gases and clouds in the atmosphere 
surrounding the planet can absorb outgoing planetary infrared 
radiation. Each greenhouse gas selectively absorbs infrared 
radiation at specific wavelengths, and this signature can be 
seen by Earth-orbiting satellites, and was indeed seen as long 
ago as 1972.
    The natural greenhouse effect has been enhanced by the 
increased amounts of greenhouse gases in the air due to human 
activity. These increases have occurred in a period of only a 
few decades, a very rapid change. The climatic impact of these 
greenhouse gases in the atmosphere is influenced also by 
changes in atmospheric water vapor and clouds that are 
initiated in turn by the warming. As water warms, it evaporates 
faster--in fact, disproportionately faster--than the warming. 
The evaporation injects water vapor into the air.
    While some scientists propose that water vapor increases 
due to greenhouse warming might not amplify the original 
warming, they are fighting against a fundamental fact of 
physics, the steep dependence of vapor pressure of water, which 
is the Clausius-Clapeyron equation. The human-caused greenhouse 
effect exerts additional leverage on Earth's surface energy 
budget. The changes that have been observed in the last three 
decades, greenhouse gas concentration increases, temperature 
rises on the surface of the Earth, and decreased ice amounts, 
can all be seen from space. In fact, that is how many of the 
data have been obtained, by looking at the Earth from space.
    The specific molecular properties of greenhouse gases have 
been measured through laboratory experiments so that the 
calculations of the enhanced greenhouse effect due to these 
increases in concentrations are very quantitative today. The 
equations are the same that we use in designing nuclear weapons 
and neutron transport. The impacts of materials which are less 
uniformly distributed of various kinds is more difficult to 
estimate.
    A change in the amount of sunlight reaching the Earth would 
also be very important for the planetary energy balance, and 
scientists have proposed that changes from the sun are causing 
contemporary climate change. But recent evidence from 
monitoring the sun itself shows that the amount of solar energy 
reaching the Earth has not increased during the last 30 years, 
this time of clearly observed climate changes.
    Increased concentrations of greenhouse gases have been 
observed worldwide for carbon dioxide. The data are of 
extremely high quality. Measurements are taken frequently from 
many locations on the surface from aircraft satellites and from 
dated ice cores that extend back hundreds and thousands of 
years; carbon dioxide amounts have increased from approximately 
280 parts per million in the late 19th century to around 390 
parts per million now, and that the increases are due to human 
activities is clear from several lines of evidence.
    Fossil fuel burning is causing approximately 85 percent of 
the rise, while the release of carbon dioxide from 
deforestation, perhaps 15 percent of the total. Methane has 
also risen rapidly in the last century, as evidenced from 
surface measurements of all kinds and from dated ice cores. 
Methane sources for the atmosphere include rice agriculture, 
emissions from cattle, the use and transmission of natural gas, 
the decay of organic matter placed in landfills, and many human 
activities.
    Nitrous oxide and other greenhouse gas also has an array of 
processes that injects it into the air, mostly traceable to the 
increased human usage of synthetic nitrogen fertilizer for 
agriculture.
    Several classes of chemicals containing fluorine are also 
contributing to the enhanced greenhouse effect. And these 
increases observed in the concentration in all of these gases 
are clearly attributed to human activities.
    Now, some observed changes: Surface temperatures, both of 
air and of water, show a warming of the Earth in all regions. 
The globally averaged warming since 1980 is approximately 1 
degree Fahrenheit. Stronger warmings have been measured in the 
Arctic region, along with differences season by season and 
locality by locality.
    Just as one example, the calendar year 2009 was 
significantly warmer than the long-term average in the Northern 
Hemisphere, but it was cooler than several of the previous 
years, while the temperatures in the Southern Hemisphere in 
2009 were at a 130-year record high. Further temperature rises 
are usually larger over land areas than over oceans.
    Chairman Baird. Dr. Cicerone, I am sorry. I will ask you to 
summarize briefly if you can. It is always hard to keep it in 
the five minutes.
    Dr. Cicerone. The heat content of the oceans have increased 
roughly in accord with the calculated greenhouse effect and sea 
level rise has been increasing more rapidly since the early 
nineties than had been observed earlier. And now we are in a 
position for measured ice losses over Greenland and Antarctica, 
to sum up what is causing the sea level rise. And we got an 
answer which is in accord with the measured sea level rise.
    This is enormous progress over the last few years. A lot of 
continued research is underway. It is needed, for example, for 
quantitative calculations and where we go in the future.
    I will just close by saying that the National Academy of 
Sciences has been active in our national efforts to understand 
these issues for over 30 years, and that in all of our reports 
we have always said that there is a lot more to learn about 
future climate change, but the potential for future changes, 
including sudden, abrupt, and large changes is large. Thank 
you, Mr. Chairman.
    Chairman Baird. Thank you very much.
    [The prepared statement of Dr. Cicerone follows:]
                Prepared Statement of Ralph J. Cicerone
    Chairman Baird and members of the Subcommittee on Energy and 
Environment, thank you for the opportunity to participate in your 
hearing today. I will address the basic science and physics of climate 
change and how climate change happens. In addition, I will describe the 
role of the National Academy of Sciences in advancing the science and 
informing the public on this topic.

Climate Change in the Past

    Earth's climate shapes the conditions for life and it has done so 
over geological history as it does now. The kinds of plant and animal 
species that can survive are determined or are strongly influenced by 
climate as are the locations and kinds of human installations and 
settlements such as agricultural areas and routes of transportation on 
rivers and oceans.
    We have records of many past climate changes from sea-level 
changes, from deposits of soils and rocks, and from fossils and other 
debris from plant and animal life, big and small, and from chemical 
traces such as abundances of elements and their isotopes. There is such 
evidence of periodic Ice Ages when glaciers extended over the northern 
half of North America, for example, and of intervening warm periods. 
The mapping of many of these historical climate changes is imprecise, 
that is, we do not know exactly how big were the geographical regions 
that experience the changes. Yet, some patterns are clear. For example, 
there is a 100,000-year cycle of Ice Ages in the past. These repeated 
events were probably triggered by changes in the non-circularity 
(eccentricity) of the earth's orbit around the sun. Earth's orbit is 
not circular but more like an elipse and just how non-circular the 
orbit is, changes slowly. Also, Earth's tilt angle of the access of its 
rotation changes periodically and its access of rotation wobbles a bit 
over tens of thousands of years. These astronomical changes lead to 
small changes in the amount of sunlight received by earth and to the 
geographical distribution of sunlight. While no one has yet been able 
to predict exactly how Ice Ages are brought on or how earth exits them, 
and how quickly, the principles of our understanding are sound. 
Volcanoes of certain types have also caused climate changes in the 
past. Regions of the earth or even the entire earth can experience 
cooling due to volcano injection of reflective matter that floats in 
the upper atmosphere (stratosphere). For a year or a few years, such 
coolings have been observed, for example, following the June 1991 
explosive eruption of Mt. Pinatubo (in the Philippines). Our ability to 
calculate the amount of cooling is very high if the volcanic cloud 
material amounts and types are measured well.

Earth's Energy Balance and Climate Change Today

    These kinds of natural climate changes are likely to occur in the 
future although their timing and sizes are not predictable. The main 
reason that we are here in this hearing today is that humans are 
capable of causing earth's climate change. The underlying mechanism is 
the greenhouse effect and the leverage that it exerts is worth 
understanding. In fact, many people are not yet aware of how large this 
leverage is, or how it arises.
    The key scientific principles can be seen by considering the energy 
balance of the Earth. The Earth receives energy from the sun and it 
sends energy back to space. Every physical body that is warmer than its 
surroundings loses energy to its surroundings. Because of the 
temperature of the sun, the form of energy that escapes it is mostly 
visible light while the temperature of the Earth causes most of the 
energy sent away from the Earth to be in the form of infrared 
wavelengths. For example, if you have ever done any infrared 
photography such as looking at an inhabited house from outside on a 
cold winter night, you can see where the hot spots are. Also, some 
infrared detector devices for military purposes also operate in 
infrared wavelengths. The Earth's energy balance is such that we 
receive approximately 237 watts per square meter from the sun as 
visible light, averaged over day and night, over the entire surface of 
the Earth. A watt is a rate of energy flow of one Joule per second. 
Approximately, the same amount of energy leaves the Earth, 237 watts 
per square meter, but as infrared waves. One of the earliest scientific 
instruments ever orbited around Earth saw the wavelength matter and 
distribution of Earth's planetary radiation to space (IRIS instrument), 
thus demonstrating the greenhouse effect. Many more recent instruments 
and measurements have led to the numbers that I just quoted.
    The greenhouse effect is a natural phenomenon that has been active 
over the history of the Earth. This fact can be demonstrated by 
calculating the temperatures of various planets using the energy-
balance framework and the principles that I just outlined. When we 
calculate the temperature of Mars from the amount of sunlight that 
reaches it and its reflectivity, we obtain very close to the right 
answer as compared to actual measurements. When we calculate the 
temperatures of Earth or of Venus using the same framework with 
appropriate numbers, we arrive at too low a temperature. We calculate 
that the average temperature of Earth is approximately 15 degrees below 
zero centigrade which is perhaps 30 degrees centigrade too low and we 
calculate a temperature of Venus which is far below what is actually 
measured. These errors indicate that something is missing from the 
calculation and it is easily demonstrated that inclusion of the natural 
greenhouse effect enables one to get much closer to the actual observed 
temperature in a revised calculation.

Greenhouse Gases

    The key ingredients in the greenhouse effect are greenhouse gases 
and clouds which when in the atmosphere surrounding the planet can 
absorb outgoing planetary infrared radiation. Mars has a very thin 
atmosphere with not much gas at all. Venus has a very thick high-
pressure carbon dioxide atmosphere with many clouds and Earth has the 
atmosphere which we have measured and experienced with significance 
amounts of natural greenhouse gases, carbon dioxide, water vapor, 
methane, and several others. The signature of a greenhouse gas is the 
selectivity in how it absorbs infrared radiation at different 
wavelengths. This signature is measured in laboratory experiments using 
each gas and the signature of individual greenhouse gases can be seen 
by Earth-orbiting instruments or even from some other vantage point in 
space.
    The natural greenhouse effect on Earth has been enhanced or 
amplified by the increased amounts of greenhouse gases in the air due 
to human activities. The human-enhanced greenhouse effect due to such 
increased atmospheric concentrations is now calculated to be 2.7 watts 
per square meter, or more than one percent of the incoming solar 
energy. And this increase has occurred in a period of a few decades, a 
very rapid change. The components of this increase listed in order 
starting with the largest is carbon dioxide, methane, nitrous oxide, a 
number of fluorine-containing chemicals, and ozone in the lower 
atmosphere, etc. When one attempts to calculate the impact on the 
climate of the earth, the way that wind motions are forced, and how 
temperatures and precipitation amounts change, one must include the 
additional forcing due to water-vapor changes caused by the original 
greenhouse-gas forcings. The climatic impact of these atmospheric 
greenhouse-gas increases is influenced by changes in atmospheric water 
vapor and clouds which are initiated by warming. As water warms, it 
evaporates faster, disproportionately faster than the amount of 
warming. Thus, water vapor is injected into the air. While some 
scientists continue to propose that water-vapor changes due to 
greenhouse forcing might not amplify the original warming, they are 
fighting against this fundamental fact of physics, the dependence of 
vapor pressure on temperature (Clausius-Clapeyron Effect).
    As I said earlier, it is important to realize that this enhanced 
greenhouse effect represents leverage over Earth's energy balance and 
Earth's climate. If we look only at humans direct influence on Earth's 
energy budget, we find a smaller influence. In particular if we take 
all energy, all human energy usage today, all nuclear power, the 
burning of all fossil fuels, coal, petroleum, gasoline, natural gas, 
the burning of wood, the use of hydroelectric power, of geothermal 
power, tidal and solar and wind power, and we average it over the 
surface of the Earth, we find a number of 0.025 watts per square meter 
or barely 1/100th of the enhanced greenhouse effect. Thus, we see that 
the greenhouse effect is exerting leverage of more than a factor of 100 
over the impact on Earth's energy budget due only to human energy 
usage. This notion and these numbers are very important to understand. 
From the viewpoint of atmospheric chemistry, this leverage is not very 
surprising considering that chemical catalysis causes minute amounts of 
chemicals to be far more important than their small numbers might 
suggest. The chemical impact of catalysts can be enhanced by 100,000 to 
a million times through the mechanism of catalysis.
    Less technically, one can appreciate this leverage by realizing 
that these changes on Earth that have been observed in the last three 
decades--the greenhouse-gas concentrations, the temperature rises on 
the surface of the Earth, the ice amounts on Earth--can all be seen 
from space looking back at Earth. In fact, that is how many of the data 
have been obtained, by looking at the Earth from space. So these 
changes are not small. One of the easiest tasks in foreseeing how 
climate change due to human activities will happen, is indeed 
evaluating the enhanced greenhouse effect. We know the properties of 
greenhouse gases that make them either more or less effective. For 
example, because the outgoing planetary radiation occurs mostly in a 
well-defined range of wavelengths, an ideal greenhouse gas is one that 
absorbs radiation in that same range and does so effectively. An ideal 
greenhouse gas is also one which can survive in the atmosphere without 
being broken apart and which can be distributed more or less uniformly 
on a global scale without being removed. Those properties are largely 
chemical and they can be measured through laboratory experiments, and 
they have been so measured, so that the calculations of the enhanced 
greenhouse effect due to a measured increase in the gas's concentration 
are very quantitative and reasonably precise today.
    The concept of radiative forcing was first created and employed by 
scientists who created the first fluid dynamical models of the 
atmosphere. Bob Dickinson and I used the concept to permit a comparison 
of the effectiveness of greenhouse gases and their amounts in 1986. In 
the early and mid-1980s scientists had become aware that not only are 
the increased carbon dioxide amounts capable of influencing Earth's 
climate but a number of other chemicals also have this capability 
although in lesser amounts. Radiative forcing is a measure of how 
strongly substances in the atmosphere affect Earth's energy budget. The 
concept has been extended to materials which are less uniformly 
distributed such as aerosol particles from biomass burning, from sulfur 
pollution, from fossil-fuel burning, smoke particles, and the like. The 
impact of those less uniformly distributed substances is more difficult 
to estimate because the substance's geographical distributions are not 
as well known, so the estimates of such substances on Earth's energy 
budget are not as well defined.
    Now, obviously, if our concern is over changes to the net energy 
balance of the Earth, then a change in the amount of sunlight reaching 
the earth is also very important. In fact, any number of scientists 
have tried to focus on whether changes from the sun are causing 
contemporary climate change. But it is only in the last few years that 
we have had enough evidence to be able to say that the changes in 
climate that have been observed over the last several decades, are not 
due to changes in the output of the sun. It has been known in principle 
for a long time that the sun, like other stars, can change its 
luminosity over geological timescales but there is no evidence from 
other stars or any theory of stellar evolution that suggests that the 
sun's output could change by as much of the enhanced greenhouse effect 
has changed, that is, over one percent in say 50 years. A more solid 
kind of evidence has come from monitoring the sun itself. By stringing 
together the records of a series of satellites that have orbited the 
earth while observing the incoming sunlight, several scientists have 
shown that the amount of sunlight energy reaching the Earth has 
oscillated with an approximate 11-year cycle over the last 30 years, 
that is, the amount of solar energy reaching the Earth has not 
increased during the time of the observed climate changes. So we are 
left with the realization that the enhanced greenhouse effect is 15 or 
20 times larger than the difference between solar maximum and solar 
minimum in the output of the sun. Moreover, the enhanced greenhouse 
effect is not oscillating, it is simply continuing to rise, so the 
evidence today rules out any significant role for solar changes in 
causing the observed climate changes of the last several decades.
    I have alluded to increased concentrations of greenhouse gases that 
have been observed worldwide that demonstrate human impact. In the case 
of carbon dioxide, our data are of extremely high quality; measurements 
are taken frequently from many locations on the surface of the Earth, 
from aircraft, satellites, and from dated ice cores extending back over 
hundreds and thousands of years. The evidence that the increase in 
carbon dioxide worldwide amounts from approximately 280 parts per 
million in the late 19th century to approximately 390 parts per million 
this year is very strong and that the increases due to human activities 
is also clear. The lines of evidence that one uses in attributing the 
carbon dioxide increase to human activities includes the rate of the 
concentration increase compared to the rate of release of carbon 
dioxide from fossil-fuel usage, the isotopic content of the carbon 
dioxide, the carbon dioxide patterns geographically compared to the 
places where carbon dioxide is being released by human activity, by 
oceanic amounts, and by known patterns of movement of atmospheric 
chemicals. There is a contribution to this increase from human-caused 
deforestation. This contribution is approximately 15 percent of the 
total while fossil-fuel usage is approximately 85 percent of the total. 
The release of carbon dioxide from deforestation is due both to the 
direct burning of wood and the decay of exposed soil organic matter.
    Methane as a greenhouse gas has also risen rapidly since the late 
19th century as evidenced by surface measurements made at many sites 
around the world, by satellite measurements and by the amounts of 
methane extracted from dated ice cores. The list and sizes of methane 
sources for the atmosphere is complicated and it includes rice 
agriculture, the domestication of cattle, the use and transmission of 
natural gas, the decay of organic matter placed in landfills, and many 
other sources. Nitrous oxide, another greenhouse gas, also has an array 
of processes that injected it into the atmosphere, mostly traceable to 
the increased human usage of synthetic nitrogen fertilizer for 
agriculture. Several classes of chemical gases containing fluorine also 
contribute to the enhanced greenhouse effect. The chlorofluorocarbons 
whose usage was regulated and banned due to the Montreal Protocol and 
later amendments to it, still reside in the atmosphere. Several kinds 
of replacement chemicals for the chlorofluorocarbons, namely, 
hydrochlorofluorocarbons and hydrofluorocarbons are observed to be 
increasing in concentration worldwide along with measured increases of 
perfluorinated chemicals such as carbon tetrafluoride and 
perfluoroethane along with sulfur hexafluoride. The increases observed 
in the concentrations of all of these gases are clearly attributed to 
human activities. While the enhanced greenhouse effect due to all of 
these greenhouse gases has been an inadvertent consequence of human 
activities, this force, led by carbon dioxide emissions, continues to 
grow with larger consequences for future climate.

Observed Climate Changes

    A number of meaningful changes to Earth's climate have been 
measured since 1980 or the late 1970s. These include globally averaged 
surface temperatures, both of air and of water. Large data sets 
covering almost all of the world are available from at least three 
climate centers around the world, one from NASA, one from NOAA, and one 
from the University of East Anglia. These data sets are generally 
similar although they consist of somewhat different entries with more 
or less weighting from individual continents and the Arctic and they 
employ somewhat different methods to adjust for potential biases such 
as the encroachment of urban areas and the urban heat-island effect on 
thermometer stations which were at one time far from urban areas. As an 
example, the data sets use slightly different time periods of 
comparison but they all show a warming of the earth in all regions. The 
globally averaged warming since 1980 is approximately one degree F. 
Stronger warmings have been measured in the Arctic region with, of 
course, differences season-by-season and locality-by-locality. Just as 
one example, the calendar year 2009 was significantly warmer than the 
long-term average of the Northern Hemisphere but it was cooler than 
several of the previous years while the temperatures in the Southern 
Hemisphere in 2009 were at an all-time record high. Further, 
temperature rises are higher over land areas than over oceans.
    The data on the temperatures and heat content of the upper layers 
of the ocean are very important as a measure of global climate change 
yet these data are more difficult to obtain with the density of 
stations that we would desire because the oceans are not as well 
monitored as the atmosphere. Nonetheless, in the last several years, 
new data sets have materialized which show an upward trend with time 
over the last 40 or 50 years with the amount of heat stored in the 
upper layers of the ocean rising, roughly in accord with calculations 
of the enhanced greenhouse effect.
    A climate variable of great importance especially in the longer 
term is sea level. Since 1992, sea level has been measured by Earth-
orbiting instruments on satellites which are capable of measuring sea 
level nearly worldwide and frequently so that the trend of rising sea 
levels has now been measured more accurately and more precisely in more 
places than had been possible before 1992. There is now evidence of a 
rate of sea-level rise since 1992 which is approximately twice as fast 
as the sea-level rise observed from the late 19th century to 1992 with 
far more primitive and fewer instruments in coastal environments.
    The amounts of ice residing on land formations in Greenland and 
Antarctica are now being measured by independent instruments, vertical 
ranging devices on Earth-orbiting satellites, as well as instruments 
which measure the deviations of the Earth's gravitational field from 
that of a perfect sphere and the rate at which those deviations are 
changing. In other words, the data from this instrument can be used to 
infer the rate of change of ice mass over those continents. Both kinds 
of data now show that over the last perhaps seven or eight years, that 
is the entire record of the measurements, that the masses of ice lodged 
on Greenland and Antarctica are both decreasing with time with a 
possibly accelerating rate. When combined with the inferred amount of 
ice lost from continental glaciers and the rate at which sea level is 
rising due to thermal expansion, due to the increased temperatures, one 
can now calculate how fast sea level is rising and find agreement with 
the sea-level rise that is actually measured independently. So this 
kind of evidence is new and rather compelling.
    Many other important measures of climate change are being gathered, 
measures of variables which are directly important to human, animal and 
plant life, but which are inherently more variable spatially, that is, 
geographically and with time such as the rate of flows of various 
streams and rivers, the amounts and kinds of cloudiness, the frequency 
and duration of droughts and of storms in many locations, and the 
length of growing season and the frequency of new high-temperature 
settings and of new low-temperature settings. Continued research on 
these variables and many others is essential for us to gauge and 
predict climate changes that are underway and how effective human 
responses might be.
    Efforts to predict more detailed evolution of future climate change 
begin with mathematical expressions of the laws that govern the motion 
of fluids and their temperatures and of ice amounts. These equations 
are of the type which cannot be solved with paper and pencil and with 
neat mathematical expressions. Instead, they can only be solved by 
numerical computations, computations that are becoming more rigorous 
and more understood. Other witnesses will describe more of the 
actuality and the details of these efforts, but I do want to emphasize 
several kinds of inputs to these mathematical models which require 
continued scientific effort. One is the specification of the role of 
aerosol particles and of clouds in the atmosphere and another is the 
need to specify the rate at which fossil-fuel burning will be used 
discharging carbon dioxide into the atmosphere, which rate depends on 
growing human population, human activities and energy technology.
    The National Academy of Sciences has been active in our national 
efforts to detect, understand and predict climatic change. Most of our 
analyses are conducted through our operating arm, the National Research 
Council, which is co-administered by the National Academy of Sciences 
and the National Academy of Engineering. And we often obtain help from 
our own Institute of Medicine. There are, of course, many other nations 
that are active in climate research and are attempting to mitigate 
climate change and/or to adapt to it. And some of these nations not 
only conduct research but perform their own nationally based 
assessments. In addition, there are international bodies performing 
analyses of climate change such as the Intergovernmental Panel on 
Climate Change which is a creature of the World Meteorological 
Organization and of the United Nations Environmental Program.
    Our NAS/NRC reports have been issued more frequently and they have 
grown in size over the last 30 years with one of the first major 
reports being released in the last 1970s followed by another in 1983, 
another series in 1991-92, and then a large number in the early part of 
this decade. In the past year, we have written and released a series of 
reports entitled, America's Climate Choices, in response to a 
Congressional request from the House Subcommittee on Commerce, Justice, 
Science and Related Agencies under Chairman Mollohan. This series of 
reports examined the state of climate science, what we know, and what 
we believe we still must learn along with the state of strategies for 
climate mitigation and climate adaptation as well as an analysis of how 
to communicate with decision makers and the general public. Another 
recent report on climate from the National Research Council is on how 
to estimate the emissions of greenhouse gases with regard to any 
international agreement that might be adopted and on how well we could 
determine compliance with any international agreement. On a completely 
separate topic, the National Research Council issued a report recently 
on what impacts could be expected by stabilizing the atmosphere at 
various target levels of greenhouse gas concentrations. We have also 
been asked in the last several years, both by Congress and by Federal 
agencies, to examine the effectiveness of the United States Climate 
Change Science Program under President Bush, both its plans and its 
achievements. All of our reports have been clear that there is much to 
learn about future climate change and that the potential of future 
disruptions is large.
    The Congressional Charter under President Lincoln that created the 
National Academy of Sciences in 1863, charges us to be responsive to 
requests from the Federal Government for analyses of topics involving 
science. Our analyses are conducted by leading American experts 
occasionally augmented by talent from other countries. Each of our 
reports is peer reviewed by participants who did not engage in the 
study itself but whose evaluations and analyses are used so as to 
suggest revisions or corrections to the early draft versions of our 
reports. This method and the high standards which we attempt to employ 
assure that our reports will be of value as our government, our 
businesses, and our citizens continue to gauge how to respond to the 
challenges which we face today and in the future concerning human-
caused climate change.

                    Biography for Ralph J. Cicerone
    Ralph J. Cicerone is President of the National Academy of Sciences 
and Chair of the National Research Council. His research in atmospheric 
chemistry, climate change and energy has involved him in shaping 
science and environmental policy at the highest levels nationally and 
internationally.
    Dr. Cicerone's research has focused on atmospheric chemistry, the 
radiative forcing of climate change due to trace gases, and the sources 
of atmospheric methane, nitrous oxide and methyl halide gases. He has 
received a number of honorary degrees and awards for his scientific 
work. Among the latter, the Franklin Institute recognized his 
fundamental contributions to the understanding of greenhouse gases and 
ozone depletion with its 1999 Bower Award and Prize for Achievement in 
Science. One of the most prestigious American awards in science, the 
Bower Award also recognized his public policy leadership in protecting 
the global environment. In 2001, he led a National Academy of Sciences 
study of the current state of climate change and its impact on the 
environment and human health, requested by President Bush. The American 
Geophysical Union awarded Dr. Cicerone its James B. Macelwane Award in 
1979 for outstanding contributions to geophysics by a young scientist 
and its 2002 Roger Revelle Medal for outstanding research contributions 
to the understanding of Earth's atmospheric processes, biogeochemical 
cycles, and other key elements of the climate system. In 2004, the 
World Cultural Council honored him with the Albert Einstein World Award 
in Science. Dr. Cicerone is a member of the National Academy of 
Sciences, the American Academy of Arts and Sciences, the American 
Philosophical Society, the Accademia Nazionale dei Lincei, the Russian 
Academy of Sciences, the Korean Academy of Science and Technology, and 
Academia Sinica. He has served as president of the American Geophysical 
Union, the world's largest society of earth scientists.
    Dr. Cicerone was educated at the Massachusetts Institute of 
Technology and the University of Illinois at Urbana-Champaign. In his 
early career, he was a research scientist and held faculty positions in 
electrical and computer engineering at the University of Michigan. The 
Ralph J. Cicerone Distinguished University Professorship of Atmospheric 
Science was established there in 2007. In 1978 he joined the Scripps 
Institution of Oceanography at the University of California, San Diego 
as a research chemist. From 1980 to 1989, he was a senior scientist and 
director of the Atmospheric Chemistry Division at the National Center 
for Atmospheric Research in Boulder, Colorado. In 1989 he joined the 
University of California, Irvine, where he was founding chair of the 
Department of Earth System Science and the Daniel G. Aldrich Professor 
of Earth System Science. As Dean of the School of Physical Sciences 
from 1994 to 1998, he recruited outstanding faculty and strengthened 
the school's curriculum and outreach programs. Immediately prior to his 
election as Academy president, Dr. Cicerone served as Chancellor of UC 
Irvine from 1998 to 2005, a period marked by a rapid rise in the 
academic capabilities of the campus.

    Chairman Baird. Dr. Lindzen.
    Dr. Lindzen. Thank you, Mr. Baird.
    Chairman Baird. Make sure the mic is on.

 STATEMENT OF RICHARD S. LINDZEN, ALFRED P. SLOAN PROFESSOR OF 
  METEOROLOGY, DEPARTMENT OF EARTH ATMOSPHERIC AND PLANETARY 
         SCIENCE, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Lindzen. Yes. Thank you, Mr. Baird. Thank you, 
Committee, for the opportunity to speak here.
    As a student, I was told something rather important; that 
the primary thing in solving the problem is to have the right 
question. And here I am, a little bit concerned about the 
guidelines for this meeting.
    I think if we are to properly consider our concern over 
greenhouse gases, we must separate the basic science upon which 
there is great agreement from the specific bases for our 
concern. For instance, there is general agreement that climate 
is always changing. There is agreement that over the last two 
centuries there has been on the order of 3/4 of a degree 
Centigrade increase in something called globally averaged 
temperature anomaly.
    There is no such thing as average temperature for the 
Earth. There is a greenhouse effect. Nobody is arguing that. 
That CO<INF>2</INF> is a greenhouse gas is not argued by anyone 
I know. And that CO<INF>2</INF> is increasing due to man's 
activities is also widely accepted. To be sure, general 
agreement hardly guarantees truth, but I am not questioning it 
at this stage. But what is commonly forgotten--and that is 
crucial to this hearing--is that these facts do not lead to 
major climate concern per se. So, for example, if doubling 
carbon dioxide alone leads to only about a degree of warming 
and if all the increase in globally averaged temperature 
anomaly were due to the added greenhouse gases that Dr. 
Cicerone described, it would suggest a sensitivity that is even 
lower than that.
    The only--the case for alarm rests on three rather doubtful 
propositions. One is that climate sensitivity to increasing 
greenhouse gases is much greater than the above, due to the 
alleged dominance of positive feedbacks. The second is the 
association of phenomena, such as sea level rise, arctic sea 
ice and so on, which depend on many, many factors, of which 
globally averaged temperature anomaly is not even the most 
important factor. And to use these changes as evidence for 
dangerous warming is illogical. This is especially true with 
arctic sea ice. The oversimplification--this is the third 
item--of climate to a single number globally averaged 
temperature anomaly and a single forcing number--let us say a 
radiative forcing from CO<INF>2</INF>--is a gross distortion of 
what is really going on.
    Now, with respect to climate sensitivity, greenhouse 
physics tells us that temperature changes at the surface should 
reduce certain change in outward flux of heat, which at the top 
of the atmosphere is in the form of radiation. It will in the 
absence of feedbacks correspond to a sensitivity of about 1 
degree for a doubling of CO<INF>2</INF>. Now, if you have 
positive feedbacks and you go to space and measure the outgoing 
flux associated with the temperature perturbation, you should 
see less than you would expect without feedbacks. And if you 
have negative feedbacks, you should see more.
    Now, it turns out that the models, when you ask what they 
calculate, calculate what is consistent with positive 
feedbacks. If you go to the data, you find the opposite. Most 
recently, there has been an attempt to measure these fluxes 
from the surface. Now, you have to understand, the flux might 
be reasonably constant through the atmosphere, but its process 
is different. So at the top of the atmosphere it is radiation. 
At the surface it is mostly evaporation.
    And there is a problem that has been noted for some years. 
Models predict very little change in evaporation as you warm, 
compared to observations. And this can be directly translated 
into sensitivity. The model's behavior is consistent with 1-1/2 
to 4-1/2 degrees for a doubling of CO<INF>2</INF>. The data 
suggests it is closer to half the lowest limit. So there too, I 
mean, one has the problem that the observations, when 
specifically turned to feedbacks rather than specific 
mechanisms, show the opposite. And this isn't surprising.
    One speaks of clouds as a kind of peripheral uncertainty. 
But they are capable--they involve changes in the radiative 
balance that are, you know, more than a factor of 20, larger 
than what you get from a doubling of CO<INF>2</INF>.
    Now, parenthetically, we might wonder why models that have 
such high sensitivity can simulate past behavior if the past 
behavior is consistent with low sensitivity. And the answer is 
I think, as Jerry would point out, is aerosols. Now, you might 
say there are really aerosols, so they cancel some of the 
greenhouse. But if you check, each model uses a different 
value. And the aero--because they want to adjust their model to 
look right, so it is an adjustable parameter.
    And the aerosol community, Schwartz, Roda, Charlson and so 
on have published a paper in the last year pointing out the 
uncertainties, meaning that if you include arbitrary aerosols 
you can get any sensitivity you want. That is hardly 
reassuring.
    Chairman Baird. Dr. Lindzen, I will ask, if I may----
    Dr. Lindzen. Okay.
    Chairman Baird. We are about a minute and a half over. I 
know it is hard to summarize. But if you can----
    Dr. Lindzen. Okay. Let me just put it--let me just point 
out that in my full testimony there are examples, further 
examples of each of these things. The climate is certainly 
worth understanding better, but the basis for grave worries is 
poor; certainly poorer than the changes of suggested policies, 
though perhaps not so poor as the prospects for suggested 
policies to significantly impact climate or even CO<INF>2</INF> 
levels. Thank you.
    Chairman Baird. Thank you, Dr. Lindzen.
    [The prepared statement of Dr. Lindzen follows:]
                Prepared Statement of Richard S. Lindzen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                    Biography for Richard S. Lindzen
    Professor Lindzen is a dynamical meteorologist with interests in 
the broad topics of climate, planetary waves, monsoon meteorology, 
planetary atmospheres, and hydrodynamic instability. His research 
involves studies of the role of the tropics in mid-latitude weather and 
global heat transport, the moisture budget and its role in global 
change, the origins of ice ages, seasonal effects in atmospheric 
transport, stratospheric waves, and the observational determination of 
climate sensitivity. He has made major contributions to the development 
of the current theory for the Hadley Circulation, which dominates the 
atmospheric transport of heat and momentum from the tropics to higher 
latitudes, and has advanced the understanding of the role of small 
scale gravity waves in producing the reversal of global temperature 
gradients at the mesopause, and provided accepted explanations for 
atmospheric tides and the quasi-biennial oscillation of the tropical 
stratosphere. He pioneered the study of how ozone photochemistry, 
radiative transfer and dynamics interact with each other. He is 
currently studying what determines the pole to equator temperature 
difference, the nonlinear equilibration of baroclinic instability and 
the contribution of such instabilities to global heat transport. He has 
also been developing a new approach to air-sea interaction in the 
tropics, and is actively involved in parameterizing the role of cumulus 
convection in heating and drying the atmosphere and in generating upper 
level cirrus clouds. He has developed models for the Earth's climate 
with specific concern for the stability of the ice caps, the 
sensitivity to increases in CO<INF>2</INF>, the origin of the 100,000 
year cycle in glaciation, and the maintenance of regional variations in 
climate. Prof Lindzen is a recipient of the AMS's Meisinger, and 
Charney Awards, the AGU's Macelwane Medal, and the Leo Huss Walin 
Prize. He is a member of the National Academy of Sciences, and the 
Norwegian Academy of Sciences and Letters, and a fellow of the American 
Academy of Arts and Sciences, the American Association for the 
Advancement of Sciences, the American Geophysical Union and the 
American Meteorological Society. He is a corresponding member of the 
NAS Committee on Human Rights, and has been a member of the NRC Board 
on Atmospheric Sciences and Climate and the Council of the AMS. He has 
also been a consultant to the Global Modeling and Simulation Group at 
NASA's Goddard Space Flight Center, and a Distinguished Visiting 
Scientist at California Institute of Technology's Jet Propulsion 
Laboratory. (Ph.D., '64, S.M., '61, A.B., '60, Harvard University)

    Chairman Baird. Dr. Meehl.

STATEMENT OF GERALD A. MEEHL, SENIOR SCIENTIST, NATIONAL CENTER 
                    FOR ATMOSPHERIC RESEARCH

    Dr. Meehl. Thank you, Chairman Baird, Members of the 
Committee, for the opportunity to communicate information 
regarding processes involved with climate change, climate 
models, extreme weather, and climate events. But first I want 
to begin with a personal perspective that I think is worth 
stressing. I think that one of the most interesting, exciting, 
and challenging science problems--I emphasize the word 
``science'' problems--facing the research community today is 
the following: If you add greenhouse gases to the atmosphere, 
what is the response of the climate system? It is because of 
this compelling science problem that I find research in this 
area fascinating and a tremendous intellectual challenge, and 
it is why I am here today.
    So anyway, the idea that additional CO<INF>2</INF> and 
other greenhouse gases would cause a warming of the climate is 
not a new one. The so-called greenhouse effect has been studied 
since the late 1800s, and a number of simple calculations 
performed over the early 20th century indicated that the 
doubling of CO<INF>2</INF> in the atmosphere would likely warm 
the planet by at least several degrees.
    However, a major development in this field of study was the 
emergence of numerical models that could be run on computers. 
Equations from fluid dynamics, physics, and thermodynamics can 
be used to simulate weather, and this had already been 
addressed early in the 20th century in a series of arduous 
calculations, performed at that time by hand. It was not until 
electronic computers came into use in the 1950s that the 
equations could be solved in a rapid enough manner to be used 
for actual weather forecasts. This new science of numerical 
weather prediction became feasible for operational forecasts in 
the 1960s and is still in use today.
    Using the same principles and many of the same equations, 
early climate models in the 1960s were devised that could be 
mathematically integrated forward in time, much like numerical 
weather forecasts but for much longer into the future. It was 
well known that after about a week, due to the chaotic nature 
of the atmosphere, the time evolution of individual storms 
could not be resolved by climate models. Instead, the climate 
simulations attempted to capture the statistics of weather over 
months, seasons, years and decades.
    Since the climate models look to weather and climate in 
this new way, other factors that could change slowly and thus 
affect the statistics of weather had to be included. Therefore, 
unlike weather predictions where there was only an atmospheric 
numerical model, climate models had an atmosphere as well as 
confluence of oceans, land surface, sea ice and equations that 
accounted for heating and greenhouse gases or cooling from 
visible air pollution.
    All of these components were linked together in one large 
computer program, run on the fastest supercomputers available, 
so that as much detail as possible could be included in the 
equations. These models account for physical processes and 
feedbacks such as those alluded to by Dr. Lindzen. And these 
feedbacks involve water vapor, changes in snow and sea ice and 
clouds. And, of course, all of these affect how the climate 
system responds to changes in greenhouse gases.
    Some of the uncertainty to the range of model responses 
seen in increasing CO<INF>2</INF> arises from uncertainties in 
these feedbacks, particularly clouds. However, climate models 
with a cooling contribution from negative cloud feedback still 
warms significantly on average over the 20th and 21st century 
due to the contributions to increased temperatures, not only 
from increasing greenhouse gases but also from warming 
feedbacks involving increased water vapor, decreased snow, and 
sea ice.
    Since the end of the 19th century, global average 
temperatures have warmed nearly 3-1/2 degrees Fahrenheit. Many 
wonder why we should worry about such seemingly small increases 
of temperature. However, even small changes in average 
temperature produces very large and more noticeable changes in 
weather and climate extremes. It stands to reason that in a 
warmer climate, there will be more very hot days and fewer very 
cold days.
    For precipitation, there is also a temperature-related 
connection. As more moisture evaporates from the warming 
oceans, the warmer atmosphere can hold that increased moisture. 
And when that moisture gets caught up in a storm, there is a 
greater moisture source for precipitation. Therefore, we 
typically see a greater intensity of precipitation in a warmer 
climate. That is, we see greater daily rainfall totals, or when 
it rains it pours. Exactly these kind of changes have been 
documented in the observations; namely, more heat extremes and 
pure cold extremes and increases in precipitation and 
intensity.
    Additionally, the shift to warmer temperatures has also 
produced an increase in daily record-high temperatures compared 
to daily record-low temperatures over the United States, with 
this ratio currently being about 2-to-1.
    For example, since January 1, 2000, there have been over 
300,000 daily record-high maximum temperatures set and only 
about 150,000 daily record-low minimum temperatures set, a 
ratio of about 2-to-1. Just this year since January 1, 2010, 
there have been over 17,000 daily record highs and about 6,000 
daily record lows, a ratio of more than 2-to-1. Thus, as the 
average temperatures warm, the probabilities have shifted 
towards more unprecedented heat and less unprecedented cold.
    To a first order, climate models are able to reproduce 
these changes of temperature and precipitation extremes, thus 
building credibility for their future projections. Those 
projections of future climate change show ever-increasing heat 
extremes and reductions in cold extremes, ongoing increases of 
precipitation intensity, and a growing ratio of record-setting 
heat compared to record-setting cold.
    For example, in one model for one future climate change 
scenario, the current ratio of about 2-to-1 record highs to 
record lows increases to about 20-to-1 by mid-century and about 
50-to-1 by late century. However, even in the late 21st 
century, when warming average over the United States was about 
4 degrees C, or roughly 70 degrees Farenheit in that model, 
there are still record-setting daily low temperatures 
occurring. Thus, even in a climate that has warmed 
significantly in the model, winter still occurs and it does 
occasionally get extremely cold in some locations, cold enough 
to set a few daily record-low temperatures every year in that 
model. However, those few daily record lows occur in the 
context of many more daily record-high maximum temperatures. 
And this is yet another aspect of a future warmer climate. 
Thank you.
    Chairman Baird. Thank you, Dr. Meehl.
    [The prepared statement of Dr. Meehl follows:]
                 Prepared Statement of Gerald A. Meehl

Introduction

    I thank the Chairman and other Members of the Committee for the 
opportunity to communicate to you today information regarding processes 
involved with climate change, climate models, and extreme weather and 
climate events. My name is Gerald Meehl, Senior Scientist at the 
National Center for Atmospheric Research (NCAR) in Boulder, Colorado. 
My research interests include tropical climate involving the monsoons 
and El Nino Southern Oscillation, climate variability and climate 
change. I have authored or co-authored more than 185 peer-reviewed 
scientific journal articles and book chapters. I was a lead author on 
the U.S. Climate Change Science Program (CCSP) Report 1.1 on 
temperature trends in the atmosphere, and was co-coordinator of the 
CCSP Report 3.3 on weather and climate extremes in a changing climate. 
I have been involved with the Intergovernmental Panel on Climate Change 
(IPCC) assessments since the first one that was published in 1990. I 
was a Contributing Author on that first assessment and its update in 
1992, a Lead Author for the 1995 Assessment, a Coordinating Lead Author 
for the 2001 and the 2007 assessments, and I am currently a lead author 
for the recently initiated IPCC Fifth Assessment Report (AR5) due to be 
completed in 2013. I am chair of the National Academy of Sciences/
National Research Council Climate Research Committee (CRC). I have been 
involved with committees of the World Climate Research Program (WCRP) 
on Climate Variability and Predictability (CLIVAR), and am currently 
co-chair of the WCRP/CLIVAR Working Group on Coupled Models (WGCM). 
This committee organized and coordinated the international modeling 
groups in performing climate model experiments for assessment in the 
AR4, and in the collection and analysis of data from those model 
experiments that was made openly available to the international climate 
research community. Our committee is currently involved in performing 
similar coordination activities for climate change experiments now 
being run by about 20 international climate modeling groups to increase 
our understanding of climate model performance and to provide insight 
into the climate system response to future climate change mitigation 
scenarios. As before, these experiments will be made openly available 
for analysis by the international climate science community, and will 
also be assessed as part of the IPCC AR5.

The greenhouse effect and how increasing greenhouse gases warm the 
                    climate

    Since roughly the beginning of the Industrial Revolution in the 
second part of the 19th century, human societies have come to rely on 
fossil fuels for an energy source. These fossil fuels--coal, oil, and 
natural gas--produce greenhouse gases when they are burned. Thus, as 
humans have excavated fossil fuels from beneath the surface of the 
earth where they have been sequestered for millions of years, those 
fuels have been burned for energy and have released forms of carbon 
into the air--greenhouse gases such as CO2 and methane. These 
greenhouse gases in trace amounts occur naturally in the atmosphere and 
effectively trap some heat in the climate system that would otherwise 
escape to space. This occurs because molecules with more than two atoms 
(e.g. CO2, CH4, H2O) have the well-known property of being able to 
absorb and re-emit infrared or heat energy.
    Most molecules are transparent to incoming sunlight, and almost all 
sunlight that is not reflected by clouds reaches the earth's surface. 
That sunlight heats the surface. and heat (infrared radiation) is 
emitted upwards. If greenhouse gases were not in the atmosphere, most 
of this heat energy would make it out of the system to space, leaving 
the earth a much colder and inhospitable place. However, greenhouse 
gases intercept some of this heat or infrared energy, absorb it, and 
re-radiate some of it upwards where it continues on out to space, and 
some of it is re-radiated downwards, thus staying in the system to warm 
the planet. Thus, this heat-trapping effect of greenhouse gases makes 
the planet habitable for human, plant and animal life.
    Greenhouse gases have been present in our atmosphere for millennia. 
It has been shown, from air bubbles trapped in ice sheets, that 
greenhouse gases such as CO2 have fluctuated naturally over at least 
the past 800,000 years with the ice ages. Of course humans were not 
present to cause these fluctuations, but, due to well-understood 
orbital variations that change the intensity of solar input, the planet 
cools and warms naturally over thousands of years producing the ice 
ages and inter-glacial periods. We also know that warmer oceans tend to 
emit more CO2 to the atmosphere, while cooler oceans absorb CO2. Thus, 
as the orbital variations produce differences in the intensity of solar 
input to the climate system that contribute to the ice ages, the oceans 
warm and cool as the ice ages come and go naturally, and there is an 
amplifying effect from CO2 to enhance the warmth between ice ages (i.e. 
the warmer oceans emit more CO2 that warms the climate more), while the 
opposite occurs during ice ages to contribute to even colder 
conditions.
    The concept that CO2 and other greenhouse gases, released when 
fossil fuels are burned, would cause a warming of the climate is not a 
new idea. In 1895 Svante Arrhenius postulated that increasing levels of 
greenhouse gases in the air would warm the climate such that a doubling 
of CO2 would warm the planet on average by about 5 to 6C (he later 
revised this number downward to 1.6C). These numbers, calculated very 
simply from early radiative theory, are not that far off from modem 
estimates of 2C to 4.5C derived from global climate models and inferred 
from observational data. In the late 1930s Guy Callendar suggested that 
the burning of fossil fuels should increase greenhouse gases in the 
atmosphere, and that these increases should warm the climate. It wasn't 
until the late-1950s, when Charles Keeling started to directly measure 
the time evolution of CO2 in the atmosphere to show that there was, 
indeed, an increasing trend, that the earlier theoretical estimates of 
CO2 increase from the burning of fossil fuels had a basis in a 
definitive time series measurement.
    The concept that equations from fluid dynamics, physics and 
thermodynamics could be used to simulate weather was addressed early in 
the 20th century when L.F. Richardson attempted to use a set of those 
equations to calculate, by hand, a simple weather forecast for a single 
location. However, due to the complexity of the equations and 
considerable numerical calculations required, it was not until 
electronic computers came into use in the 1950s that the equations 
could be solved to produce simulations of the weather in a rapid enough 
manner to be used for actual weather forecasts. This new science of 
numerical weather prediction became feasible for operational forecasts 
in the 1960s. and is still in use today to produce weather forecasts.
    Using the same principles, and even many of the same equations, 
early climate models were devised that could be integrated forward in 
time, much like numerical weather forecasts, but for much longer into 
the future. It was well-known that after about a week, due to the 
chaotic nature of the atmosphere, the time evolution of individual 
storms cannot be resolved by climate models. Instead, the climate 
simulations attempted to capture the statistics of weather over months, 
seasons, years and decades. Since climate models looked at weather and 
climate in this new way, other factors that could change slowly and 
thus affect the statistics of weather had to be included. Therefore, 
equations that took into account the effects of greenhouse gases were 
refined. The varying output of the sun could also be included, as well 
as the effects of volcanic eruptions in equations that accounted for 
how visible air pollution could cause cooling of the climate. Perhaps 
most importantly for longer term variations of the statistics of 
weather and climate, the slowly varying parts of the climate system had 
to be included, namely the oceans and sea ice, as well as land surface 
processes. Unlike weather prediction where there was only an 
atmospheric numerical model, climate models had an atmosphere (similar 
to a numerical weather prediction model), as well as components of 
ocean, land surface, sea ice, and sophisticated equations that 
accounted for the heating of greenhouse gases or the cooling of visible 
air pollution. All of these components were linked together in one 
large computer program that had be run on the fastest supercomputers 
available so that as much detail in the equations could be included as 
possible, balanced by the need to run the models for tens and even 
hundreds of years (as opposed to only about a week for numerical 
weather prediction models). Thus, most of the physics, processes, and 
feedbacks known to be operating in the climate system were included in 
even the earliest global climate models that began to be used in the 
1960s.
    The warming produced by increases of greenhouse gases, along with 
the first order feedbacks, were shown to occur in these very early 
climate models. This led to the ``Charney Report'' published by the 
National Academy of Sciences in 1979, over 20 years ago. That report 
noted that the measured increases in CO2 in the atmosphere, when 
included in the basic climate models of that time, produced significant 
warming on average over the planet, and that, with further increases in 
CO2, the climate would continue to warm. Interestingly, this report was 
published after over 30 years of the observed climate not warming 
(there was warming until the 1940s, and then little warming until the 
late 1970s). Thus, based on the physics of climate already known in the 
19th century, and the basic understanding of that time of the processes 
that could be captured in equations and included in climate models to 
study the statistics of climate, future warming was predicted as a 
result of ongoing increases of greenhouse gases, even though the 
observed climate had not been warming for decades. Since the time the 
Charney Report was published in the late 1970s, there has been an 
overall average warming trend. It was not until over 20 years later, at 
the beginning of the 21st century, that a generation of improved 
climate models, along with better observed datasets, was able to show 
how the combinations of natural and human factors that influence 
climate produced the time evolution of observed temperature change over 
the 20th century.
    Results from those studies showed that the warming in the early 
part of the 20th century was mainly due to natural causes; a hiatus of 
warming from the 1940s to the 1970s was mostly due to a balance between 
the warming that would have occurred due to the increases of greenhouse 
gases, and the cooling from the visible air pollution in part produced 
by the burning of fossil fuels; and finally in the 1970s after air 
quality was improved, thereby reducing cooling from visible air 
pollution, the ongoing increases of greenhouse gases produced a multi-
decadal warming trend over the past 35 years or so. This warming trend 
is not uniform in time (i.e. each year is not warmer than the year 
before) due to internally generated natural variability of the climate 
system. Depending on the start and end points used to calculate ten 
year trends, there are some decades when the warming trend is nearly 
flat (e.g.1986-1995; 1998-2007) and times when the warming trend for a 
given decade is greater than the longer term trend (e.g. 1975-1984; 
1988-1997)
    Measurements from the ice cores of air bubbles trapped over the 
last 800,000 years indicate the CO2 amount in the atmosphere only ever 
got about as high as 280 ppm. In just the last 100 years, that CO2 
amount has increased to an unprecedented (over the last 800,000 years) 
amount of about 380 ppm currently. Since we know CO2 traps heat in the 
atmosphere, the increase in CO2 alone would warm the climate somewhat. 
But, just as CO2 acts as an amplifier to past ice ages and inter-
glacials, it also produces other amplifying effects in the atmosphere 
called ``feedbacks''. The main ones are water vapor feedback and ice 
albedo feedback.
    As the oceans warm from the effects of increasing human-produced 
greenhouse gases, more moisture evaporates and goes into the atmosphere 
as water vapor. Water vapor itself is a greenhouse gas, and also 
contributes to trapping heat in the atmosphere, thus amplifying the 
effects from increasing CO2 and other greenhouse gases. Ice-albedo 
feedback involves ice that covers high latitude oceans (``sea ice'') as 
well as snow cover over land. As the climate warms, there is less snow 
and sea ice during winter. Because snow and sea ice are highly 
reflective (``high albedo''), when there are decreases in snow and sea 
ice there are more areas with lower reflectivity. The land and ocean 
surfaces with lower reflectivity absorb more energy from sunlight in 
the non-winter months. That increase in surface heat content then 
inhibits snow and ice from forming in the following winter, thus 
leaving even more open ocean and snow-free land to absorb even more 
heat the next summer, and so on.
    Another feedback that is less certain is cloud feedback. That is, 
if clouds increase in a warming climate, there would be more sunlight 
reflected and that would be a check on warming (a ``negative 
feedback''). However if clouds decrease in a warming climate, the cloud 
feedback would be positive and would contribute to even more warming. 
To first understand how cloud feedback works, and then incorporate 
those processes in climate models, there have to be high quality 
observations of the three dimensional structure of clouds. However, 
this three dimensional structure has traditionally been very difficult 
to observe, though a new generation of recent satellites is, for the 
first time, providing observations of just that three dimensional 
structure. It is hoped that these new data, coupled with improved 
representations of clouds in climate models, will be better able to pin 
down the sign and magnitude of cloud feedback. However, even in models 
that have a negative cloud feedback, the climates of those models still 
warm significantly over the 20th and 21st centuries due to 
contributions to warming from increasing greenhouse gases and the other 
feedbacks, such as those involved with water vapor, snow and sea ice. 
Those have been observed to operate on various timescales that can be 
measured, such as the seasonal cycle, and then validated in climate 
models.

Many climate change impacts will be experienced through changes in 
                    weather and climate extremes

    Droughts, floods, hurricanes, record heat and cold extremes affect 
human societies, economies and ecosystems in significant ways, from 
effects on human health and mortality, to disruptions of agriculture 
and economic activity, to impacts on outdoor activities and tourism. 
Though there are many types and categories of extremes, I will focus 
here on changes in daily temperature and precipitation extremes.
    Weather and climate extremes are a naturally occurring part of our 
climate system, and thus have always had a disruptive effect on humans 
and the natural system. As such there has been a certain degree of 
adaptation to such extreme events. These adjustments range from such 
mundane things as air conditioning, to insurance programs that cover 
losses from extreme events. However, if the naturally occurring aspects 
of weather and climate extremes change significantly, so will the 
impacts, and thus weather and climate extremes in a changing climate 
become of interest for a variety of applications.

A small change in average climate produces a disproportionately large 
                    change in extremes

    Since the end of the 19th century, globally averaged temperatures 
have warmed about 0.8C or about 1.4F. Projections for the end of the 
21st century made with climate models using a variety of scenarios of 
future climate change show temperature increases that range from a 
couple of degrees Centigrade (about 3.5F) for a low emissions scenario 
to over 8C (about 14F) for a high emission scenario by the end of this 
century. However, these are seemingly small increases when the day-
night temperature differences at certain locations are often tens of 
degrees. Many wonder why we should worry about such seemingly small 
increases in temperature.
    Of course these small changes in globally averaged temperature do 
not reflect the geographic pattern of change where some regions so far 
have seen very little warming (e.g. the southeastern part of the U.S.) 
to other areas that have already experienced substantial warming of 
nearly 10C in some high latitude areas of the Arctic. And these average 
changes are reflected by a host of impacts that happen over the long 
term that have already affected human societies.
    However, even such small changes in average temperature produce 
disproportionately large changes in extremes. A good example is 
temperature. A weather station with a record long enough to capture 
most of the eventualities of weather at that location usually has a 
probability of a certain temperature occurring at that location in the 
form of the familiar ``bell-shaped curve''. There is the highest 
probability of a temperature occurring that is near the long term 
average (near the center of the curve), with a much smaller probability 
of an extremely hot or cold temperature occurring (out near the right 
and left ``tails'' of the curve, respectively). Thus, if there is even 
a small warming in the average temperature, all else being equal, the 
curve shifts to the right a bit. But this small shift is reflected in a 
much higher probability of an extremely hot temperature occurring, and 
a much lower probability of an extremely cold temperature happening. 
Therefore, seemingly small warming can produce very large and more 
noticeable changes in extremes.

The physical processes involved in changes in daily temperature and 
                    precipitation extremes are relatively 
                    straightforward to understand in the observed 
                    system, and can be captured by climate models

    There are a couple of relatively simple physical principles that 
govern daily extremes of temperature and precipitation. For 
temperature, as noted above, a small average warming produces a 
disproportionately large increase in hot extremes and a greater 
decrease in cold extremes. It stands to reason that in a warmer 
climate, there will be more very hot days, and fewer very cold days. 
For precipitation, there is a temperature-related connection in that 
warmer air can hold more moisture. Thus, as the climate warms, more 
moisture evaporates from the warming oceans, the warmer atmosphere can 
hold that increased moisture, and when that more moist air gets caught 
up in a storm, there is a greater moisture source for precipitation. 
Therefore, we typically see a greater intensity of precipitation in a 
warmer climate (i.e. greater daily rainfall totals, or ``when it rains 
it pours'').

Have we already seen a change in daily temperature and precipitation 
                    extremes over the U.S.?

    Since there are thousands of weather stations over the U.S. (and 
internationally) that routinely collect daily temperature and rainfall 
data, there have been a number of studies that have catalogued an 
increase in extreme heat over the past 50 years, a decrease in extreme 
cold, and an increase in precipitation intensity. During this time 
period, average temperatures have warmed, and, from the physical 
principles noted above, we would expect to see just these kinds of 
changes in extremes in a warming climate. Such changes have been 
documented not only in numerous publications in the peer-reviewed 
scientific literature, but also summarized in various assessments of 
that literature (e.g. the IPCC AR4, CCSP3.3, and the recent National 
Academy of Sciences America's Climate Choices Science Panel Report).
    For example, there has been a documented observed trend of 
decreases of ``frost days'' (i.e. when the nighttime temperatures go 
below freezing), with greater decreases of frost days in the western 
U.S. compared to the eastern U.S., also reflecting average warming 
patterns over the second half of the 20th century when there has been a 
good coverage of stations reporting daily temperature data. The 
reduction of extreme cold has had numerous impacts, one being an 
increase of pine bark beetles in the western U.S. Extreme cold is 
needed to kill the dormant insects during the winter. Due to the 
average warming, there has been less extreme cold, and more live to 
become active in summer, and they kill even more pine trees. Increases 
in extreme warm days have also been documented in observations over the 
U.S.
    The shift to warmer temperatures has also produced an increase in 
daily record high temperatures compared to daily record low 
temperatures over the U.S., with this ratio currently being about two 
to one. For example, Since January 1, 2000, there have been 311,734 
record daily high maximum temperatures set, and only 152,329 daily 
record low minimum temperatures, a ratio of about two to one. Since 
January 1, 2010, this year, there have been 17,148 daily record highs, 
and 6,315 daily record lows, more than a ratio of two to one. Thus, as 
the average temperature has warmed, the probabilities have shifted 
towards more unprecedented heat, and less unprecedented cold.
    For precipitation, the intensity of daily precipitation has also 
been observed to increase since the second half of the 20th century, 
again when we have a good geographic coverage of daily temperature 
data.
    Climate models are able to reproduce these observed changes of 
temperature and precipitation extremes, and thus build credibility that 
we can believe what they tell us about the future. Projections of 
future climate change in the models with scenarios of future greenhouse 
gas emissions show ever-increasing heat extremes and reductions in cold 
extremes, ongoing increases of precipitation intensity, and a growing 
ratio of record-setting heat compared to record-setting cold, with, in 
one model for one scenario, the current ratio of about two to one 
increasing to twenty to one by mid-century, and about fifty to one by 
late century. However, even in the late 21st century when warming 
averaged over the U.S. is about 4C (or roughly 7F) in the model, there 
are still record-setting daily low temperatures occurring. Thus, even 
in a climate that has warmed significantly in the model, winter still 
occurs, and it does occasionally get extremely cold in some locations, 
cold enough to set a few daily record low temperatures every year. 
However, those few record daily lows occur in the context of many more 
daily record high maximum temperatures that would occur every year.

Summary

    The concept that greenhouse gases in the atmosphere make the planet 
warm enough to be habitable, and that increasing those greenhouse gases 
by the burning of fossil fuels could make the planet even warmer, is 
not a new idea and has been studied for over a century. Early attempts 
at numerical weather prediction, solving the relevant equations that 
describe the physics and thermodynamics of the atmosphere by hand for a 
single location in the early 1900s, presaged modem numerical weather 
predictions performed routinely by atmospheric models run on 
supercomputers. Those atmospheric models attempt to resolve the time 
evolution of individual storm systems over the next few days. 
Subsequently developed global climate models include atmospheric 
components similar to those used in numerical weather prediction, but 
add components of the slowly varying parts of the climate system 
(ocean, sea ice, and land surface processes). The dynamical coupling of 
those components in the models, as in the real world, is relevant to 
the statistics of weather over climate timescales of months to years to 
decades to centuries. Climate models also have equations that capture 
the effects of greenhouse gases and relevant feedbacks in the climate 
system that can influence climate. These climate models can reproduce, 
to first order, the observed changes in temperature and precipitation 
extremes observed over the past 50 years or so. These have included 
more heat extremes, fewer cold extremes, greater increases in daily 
record high temperatures compared to daily record low temperatures, and 
increased precipitation intensity. This lends credibility to the 
climate models such that there is likely to be useful information in 
their climate projections about future changes of extremes. With 
continued increases of greenhouse gases and consequent warming, these 
model projections depict a world with ongoing increases in heat 
extremes and record heat, reductions in cold extremes and record cold, 
and greater precipitation intensity.

                     Biography for Gerald A. Meehl
    Gerald A. Meehl is a Senior Scientist at the National Center for 
Atmospheric Research. His research interests include studying the 
interactions between El Nino/Southern Oscillation (ENSO) and the 
monsoons of Asia; identifying possible effects on global climate of 
changing anthropogenic forcings, such as carbon dioxide, as well as 
natural forcings, such as solar variability; and quantifying possible 
future changes of weather and climate extremes in a warmer climate. He 
was contributing author (1990), lead author (1995), and coordinating 
lead author (2001, 2007) for the first four Intergovernmental Panel on 
Climate Change (IPCC) climate change assessment reports, and is 
currently a lead author on the near-term climate change chapter for the 
IPCC AR5. He received his Ph.D. in climate dynamics from the University 
of Colorado, and was a recipient of the Jule G. Charney Award of the 
American Meteorological Society in 2009. Dr. Meehl is an Associate 
Editor for the Journal of Climate, a Fellow of the American 
Meteorological Society, and a Visiting Senior Fellow at the University 
of Hawaii Joint Institute for Marine and Atmospheric Research. He 
serves as chair of the National Academy of Sciences/National Research 
Council Climate Research Committee, and co-chair of the Community 
Climate System Model Climate Change Working Group. Additionally, he is 
co-chair of the World Climate Research Programme (WCRP) Working Group 
on Coupled Models (WGCM), the group that coordinates international 
global climate model experiments addressing anthropogenic climate 
change.

    Chairman Baird. Dr. Cullen.

       STATEMENT OF HEIDI M. CULLEN, CEO AND DIRECTOR OF 
                COMMUNICATIONS, CLIMATE CENTRAL

    Dr. Cullen. Thank you, Chairman Baird and Members of the 
Subcommittee, for this opportunity to have a rational 
discussion on the science of climate change. I have got a 
PowerPoint, which we are going to bring up. And it will 
reinforce several of the points that have already been made on 
the panel this morning. And I will say that my background is a 
little bit different than some of my panel members in the sense 
that I spent several years at The Weather Channel as their on-
camera climate expert, and it was a great experience. And it 
was really interesting to me because when I got there, most 
people just assumed I was a meteorologist. So I got a lot of 
questions about what the five-day forecast would be. And while 
I love the five-day forecast, it was a really important 
opportunity to just help people understand the difference 
between climate and weather, the difference between 
climatologists and meteorologists, and the difference between 
weather forecasts and climate forecasts.
    You see the great quote by Mark Twain up there.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    He basically said it all, which is, ``Climate is what we 
expect, weather is what we get.'' And I will say basically it 
is a lot easier to see the weather. It is a lot easier to see 
what we get. Climate is a statistical construct and it is tough 
to see it. So our job today is to help you see it and to help 
you understand why the forecasts that we make for the end of 
this century are something that we can trust.
    To start out with, Mother Nature's strongest fingerprint on 
our climate system is the seasonal cycle. So here is a climate 
forecast for you. Here in DC. It is going to be colder in 
January, but then it is going to warm up in July. The climate 
forecast. My grandmother could give it to you. It doesn't take 
a genius. But it shows you that we have an understanding of our 
climate system that allows us to look further into the future.
    The other thing that I really hope that our discussion this 
morning can help you understand is why our long-term forecast 
for the future is something that so many of us on this panel 
are deeply concerned about. I made it here by training.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    I worked on Wall Street for a little while and then decided 
I was really fascinated by climate. It is a lot like Wall 
Street. In many respects it looks kind of like stock market, 
ups and downs on various time scales. And I will say that the 
tremendous variability of the climate system is fascinating to 
me. And this gets to ice core records that you see.
    Focus on the last 10,000 years. The top part, which is 
pretty flat, that is the last 10,000 years of our climate. And 
what is really fascinating is it is relatively stable. So what 
drew me into climate science was this question of, to what 
extent does climate stability link with human civilization? 
These complex human civilizations started at about 10,000 years 
ago, right about the same time where our climate began to 
become more stable.
    So if any of you have read the book ``Collapse'' by Jared 
Diamond, you will note that civilizations have failed over time 
due to the inability to look out on long enough time scales and 
to be adaptive to our environment.
    Now, my next slide is more or less to just highlight the 
fact that, gosh, we have been studying this problem for an 
incredibly long time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The gentleman in the oil painting is Svante Arrhenius. He 
got the Nobel prize in chemistry in 1903 for doing the back-of-
the-envelope calculation that Dr. Meehl spoke about, which is 
that if we doubled CO<INF>2</INF> in our atmosphere, our planet 
would warm roughly eight degrees Farenheit. Where Arrhenius 
made his mistake was that he was around at the turn of the 
century in the 1800s, and he basically assumed that we would 
continue to emit fossil fuels at the 1895 rate, so it would 
take 3,000 years to double. And he was wrong there.
    But that is where Bert Bolin came in. Bert Bolin actually 
calls for the creation of the IPCC. And he did his own back-of-
the-envelope calculation which suggested that CO<INF>2</INF> 
would increase by about 30 percent by the year 2000. That 
turned out to be very true.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Charles David Keeling, another giant in the field of 
climate science, basically figured out how to measure this 
invisible greenhouse gas we call carbon dioxide. We wouldn't 
need to have this panel if we could see carbon dioxide, because 
it is everywhere. By burning fossil fuels and through 
deforestation we emit it. But he figured out a way to create 
and build a machine that was like an atmospheric Breathalyzer 
that could measure CO<INF>2</INF> in the atmosphere. And he 
showed, just as Bert Bolin calculated, that we have increased 
our CO<INF>2</INF> in the atmosphere by about 36 percent now. 
We are at 390 parts per million. I know that that does not 
sound like a lot. But because of the special chemical structure 
of carbon dioxide, unlike nitrogen and oxygen, which there is 
so much more of in our atmosphere--they have just two atoms--
CO<INF>2</INF> has three. And that allows it to absorb 
tremendous amounts of long-wave radiation and be a great 
absorber of heat. And that is why our planet is essentially 
warming up.
    The other thing that Keeling was able to do was to 
chemically fingerprint the CO<INF>2</INF> so that we knew that 
it was coming from us. Carbon comes in three different flavors. 
You call them isotopes.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Fossil fuels, when they give off CO<INF>2</INF> from 
burning, they have essentially no C14 because they are ancient. 
So what Keeling was able to do is just say that roughly one out 
of every four carbon dioxide molecules in our atmosphere today 
was put there by us. It is our human fingerprint on the climate 
system.
    As Jerry said, we are increasing the overall temperature of 
our climate about 1.4 degrees Farenheit over the past century. 
How does that make its way into our weather? My experience at 
The Weather Channel made it very clear that we can see our 
weather, we experience our weather, we know what that means. 
But how is climate change impacting our weather?
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Essentially, Mark Twain's quote can now be rewritten, which 
is to say that climate is what we expect and weather is what it 
gets us. So we can expect to see more extreme events. And if 
you talk to, you know, Warren Buffet or anyone who deals with 
insurance, they will tell you that if we don't take climate 
change into account, we are making very, very costly mistakes.
    We insure very, very high amounts of weather-related 
disasters each year. This is a picture from the national flood 
of 2010. It was considered a 1 in 1,000 year event. That 
probability is expected to increase more so with each passing 
year if we continue to emit greenhouse gases. Business as 
usual.
    And just to summarize. I am a scientist by training and I 
have to say my time at The Weather Channel really--it just awed 
me the way our country could rally around a weather forecast. 
Whether it was sand-bagging in advance of the Red River floods 
or evacuating in advance of Hurricane Gustav, we know what to 
do with the weather forecast. I mean, it is really impressive. 
And the thing is how do we figure out how to respond similarly 
to a climate forecast. Weather forecast is all defense. I mean, 
we get the information, we have got to figure out what to do. 
With the climate forecast, the one difference is that we have 
the opportunity to change it because it is just one potential 
future. So essentially when we think about the future, we are 
talking about an increase of 10 degrees Farenheit by the end of 
the century, three feet of sea level rise, a radically 
different climate.
    And the question is, if climate change is this ultimate 
procrastination problem, we are in a race essentially to 
understand our climate forecasts and just get to the point 
where we can act on them. And I would just say that as a 
scientist, if we don't do that, that would just simply be 
irrational.
    Chairman Baird. Thank you, Dr. Cullen.
    [The prepared statement of Dr. Cullen follows:]
                 Prepared Statement of Heidi M. Cullen
    Chairman Baird and Members of the Subcommittee, thank you for this 
opportunity to engage in a rational discussion of the science of 
climate change. My testimony will focus on the basic science and 
physics of climate change, the causes and production of anthropogenic 
greenhouse gases and the expected impacts on the climate.

Introduction

    I am a climate scientist by training, but I have spent the last 
several years as a climate science educator--producing reports for 
outlets like PBS NewsHour and The Weather Channel. When I first started 
at The Weather Channel in 2003 people assumed that if I worked at a 24/
7 weather network, I must be a meteorologist. The question I was asked 
most often was ``What's the forecast?'' I was always happy to provide 
the local weather forecast. But these experiences made me realize that 
many people do not truly understand the difference between climate and 
weather, between climatologists and meteorologists. Here's a rough 
answer: climatologists pick up where meteorologists leave off. We focus 
on timescales beyond the memory of the atmosphere, which is only about 
one week. Climatologists look at patterns that range from months to 
hundreds, thousands, and even millions of years. The single most 
important and obvious example of climate is the seasonal cycle, 
otherwise known as the four seasons. Summer, the result of the Earth 
being tilted closer to the sun, is warmer. And winter, the result of 
the Earth being tilted away from the sun, is colder. The forecast 
follows the physics. Which is why, if in January, I issued a forecast 
that said it would be significantly warmer in six months, you might not 
think I was a genius, but you'd believe it.
    There are countless others patterns on our planet that influence 
the weather. Take El Nino, for example. El Nino can bring drought to 
northern Australia, Indonesia, the Philippines, southeastern Africa and 
northern Brazil. Heavier rainfall is often seen along coastal Ecuador, 
northwestern Peru, southern Brazil, central Argentina, and equatorial 
eastern Africa. There are many ways in which climate can work itself 
into the weather.
    Meteorologists focus on the atmosphere, whereas climatologists 
focus on everything that influences the atmosphere. The atmosphere may 
be where the weather lives, but it speaks to the ocean, the land, and 
sea ice on a regular basis. The hope is that if scientists can untangle 
all the messy relationships at work within our climate system, we 
should be better able to keep people out of harm's way. The further we 
can extend our forecasts, the longer out in time a society can see, the 
better prepared we'll be for what's in the pipeline.
    And this is where global warming enters the equation. If the four 
seasons are Mother Nature's most powerful signature within the climate 
system, then global warming, the term that refers to Earth's increasing 
temperature due to a build-up of greenhouse gases in the atmosphere, is 
humanity's most powerful signature.

The Basic Science and Physics of Climate Change

    We tend to think of man-made global warming as a purely modern 
concept, something that has come into vogue in the last 20 or so years, 
but in reality this idea is more than 100 years old. The notion that 
the global climate could be affected by human activities was first put 
forth by Svante Arrhenius in 1895, who based his proposal on his 
prediction that emissions of carbon dioxide from the burning of fossil 
fuels (i.e., coal, petroleum, and natural gas) and other combustion 
processes would alter atmospheric composition in ways that would lead 
to global warming. Arrhenius calculated the temperature increase to be 
expected from a doubling of CO<INF>2</INF> in the atmosphere--a rise of 
about 8+F.
    More than a century later, the estimates from state-of-the-art 
climate models doing the same calculations to determine the increase in 
temperature due to a doubling of the CO<INF>2</INF> concentration show 
that the calculation by Arrhenius was in the right ballpark. The Fourth 
Assessment Report of the Intergovernmental Panel on Climate Change 
(IPCC) synthesized the results from 18 different climate models used by 
groups around the world to estimate the climate sensitivity and its 
uncertainty. They estimated that a CO<INF>2</INF> doubling would lead 
to an increase in global average temperature of about 5.4+F with an 
uncertainty spanning the range from about 3.6+F to 8.1+F. It's pretty 
amazing that Arrhenius, doing his calculations by hand and with very 
little data, came so close to the much more detailed calculations that 
can be done today.
    In the following section, I aim to provide a brief history of 
climate change that will explain the basic physics and chemistry of 
global warming and important climate discoveries that serve as the 
groundwork of our current scientific understanding of this life-
threatening issue.

- The discovery of the greenhouse effect
    The French mathematician and physicist Joseph Fourier in 1824 
helped discover the greenhouse effect. Specifically, Fourier was 
looking to use the principles of physics to understand what sets the 
average temperature of Earth. Fourier was interested in understanding 
some basic principles about the flow of heat around the planet. It made 
perfect sense that the sun's rays warmed the surface of the Earth, but 
this left a nagging question: when light from the sun reaches the 
surface of the Earth and heats it up, why doesn't the Earth keep 
warming up until it's as hot as the sun? Why is the Earth's temperature 
set at roughly 59+F--the average temperature at the Earth's surface?
    Fourier reasoned that there must be some type of balance between 
what the sun sends in and what the Earth sends back out, so he coined 
the term planetary energy balance, which is simply a fancy way of 
saying that there is a balance between energy coming in from the sun 
and going back out to outer space. If the Earth continually receives 
heat from the sun yet always hovers around an average temperature of 
59+F, then the Earth must be sending an equal amount of heat back to 
space. Fourier suggested that the Earth's surface must emit invisible 
infrared radiation that carries the extra heat back into space. 
Infrared radiation (IR), like sunlight, is a form of light. But it's a 
wavelength that our eyes can't see.
    It was a great idea, but when he actually tried to calculate the 
planet's temperature using this effect, he got a temperature well below 
freezing. So, he knew he must be missing something. To arrive at 59+F, 
the Earth's average temperature, Fourier realized that he needed the 
atmosphere to pick up the slack. And in the process, he discovered a 
phenomenon he called the greenhouse effect. The greenhouse effect is a 
process whereby the gases in the Earth's atmosphere trap certain 
wavelengths of sunlight, not allowing them to escape back out to space. 
Like the glass in a greenhouse, these greenhouse gases let sunlight 
through on their way in from space, but intercept infrared light on 
their way back out.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 1849, an Irish scientist named John Tyndall was able to build on 
this idea after he became obsessed with the glaciers he was climbing 
while visiting the Alps on vacation. Like so many other scientists at 
the time, Tyndall wanted to understand how these massive sheets of ice 
formed and grew. He brought his personal observations of glaciers into 
the laboratory with him in 1859, when at the age of 39, he began a 
series of groundbreaking experiments.
    Tyndall was intrigued by the concept of a thermostat. We know them 
today as devices that regulate the temperature of a room by heating or 
cooling it. So Tyndall devised an experiment that tested whether the 
Earth's atmosphere might act like a thermostat, helping to control the 
planet's temperature. Tyndall reasoned that it might help explain how 
ice ages had blanketed parts of the Earth in the past.
    For his experiment, Tyndall built a device, called a 
spectrophotometer, which he used to measure the amount of radiated heat 
(like the heat radiated from a stove) that gases like water vapor, 
carbon dioxide, or ozone could absorb. His experiment showed that 
different gases in the atmosphere had different abilities to absorb and 
transmit heat. While some of the gases in the atmosphere--oxygen, 
nitrogen and hydrogen--were essentially transparent to both sunlight 
and IR, other gases were in fact opaque, in that they actually absorbed 
the IR, as if they were bricks in an oven. Those gases include 
CO<INF>2</INF>, but also methane, nitrous oxide and even water vapor. 
These ``greenhouse gases'' are very good at absorbing infrared light. 
They spread heat back to the land and the oceans. They let sunlight 
through on its way in from space, but intercept infrared light on its 
way back out. Tyndall knew he was on to something. The fact that 
certain gases in the atmosphere could absorb infrared radiation had the 
makings of a very clever natural thermostat, just as he suspected. His 
top three thermostat picks were water vapor, without which he said the 
Earth's surface would be ``held fast in the iron grip of frost'', 
methane, ozone, and of course, carbon dioxide. Bingo, a natural 
thermostat right inside our atmosphere.
    Tyndall's experiments proved that Fourier's greenhouse effect was 
indeed real. His experiment proved that nitrogen (78%) and oxygen 
(21%), the two main gases in the atmosphere, are not greenhouse gases 
because these molecules only have two atoms, so they cannot absorb or 
radiate energy at infrared wavelengths. However, water vapor, methane 
and carbon dioxide, which each have three or more atoms, are excellent 
at trapping infrared radiation. They absorb 95% of the long-wave or 
infrared radiation emitted from the surface. So, even though there are 
only trace amounts of CO<INF>2</INF> in the atmosphere, a little goes a 
long way to making it really tough for all the heat to escape back into 
space. In other words, greenhouse gases in the atmosphere act as a 
secondary source of heat in addition to the sun. And it's the 
greenhouse gases that provide the additional warming that Fourier 
needed to explain that average temperature of 59+F.
    Thanks to Tyndall it is now accepted that visible light from the 
sun passes through the Earth's atmosphere without being blocked by 
CO<INF>2</INF>. Only about 50% of incoming solar energy reaches the 
Earth's surface, with about 30% being reflected by clouds and the 
Earth's surface (especially in icy regions), and about 15% absorbed by 
water vapor. The sunlight that makes it to the Earth's surface is 
absorbed and re-emitted at a longer wavelength known as infrared 
radiation that we cannot see, like heat from an oven. Carbon dioxide 
(and other heat-trapping gases such as methane and water vapor) absorbs 
the infrared radiation and warms the air, which also warms the land and 
water below it. More carbon dioxide translates to more warming. And 
this is where the concept of a natural thermostat becomes very 
powerful--mess with the amount of CO<INF>2</INF> in the atmosphere and 
you're resetting the thermostat of the planet.

- The discovery of global warming
    Svante Arrhenius (1859-1927), a Swedish physicist and chemist, 
began his research on global warming by trying to understand the cause 
of ice ages. He took Tyndall's thermostat mechanism and explored 
whether the amount of CO<INF>2</INF> in the atmosphere could raise or 
lower the Earth's temperature.
    We refer to events or processes that result in changes to the 
climate as forcings. A volcano eruption is an example of a natural 
forcing. A forcing can often result in an amplification (positive) or a 
reduction (negative) in the amount of change and often comes hand in 
hand with something known as a feedback--a situation where some effect 
causes more of itself. A negative feedback tends to reduce or stabilize 
a process, while a positive feedback tends to grow or magnify it.
    Arrhenius believed some type of positive feedback mechanism was 
responsible for plunging the planet into an ice age. For example, a 
drop in carbon dioxide would lead to a drop in temperature creating 
more snow and ice. When snow and ice cover a region, such as the Arctic 
or Antarctica, their white, light-reflecting surface tends to bounce 
sunlight back out to space, helping to further reduce temperature. If 
snow and ice covered regions expanded over more of North America and 
Europe, the climate would further cool while also leading to growing 
ice sheets.
    Arrhenius thought his theory was pretty solid, but he wanted to 
prove it mathematically. So he set about doing a series of grueling 
calculations that attempted to estimate the temperature response of 
changing levels of carbon dioxide in the atmosphere. It was a classic 
`back of the envelope' calculation, but he was confident enough that he 
published the work in 1896 for his colleagues to read. The end result 
of all that work was one simple number: 8+F. That number represented 
roughly how much Arrhenius thought the Earth's average temperature 
would drop if the amount of CO<INF>2</INF> in the atmosphere fell by 
half.
    But back in the time of Arrhenius, global warming impacts were 
mainly left to future investigation--at the time, the majority of 
scientists still needed to be convinced that the concentration of 
CO<INF>2</INF> in the atmosphere could vary, even over very long 
timescales, and that this could affect the climate. Scientists at the 
time were focused more on trying to understand the gradual shifts that 
took place over periods a thousand times longer than Arrhenius' 
estimate, those that accounted for alternating ice ages and warm 
periods, and in distant times (more than 65 million years ago), the 
presence of dinosaurs. They couldn't even begin to wrap their minds 
around climate change on a human time scale, like decades or centuries. 
Nobody thought there was any reason to worry about Arrhenius's 
hypothetical future warming that he suggested would be caused by humans 
and their fossil fuel burning. It was an idea that most experts at the 
time universally dismissed. Simply put, most scientists of the era 
believed that humanity was too small and insignificant to influence the 
climate.

- the chemical fingerprint of human activity
    Fast-forward to the mid-1950's and enter Charles David Keeling, a 
brilliant and passionate scientist who was just beginning his research 
career at Cal Tech. Keeling had become obsessed with carbon dioxide and 
wanted to understand what processes affected fluctuations in the amount 
of CO<INF>2</INF> in the atmosphere. Answering a question like that 
literally required an instrument that didn't exist, the equivalent of 
an ultra-accurate `atmospheric breathalyzer'. So Keeling built his own 
instrument and then spent months tinkering with it until it was as 
close to perfect as he could get at measuring the concentration in 
canisters with a range of values of known concentration. Keeling tried 
his instrument out by measuring CO<INF>2</INF> concentrations in 
various locations around California and then comparing these samples in 
the lab against calibration gases. He began to notice that the samples 
he took in very pristine locations (i.e., spots where air came in off 
the Pacific Ocean) all yielded the same number. He suspected that he 
had identified the baseline concentration of CO<INF>2</INF> in the 
atmosphere; a clear signal that wasn't being contaminated by emissions 
from factories or farms or uptake by forests and crops. With this 
instrument, formally called a gas chromatograph, Keeling headed to the 
Scripps Institution of Oceanography to begin what is perhaps the single 
most important scientific contribution to the discovery of global 
warming. Keeling was on a mission to find out, once and for all, if 
CO<INF>2</INF> levels in the atmosphere were increasing. He would spend 
the next 50 years carefully tracking CO<INF>2</INF> and building, data 
point by data point, the finest instrumental record of the CO<INF>2</INF> 
concentration in the atmosphere, generating a time history that is now 
known to scientists simply as the Keeling Curve.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Keeling Curve refers to a monthly record of atmospheric carbon 
dioxide levels that begins in 1958 and continues to today. The 
instrument Keeling built, the gas chromatograph, works by passing 
infrared light through a sample of air and measuring the amount of 
infrared light absorbed by the air. Because carbon dioxide is a 
greenhouse gas, Keeling knew that the more infrared light absorbed by 
the air, the higher the concentration of CO<INF>2</INF> in the air. 
Because CO<INF>2</INF> is found in very small concentrations, the gas 
chromatograph doesn't measure in terms of per cent, which means out of 
a hundred, but in terms of parts per million (ppm). What he found was 
both disturbing and fascinating. Keeling, using his Mauna Loa 
measurements, could see that with each passing year CO<INF>2</INF> 
levels were steadily moving upward. In 2010, more than fifty years 
after Keeling began his observations, the concentration at Mauna Loa is 
390 ppm. Keeling's measurements thus provided solid evidence that the 
atmospheric CO<INF>2</INF> concentration was increasing. If anything 
proved Arrhenius was on to something, it was these data. Keeling's 
record was the icing on the cake and he rightly stands with Fourier, 
Tyndall, and Arrhenius as one of the giants of climate science. He 
helped prove the importance of the greenhouse effect and the reality of 
global warming. He provided the data upon which the groundbreaking 
theories of Tyndall and Arrhenius firmly rest. As is the case in 
research science, Keeling's painstaking measurements have been verified 
and supplemented by many others. Measurements at about 100 other sites 
have confirmed the long-term trend shown by the Keeling Curve.
    Keeling established that carbon dioxide was rising in the 
atmosphere. The next step was to find the smoking gun, and see what or 
who was causing the increase. In order to put Arrhenius's theory to 
rest once and for all, scientists were looking to identify the source 
of all that additional carbon dioxide. And they came up with some very 
clever ways to identify this smoking gun.
    Just as we come into this world with our own unique set of 
fingerprints, so too does carbon. Carbon enters the atmosphere from a 
lot of different places, places that stamp each molecule of carbon 
dioxide and send it off into the atmosphere with a unique fingerprint. 
Volcanoes emit CO<INF>2</INF> into the atmosphere when they erupt, the 
soil and oceans release CO<INF>2</INF> into the atmosphere, and plants 
and trees give off carbon dioxide when they are cut or burned. Burning 
coal, oil and natural gas are all sources that release carbon into the 
atmosphere to forms carbon dioxide. The average person, in fact, 
breathes out about two pounds of carbon dioxide every day. When you 
have the right tools, distinguishing where an individual molecule of 
CO<INF>2</INF> comes from is not that hard. As with many other 
important advances in the fields of climate and weather, this 
fingerprint device was an outgrowth of military activity.
    Carbon, like virtually all of the chemical elements, come in 
different varieties known as isotopes, distinguished by the number of 
neutrons in their atomic cores. Carbon dioxide can be made from all of 
the isotopes of carbon--but not all sources of CO<INF>2</INF> have the 
same types of carbon atoms in them. In addition to carbon-14, there is 
carbon-12, which is the most common form of carbon, as well as carbon-
13, which makes up only about 1 in every 100 carbon atoms. Carbon-14, 
the radioactive one, is even more rare, with only one carbon-14 isotope 
for every trillion carbon atoms in the atmosphere. Scientists can use 
these isotopes to fingerprint the origin of the carbon. You can 
literally trace where the CO<INF>2</INF> in the atmosphere originated 
by measuring the amount of different carbon isotopes. It's like a 
tracing a bullet back to the gun from which it was shot.
    All living organisms are built out of carbon atoms. Coal, oil and 
natural gas are ancient. In fact, they are called `fossil fuels' 
because coal, oil and natural gas come from plants and marine organisms 
that lived roughly 200-300 million years ago. Fossil fuels such as 
coal, oil and natural gas, for example, have no carbon-14, and neither 
does the CO<INF>2</INF> that comes from burning them. A small fraction 
of the CO<INF>2</INF> molecules that enter the atmosphere through 
natural means such as the decay of plants, on the other hand, does 
contain carbon-14. Because they have extra neutrons, atoms of carbon-14 
are more massive than atoms of carbon-12, and so are the CO<INF>2</INF> 
molecules they are made of. Instruments called mass spectrometers 
measure that difference. Based on how much of the heavier CO<INF>2</INF> 
they measure in samples of atmosphere, scientists calculate that about 
a quarter of the CO<INF>2</INF> present today must come from fossil 
fuels. From the perspective of a molecule of carbon dioxide, that means 
roughly one out of every four CO<INF>2</INF> molecules in the 
atmosphere today, was put there by us. That conclusion is confirmed by 
the fact that this fraction amounts to most of the growth in CO<INF>2</INF> 
over the last 250 years, when fossil-fuel burning has really taken off. 
It is this increase in CO<INF>2</INF> concentrations that is primarily 
responsible for the increase in global average temperatures over the 
past century, and especially in recent decades. So while it's true that 
most of the carbon dioxide in the atmosphere today comes from natural 
sources, most of the additional CO<INF>2</INF> that's been placed in 
the atmosphere over the last 250 years comes from us.

- the causes and production of anthropogenic greenhouse gases
    From 1000 A.D. to about 1750 AD, carbon dioxide levels in the 
atmosphere hovered between 275 and 285 parts per million (ppm), and 
then began to increase. Initially, the increase was largely due to the 
burning of coal, which was the primary energy source for the Industrial 
Revolution, and whose exhaust products when burned include 
CO<INF>2</INF>. Since then, the other major fossil fuels, oil and 
natural gas, have also become sources of growth in CO<INF>2</INF> 
levels. The latest IPCC report presents statistics over the years since 
1970, which are indicative of the historical proportion that fossil 
fuel burning occupies in the sources of CO<INF>2</INF>. The percentage 
of emissions from solid, liquid and gas fuels represents about a 70% 
fraction of CO<INF>2</INF> emissions and has seen its share increasing 
during this period.
    But other factors contribute as well. For example, the widespread 
cutting down of forests can add CO<INF>2</INF> to the atmosphere if the 
trees are burned; like fossil fuels, they release this greenhouse gas 
as well. If the trees are left to rot, that too releases 
CO<INF>2</INF>, albeit more slowly. And because living trees absorb 
CO<INF>2</INF> in the process of photosynthesis, the cutting of forests 
eliminates a source of CO<INF>2</INF> removal, so the gas builds up 
more quickly than it otherwise might. The same estimates from the IPCC 
quantify deforestation and land-use change emissions as about 22% of 
CO<INF>2</INF> emissions.
    Some manufacturing processes add CO<INF>2</INF> to the atmosphere 
as well. The manufacture of cement is one; it does not just require 
energy, which often comes from fossil-fuels, but the chemical reactions 
involved in its manufacture release large amounts of the gas as well. 
All in all cement production has occupied a 3% share of CO<INF>2</INF> 
emissions. All this said, fossil fuel burning remains the predominant 
source of the historical increase in atmospheric CO<INF>2</INF> 
concentrations that added about 100 ppm (36%) over the last 250 years 
to the CO<INF>2</INF> levels of the pre-industrial era.

- the expected impacts on the climate
    Data collected over the past 50 years point to the fact that our 
weather is getting more extreme. But trying to isolate the fingerprint 
of global warming within the weather is much harder than isolating the 
fingerprint of global warming within the climate system. That doesn't 
mean it's not there; it just means seeing climate change in the weather 
is a much noisier, more chaotic and more complicated process. 
Statistical analyses can help us see the story buried beneath the 
noise. And climate scientists have come up with some very clever 
variations on using a slow motion instant replay of the weather to help 
them see how the statistics of extreme events are changing.
    It turns out that you can use climate models as an ``instant 
replay'' to recreate a specific weather event. Think of it like doing 
an autopsy, except it's being performed on a specific extreme weather 
event. The European heat wave of 2003, an extreme weather event that 
killed over 35,000 people, offers the best example of how climate 
models can help us see the global warming embedded within our weather.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    When you step back and compare the summer of 2003 with summers 
past, it becomes even more obvious. As you can see in Figure 3, there 
are a series of vertical lines that almost look like a bar code. Each 
vertical line represents the mean summer temperature for a single year 
from the average of four stations in Switzerland over the period 1864 
through 2003. Until the summer of 2003, the years 1909 and 1947 stood 
out at the edges as the most extreme temperatures in terms of hot and 
cold summers. Climate scientists estimate the summer of 2003 was 
probably the hottest in Europe since at least AD 1500.
    If climate is what you expect and weather is what you get, then the 
summer of 2003 in Europe was way outside the envelope of what anyone 
would have expected. Statistically speaking, in a natural climate 
system with no man-made CO<INF>2</INF> emissions, the chance of getting 
a summer as hot as 2003 would have been around once every thousand 
years or one in a thousand.
    The point of this weather autopsy isn't so much whether the 2003 
heat wave was caused solely by global warming. Indeed, almost any 
weather event can occur on its own by chance in an unmodified climate. 
But using climate models, it is possible to work out how much human 
activities may have increased the risk of the occurrence of such a heat 
wave. It's like smoking and lung cancer. People who don't smoke can 
still get the disease, but smoking one pack of cigarettes a day for 20 
years increases your chances of developing lung cancer 20-fold. Thanks 
to some sophisticated climate models and well-honed statistical 
techniques, scientists can identify the push that global warming is 
giving the weather.
    This weather autopsy showed that human influences had at least 
doubled the very rare chance of summers as hot as the one Europe 
experienced in 2003. More specifically, climate models showed that 
greenhouse gas emissions had contributed to an increase in 2003-style 
summers--moving from a one in a thousand years to at least once in 
every 500 years and possibly as high as once in every 250 years. What 
is perhaps the most shocking is what happens when you run the models in 
forecast mode instead of autopsy mode. If the summer of 2003 had been a 
freak event of nature, we could just chalk it up to the luck of the 
draw. But according to the model predictions, by the 2040's, the 2003-
type summers will be happening every other year. And by the end of this 
century, people will look back wistfully upon the summer of 2003 as a 
time when summers were much colder.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Scientists now believe that the Earth could warm up by more 7+F, on 
average, by the end of the century, if emissions of greenhouse gases 
continue to grow at current rates. That's significant enough to trigger 
all sorts of big changes in the environment. To start with, scientists 
expect sea level to rise by three feet or more--partly because water 
expands as it warms, partly due to melting ice in Greenland and other 
places. Low-lying areas--including significant parts of states like 
Florida, and entire countries like Bangladesh and the Maldive Islands 
will be much more prone to erosion and to catastrophic flooding from 
storm surges. The warming could also make the most powerful of tropical 
storms even more powerful. And rainstorms in general are likely to 
become more intense, with more of them causing damaging floods.
    As mountain glaciers melt, they'll cause even more flooding--at 
first. But if they shrink enough, the fresh water they provide will 
become scarce. Billions of people in India and China, for example, 
depend on water that comes off glaciers in the Himalayas and the 
Tibetan Plateau. In the U.S., warmer winters and spring will induce 
earlier snowmelt in the Rocky and Sierra Nevada mountains. That means 
less meltwater for a thirsty California, especially during the summer 
when water is really needed.
    In already arid regions (Australia and the American West are just 
two examples) droughts are likely to come more often and be more 
severe, and they could last longer. That's likely to lead to more 
wildfires. Heat waves will be more frequent too, not just in deserts 
but in temperate zones, including most of the continental U.S.
    All of these changes will have an impact on people, our physical 
safety and our ability to grow food and get water. But climate change 
could have an even greater impact on the survival of some species. 
Plants and animals thrive in certain specific climate conditions. They 
cannot easily adapt to the changes that have already begun. The trees 
that produce Vermont maple syrup, for example, may have trouble 
surviving in Vermont as the New England climate changes, and Georgia 
may lose its population of Brown Thrashers--the state bird. Not all of 
the changes will happen on land. The warming of the oceans has already 
contributed to a worldwide die-off in coral reefs, which is expected to 
accelerate as temperatures continue to rise. Corals are home to a wide 
variety of sea-dwelling creatures, so when they go, many other species 
could be in big trouble.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Conclusion

    When I worked at The Weather Channel, I was constantly awestruck by 
the extent to which people rallied around a weather forecast. Whether 
it was sandbagging in advance of the Red River flood, or evacuating in 
advance of Hurricane Gustav. There's something so inspiring about the 
way communities can pull together under these extremely challenging 
circumstances. We're clearly pretty good at processing the risks 
associated with extreme weather, which is why it's so important for 
people to understand that their weather is their climate. As such 
climate and global warming need to be built into our daily weather 
forecasts because by connecting climate and weather we can begin to 
work on our long-term memory and relate it to what's outside our window 
today. If climate is cold statistics, weather is personal experience. 
We need to reconnect them.
    The weather forecast is so engrained in our existence that we know 
very well how to make it actionable. If we hear on the radio in the 
morning that it's going to rain, we bring an umbrella. If we hear that 
the temperature is going to be unseasonably cool, then we pack a 
sweater. By definition, weather is a timescale we can't stop. With a 
weather forecast, we're strictly working on our defense. However, with 
the climate forecast, the necessary actions are not as straightforward, 
and this highlights some of the basic philosophical differences between 
weather and climate. I've come to view long-range climate projections 
as an ``anti-forecast'' in the sense that it's a forecast you want to 
prevent from happening. Until now, we've been able to view extreme 
weather like flooding as an act of God. But the science tells us that 
due to climate change these floods will happen more often and we need 
to be prepared for them. I say that a climate forecast is an ``anti-
forecast'' because it is in our power to prevent it from happening. It 
represents only a possible future, if we continue to burn fossil fuels 
business as usual. The future is ultimately in our hands. And the 
urgency is that the longer we wait, the further down the pipeline 
climate travels and works its way into weather, and once it's in the 
weather, it's there for good.
    We are currently in a race against our own ability to intuitively 
trust what the science is telling us, assess the risks of global 
warming, and predict future impacts. So when we look at a climate 
forecast out to 2100 and see significantly warmer temperatures (both 
average and extreme) and sea level three feet higher, we need to assess 
the risk as well as the different solutions necessary to prevent it 
from happening. The challenge is to reduce greenhouse gas emissions, 
replace our energy infrastructure and adapt to the warming already in 
the pipeline.
    Thank you for affording me this opportunity to share with you this 
brief history of climate change. I would be pleased to address any 
questions you might wish to raise.

                     Biography for Heidi M. Cullen
    In addition to her responsibilities as interim CEO and Director of 
Communications, Dr. Heidi Cullen serves as a research scientist and 
correspondent for Climate Central--a non-profit science journalism 
organization headquartered in Princeton, NJ. Before joining Climate 
Central, where she reports on climate and energy issues for programs 
like PBS NewsHour, Dr. Cullen served as The Weather Channel's first on-
air climate expert and helped create Forecast Earth, a weekly 
television series focused on issues related to climate change and the 
environment. Prior to that Dr. Cullen worked as a research scientist at 
the National Center for Atmospheric Research (NCAR) in Boulder, CO. She 
received the NOAA Climate & Global Change Fellowship and spent two 
years at Columbia University's International Research Institute for 
Climate and Society working to apply long-range climate forecasts to 
the water resources sector in Brazil and Paraguay. She is a member of 
the American Geophysical Union, the American Meteorological Society and 
is an Associate Editor of the journal Weather, Climate, Society. Dr. 
Cullen also serves as a member of the NOAA Science Advisory Board. She 
received a Bachelor of Science degree in Industrial Engineering from 
Columbia University and went on to receive a Ph.D. in climatology and 
ocean-atmosphere dynamics at the Lamont-Doherty Earth Observatory of 
Columbia University. Dr. Cullen is the author of The Weather of the 
Future published in August of 2010 by Harper Collins.

                               Discussion

    Chairman Baird. Thanks to all of our witnesses.
    At this point, I will recognize myself for five minutes, 
and we will follow in alternating order as Members wish to have 
questions.

        The Impacts of CO<INF>2</INF> Increases on Temperatures

    Just to start with a premise that I don't think people 
often appreciate, and I don't think there is any disagreement 
on this panel--though I think I have heard disagreement by some 
of my colleagues occasionally--that CO<INF>2</INF> is essential 
to maintain the current temperature of the Earth. If it were 
not for CO<INF>2</INF> and/or some other greenhouse gas--Dr. 
Lindzen?
    Dr. Lindzen. Certainly understand if you double 
CO<INF>2</INF>----
    Chairman Baird. No, that is not what I am saying. Let me 
finish my question.
    Dr. Lindzen. The current climate is mostly water vapor and 
clouds.
    Chairman Baird. Okay. But let me finish the question. It is 
established science that the presence of CO<INF>2</INF> in the 
atmosphere has an important role in maintaining the current 
surface temperature of the Earth in the atmosphere. If you did 
not have CO<INF>2</INF>, would the Earth be a cooler place or a 
warmer place?
    Dr. Lindzen. It would be approximately 2-1/2 degrees 
cooler.
    Chairman Baird. Any others wish to comment on that?
    Dr. Cicerone. I think it would be a much bigger effect than 
that.
    Chairman Baird. Hit the mic.
    Dr. Cicerone. In the mid-1980s, Bob Dickinson and I did 
some of the earliest calculations of the radiative forcings. 
And Bob is one of the few geniuses in this field. And when he 
tried to do the experiment that you just referred to, to figure 
out what impact the current amount of CO<INF>2</INF> is having, 
the calculations broke apart because the disruptions in the 
atmosphere were so large that he had to go back and start over. 
I think it would be far more than 2-1/2 degrees.
    Chairman Baird. Let me ask a second question. Is there any 
doubt that CO<INF>2</INF> absorbs more heat than oxygen?
    Dr. Cicerone. No.

          Humans Have Caused Increases in Atmospheric CO<INF>2

    </INF>Chairman Baird. No doubt about that. Is there any 
doubt that human activity has increased the amount of CO<INF>2</INF> 
in the air? No doubt of that. That is a given.
    Dr. Lindzen. How shall I put it? I would advise you to stop 
with the no doubt. But, you know, that is the prevailing view.
    Chairman Baird. Okay. Fair enough. Okay. I am a Ph.D. 
scientist. I understand that science is never 100 percent, 
Doctor. But I would say the prevailing view and abundant 
evidence suggests that humans have caused a substantial 
increase of CO<INF>2</INF>. Is that fair?
    Dr. Lindzen. Yeah.

           The Greater Proportion of Record High Temperatures

    Chairman Baird. Okay. Now, here is the question. Is there 
disagreement with Dr. Meehl's analysis and Dr. Cullen's 
analysis and Dr. Cicerone's of greater proportion of record 
highs in recent years relative to record lows? Each person will 
need to use their mic when they speak.
    Dr. Lindzen. Yeah. I don't think they are meaningful 
statements. I mean, during this whole period that he is 
referring to, if you look at it, it still looks like a random 
process, one. And two, the instrumentation has changed 
dramatically during that period so that the response time of 
modern thermometers is almost infinitesimal compared to the 
ones used in the earlier part of the record.
    Chairman Baird. Actually, I will rephrase my question 
because I think it was pretty clear, but your answer didn't 
address it. My question is: Is there a doubt that in the recent 
years--and I will state it as clearly as I can--there is a 
greater preponderance of record highs than record lows? Unless 
you are suggesting in the past that the measurement devices 
were erroneous in one direction and not another.
    Dr. Lindzen. Absolutely, because you have high response 
time. You will pick up perturbations----
    Chairman Baird. I am not talking perturbations. Simply are 
we suggesting Dr. Meehl, Dr. Cullen--if you are suggesting that 
the thermometers today are more sensitive to increases than to 
cooling----
    Dr. Lindzen. Yeah. Oh, yeah.
    Chairman Baird. That is right. That is your----
    Dr. Lindzen. I think that is pretty much true. But there is 
another issue here which is a bit weird; namely, why do we have 
record highs and record cold on any given day?
    Chairman Baird. I don't want to ask the why first. I just 
want to get the facts.
    Dr. Meehl, Dr. Cullen, Dr. Cicerone, is it generally 
accepted scientific fact that there are more record highs today 
than record lows? Dr. Meehl.
    Dr. Meehl. Yes.
    Chairman Baird. Dr. Cullen?
    Dr. Cullen. Yes.
    Chairman Baird. Dr. Cicerone?
    Dr. Cicerone. Yes.
    Chairman Baird. Dr. Lindzen may disagree with that. It 
seems to me that that is a fairly objective piece of evidence 
that we could look at, that there are more general record--you 
may disagree, but part of what is happening here is that we 
have a preponderance of folks. If I look at a temperature, a 
thermometer, and I say this is pretty hot, other people could 
say it is pretty cold. But if we have got a measurement device 
we have been using for a very long time and it is showing a 
hotter temperature than what it showed a year ago, either the 
measurement device has changed or the temperature has changed. 
Maybe the measurement device has changed, but we are talking 
thousands of measurement devices changing and only in one 
direction.
    Dr. Meehl.
    Dr. Meehl. May I just add a little bit to that? This 
analysis we did, we were looking at basically temperature 
records in the second half of the 20th century from weather 
stations that had good daily records. And this is actually, I 
think, a bigger problem than the thermometer problem. You have 
to have stations recording their daily high temperature and 
daily low temperature every day so you can have a lot of daily 
records.
    And this ratio, which is now 2-to-1, which we thought was 
kind of odd, we thought initially--in fact, this came from a 
guy at The Weather Channel, because he was noticing this. He 
was keeping track of records on his own. He is a meteorologist. 
And Heidi invited me down there. And he said, what is with this 
2-to-1 ratio? I said, I don't know. He said, Well, is that some 
kind of unique thing about climate change? I said, I have no 
idea. I said, Let's look at it.
    So we started looking at it and it turns out this ratio--we 
just happen to be at about 2-to-1 right now. A decade ago it 
was a little less than 2-to-1, and a decade before that it was 
a little less than that. If you had a climate that wasn't 
changing, you would expect that ratio to be about 1-to-1, 
because you would have an equal chance of getting record highs 
and record lows.
    So I think what was interesting about that study is it 
showed--and I think this is a thing that we have trouble 
communicating to the public, but climate change is a shift in 
statistics, it is a shift in the odds of certain things 
happening. So as you warm the average temperature, you just 
have a greater chance of extreme warm temperatures and less 
chance of extreme cold temperatures.
    Chairman Baird. Thank you.
    Dr. Cullen. And if I could just build on that very quickly. 
What Jerry did was he carried that thought experiment forward, 
which is part of the exercise that we all need to go through. 
And what they found was if we continue to make greenhouse gas 
business as usual, by the middle of the century that would then 
become 20-to-1. So it gets worse as you move forward in time.
    Chairman Baird. Because of the shifting and the 
probability.
    Mr. Inglis.

            Quantifying Climate Sensitivity and Water Vapor

    Mr. Inglis. Thank you, Mr. Chairman. I notice the 
discrepancy in some numbers here. Dr. Lindzen said that a 
doubling of CO<INF>2</INF> would cause a one degree C increase 
in temperature. Doubling of CO<INF>2</INF> would cause a one 
degree increase in----
    Dr. Lindzen. I said by itself. In other words, absence of 
feedbacks--and this the IPCC says also--you expect about one 
degree from changing CO<INF>2</INF> from 280 to 560. You again 
get the same thing for a doubling from 560 to 10,120. It is 
nonlinear. It is logarithmic. So every molecule of CO<INF>2</INF> 
does a little less than its predecessor. But one degree is what 
you expect from a doubling. Anything more is due to the 
positive feedbacks, from water vapor and clouds primarily. In 
the models.
    Mr. Inglis. I am going to ask the others to say whether 
they agree with that. Dr. Cullen, I think I heard you say it is 
an eight degree Farenheit rise, right? So it is----
    Dr. Cullen. No. The basic climate sensitivity doubling of 
CO<INF>2</INF> experiments suggests an eight degree Farenheit 
rise. That was the Svante Arrhenius calculation. IPCC estimates 
give a range, including all the feedbacks.
    Mr. Rohrabacher. I didn't hear the answer. What did she 
say?
    Mr. Inglis. Somebody help me explain that. Maybe Dr. 
Cicerone wants to try that.
    Dr. Cicerone. Yes. What Dr. Lindzen is saying is if we 
could isolate the impacts one by one, the CO<INF>2</INF> effect 
itself and the way it interacts with the planetary radiation 
would cause about a one degree warming under these 
circumstances Centigrade. It's the additional forcing, which I 
mentioned in my testimony briefly, of adding more water that 
causes part of the increased effect.
    Part of it would be due to the way clouds are being treated 
in the calculations, also. But if I focus on the water, that's 
when I mentioned the disproportionate amount of evaporation 
increase as we warm a body of water. This is just a fact of 
physics. So that people who propose that this enhancing effect, 
which Dr. Lindzen denies, people who propose to deny that 
enhancing effect are fighting against a very fundamental part 
of physics.
    Dr. Lindzen. May I respond?
    Dr. Cicerone. The fact that the rate at which a liquid 
evaporates is a grossly disproportionate function of the 
temperature.
    Dr. Lindzen. May I respond?
    Mr. Inglis. Please.
    Dr. Lindzen. What Dr. Cicerone is referring to is the 
Clausius-Clapeyron relation. That is a relation that tells you 
what the saturation vapor pressure is for water as a function 
of temperature. The atmosphere, first of all, is almost never 
saturated. So the basic physics that Cicerone is referring to 
is stating if you have a big bottle and somebody has this cup, 
no matter what I have done to pour water into each, this will 
always have more. That doesn't make much sense.
    But the other thing is the data are----
    Mr. Inglis. Let me stop you right there. What does that 
mean? Dr. Cicerone, what is your response to that?
    Dr. Cicerone. I didn't follow him. I know the Clausius-
Clapeyron equation.
    Chairman Baird. You need to turn your mic on.
    Dr. Cicerone. I know the relationship he is speaking of. I 
know the relationship with the entropy and thermodynamic 
quantities, and I don't understand what he is saying.
    Dr. Lindzen. I am saying it's the saturation vapor 
pressure, right?
    Dr. Cicerone. Yeah, sure.
    Dr. Lindzen. Okay. Is the atmosphere saturated?
    Dr. Cicerone. No, we have a more or less relative humidity, 
on average, of 70 percent.
    Dr. Lindzen. Yeah, fluctuating all over the place.
    Dr. Cicerone. Yeah.
    Dr. Lindzen. Clausius-Clapeyron tells you nothing about 
that.
    Dr. Cicerone. It gives you an approximation to the slope.
    Chairman Baird. I will ask both gentlemen to use your mics.
    Dr. Lindzen. Okay.
    Dr. Cicerone. We can get an approximation to the slope. 
That is the way----
    Chairman Baird. You need to turn your mic on. Go ahead and 
leave it on.
    Dr. Cicerone. All right.
    The way the evaporation takes place can be also 
approximated by the thermodynamic quantities that give the 
slope of the relationship. And it's just a rapid increase. It's 
very hard to hold back the vapor pressure of a liquid against 
this relationship, whether it's evaporating into gas above it 
that's saturated or not.
    Mr. Inglis. Yes, Dr. Meehl.
    Dr. Meehl. Yeah, I was just going to add that this quantity 
we are talking about, which is an equilibrium response of the 
climate system to a doubling of CO<INF>2</INF>, actually has a 
history to it that goes back to the early days of climate 
modeling, which that's about all you could do, would be to 
double the CO<INF>2</INF> and see what happens. So it has ended 
up being this kind of equilibrium climate sensitivity. And that 
actually goes back even earlier than that. We will never 
actually see the equilibrium value because it takes so long for 
the oceans to catch up. So this is a kind of metric we use to 
gauge, give us a rough calibration of how the climate system 
may respond. So these are kind of relative numbers.
    But I think maybe the point is that there is a range of 
what we think this number may be. The current range we think is 
anywhere between two degrees Centigrade and 4-1/2 degrees 
Centigrade. This number was derived a lot of times from models, 
but now we have multiple lines of evidence. People have 
actually looked at observations, they have looked at the 
response of the climate system to big volcanic eruptions, they 
have looked at paleoclimate data. So now we have multiple lines 
of evidence that seem to suggest that that's probably about the 
right range and that the most likely value is actually around 
three. And I think Dr. Alley is going to say a lot more about 
this in Panel II.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman. I am out of time.
    Chairman Baird. Dr. Bartlett.

             The Common Cause for Clean Energy Development

    Mr. Bartlett. Thank you very much.
    This hearing today I think is one of the more important 
things that the Science Committee needs to do. There should be 
no dispute as to what the facts are relative to climate change, 
and there is a lot of dispute as to what the facts are. There 
can be a great deal of dispute as to how you interpret those 
facts. But before you can have an honest discussion, you need 
to agree on the facts, and we don't now agree on the facts. So 
I really appreciate the Chairman holding this hearing and thank 
the witnesses for their contribution to this.
    The Chairman's question, if there was no CO<INF>2</INF>, 
would the Earth be colder? Not if there was just a little bit 
more water vapor. Because water vapor is a hugely more 
important greenhouse gas than CO<INF>2</INF>. I know the 
Chairman meant that if all other things remained equal would 
the Earth be colder if there was no CO<INF>2</INF>? And, of 
course, it would. But CO<INF>2</INF> is a pretty small 
greenhouse gas compared to water vapor. That doesn't mean that 
it's not important, because it can be the tipping point.
    There are three groups that have common cause in wanting to 
reduce the consumption of fossil fuels; and, regretfully, they 
are at each other's throat rather than joining hands and 
marching forward.
    One group is a group that is represented today, those who 
are concerned about climate change and the effect that the 
CO<INF>2</INF> produced from burning fossil fuels would have on 
that.
    A second group is a group that is really concerned that the 
United States has only two percent of the known reserves of oil 
in the world, and we use 25 percent of the world's oil, and we 
import just about two-thirds of what we use. And the solution 
to that, obviously, is to stop burning so much fossil fuel and 
use alternatives, which is exactly the same solution that we 
have today in looking at the effect of CO<INF>2</INF> on 
climate. We would like to produce less of it by moving to 
alternatives which do not produce CO<INF>2</INF> if you have a 
short cycle rather than a million-year cycle like we have in 
fossil fuels.
    And the third group that has common cause in this--and I 
just happen to have a paper this morning that just came out, 
the World's Energy Outlook for 2010 now out. And I will try to 
have this thrown on the screen later today, because it is 
really a startling picture. It shows that we have now peaked in 
conventional oil production at about 65 million barrels a day. 
The total world production is about 84. The rest of that is 
made up of natural gas liquids and unconventional oil. This 
chart has that plummeting to about 15--only about 15 million 
barrels a day by 2035. That's just 25 years from now. And it 
has the difference made up--because they have plateaued 
essentially with production of oil. And the difference is made 
up, and it's I think about 42 million barrels per day, they say 
that we are going to get from fields yet to be developed or 
found. You know, that's the impossible dream. That's not going 
to happen.
    Now, the solution to this problem, the fact that the fossil 
fuels just aren't going to be there to burn, is to move to 
alternatives. And so whether or not you are right that the 
increase in CO<INF>2</INF> is producing climate change, there 
are two other very good reasons for doing exactly what you want 
to do, and that is to move away from fossil fuel use to 
alternatives.
    Why aren't these three groups locking arms and marching 
together? Because they have exactly the same solution to very 
different problems. What keeps you from doing that?
    Dr. Cullen. I think the three groups have locked arms and 
have moved together. But I think there is a lot of opposition. 
I think it's a very difficult thing to change one's invested 
infrastructure. And I think much of the discussion about 
climate change and alternative energy is making that leap and 
moving forward and embracing new technologies. So, you know, 
can we do a better job? Absolutely. But I do think that our 
three communities have aligned and, you know, it's clear that 
there are multiple reasons to shift away from fossil fuel.
    Mr. Bartlett. You know, even if your premise is not 
correct, that is, that human production of CO<INF>2</INF> is 
not changing the climate, what you want to do about it is 
exactly the right thing to do for two other very good reasons.
    Again, I ask why do not these three groups, instead of 
sniping at each other's premise and ridiculing each other, why 
don't you just lock arms and march forward? Because the 
solution to these three very different problems is exactly the 
same solution: less fossil fuels and more alternatives.
    Thank you, Mr. Chairman, for holding this hearing.
    Dr. Lindzen. Would you like an answer?
    Mr. Bartlett. Yes, sir.
    Dr. Lindzen. It's profoundly dishonest. And I think 
integrity is important. I think Mr. Baird emphasized that. If 
somebody is asking you how climate changed and you influence 
your answer because you have some ideas on energy policy, you 
are short-changing your interlocutor. And I don't think that's 
appropriate. If somebody has an energy policy they wish to 
propose, it should be defended on its own grounds and sold on 
its own grounds.
    The notion that a climate scientist who disagrees that 
CO<INF>2</INF> is important there should join the bandwagon--or 
even if they did agree, to say to push my view of greenhouse 
gases I will also support your view of energy, it's confusing 
the issue for the public. It's not helping it for everyone to 
march in lockstep.
    Mr. Bartlett. Sir, in a former life I was a scientist. I 
have a Ph.D. I have about a hundred papers in the literature. I 
understand science. And I am a rare Republican. I tell 
audiences that I am a conservative Republican, but on these 
kind of issues I am not an idiot.
    Dr. Lindzen. I am not accusing you of that. But I am saying 
that when you ask a scientist to lock arms with a politician 
because they both have aims that have the same policy, that's 
probably dangerous.
    Mr. Bartlett. If the goal you want to accomplish is a 
national security goal--and, ultimately, it is--then I don't 
see a compromise of science because you happen to have a common 
goal with a political or a military person.
    Chairman Baird. Dr. Bartlett, if I may, as well as I know 
Dr. Bartlett, I would never expect Dr. Bartlett to suggest that 
a scientist should modify his or her findings to fit a 
political agenda. This, by the way, goes to both sides. But I 
do believe what he is suggesting, and he suggested it many 
times--and not only does he suggest it in hearings, he embodies 
it in his life--that there are national interests that are 
meritorious beyond single aims. I mean, the debate today is 
about the scientific findings. I think what he is saying and 
what he has literally embodied in his own life--he is more off 
the grid than anybody I know, and I mean that as a compliment. 
He is off the electricity grid because he is so on the grid of 
the data. He is saying, I think, that this is not a matter of 
distorting the scientific findings, but let's make our policy 
consistent with the common interests.
    Mr. Bartlett. Yes, sir. We have three common interests, and 
there is no reason that we should be limiting our ability to 
reach those common goals because we simply disagree with each 
other's premise. That's all I am saying.
    Chairman Baird. Dr. Cicerone, I know you want to comment, 
but I am going to invite Mr. Rohrabacher, who has rejoined us. 
If we have time, I will get back to you on this matter because 
I know it's important. Mr. Rohrabacher.

                           Climate Skepticism

    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And, again, we will miss Chairman Baird. I appreciated his 
leadership, although we have strongly disagreed on several 
issues, this being one of them. And I actually would thank him 
very much for including one witness out of four to present the 
other point of view.
    The fact is, in the past, as Ranking Member Hall mentioned, 
we have had one witness in a whole hearing, as compared to any 
type of balanced presentation. This has been--this tactic of 
not permitting the other side to be heard or trying to muzzle 
people in academe and elsewhere from expressing opposition 
views to the manmade global warming theory is a travesty, and 
it's about time that people in the scientific world admit that 
that's what's been going on. Because what we have had is, yeah, 
one witness out of four; in the past, we had one witness out of 
16.
    And how many of us have heard over and over again ``case 
closed'', where there are presentations with nobody on the 
other side being able to express their opinion. They have made 
a mockery out of science. And I am very happy that at least 
today we have one witness out of four in the panels who are 
going to present the other side.
    Because there is a fundamental disagreement on whether or 
not the climate cycle that we are in today is basically being 
caused by mankind or whether or not this is a natural cycle. 
And if it is created by some sort of human activity, is it 
something that we should be concerned about because it is not a 
major factor but a minor factor in what's going on?
    Mr. Chairman, I noted that you used your case to say why 
CO<INF>2</INF> should be of more concern in terms of--because 
it adjusts the oxygen in the atmosphere because CO<INF>2</INF> 
does absorb more heat. Well, let us just note that oxygen is, I 
believe, 21 percent of the atmosphere. CO<INF>2</INF> is 390 
parts per million. That's one-half of one-tenth--less than one-
half of one-tenth of one percent of the atmosphere as compared 
to 21 percent. Of this, 58 parts per million are manmade as 
compared to what's in there naturally.
    So this idea that CO<INF>2</INF>--most people who are 
discussing this issue, the presentation to the public has been 
so skewed and the debate has been so hampered by not presenting 
the other side that most people believe that CO<INF>2</INF> 
represents ten percent or 20 percent of the atmosphere. Ask the 
people around you, and you will find even Members of Congress 
giving you that answer.
    Well, today, we are trying to get to the bottom of this; 
and I appreciate the fact that, again, we are having a debate 
where at least one out of four witnesses is going to be able to 
address some issues.
    Let me ask Dr. Lindzen some of the points that you have 
made. I would like to specifically ask you whether or not you 
believe that there will be dire consequences due to our 
lifestyle on the climate of this planet.
    Dr. Lindzen. No, I don't think so. I think--we are talking 
about finite issues. The elevation of finite issues to 
catastrophism probably would leave behind a large portion of 
the scientific community.
    I think there has been a problem that the agreement is on 
the trivial. The controversy is on really obscure things that 
depend on many factors. I mean, one of the things that bothers 
me in this in the discussion of extremes and storms and so on, 
a basic feature of meteorology is the cause of storms in mid-
latitudes is the temperature difference between the Equator and 
pole. Under a warmer climate, that should be reduced, and that 
should lead to fewer storms. It is the storms that bring in 
record highs and lows by carrying air from distant places. Why 
suddenly in this complex thing a particular observation that is 
actually contrary to the basic physics assumes importance, I 
don't know.
    Mr. Rohrabacher. We have had many cycles of warming and 
cooling throughout the history of this planet, many, many 
cycles. And a minuscule change in the amount of CO<INF>2</INF> 
in the atmosphere, as compared to other time periods when there 
were other cycles going on, when CO<INF>2</INF>, by the way, 
was dramatically higher than what it is today, we have seen 
that the relationship between CO<INF>2</INF>----
    This is what it comes down to. People are trying to tell 
us--in the scientific community, there are people trying to 
tell us that we have got to accept Draconian changes in our way 
of life mandated by law because the CO<INF>2</INF> that we are 
emitting is going to cause drastic consequences to the planet's 
climate. That does not seem to hold up.
    Dr. Lindzen. It's also that even if the U.S. shut down 
period, retired from the world, its impact on the CO<INF>2</INF> 
levels would be rather undramatic.
    Mr. Rohrabacher. And the CO<INF>2</INF> levels in the 
atmosphere are rather undramatic.
    Dr. Lindzen. Yeah.
    Mr. Rohrabacher. The fact is CO<INF>2</INF> is a minor, 
minuscule part of the atmosphere. Its increase during the time 
period where mankind has increased the standard of living of 
the people of the human race has been used as a scare tactic to 
frighten people into accepting controls over their lives that 
they otherwise would not accept. That's what this debate is all 
about. And, frankly, I have seen in the past--I am a former 
journalist. I have seen example after example where people in 
the political world will try to frighten the public on an issue 
in order to achieve a political end, and this is one of the 
worst examples of that that I have seen.
    Thank you very much, Mr. Chairman.
    Chairman Baird. Mr. Rohrabacher, whereas you began your 
statements by emphasizing the importance of hearing from all 
sides and during the most recent questioning you heard from one 
side, I am going to invite the witnesses if they--other 
witnesses if they wish to respond to some of the points that 
you made to do so, because I am sure you would want to hear 
their responses.
    Dr. Meehl. There was a number of different points made 
there. I don't know quite where to start. Maybe I will just 
take a couple of them.
    This is one of the things that I personally find difficult, 
that a lot of times the science gets kind of blurred together 
with the political side of this issue. What we are here to talk 
about is the science of this issue. When you talk about dire 
consequences, those are value judgments made by human societies 
that aren't science issues.
    You know, there has been an effort in the European 
community to come up with a number of two degrees sea warming 
above preindustrial as a threshold for dangerous climate 
change, and people argue about that a lot. And that number is 
out there, but I think you would find a lot of disagreement 
even among the scientific community about what constitutes 
dangerous climate change.
    Certainly with climate change things will shift around. You 
will have dry areas probably getting dryer; wet areas will get 
wetter. You will see changes to extremes. You see things that 
would have impacts on human societies.
    But the fact that these greenhouse gases, which we call 
trace gases--because, as you point out, rightfully so, they 
constitute a really small fraction of the composition of the 
Earth's atmosphere--the fact that they have this interesting 
and unique property that they have more than two atoms per 
molecule. Oxygen and nitrogen, which are the biggest 
constituents, as you say, have only two atoms per molecule, 
when you have more than two atoms per molecule that makes that 
molecule really active and really important, and it can absorb 
and reemit heat and trap it. So I think that----
    Mr. Rohrabacher. But if it's so minuscule, how does that 
then have a greater impact?
    Dr. Meehl. See, that's the interesting thing about it. 
Because even at these really small quantities they can be 
really important to the climate system and really make a 
difference in how the climate of the Earth is behaving. So I 
think in terms of the science, these are the things that we 
grapple with, too. You know, we try to incorporate these things 
in the models the best we can, and we try to use the tools the 
best we can, and these are the indications that we get.
    In terms of evidence, science is a great thing because, you 
know, Dick Lindzen has his theories about low climate 
sensitivity. Other people have tried to use other evidence to 
contradict what he said, and this is how science works. We have 
this ongoing discussion, and at the end of the day try to come 
up with some idea of what we think is really going on out there 
in the world. So I think that's why all of us probably got into 
science in the first place, because we are really interested in 
how the world works.
    But, you know, focusing on the science makes it a very 
interesting problem that has all these interesting things that 
go on in terms of physical processes that we can try to use 
tools like climate models to understand. And I think that's 
where the interest is for us. I think that's what makes this a 
very interesting problem.
    Now, as far as what you decide to do as policymakers about 
this problem is something we can try to give you information 
on. I think Mr. Inglis' example of the advice you get from 
doctors that maybe 98 give you A, and two say B, and you say, 
well, okay, what do you want to do? It's still a call that you 
have to make as policymakers as to what you do with this 
information. But I think we have to do the best we can to give 
you the best possible information from our community.
    Chairman Baird. So help us understand.
    First of all, I very much appreciate what you said, Dr. 
Meehl, because on this committee and elsewhere in the public 
and the media there is an assertion that climate science is a 
hoax, meaning something intentionally perpetrated. Piltdown Man 
is a hoax, but I don't see this as a hoax. People may disagree 
on the findings and implications and the models, et cetera, but 
the idea that it's a conspiracy to force Draconian changes or 
that it's a hoax flies in the face of what I know about the 
individuals on all sides before us today. And so, if nothing 
else, let us put to rest this assertion that in some way you 
are motivated by some bizarre intent to change our way of life.
    Help us understand, though, the fundamental question that 
Mr. Rohrabacher asked about how a relatively small trace 
element impacts raising temperatures. That's really----
    Mr. Rohrabacher. As compared to the natural cycles.
    Chairman Baird. That's a fair question. That's a fair 
question. Help us understand that. Dr. Cicerone. I am going to 
call on--we will work our way down.
    Dr. Lindzen. I will be happy to answer that.
    There is no simple relation between the amount of a 
constituent and its ability to absorb radiation. If you have a 
very strong absorbing molecule, then you need less of it to do 
something.
    CO<INF>2</INF> is a significant absorber. I differ with my 
colleagues about the reason why. It's the permanent dipole 
moment that's important. You know, OH, NO, all have two atoms 
and they absorb well in the infrared. So, I don't know, that 
makes me wonder about the testimony.
    But, still, it is possible for a trace gas to be important. 
It isn't strictly the amount, even though the amount is 
minuscule. For instance, a very thin visibly invisible cloud 
will absorb more infrared than all the other infrared absorbers 
in the atmosphere when it's present.
    Chairman Baird. Dr. Cicerone.
    Dr. Cicerone. The framework is the energy balance of the 
planet. And so in deciding whether an entry is small or 
diminutive or whatever, it's when we look at those balancing, 
as you said, Mr. Rohrabacher, compared to the natural balances. 
And these polyatomic molecules that have vibrational and 
rotational modes that they can interact with the infrared 
radiation, as Dr. Lindzen just said, sometimes the tiniest 
presence can intercept parts of the spectrum which are 
otherwise transparent.
    Generally speaking, the Earth's atmosphere is transparent 
in some of these infrared wavelength regions where the planet's 
emitting. So it's not too much of a mystery. We have to go 
through the numbers.
    If I may, Mr. Chairman, could I make a comment on Mr. 
Bartlett's very interesting puzzle about energy policy?
    Chairman Baird. Please. And then I will give one more 
opportunity to others, and then we will finish. We have two 
more panels to get through.
    Dr. Cicerone. I have heard a very graphic presentation of 
the same three conundrums in testimony to the House from a 
former CIA director, Jim Woolsey, where he gets back to your 
three overlapping groups and interests by having a fictional 
conversation between John Muir, Mahatma Gandhi, and General 
George Patton. And he shows that they can agree on the kinds of 
things that you just said. He testified in the House a year or 
two ago, and I have heard him give this presentation. It's 
fascinating.
    Getting down to basics, energy efficiency is a solution 
that should appeal to all three of your groups; and yet if all 
of this free money is lying on the floor to be saved with 
energy efficiency, why aren't more people taking advantage of 
it? We now have some analysis from business groups of why 
various companies and individuals are not doing more to capture 
this free energy through efficiency, and I am optimistic that 
people will get their acts together who are concerned about 
those three different sides of the issue.
    Chairman Baird. Any final comments by Dr. Meehl or Dr. 
Cullen? And then we will release this excellent panel for the 
next one.
    Dr. Cullen. I think one remark I would like to simply make 
is that with this notion that extreme weather events will 
increase over time, I think it's important to just remember 
that in our daily lives as we move forward there are numerous 
things we all need to worry about. And if you look at the 
tragic events that happened during the national floods, yes, we 
dealt with extreme weather events in the past, but from an 
infrastructure standpoint, from doing things in the short term 
to reduce to our overall vulnerability, I think rather than 
think about catastrophes it's thinking about the fact that we 
have information that can reduce our overall vulnerability, 
make our communities stronger.
    And, you know, I just come back to the fact that, just as 
meteorologists on the short term are trying to keep people out 
of harm's way, this is information that is ultimately meant to 
make our communities stronger and safer. And it's sort of as 
simple as that as we move forward over the next decade or two.
    Chairman Baird. Dr. Meehl, any final comment?
    I want to thank this outstanding panel for their expertise, 
for their years of work, and for modeling a productive and 
constructive discussion. Thank you very much.
    We will recess for about four or five minutes until the 
next panel can be seated. I am sure my colleagues join me in 
thanking this panel of witnesses, and I will ask them to retire 
at this moment and invite our others to join us.
    [Recess.]

Panel II
    Chairman Baird. I appreciate everyone joining us again. We 
now will begin our second panel.
    As before, it's my pleasure to introduce our second panel 
of witnesses: Dr. Patrick Michaels is a Senior Fellow in 
Environmental Studies for the Cato Institute. Dr. Benjamin D. 
Santer is an Atmospheric Scientist for the Program for Climate 
Model Diagnosis and Intercomparison at Lawrence Livermore 
National Laboratory. Dr. Richard B. Alley is the Evan Pugh 
Professor for the Department of Geosciences and Earth and the 
Environmental Systems Institute at Pennsylvania State 
University. And Dr. Richard Feely, from my home State of 
Washington, is a Senior Scientist for the Pacific Marine 
Environmental Laboratory with the National Oceanic and 
Atmospheric Administration.
    As our witnesses observed before, we do our level best to 
try to stick to five minutes. Sometimes if you go a little bit 
over I will be as patient as I can. But please do your best to 
keep it at five minutes. And following the presentations, we 
will have a series of questions. Again, I thank our witnesses.
    Dr. Michaels, you are welcome to begin. Thank you.

      STATEMENT OF PATRICK J. MICHAELS, SENIOR FELLOW IN 
             ENVIRONMENTAL STUDIES, CATO INSTITUTE

    Dr. Michaels. Thank you, Congressman Baird. It's very nice 
to be here. It's an honor to be here.
    I think the first panel set what I think what is an 
interesting scientific discussion. What we are really looking 
at here is to whether the sensitivity of temperature to carbon 
dioxide is as large as some people think or whether there are 
other factors that are responsible for the temperature changes 
that we have seen.
    I would like to show the first slide, if I could.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The important thing about climate change to remember is 
that it doesn't matter whether people change the climate. One 
of the rhetorical devices that is inaccurate on this is to say 
all scientists agree that human beings have an influence on 
climate. So what? What matters is how much we influence the 
climate. And we are getting some guidance from Mother Nature on 
this, despite our best efforts, if you will.
    This slide shows--each piece of colored spaghetti on this 
slide is a computer model. There are 21 different models from 
the United Nations IPCC scenario for concentrations in the 
atmosphere that pretty much resemble what's been going on in 
the atmosphere. One of the things you see is each one of those 
pieces of colored spaghetti is pretty much a straight line, and 
the reason for that is because we put carbon dioxide in the 
atmosphere exponentially, but the response is logarithmic, and 
it tends to do that.
    Now, ask yourself the question: Since the planet started 
its warming of the late 20th century, has the warming been a 
straight line? And the answer is yes. So how do you 
discriminate between these straight lines? The same thing you 
tell students in weather forecasting, which I have taught. When 
different models say different things, look out the window. And 
when you look out the window, what you see here is at the low 
end of this line.
    Now, I hope it went to the next image. Very good.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Another way to look at this issue is to look at the 
frequency distribution of temperatures produced by all these 
temperature trends produced by all these models for periods say 
of five on out to 15 years. And the blue line are the observed 
trends from the Climate Research Center--Climate Research Unit 
at East Anglia. And what you can see, which corresponds to what 
we saw on the last slide, is in fact the warming is clearly 
below the average predicted by these models. Yes, we have a 
greenhouse gas fingerprint, and we are going to hear about that 
in this talk. But I submit to you that it's a pinkie. It's not 
one of the dreaded other fingers.
    And, furthermore, if we take a look at the attempts like 
this, they are very sensitive to the years that are chosen.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This particular paper right here is probably the most 
famous paper ever published on attribution of climate change. 
It appeared in 1996, and it shows that the temperature between 
1963 of the free atmosphere and 1987 corresponded remarkably to 
what was modeled. It was fantastic. It was a wonderful result.
    And here is the left-hand side, is the computer.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    You can see in the Southern Hemisphere, which is on the 
right-hand side of the left-hand image, a massive warming, and 
you see from 1963 through 1987 in the Southern Hemisphere a 
massive warming. What a wonderful finding. But the weather data 
actually begins in 1957, the weather balloon record for this, 
and it ends in 1995 for the purposes of a paper published in 
1996.
    I offer you the observation by the way, this paper appeared 
four days before probably the most important conference on 
climate change ever held by the United Nations Policy 
Committee; and it was highly, highly influential.
    At any rate, when you add in all the data from 1957 through 
1995, the relationship vanishes. So these studies are very, 
very sensitive to what goes on with the temperature--what 
period we study, rather.
    So the search goes on. Sulfates, aerosols, the sensitivity 
or the effect of them is estimated between zero and minus two 
watts per meter squared. You can pick pretty much any value you 
want, which makes it very easy to fit curves.
    Then there is the problem of volcanoes. After this 
appeared, another research effort was made to look at the 
effect of volcanoes on the temperature. You see, scientists 
actually are involved mainly in trying to find out why it has 
warmed so little compared to the greenhouse-gas-only models. 
And so a paper came out by pretty much the same group that 
said, well, if we go back to Krakatoa in 1883 and we factor in 
the volcanoes, my God, 2/3 of the warming that would have 
occurred has been suppressed. Wow.
    That's another remarkable finding that turns out to be 
incredibly time-dependent. Because, you see, there were 
volcanoes before 1883. Mount Tambora went off in 1815, created 
the year without a summer, 1816. We have these records.
    And, very recently, Jonathan Gregory just got a paper 
accepted, and it will be published very soon, which uses the 
entire volcanic record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    And I offer you this is an artifact of experimental design 
caused by the models having been spun up to a steady state with 
episodic volcanic forcing before the historical simulations 
began. This artifact could be misleading in comparison and 
attributions observed and simulated changes in climate.
    So I will tell you what my conclusion is.
    First of all, scientists works by tentative hypotheses, and 
you look at data to see whether you can maintain your tentative 
hypothesis or whether you have to modify it. My tentative 
hypothesis would be that the sensitivity has been 
overestimated, in agreement with Lindzen and Spencer and a 
whole host of other scientists; and that is the prospect that 
we need to test.
    Now, I realize some people might not agree with me on this, 
because some people say there is no such thing as climate 
change, and some people say, well, yes, climate change is the 
end of the world. If you disagree, you can join this Facebook 
site that appeared and you can take care of me.
    Thank you very much.
    [The prepared statement of Dr. Michaels follows:]
               Prepared Statement of Patrick J. Michaels
    Thank you for inviting my testimony. I am a Senior Fellow in 
Environmental Studies at the Cato Institute and Distinguished Senior 
Fellow in the School of Public Policy at George Mason University. This 
testimony represents no official point of view from either of these 
institutions and is tendered with the traditional protections of 
academic freedom.
    My testimony has four objectives

        1)  Demonstration that the rate greenhouse-related warming is 
        clearly below the mean of climate forecasts from the United 
        Nations Intergovernmental Panel on Climate Change (IPCC) that 
        are based upon changes in atmospheric carbon dioxide 
        concentrations that are closest to what is actually being 
        observed,

        2)  demonstration that the Finding of Endangerment from 
        greenhouse gases by the Environmental Protection Agency is 
        based upon a very dubious and critical assumption,

        3)  demonstration that the definition of science as a public 
        good induces certain biases that substantially devalue efforts 
        to synthesize science, such as those undertaken by the IPCC and 
        the U.S. Climate Change Science Program (CCSP), and

        4)  demonstration that there is substantial discontent with 
        governmental and intergovernmental syntheses of climate change 
        and with policies passed by this House of Representatives.

    ``Climate change'' is nothing new, even climate change induced by 
human activity. What matters is not whether or not something so obvious 
exists, but to what magnitude it exists and how people adapt to such 
change.
    For decades, scientists have attempted to model the behavior of our 
atmosphere as carbon dioxide and other greenhouse gases are added above 
the base levels established before human prehistory. The results are 
interesting but are highly dependent upon the amount of carbon dioxide 
that resides in the atmosphere, something that is very difficult to 
predict long into the future with any confidence. It is safe to say 
that no one--no matter whether he or she works for the government, for 
industry, or in education--can tell what our technology will be 100 
years from now. We can only say that if history is to be any guide, it 
will be radically different from what we use today and that therefore 
projecting greenhouse gas emissions so far into the future is, to 
choose a word carefully, useless.
    One thing we are certain of, though, is that the development of 
future technologies depends upon capital investment, and that it would 
be foolish to continue to spend such resources in expensive programs 
that will in fact do nothing significant to global temperature.
    Fortunately, despite the doomsaying of several, we indeed have the 
opportunity to not waste resources now, but instead to invest them much 
further in the future. That is because the atmosphere is clearly 
declaring that the response to changes in carbon dioxide is much more 
modest that what appears to be the consensus of scientific models.

Testimony Objective #1: Greenhouse-related warming is clearly below the 
                    mean of relevant climate forecasts from the IPCC

    Figure 1 shows the community of computer model projections from the 
IPCC's ``midrange'' scenario. Observed changes in atmospheric carbon 
dioxide concentrations correspond closer to this one than to others. 
You will note one common characteristic of these models: they predict 
warmings of a relatively constant rate. This is because, in large part, 
the response of temperature to changes in atmospheric carbon dioxide is 
logarithmic (meaning that equal incremental increases produce 
proportionally less warming as concentration increases), while the 
increase in carbon dioxide itself is a low-order exponent rather than a 
straight line. This combination tends to produce constant rates of 
warming.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1. Projected temperature rise over the course of the 21st 
century from climate models used in the IPCC's Fourth Assessment Report 
(colored lines) running a `midrange'' emissions scenario, with observed 
temperatures superimposed (red circles).

    The various models just produce different quasi-constant rates. 
Divining future warming then becomes rather easy. Do we have a constant 
rate of warming? And if so, then we know the future rate, unless the 
functional form of all of these models is wrong. And if this is wrong, 
scientists are so ignorant of this problem, that you are wasting your 
time in soliciting our expertise.
    How does the observed rate of global temperature increase compare 
to what is being projected? For that, we can examine the behavior of 
literally hundreds of iterations of these models. For time periods of 
various lengths, some of these models will actually produce no 
significant warming trend (as has been observed since 1996), or even a 
short-term interval of cooling.
    Figure 2 gives us the mean and 95% confidence limits of the 
midrange family of IPCC models as well as temperatures observed by the 
Climate Research Unit at the University of East Anglia. (More will be 
said on this history below). It is quite apparent that the observed 
rates of change are below the mean value forecast by the IPCC.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 2. Range of climate model probabilities of surface temperature 
trends (gray shading) overlaid with the observed surface temperature 
trend from the Climate Research Unit (blue line) (data through 
September 2010).

    An additional and important discrepancy between the models and 
reality extends into the lower atmosphere as well. In the lower 
atmosphere, climate models expectations are that the degree of warming 
with increasing greenhouse gas concentrations should be greater than 
that experienced at the surface, with the lower atmosphere warming 
about 1.4 times faster than the average surface temperature. Despite 
claims that observations and models are in agreement (Santer et al., 
2008), new analyses incorporating a large number of both observational 
datasets as well as climate model projections, clearly and strongly 
demonstrate that the surface warming (which itself is below the model 
mean) is significantly outpacing the warming in the lower atmosphere--
contrary to climate model expectations. Instead of exhibiting 40% more 
warming than the surface, the lower atmosphere is warming 25% less--a 
statistically significant difference (Christy et al., 2010).
    And further, the climate models are faring little better with 
oceanic temperature changes. There again, they project far more warming 
than has been observed. In a much-publicized paper published in Nature 
magazine in 2006 (by authors Gleckler, Wigley, Santer, Gregory, 
AchutaRao, Taylor, 2006), it was claimed that by including the cooling 
influence of a string of large volcanic eruptions starting in 1880, 
that climate models produced a much closer match to observed trends in 
ocean warming than when the models did not include the volcanic 
impacts. Further, it was claimed that volcanic eruptions as far back as 
Krakatoa in 1883 were still significantly offsetting warming from human 
greenhouse gas emissions. However, a soon-to-be-published paper by one 
of the Nature paper's original authors, Jonathan Gregory, shows that 
the influence of volcanoes was greatly exaggerated as the original 
climate models assumed that no major volcanic eruptions had occurred 
prior to Krakatoa. In fact, episodic major eruptions are an integral 
part of the earth's natural climate. Gregory shows that had climate 
models been equilibrated with more realistic natural conditions, that 
the long-term impact of volcanoes since the late 19th century would be 
greatly minimized. In that case, the apparent match between model 
simulations and observations of oceanic heat content that was noted by 
Gleckler et al. would deteriorate, leaving climate models once again 
over-responsive to rising levels of greenhouse gases.
    I caution you that analyses of climate models can be highly 
dependent upon the time period chosen. There was a major El Nino event 
in 1998, which is the warmest year in the instrumental histories. Thus 
any analysis beginning in this year will show little warming. On the 
other hand, if one studies the last twenty years, there is a major 
volcano at the beginning of the record (Pinatubo in 1991), so any 
analysis beginning then will show anomalously large warming trends.
    An example of the time dependency of model validation can be seen 
in one of the most famous papers ever published on this subject, by 
Santer et al. (1996). It was clearly rushed to print by Nature magazine 
in order to provide a scientific justification for the Second 
Conference of the Parties to the United Nations Framework Convention on 
Climate Change, held in Geneva a mere few days after its publication. 
The findings were reported in virtually every major newspaper on the 
planet in this politically sensitive timeframe.
    The analysis shows a remarkable fit between the observed three-
dimensional changes in the atmosphere and what was projected by models 
between 1963 and 1987. But, indeed, this three-dimensional history 
actually begins in 1957, and, for the purposes of this paper, clearly 
ends in 1995, not 1987.
    The major match for this record results from the substantial 
warming of the southern hemisphere compared to the northern (Figure 3). 
Indeed the time evolution of southern hot spot is striking from 1963 
through 1987. But, when all of the data are used, the warming trend 
completely disappears.\1\
---------------------------------------------------------------------------
    \1\ The attitude displayed in the famous ``climategate'' emails has 
a long provenance. This finding was shown in an invited presentation to 
the American Meteorological Society annual meeting in 1997. A scientist 
whom I had held in high esteem, Tim Barnett of Scripps Institute of 
Oceanography, in the discussion after its presentation, threatened to 
asphyxiate me with the microphone cord ``if I ever gave it again''.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 3. Modeled (upper left) and observed (upper right) temperatures 
changes throughout the atmosphere. Time series of temperatures in the 
region of the highlighted box in the upper right panel, 1957-1995. 
Filled circles: 1963-1987; Open circles, 1957-62 and 1988-95. Use of 
---------------------------------------------------------------------------
all the available data clearly changes the result.

    Nonetheless, the Geneva conference marked the turning point in 
international climate change policy. It was agreed there that at the 
next conference, in Kyoto, that the nations of the world would adopt a 
binding protocol to reduce carbon dioxide emissions. The resultant 
Kyoto protocol demonstrably did nothing about climate change and was an 
historic, expensive failure that led to the ultimate failure in 
subsequent policy that took place in Copenhagen last December.

Testimony Objective #2: The Finding of Endangerment from greenhouse 
                    gases by the Environmental Protection Agency is 
                    based upon a very dubious and critical assumption

    The reluctance of the Senate to mandate significant reductions in 
carbon dioxide emissions has resulted in EPA taking the lead in this 
activity. Consequently it issued an ``endangerment finding'' on 
December 7, 2009. The key statement in this Finding is adapted from the 
Fourth Assessment Report of the IPCC and from the CCSP:

         Most of the observed increase in global average temperatures 
        since the mid-20th century is very likely due to the observed 
        increase in anthropogenic GHG [greenhouse gas] concentrations. 
        [italics added]

    Here the EPA gives us a very testable hypothesis. ``Most'' means 
more than 50%. ``Very likely'', according to the IPCC and CCSP, means 
with a subjective probability of between 90 and 95 %. ``Since the mid-
20th century'' means after 1950. So, is more than half of the warming 
since 1950 a result of ``the observed increase in anthropogenic GHG 
concentrations?''
    Figure 4 is a plot of observed global surface temperature since 
1950 from the Climate Research Unit of the University of East Anglia. 
Note that its linear behavior is quite striking, with a warming trend 
of 0.70+C.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 4. Annual global average temperature history from 1950 to 2009 
(source: U.K. Hadley Center).

    Thompson et al., writing in Nature in 2008, noted that sea-surface 
temperatures were measured too cold between the mid-1940s and mid-
1960s. Accounting for this lowers the surface warming trend from 0.70 
to 0.55+C; see Figure 5.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 5. Annual global average temperature history from 1950 to 2009 
(source: U.K. Hadley Center) and adjusted annual global average 
temperature to remove SST errors (Thompson et al., 2008).

    Late in 2007, Ross McKitrick and I published an analysis of ``non 
climatic'' trends in surface temperature data. While the global effect 
was not as large as some erroneous reports have stated, we found that 
approximately .08+C of the warming trend was a result of these factors. 
We were looking at effects that could only occur over land, and 
Thompson et al. was concerned with the ocean, so these two adjustments 
are obviously independent, additive, and not from GHG changes. The 
remaining warming is now 0.47+C (Figure 6).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 6. Annual global average temperature history from 1950 to 2009 
(source: U.K. Hadley Center) and adjusted annual global average 
temperature to remove SST errors (Thompson et al., 2008) and non-
climatic influences (McKitrick and Michaels, 2007).

    In January, 2010, in an attempt to explain the lack of significant 
warming that has been observed since 1996, Susan Solomon published a 
new simulation in Science that took into effect the radiative 
consequences of changing water vapor in the stratosphere. No one really 
knows why this is happening, but it is not an obvious consequence of 
changing GHG concentrations. This additional factor drops the warming 
to 0.41+C; see Figure 7.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 7. Annual global average temperature history from 1950 to 2009 
(source: U.K. Hadley Center) and adjusted annual global average 
temperature to remove SST errors (Thompson et al., 2008), non-climatic 
influences (McKitrick and Michaels, 2007) and the influence of 
stratospheric water vapor increases (Solomon et al., 2010).

    In 2009, Ramanathan and Carmichael reviewed the effects of black 
carbon--which is not a GHG--on temperature and concluded it was 
responsible for approximately 25% of observed warming. This now drops 
the residual warming to a ceiling of 0.31+C, or 44% of the original 
0.70+ (Figure 8). Note that this catena of results does not invoke 
solar variability, as estimates of its impact on recent climate vary 
widely (Scafetta, 2009).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 8. Annual global average temperature history from 1950 to 2009 
(source: U.K. Hadley Center) and adjusted annual global average 
temperature to remove SST errors (Thompson et al., 2008), non-climatic 
influences (McKitrick and Michaels, 2007), the influence of 
stratospheric water vapor increases (Solomon et al., 2010) and the 
influence of black carbon aerosols (Ramanathan and Carmichael, 2009).

    Consequently EPA's core statement (as well as that of the IPCC and 
the CCSP), ``Most of the observed increase in global average 
temperatures since the mid-20th century is very likely due to the 
observed increase in anthropogenic GHG [greenhouse gas] 
concentrations'', is not supported.

Testimony Objective #3: The definition of science as a public good 
                    induces certain biases that substantially devalue 
                    efforts to synthesize science, such as those 
                    undertaken by the IPCC and the U.S. Climate Change 
                    Science Program (CCSP).

    Visitors to the website of Scientific American have been invited to 
participate in an ongoing survey on global warming. This survey finds--
despite the general environmentalist bent of its readership--that only 
a tiny minority (16%) agree that the IPCC is ``an effective group of 
government representatives, scientists, and other experts''. 84% agree, 
however, that it is ``a corrupt organization, prone to groupthink, with 
a political agenda'' (Figure 9). The concordance between the IPCC and 
the bizarre one-sidedness of the CCSP Synthesis would compel the 
respondents to say the same about it, if asked.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 9. Only a tiny minority of respondents (16%) agree that the IPCC 
is ``an effective group of government representatives, scientists, and 
other experts''. 84% agree, however, that it is ``a corrupt 
organization, prone to groupthink, with a political agenda'' (Questions 
4 from a Scientific American on-line poll, downloaded November 12, 
2010).

    This stems from the very nature of modern science, which is treated 
largely as a public good, to be funded by taxpayer dollars. But, like 
other tax-supported entities, science also competes within itself for 
attention to its disciplines and problems. In the environment of 
Washington, the most emergent or apparently urgent subjects receive 
proportional public largesse. With regard to incentives, no scientific 
community ever came into this House of Representatives and claimed that 
its area of interest was overemphasized and that funding should be 
directed elsewhere. This is normal behavior.
    However, an implication of this behavior is that the peer-review 
process is also populated by a community of incentivized individuals. 
The test of this hypothesis would be in fact if that literature were 
demonstrably biased.
    Rather than use the inflammatory subject of climate change as an 
example, I draw your attention to the everyday weather forecast. In the 
US, we recast our global forecasting models twice a day, based upon 
three dimensional measurements of atmospheric state variables that 
simultaneously updated.
    If the initial forecast model is unbiased, each new pieced of 
information has an equal probability of either raising or lowering the 
high temperature forecast three days from now. And, indeed, that turns 
out to be the case.
    The same should apply to climate science if there is no 
incentivized bias. In fact, the ``mainstream'' community of climate 
scientists claims this is true. In their Amicus brief in Massachusetts 
v EPA, the supreme court case that required the EPA to determine 
whether or not carbon dioxide caused ``endangerment'', Battisti et al., 
writing as ``The Climate Scientists'' state:

         Outcomes may turn out better than our best current prediction, 
        but it is just as possible that environmental and health 
        damages will be more than severe than the best predictions.

    As with the EPA's use of ``most'' and ``mid-20th century'', ``just 
as possible'' is a quantitatively testable hypothesis. In this case, 
``The Climate Scientists'' are stating that there is an equal 
probability that a new scientific finding in global warming, in amount 
or consequence makes future prospects either worse than previously 
thought or not as bad.
    I examined 13 consecutive months of Nature and Science to test the 
hypothesis of unbias. Over a hundred articles were examined. Of those 
that demonstrably had a ``worse than'' or ``not as bad as'' component, 
over 80 were in the ``worse'' category and 11 were ``not as bad''.
    The possibility that this did not reflect bias can be determined 
with a binomial probability. It is similar to the likelihood that a 
coin could be tossed 93 times with only 11 ``heads'' or ``tails''. That 
probability is less than 1 in 100,000,000,000,000,000.
    In fact, climate science holds itself apart from other quantitative 
fields. Both economics and biomedical science acknowledge this problem, 
known as ``publication bias'' when doing meta-analyses. It a concept is 
completely foreign to the dominant mainstream in my profession, in the 
IPCC and in the CCSP.

Testimony Objective #4: There is substantial discontent with 
                    governmental and intergovernmental syntheses of 
                    climate change and with policies passed by this 
                    House of Representatives.

    In response to a perceived political need for mandated reductions 
to demonstrate our national resolve at Copenhagen, this House passed a 
cap-and-trade bill on June 26, 2009. The Senate never considered such 
legislation and it will rest when this Congress adjourns.
    The survey by Scientific American shows the unpopularity of this 
approach. Figure 10 shows that only 7.5% of nearly 7,000 respondents 
say cap and trade was the course that should have been taken.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Figure 10. Only 7.5% of nearly 7,000 respondents said cap and trade 
was the course that should have been taken (Questions 7 from a 
Scientific American on-line poll, downloaded November 12, 2010).

Conclusion
    I hope to have demonstrated in this testimony that observed warming 
rates are certainly below the mean of the most likely suite of climate 
models, and that the finding of endangerment by the EPA is based upon 
an important assumption that may not be true.
    Further, science and scientists are demonstrably incentivized, as 
publicly funded goods, in ways that make any synthesis of the 
scientific literature highly susceptible to bias. Finally, an ongoing 
survey by Scientific American reveals profound distrust of scientific 
institutions such as the IPCC, and by extension, the CCSP, probably 
caused by the incentives noted above.

References:

Battisti, D., et al., 2006. Brief of the Amici Curiae Climate 
        Scientists David Battisti et al. Supreme Court of the United 
        States, case 05-1120. 30pp.

Christy, J. R., et al. 2010. What do observational datasets say about 
        modeled tropospheric temperature trends since 1979? Remote 
        Sensing, 2, 2148-2169, doi:10.3390/rs2092148.

Gleckler, P. J., T. M. L. Wigley, B. D. Santer, J. M. Gregory, K. 
        AchutaRao, and K. E. Taylor, 2006. Krakatoa's signature 
        persists in the ocean. Nature, 439, 675, doi:10.1038/439675a.

Gregory, J. M., 2010. The long-term effect of volcanic forcing on ocean 
        heat content. Geophysical Research Letters, in press.

Intergovernmental Panel on Climate Change, 2007. Climate Change 2007: 
        The Physical Basis. Solomon S., et al. (eds). Cambridge 
        University Press, Cambridge, U.K., 996 pp.

McKitrick, R. R., and P. J. Michaels, 2007. Quantifying the influence 
        of anthropogenic surface processes inhomogeneities on gridded 
        global climate data. Journal of Geophysical Research, 112, 
        D24S09, doi:10.1029/2007JD008465.

Michaels, P.J., and P. C. Knappenberger, 1996. Human effect on global 
        climate? Nature, 384, 522-523.

Michaels, P.J., 2008. Evidence for ``publication bias'' concerning 
        global warming in Science and Nature. Energy & Environment, 19, 
        287-301

Ramanathan V., and G. Carmichael, 2009. Global and regional climate 
        changes due to black carbon. Nature GeoScience, 1, 221-227.

Santer, B.D., et al., 1996. A search for human influences on the 
        thermal structure of the atmosphere. Nature, 382, 39-46.

Santer, B.D., et al., 2008. Consistency of modeled and observed 
        temperature trends in the tropical troposphere. International 
        Journal of Climatology. doi:10.1002/joc.1756.

Scafetta, N., 2009. Empirical analysis of the solar contribution to 
        global mean air surface temperature change. Journal of 
        Atmospheric and Solar-Terrestrial Physics, 71, 1916-1923.

Solomon, S., et al. 2010. Contributions of stratospheric water vapor to 
        decadal changes in the rate of global warming. Science, 
        published on-line January 28, 2010.

Thompson, D., et al., 2008. A large discontinuity in the mid-twentieth 
        century in observed global-mean surface temperature. Nature, 
        453, 646-649.

                   Biography for Patrick J. Michaels
    Patrick J. Michaels is Senior Fellow in Environmental Studies at 
the Cato Institute Distinguished Senior Fellow in the School of Public 
Policy at George Mason University. He is a past president of the 
American Association of State Climatologists and was program chair for 
the Committee on Applied Climatology of the American Meteorological 
Society. Michaels was also a research professor of Environmental 
Sciences at University of Virginia for thirty years. Michaels was a 
contributing author and is a reviewer of the United Nations 
Intergovernmental Panel on Climate Change, which was awarded the Nobel 
Peace Prize in 2007. His writing has been published in the major 
scientific journals, including Climate Research, Climatic Change, 
Geophysical Research Letters, Journal of Climate, Nature, and Science, 
as well as in popular serials worldwide. He was an author of the 
climate ``paper of the year'' awarded by the Association of American 
Geographers in 2004. He has appeared on most of the worldwide major 
media. Michaels holds A.B. and S.M. degrees in biological sciences and 
plant ecology from the University of Chicago, and he received a Ph.D. 
in ecological climatology from the University of Wisconsin at Madison 
in 1979.
    Michaels is the author of five books on climate change, the latest 
of which is Climate of Extremes: Global Warming Science They Don't Want 
You to Know (Cato Books, 2009).

    Chairman Baird. Dr. Santer.

STATEMENT OF BENJAMIN D. SANTER, ATMOSPHERIC SCIENTIST, PROGRAM 
   FOR CLIMATE MODEL DIAGNOSIS AND INTERCOMPARISON, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Santer. Thank you very much, Chairman Baird, for the 
opportunity to talk to you here today about climate change and 
have a rational discussion.
    I am not going to address some of the issues that Professor 
Michaels raised. I hope that I may be able to do so in the 
question and answer session.
    Today is November the 17th, and my dad was born 91 years 
ago on November the 17th, 1919.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This figure is from the report which was published last 
year by the U.S. Global Change Program, Global Climate Change 
Impacts in the United States; and what you see on the right-
hand side is a scale that shows you the change in atmospheric 
CO<INF>2</INF> levels, as Dr. Cicerone mentioned earlier, 
measured worldwide. On the left-hand side, the temperature 
change, this difficult estimate of the average temperature of 
the planet.
    And the point I want to illustrate with this is over a 
human lifetime there has been a change from roughly 300 parts 
per million per volume CO<INF>2</INF> in the atmosphere to 390. 
That's not a belief system. People often ask me, Dr. Santer, do 
you believe in global warming? I believe in facts and evidence. 
This is a fact. I think we can all agree on this.
    So the question is, what did this change in atmospheric 
composition do, if anything? Well, that's a difficult question 
to answer. Climate change is not an either/or proposition. It's 
not either all human influences or all natural influences. 
Clearly, many things are happening simultaneously: massive 
volcanic eruptions, changes in the Sun's energy output, human 
changes in greenhouse gases, and aerosol particles. The 
difficulty is separating the natural factors from the 
nonnatural factors.
    In the real world, of course, we can't do that. We have no 
undisturbed Earth without any human intervention. But with 
computer models of the climate system we can look purely at the 
natural factors, and that's what you see here, and how they may 
have changed over the 20th century, changes in the Sun's energy 
output and volcanic aerosols.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    You use a computer model, many computer models in this 
case, and what you can see is that just with natural factors 
you can't explain the warming we have observed over the second 
half of the 20th century. When you have put in combined human 
and natural factors, you can.
    Now, this isn't convincing evidence. I agree with Dr. 
Lindzen on that point. He said, you know, if you just look at 
global temperature alone it's difficult to make reliable 
influences about causation.
    And that's why, as scientists since 1979, since the first 
paper on fingerprinting, we have looked beyond the global mean. 
We have looked at complex patterns of climate change. And what 
you see here, again from last year's Global Climate Change 
Impacts in the United States report, is a model-based estimate 
of the fingerprints of different factors which affect climate.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    And there are five different fingerprints up there. There 
are changes in well-mixed greenhouse gases. There are changes 
in sulfate aerosol particles. Both of those are human. Sulfate 
aerosols are produced by the burning of fossil fuels. Then 
there are changes in stratospheric and tropospheric ozone, 
changes in volcanic aerosols, solar irradiance, and then the 
final pattern is all factors considered together.
    Now, I don't want to go into the details. The key point 
here is that they are all different. And what we are doing here 
is we are looking at slices of the atmosphere from the Earth's 
surface right up to 20 miles, and from the North Pole to the 
South Pole; and these are model-based estimates of changes in 
temperature over the last 50 years of the 20th century. They 
are different, and we exploit those differences in 
fingerprinting to try and understand cause and effect 
relationships.
    As you have heard, some people still posit even today that 
the Sun explains everything. That is a testable hypothesis. We 
routinely look at that hypothesis. Our best understanding is, 
if the Sun's energy output had slightly increased over the last 
50 years, there would be more solar energy arriving at the top 
of the atmosphere; we would see heating throughout the full 
vertical extent of the atmosphere. We don't see that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The reality is that the observations look much more similar 
to the top fingerprint, the signature of well-mixed greenhouse 
gases. They don't look anything like the Sun explains 
everything.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Also, as Dr. Cicerone mentioned earlier, for the last 30 
years we have measured with a number of different satellite 
instruments the Sun's energy output in space, and we know that 
there are these 11-year cycles, but there is no overall 
increase in temperature in solar irradiance over the last 30 
years. There is, however, an increase in temperature over the 
last 30 years. So the Sun explains everything does not 
convincingly explain observed climate change. It doesn't fit 
the bill.
    Now, back at the time when this fingerprinting work first 
came to the fore, Professor Michaels mentioned that in the mid-
1990s it was criticized. Quite rightly, I believe. People said 
if there really is a human-caused fingerprint in observations, 
go look in many different locations, not just at the at the 
surface of the Earth, not just in atmospheric temperatures. But 
look in rainfall, look in moisture, look in pressure patterns. 
And that's exactly what the community has done. The community 
has looked in many different aspects of the climate system, 
used these statistical rigorous comparisons to look at patterns 
of change, not global mean numbers, and has been able to show 
that the changes in all of these things are not consistent with 
natural causation alone. Now, you may not like that result, but 
that's our best understanding that we have. The climate system 
is telling us an internally and physically consistent story.
    [The prepared statement of Dr. Santer follows:]
         Biography and Prepared Statement of Benjamin D. Santer

1. Biographical information

    My name is Benjamin Santer. I am a climate scientist. I work at the 
Program for Climate Model Diagnosis and Intercomparison (PCMDI) at 
Lawrence Livermore National Laboratory (LLNL) in California. I am 
testifying today as a member of Lawrence Livermore National Laboratory 
and of PCMDI.
    I have been employed at PCMDI since 1992. PCMDI was established in 
1989 by the U.S. Department of Energy, and has been at LLNL since then. 
PCMDI's mission is to quantify how well computer models simulate 
important aspects of present-day and historical climate, and to reduce 
uncertainties in model projections of future climate change.
    PCMDI is not engaged in developing its own computer model of the 
climate system (``climate model ''). Instead, we study the performance 
of all the world's major climate models. We also coordinate 
international climate modeling simulations, and help the entire climate 
science community to analyze and evaluate climate models.
    I have a Ph.D. in Climatology from the Climatic Research Unit of 
the University of East Anglia in the United Kingdom. I went to the 
Climatic Research Unit in 1983 because it was (and still is) one of the 
world's premier institutions for studying past, present, and future 
climate. During the course of my Ph.D., I was privileged to work 
together with exceptional scientists--with people like Tom Wigley, Phil 
Jones, Keith Briffa, and Sarah Raper.
    My thesis explored the use of so-called ``Monte Carlo'' methods in 
assessing the quality of different climate models. After completing my 
Ph.D. in 1987, I spent five years at the MaxPlanck Institute for 
Meteorology in Hamburg, Germany. During my time in Hamburg, I worked 
with Professor Klaus Hasselmann on the development and application of 
``fingerprint'' methods, which are valuable tools for improving our 
understanding of the nature and causes of climate change.
    Much of the following testimony is adapted from a chapter Tom 
Wigley and I recently published in a book edited by the late Professor 
Stephen Schneider (1), and from previous testimony I gave to the House 
Select Committee on Energy Independence and Global Warming (2).

2. Introduction

    In 1988, the Intergovernmental Panel on Climate Change (IPCC) was 
jointly established by the World Meteorological Organization and the 
United Nations Environment Programme. The goals of this panel were 
threefold: to assess available scientific information on climate 
change, to evaluate the environmental and societal impacts of climate 
change, and to formulate response strategies. The IPCC's first major 
scientific assessment, published in 1990, concluded that ``unequivocal 
detection of the enhanced greenhouse effect from observations is not 
likely for a decade or more'' (3).
    In 1996, the IPCC's second scientific assessment made a more 
definitive statement regarding human impacts on climate, and concluded 
that ``the balance of evidence suggests a discernible human influence 
on global climate'' (4). This cautious sentence marked a paradigm shift 
in our scientific understanding of the causes of recent climate change. 
The shift arose for a variety of reasons. Chief amongst these was the 
realization that the cooling effects of sulfate aerosol particles 
(which are produced by burning fossil fuels that contain sulfates) had 
partially masked the warming signal arising from increasing atmospheric 
concentrations of greenhouse gases (5).
    A further major area of progress was the increasing use of 
``fingerprint'' studies (6, 7, 8). The strategy in this type of 
research is to search for a ``fingerprint'' (the climate change pattern 
predicted by a computer model) in observed climate records. The 
underlying assumption in fingerprinting is that each ``forcing'' of 
climate--such as changes in the Sun's energy output, volcanic dust, 
sulfate aerosols, or greenhouse gas concentrations--has a unique 
pattern of climate response (see Figure 1). Fingerprint studies apply 
signal processing techniques very similar to those used in electrical 
engineering (6). They allow researchers to make rigorous tests of 
competing hypotheses regarding the causes of recent climate change.
    The third IPCC assessment was published in 2001, and went one step 
further than its predecessor. The third assessment reported on the 
magnitude of the human effect on climate. It found that ``There is new 
and stronger evidence that most of the warming observed over the last 
50 years is attributable to human activities'' (9). This conclusion was 
based on improved estimates of natural climate variability, better 
reconstructions of temperature fluctuations over the last millennium, 
continued warming of the climate system, refinements in fingerprint 
methods, and the use of results from more (and improved) climate 
models, driven by more accurate and complete estimates of the human and 
natural ``forcings'' of climate.
    This gradual strengthening of scientific confidence in the reality 
of human influences on global climate continued in the IPCC AR4 report, 
which stated that ``warming of the climate system is unequivocal'', and 
that ``most of the observed increase in global average temperatures 
since the mid-20th century is very likely due to the observed increase 
in anthropogenic greenhouse gas concentrations'' (10) (where ``very 
likely'' signified >90% probability that the statement is correct). The 
AR4 report justified this increase in scientific confidence on the 
basis of ``. . . longer and improved records, an expanded range of 
observations and improvements in the simulation of many aspects of 
climate and its variability'' (10). In its contribution to the AR4, 
IPCC Working Group II concluded that anthropogenic warming has had a 
discernible influence not only on the physical climate system, but also 
on a wide range of biological systems which respond to climate (11).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1: Climate simulations of the vertical profile of temperature 
change due to five different factors, and the effect due to all factors 
taken together. The panels above represent a cross-section of the 
atmosphere from the North Pole to the South Pole, and from the surface 
up into the stratosphere. The black lines show the approximate location 
of the tropopause, the boundary between the lower atmosphere (the 
troposphere) and the stratosphere. This Figure is reproduced from Karl 
et al. (12).

    Extraordinary claims require extraordinary proof (13). The IPCC's 
extraordinary claim that human activities significantly altered both 
the chemical composition of Earth's atmosphere and the climate system 
has received extraordinary scrutiny. This claim has been independently 
corroborated by the U.S. National Academy of Sciences (14), the Science 
Academies of eleven nations (15), and the Synthesis and Assessment 
Products of the U.S. Climate Change Science Plan (16). Many of our 
professional scientific organizations have also affirmed the reality of 
a human influence on global climate (17).
    Despite the overwhelming evidence of pronounced anthropogenic 
effects on climate, important uncertainties remain in our ability to 
quantify the human influence. The experiment that we are performing 
with the Earth's atmosphere lacks a suitable control: we do not have a 
convenient ``undisturbed Earth'', which would provide a reference 
against which we could measure the anthropogenic contribution to 
climate change. We must therefore rely on numerical models and 
paleoclimate evidence (18, 19, 20) to estimate how the Earth's climate 
might have evolved in the absence of any human intervention. Such 
sources of information will always have significant uncertainties.
    In the following testimony, I provide a personal perspective on 
recent developments in the field of detection and attribution (``D&A'') 
research. Such research is directed towards detecting significant 
climate change, and then attributing some portion of the detected 
change to a specific cause or causes (21, 22, 23, 24). I also make some 
brief remarks about openness and data sharing in the climate modeling 
community, and accommodation of ``alternative'' views in the IPCC.

3. Recent Progress in Detection and Attribution Research

Fingerprinting
    The IPCC and National Academy findings that human activities are 
affecting global-scale climate are based on multiple lines of evidence:

        1.  Our continually-improving physical understanding of the 
        climate system, and of the human and natural factors that cause 
        climate to change;

        2.  Evidence from paleoclimate reconstructions, which enables 
        us to place the warming of the 20th century in a longer-term 
        context (25, 26);

        3.  The qualitative consistency between observed changes in 
        different aspects of the climate system and model predictions 
        of the changes that should be occurring in response to human 
        influences (10, 27);

        4.  Evidence from rigorous quantitative fingerprint studies, 
        which compare observed patterns of climate change with results 
        from computer model simulations.

    Most of my testimony will focus on the fingerprint evidence, since 
this is within my own area of scientific expertise.
    As noted above, fingerprint studies search for some pattern of 
climate change (the ``fingerprint'') in observational data. The 
fingerprint can be estimated in different ways, but is typically 
obtained from a computer model experiment in which one or more human 
factors are varied according to the best-available estimates of their 
historical changes. Different statistical techniques are then applied 
to quantify the level of agreement between the fingerprint and 
observations and between the fingerprint and estimates of the natural 
internal variability of climate. This enables researchers to make 
rigorous tests of competing hypotheses (28) regarding the possible 
causes of recent climate change (21, 22, 23, 24).
    While early fingerprint work dealt almost exclusively with changes 
in near-surface or atmospheric temperature, more recent studies have 
applied fingerprint methods to a range of different variables, such as 
changes in ocean heat content (29, 30), Atlantic salinity (31), sea-
level pressure (32), tropopause height (33), rainfall patterns (34, 
35), surface humidity (36), atmospheric moisture (37, 38), continental 
river runoff (39), and Arctic sea ice extent (40). The general 
conclusion is that for each of these variables, natural causes alone 
cannot explain the observed climate changes over the second half of the 
20th century. The best statistical explanation of the observed climate 
changes invariably involves a large human contribution.
    These fingerprint results are robust to the processing choices made 
by different groups, and show a high level of physical consistency 
across different climate variables. For example, observed atmospheric 
water vapor increases (41) are physically consistent with increases in 
ocean heat content (42, 43) and near-surface temperature (44, 45).
    There are a number of popular misconceptions about fingerprint 
evidence. One misconception is that fingerprint studies consider 
global-mean temperatures only, and thus provide a very poor constraint 
on the relative contributions of human and natural factors to observed 
changes (46). In fact, fingerprint studies rely on information about 
the detailed spatial structure (and often the combined space and time 
structure) of observed and simulated climate changes. Complex patterns 
provide much stronger constraints on the possible contributions of 
different factors to observed climate changes (47, 48, 49).
    Another misconception is that computer model estimates of natural 
internal climate variability (``climate noise'') are accepted 
uncritically in fingerprint studies, and are never tested against 
observations (50). This is demonstrably untrue. Many fingerprint 
studies test whether model estimates of climate noise are realistic. 
Such tests are routinely performed on year-to-year and decade-to-decade 
timescales, where observational data are of sufficient length to obtain 
reliable estimates of observed climate variability (51, 52, 53, 54).
    Because regional-scale climate changes will determine societal 
impacts, fingerprint studies are increasingly shifting their focus from 
global to regional scales (55). Such regional studies face a number of 
challenges. One problem is that the noise of natural internal climate 
variability typically becomes larger when averaged over increasingly 
finer scales (56), so that identifying regional and local climate 
signals becomes more difficult.
    Another problem relates to the climate ``forcings'' used in 
computer model simulations of historical climate change. As scientific 
attention shifts to ever smaller spatial scales, it becomes more 
important to obtain reliable information about these forcings. Some 
forcings are both uncertain and highly variable in space and time (57, 
58). Examples include human-induced changes in land surface properties 
(59) or in the concentrations of carbon-containing aerosols (60,61). 
Neglect or inaccurate specification of these factors complicates D&A 
studies.
    Despite these problems, numerous researchers have now shown that 
the climate signals of greenhouse gases and sulfate aerosols are 
identifiable at continental and sub-continental scales in many 
different regions around the globe (62, 63, 64, 65). Related work (66, 
67) suggests that a human-caused climate signal has already emerged 
from the background noise at spatial scales at or below 500 km (68), 
and may be contributing to regional changes in the distributions of 
plant and animal species (69).
    In summarizing this section of my testimony, I note that the focus 
of fingerprint research has evolved over time. Its initial emphasis was 
on global-scale changes in Earth's surface temperature. Subsequent 
research demonstrated that human fingerprints were identifiable in many 
different aspects of the climate system--not in surface temperature 
only. We are now on the verge of detecting human effects on climate at 
much finer regional scales of direct relevance to policymakers, and in 
variables tightly linked to climate change impacts (70, 71, 72, 73, 
74).

Assessing Risks of Changes in Extreme Events
    We are now capable of making informed scientific statements 
regarding the influence of human activities on the likelihood of 
extreme events (75, 76, 77).
    As noted previously, computer models can be used to perform the 
control experiment (no human effects on climate) that we cannot perform 
in the real world. Using the ``unforced'' climate variability from a 
multi-century control run, it is possible to determine how many times 
an extreme event of a given magnitude should have been observed in the 
absence of human interference. The probability of obtaining the same 
extreme event is then calculated in a perturbed climate--for example, 
in a model experiment with historical or future increases in greenhouse 
gases, or under some specified change in mean climate (78). Comparison 
of the frequencies of extremes in the control and perturbed experiments 
allows climate scientists to make probabilistic statements about how 
human-induced climate change may have altered the likelihood of the 
extreme event (53, 78, 79). This is sometimes referred to as an 
assessment of ``fractional attributable risk'' (78).
    Recently, a ``fractional attributable risk'' study of the 2003 
European summer heat wave concluded that ``there is a greater than 90% 
chance that over half the risk of European summer temperatures 
exceeding a threshold of 1.6 K is attributable to human influence on 
climate'' (78).
    This study (and related work) illustrates that the ``D&A'' 
community has moved beyond analysis of changes in the mean state of the 
climate. We now apply rigorous statistical methods to the problem of 
estimating how human activities may alter the probability of occurrence 
extreme events. The demonstration of human culpability in changing 
these risks is likely to have significant implications for the debate 
on policy responses to climate change.

4. Summary of Detection and Attribution Evidence

    In evaluating how well a novel has been crafted, it is important to 
look at the internal consistency of the plot. Critical readers examine 
whether the individual storylines are neatly woven together, and 
whether the internal logic makes sense.
    We can ask similar questions about the ``story'' contained in 
observational records of climate change. The evidence from numerous 
sources (paleoclimate data, rigorous fingerprint studies, and 
qualitative comparisons of modeled and observed climate changes) shows 
that the climate system is telling us an internally consistent story 
about the causes of recent climate change.
    Over the last century, we have observed large and coherent changes 
in many different aspects of Earth's climate. The oceans and land 
surface have warmed (29, 30, 42, 43, 44, 45, 80, 81). Atmospheric 
moisture has increased (36, 37, 38, 41). Rainfall patterns have changed 
(34, 35). Glaciers have retreated over most of the globe (82, 83, 84). 
The Greenland Ice Sheet has lost some of its mass (85). Sea level has 
risen (86). Snow and sea-ice extent have decreased in the Northern 
Hemisphere (40, 87, 88, 89). The stratosphere has cooled (90), and 
there are now reliable indications that the troposphere has warmed (16, 
91, 92, 93, 94, 95, 96, 97, 98, 99, 100). The height of the tropopause 
has increased (33). Individually, all of these changes are consistent 
with our scientific understanding of how the climate system should be 
responding to anthropogenic forcing. Collectively, this behavior is 
inconsistent with the changes that we would expect to occur due to 
natural variability alone.
    There is now compelling scientific evidence that human activity has 
had a discernible influence on global climate. However, there are still 
significant uncertainties in our estimates of the size and geographical 
distribution of the climate changes projected to occur over the 21st 
century (10). These uncertainties make it difficult for us to assess 
the magnitude of the mitigation and adaptation problem that faces us 
and our descendants. The dilemma that confronts us, as citizens and 
stewards of this planet, is how to act in the face of both hard 
scientific evidence that our actions are altering global climate and 
continuing uncertainty in the magnitude of the planetary warming that 
faces us.

5. Openness and Data Sharing in the Climate Modeling Community

    Recently, concerns have been expressed about ease of access to the 
information produced by computer models of the climate system. 
``Climate modeling'' is sometimes portrayed as a secretive endeavor. 
This is not the case.
    In the 1970s and 1980s, the evaluation and intercomparison of 
climate models was largely a qualitative endeavor, mostly performed by 
modelers themselves. It often involved purely visual examination of 
maps from a single model and observations (or from several different 
models). There were no standard benchmark experiments, and there was 
little or no community involvement in model diagnosis. It was difficult 
to track changes in model performance over time (101).
    This situation changed dramatically with the start of the 
Atmospheric Model Intercomparison Project (AMIP) in the early 1990s. 
AMIP involved running different Atmospheric General Circulation Models 
(AGCMs) with observed sea-surface temperatures and sea-ice changes over 
1979 to 1988. Approximately 30 modeling groups from 10 different 
countries participated in the design and diagnosis of the AGCM 
simulations. Subsequent ``revisits'' of AMIP enabled the climate 
community to track changes in model performance over time (102).
    The next major Model Intercomparison Project (``MIP'') began in the 
mid-1990s. In phase 1 of the Coupled Model Intercomparison Project 
(CMIP-1), over a dozen fully-coupled Atmosphere/Ocean General 
Circulation Models (A/OGCMs) were used to study the response of the 
climate system to an idealized climate-change scenario--a 1% per year 
(compound interest) increase in levels of atmospheric CO<INF>2</INF> 
(103). The key aspect here was that each modeling group performed the 
same benchmark simulation, allowing scientists to focus their attention 
on the task of quantifying (and understanding) uncertainties in 
computer model projections of future climate change.
    AMIP and CMIP have spawned literally dozens of other international 
Model Intercomparison Projects. ``MIPs'' are now a de facto standard in 
the climate science community. They have allowed climate scientists to:

        <bullet>  Identify systematic errors common to many different 
        models;

        <bullet>  Track changes in model performance over time (in 
        individual models and collectively);

        <bullet>  Make informed statements about the relative quality 
        of different models;

        <bullet>  Quantify uncertainties in model projections of future 
        climate change.

    Full community involvement in ``MIPs'' has led to more thorough 
model diagnosis, and to improved climate models.
    Perhaps the best-known model intercomparison is phase 3 of CMIP. 
The CMIP-3 project was a valuable resource for the Fourth Assessment 
Report (FAR) of the IPCC (10). In the course of CMIP-3, simulation 
output was collected from 25 different A/OGCMs. The models used in 
these simulations were from 17 modeling centers and 13 countries. 
Twelve different types of simulation were performed with each model. 
The simulations included so-called ``climate of the 20th century'' 
experiments (with estimated historical changes in greenhouse gases, 
various aerosol particles, volcanic dust, solar irradiance, etc.), pre-
industrial control runs (with no changes in human or natural climate 
forcings), and scenarios of future changes in greenhouse gases. All of 
the simulation output was stored at LLNL's PCMDI.
    At present, 35 Terabytes of CMIP-3 data are archived at PCMDI, and 
nearly 1 Petabyte of model output (1 Petabyte = 10<SUP>15</SUP> bytes) 
has been distributed to over 4,300 users in several dozen countries. 
The CMIP-3 multi-model archive has transformed the world of climate 
science. As of November 2010, over 560 peer-reviewed publications used 
CMIP-3 data. These publications formed the scientific backbone of the 
IPCC FAR. The CMIP-3 archive provided the basis for roughly 75% of the 
figures in Chapters 8-11 of the Fourth Assessment Report, and for 4 of 
the 7 figures in the IPCC ``Summary for Policymakers'' (10).
    The CMIP-3 database can be used by anyone, free of charge. It is 
one of the most successful data-sharing models in any scientific 
community--not just the climate science community.

6. Accommodation of ``alternative'' views in the IPCC

    Some parties critical of the IPCC have claimed that it does not 
accommodate the full range of scientific views on the subject of the 
nature and causes of climate change. In my opinion, such claims are 
specious. I would contend that all four previous IPCC Assessments (3, 
4, 9, 10) have dealt with ``alternative viewpoints'' in a thorough and 
comprehensive way. The IPCC reports have devoted extraordinary 
scientific attention to a number of highly-publicized (and incorrect) 
claims.
    Examples include the claim that the tropical lower troposphere 
cooled over the satellite era; that the water vapor feedback is zero or 
negative; that variations in the Sun's energy output explain all 
observed climate change. The climate science community has not 
dismissed these claims out of hand. Scientists have done the research 
necessary to determine whether these ``alternative viewpoints'' are 
scientifically credible, and have shown that they are not.

7. Concluding Thoughts

    My job is to evaluate climate models and improve our scientific 
understanding of the nature and causes of climate change. I chose this 
profession because of a deep and abiding curiosity about the world in 
which we live. The same intellectual curiosity motivates virtually all 
climate scientists I know.
    As my testimony indicates, the scientific evidence is compelling. 
We know, beyond a shadow of a doubt, that human activities have changed 
the composition of Earth's atmosphere. And we know that these human-
caused changes in the levels of greenhouse gases make it easier for the 
atmosphere to trap heat. This is simple, basic physics. While there is 
legitimate debate in the scientific community about the size of the 
human effect on climate, there is really no serious scientific debate 
about the scientific finding that our planet warmed over the last 
century, and that human activities are implicated in this warming.

References and notes

1 Santer, B.D., and T.M.L. Wigley, 2010: Detection and attribution. In: 
        Climate Change Science and Policy [Schneider, S.H., A. 
        Rosencranz, M.D. Mastrandrea, and K. Kuntz-Duriseti (eds.)]. 
        Island Press, Washington D.C., pp. 28-43.

2 This testimony was given on May 20, 2010.

3 Houghton, IT., et al., 1990: Climate Change. The IPCC Scientific 
        Assessment. Cambridge University Press, Cambridge, U.K., page 
        xxix.

4 Houghton, J.T., et al., 1996: Climate Change 1995: The Science of 
        Climate Change. Cambridge University Press, Cambridge, U.K., 
        page 4.

5 Wigley, T.M.L., 1989: Possible climatic change due to SO<INF>2</INF>-
        derived cloud condensation nuclei. Nature, 339, 365-367.

6 Hasselmann, K., 1979: On the signal-to-noise problem in atmospheric 
        response studies. In: Meteorology of Tropical Oceans (Ed. D.B. 
        Shaw). Royal Meteorological Society of London, London, U.K., 
        pp. 251-259.

7 Hasselmann, K., 1993: Optimal fingerprints for the detection of time 
        dependent climate change. Journal of Climate, 6, 1957-1971.

8 North, G.R., K.Y. Kim, S.S.P Shen, and J.W. Hardin, 1995: Detection 
        of forced climate signals. Part I: Filter theory. Journal of 
        Climate, 8, 401-408.

9 Houghton, J.T., et al., 2001: Climate Change 2001: The Scientific 
        Basis. Cambridge University Press, Cambridge, U.K., page 4.

10 IPCC, 2007: Summary for Policymakers. In: Climate Change 2007: The 
        Physical Science Basis. Contribution of Working Group I to the 
        Fourth Assessment Report of the Intergovernmental Panel on 
        Climate Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. 
        Marquis, K.B. Averyt, M. Tignor, and H.L. Miller (eds.)]. 
        Cambridge University Press, Cambridge, United Kingdom and New 
        York, NY, USA.

11 IPCC, 2007: Summary for Policymakers. In: Climate Change 2007: 
        Impacts, Adaptation and Vulnerability. Contribution of Working 
        Group II to the Fourth Assessment Report of the 
        Intergovernmental Panel on Climate Change [Parry, M. et al. 
        (eds.)]. Cambridge University Press, Cambridge, United Kingdom 
        and New York, NY, USA.

12 Karl, T.R., J.M. Melillo, and T.C. Peterson, 2009: Global Climate 
        Change Impacts in the United States. Cambridge University 
        Press, 189 pages.

13 This phrase is often attributed to the late sociologist Marcello 
        Truzzi http://en.wikipedia.org/wiki/Marcello<INF>-</INF>Truzzi

14 NRC (National Research Council), 2001: Climate Change Science. An 
        Analysis of Some Key Questions. Board on Atmospheric Sciences 
        and Climate, National Academy Press, Washington D.C., 29 pp.

15 Prior to the Gleneagles G8 summit in July 2005, the Science 
        Academies of 11 nations issued a joint statement on climate 
        change (http://www.nasonline.org/site). The statement affirmed 
        the IPCC finding that ``most of the warming observed over the 
        last 50 years is attributable to human activities'' (ref. 10). 
        The signatories were from the Academia Brasiliera de Ciencias, 
        the Royal Society of Canada, the Chinese Academy of Sciences, 
        the Academie des Sciences, France, the Deutsche Akademie der 
        Naturforscher, the Indian National Science Academy, the 
        Accademia dei Lincei, Italy, the Science Council of Japan, the 
        Russian Academy of Sciences, the United Kingdom Royal Society, 
        and the U.S. National Academy of Sciences.

16 Karl, T.R., S.J. Hassol, C.D. Miller, and W.L. Murray (eds.), 2006: 
        Temperature Trends in the Lower Atmosphere: Steps for 
        Understanding and Reconciling Differences. A Report by the U.S. 
        Climate Change Science Program and the Subcommittee on Global 
        Change Research. National Oceanic and Atmospheric 
        Administration, National Climatic Data Center, Asheville, NC, 
        USA, 164 pp.

17 See, for example, the position statements on climate change issued 
        by the American Geophysical Union (AGU), the American 
        Meteorological Society (AGU), and the American Statistical 
        Association (ASA). These can be found at: http://www.agu.org/
        sci<INF>-</INF>pol/positions/
        climate<INF>-</INF>change2008.shtml (AGU); http://
        www.ametsoc.org/amsnews/2007climatechangerelease.pdf (AMS); and 
        http://www.amstat.org/news/climatechange.cfm (ASA).

18 Mann, M.E., and P.D. Jones, 2003: Global surface temperatures over 
        the past two millenia. Geophysical Research Letters, 30, 1820, 
        doi:10.1029/2003GL017814.

19 Mann, M.E., Z. Zhang, M.K. Hughes, R.S. Bradley, S.K. Miller, S. 
        Rutherford, and F. Ni, 2008: Proxy-based reconstructions of 
        hemispheric and global surface temperature variations over the 
        past two millennia. Proceedings of the National Academy of 
        Sciences, 105, 13252-13257.

20 Chapman, D.S., and M.G. Davis, 2010: Climate change: Past, present, 
        and future. Eos, 91, 325-326.

21 Mitchell, J.F.B. et al., 2001: Detection of climate change and 
        attribution of causes. In: Climate Change 2001: The Scientific 
        Basis. Contribution of Working Group I to the Third Assessment 
        Report of the Intergovernmental Panel on Climate Change 
        [Houghton, J.T. et al., (eds.)]. Cambridge University Press, 
        Cambridge, United Kingdom and New York, NY, USA, pp. 695-738.

22 IDAG (International Detection and Attribution Group), 2005: 
        Detecting and attributing external influences on the climate 
        system: A review of recent advances. Journal of Climate, 18, 
        1291-1314.

23 Santer, B.D., J.E. Penner, and P.W. Thorne, 2006: How well can the 
        observed vertical temperature changes be reconciled with our 
        understanding of the causes of these changes? In: Temperature 
        Trends in the Lower Atmosphere: Steps for Understanding and 
        Reconciling Differences. A Report by the U.S. Climate Change 
        Science Program and the Subcommittee on Global Change Research 
        [Karl, T.R., S.J. Hassol, C.D. Miller, and W.L. Murray (eds.)]. 
        National Oceanic and Atmospheric Administration, National 
        Climatic Data Center, Asheville, NC, USA, pp. 89-108.

24 Hegerl, G.C., F.W. Zwiers, P. Braconnot, N.P. Gillett, Y. Luo, J.A. 
        Marengo Orsini, J.E. Penner and P.A. Stott, 2007: Understanding 
        and Attributing Climate Change. In: Climate Change 2007: The 
        Physical Science Basis. Contribution of Working Group Ito the 
        Fourth Assessment Report of the Intergovernmental Panel on 
        Climate Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. 
        Marquis, K.B. Averyt, M. Tignor, and H.L. Miller (eds.)]. 
        Cambridge University Press, Cambridge, United Kingdom and New 
        York, NY, USA, pp. 663-745.

25 A recent assessment of the U.S. National Academy of Sciences 
        concluded that ``It can be said with a high level of confidence 
        that global mean surface temperature was higher during the last 
        few decades of the 20th century than during any comparable 
        period during the preceding four centuries'' (ref. 26, page 3). 
        The same study also found ``it plausible that the Northern 
        Hemisphere was warmer during the last few decades of the 20th 
        century than during any comparable period over the preceding 
        millennium'' (ref. 26, pages 3-4).

26 National Research Council, 2006: Surface Temperature Reconstructions 
        for the Last 2,000 Years. National Academies Press, Washington 
        D.C., 196 pp.

27 Examples include increases in surface and tropospheric temperature, 
        increases in atmospheric water vapor and ocean heat content, 
        sea-level rise, widespread retreat of glaciers, etc.

28 An example includes testing the null hypothesis that there has been 
        no external forcing of the climate system against the 
        alternative hypothesis that there has been significant external 
        forcing. Currently, all such hypothesis tests rely on model-
        based estimates of ``unforced'' climate variability (also known 
        as natural internal variability). This is the variability that 
        arises solely from processes internal to the climate system, 
        such as interactions between the atmosphere and ocean. The El 
        Nino phenomenon is a well-known example of internal climate 
        noise.

29 Barnett, T.P. et al., 2005: Penetration of human-induced warming 
        into the world's oceans. Science, 309, 284-287.

30 Pierce, D.W. et al., 2006: Anthropogenic warming of the oceans: 
        Observations and model results. Journal of Climate, 19, 1873-
        1900.

31 Stott, P.A., R.T. Sutton, and D.M. Smith, 2008: Detection and 
        attribution of Atlantic salinity changes. Geophysical Research 
        Letters, 35, L21702, doi:10.1029/2008GL035874.

32 Gillett, N.P., F.W. Zwiers, A.J. Weaver, and P.A. Stott, 2003: 
        Detection of human influence on sea level pressure. Nature, 
        422, 292-294.

33 Santer, B.D. et al., 2003: Contributions of anthropogenic and 
        natural forcing to recent tropopause height changes. Science, 
        301, 479-483.

34 Zhang, X. et al., 2007: Detection of human influence on 20th century 
        precipitation trends. Nature, 448, 461-465.

35 Min, S.-K., X. Zhang, and F. Zwiers, 2008: Human-induced Arctic 
        moistening. Science, 320, 518-520.

36 Willett, K.M., N.P. Gillett, P.D. Jones, and P.W. Thorne, 2007: 
        Attribution of observed surface humidity changes to human 
        influence. Nature, 449, doi:10.1038/nature06207.

37 Santer, B.D., et al., 2007: Identification of human-induced changes 
        in atmospheric moisture content. Proceedings of the National 
        Academy of Sciences, 104, 15248-15253.

38 Santer, B.D., et al., 2009: Incorporating model quality information 
        in climate change detection and attribution studies. 
        Proceedings of the National Academy of Sciences, 106, 14778-
        14783.

39 Gedney, N., P.M. Cox, R.A. Betts, O. Boucher, C. Huntingford, and 
        P.A. Stott, 2006: Detection of a direct carbon dioxide effect 
        in continental river runoff records. Nature, 439, 835-838.

40 Min, S.-K., X. Zhang, F.W. Zwiers, and T. Agnew, 2008: Human 
        influence on Arctic sea ice detectable from early 1990s 
        onwards. Geophysical Research Letters, 35, L21701, d o 
        i:10.1029/2008GL035725.

41 Trenberth, K.E., J. Fasullo, and L. Smith, 2005: Trends and 
        variability in column-integrated atmospheric water vapor. 
        Climate Dynamics, 24, doi:10.1007/s00382-005-0017-4.

42 Levitus, S., J.I. Antonov, and T.P. Boyer, 2005: Warming of the 
        world ocean, 1955-2003. Geophysical Research Letters, 32, 
        L02604, doi:10.1029/2004GL021592.

43 Domingues, C.M., et al., 2008: Rapid upper-ocean warming helps 
        explain multi-decadal sea-level rise, Nature, 453, 1090-1093.

44 Jones, P.D., M. New, D.E. Parker, S. Martin, and I.G. Rigor, 1999: 
        Surface air temperature and its changes over the past 150 
        years. Reviews of Geophysics, 37, 173-199.

45 Brohan, P., J.J. Kennedy, I. Harris, S.F.B. Tett, and P.D. Jones, 
        2006: Uncertainty estimates in regional and global observed 
        temperature changes: A new dataset from 1850. Journal of 
        Geophysical Research, 111, D12106, doi:10.1029/2005JD006548.

46 The argument here is that some anthropogenic ``forcings'' of climate 
        (particularly the so-called indirect forcing caused by the 
        effects of anthropogenic aerosols on cloud properties) are 
        highly uncertain, so that many different combinations of these 
        factors could yield the same global-mean changes. While this is 
        a valid concern for global-mean temperature changes, it is 
        highly unlikely that different combinations of forcing factors 
        could produce the same complex space-time patterns of climate 
        change (see Figure 1).

47 Some researchers have argued that most of the observed near-surface 
        warming over the 20th century is attributable to an overall 
        increase in the Sun's energy output. The effect of such an 
        increase would be to warm most of the atmosphere (from the 
        Earth's surface through the stratosphere; see Figure 1, lower 
        left panel). Such behavior is not seen in observations. While 
        temperature measurements from satellites and weather balloons 
        do show warming of the troposphere, they also indicate that the 
        stratosphere has cooled over the past 2-4 decades (ref. 16). 
        Stratospheric cooling is fundamentally inconsistent with a 
        'solar forcing only' hypothesis of observed climate change, but 
        is consistent with simulations of the response to anthropogenic 
        greenhouse gas increases and ozone decreases (see Figures 1, 
        top left and middle left panels). The possibility of a large 
        solar forcing effect has been further weakened by recent 
        research indicating that changes in solar luminosity on multi-
        decadal timescales are likely to be significantly smaller than 
        previously thought (refs. 48, 49).

48 Foukal, P., G. North, and T.M.L. Wigley, 2004: A stellar view on 
        solar variations and climate. Science, 306, 68-69.

49 Foukal, P., C. Frohlich, H. Spruit, and T.M.L. Wigley, 2006: 
        Physical mechanisms of solar luminosity variation, and its 
        effect on climate. Nature, 443, 161-166.

50 In order to assess whether observed climate changes over the past 
        century are truly unusual, we require information on the 
        amplitude and structure of climate noise on timescales of a 
        century or longer. Unfortunately, direct instrumental 
        measurements are of insufficient length to provide such 
        information. This means that detection and attribution studies 
        must rely on decadal- to century-timescale noise estimates from 
        computer model control runs.

51 Allen, M.R., and S.F.B. Tett, 1999: Checking for model consistency 
        in optimal fingerprinting. Climate Dynamics, 15, 419-434.

52 Thorne, P.W. et al., 2003: Probable causes of late twentieth century 
        tropospheric temperature trends. Climate Dynamics, 21, 573-591.

53 Santer, B.D. et al., 2006: Causes of ocean surface temperature 
        changes in Atlantic and Pacific tropical cyclogenesis regions. 
        Proceedings of the National Academy of Sciences, 103, 13905-
        13910.

54 AchutaRao, K.M., M. Ishii, B.D. Santer, P.J. Gleckler, K.E. Taylor, 
        T.P. Barnett, D.W. Pierce, R.J. Stouffer, and T.M.L. Wigley, 
        2007: Simulated and observed variability in ocean temperature 
        and heat content. Proceedings of the National Academy of 
        Sciences, 104, 10768-10773.

55 Stott, P.A. et al., 2010: Detection and attribution of climate 
        change: A regional perspective. Wiley Interdisciplinary 
        Reviews, doi: 10.1002/WCC.34.

56 Wigley, T.M.L., and P.D. Jones, 1981: Detecting CO<INF>2</INF>-
        induced climatic change. Nature, 292, 205-208.

57 Ramaswamy, V., et al., 2001: Radiative forcing of climate change. 
        In: Climate Change 2001: The Scientific Basis. Contribution of 
        Working Group I to the Third Assessment Report of the 
        Intergovernmental Panel on Climate Change [Houghton, J.T. et 
        al., (eds.)]. Cambridge University Press, Cambridge, United 
        Kingdom and New York, NY, USA, pp. 349-416.

58 NRC (National Research Council), 2005: Radiative Forcing of Climate 
        Change: Expanding the Concept and Addressing Uncertainties. 
        Board on Atmospheric Sciences and Climate, National Academy 
        Press, Washington D.C., 168 pp.

59 Feddema, J. et al., 2005: A comparison of a GCM response to 
        historical anthropogenic land cover change and model 
        sensitivity to uncertainty in present-day land cover 
        representations. Climate Dynamics, 25, 581-609.

60 Penner, J.E. et al., 2001: Aerosols, their direct and indirect 
        effects. In: Climate Change 2001: The Scientific Basis. 
        Contribution of Working Group I to the Third Assessment Report 
        of the Intergovernmental Panel on Climate Change [Houghton, 
        J.T. et al. (eds.)]. Cambridge University Press, Cambridge, 
        United Kingdom and New York, NY, USA, pp. 289-348.

61 Menon, S., J. Hansen, L. Nazarenko, and Y.F. Luo, 2002: Climate 
        effects of black carbon aerosols in China and India. Science, 
        297, 2250-2253.

62 Stott, P.A., 2003: Attribution of regional-scale temperature changes 
        to anthropogenic and natural causes. Geophysical Research 
        Letters, 30, doi: 10.1029/2003GL017324.

63 Zwiers, F.W., and X. Zhang, 2003: Towards regional-scale climate 
        change detection. Journal of Climate, 16, 793-797.

64 Karoly, D.J. et al., 2003: Detection of a human influence on North 
        American climate. Science, 302, 1200-1203.

65 Min, S.-K., A. Hense, and W.-T. Kwon, 2005: Regional-scale climate 
        change detection using a Bayesian detection method. Geophysical 
        Research Letters, 32, L03706, doi: 11/12/2010 7:00 PM11/12/2010 
        7:00 PM10.1029/2004GL021028.

66 Karoly, D.J., and Q. Wu, 2005: Detection of regional surface 
        temperature trends. Journal of Climate, 18, 4337-4343.

67 Knutson, T.R. et al., 2006: Assessment of twentieth-century regional 
        surface temperature trends using the GFDL CM2 coupled models. 
        Journal of Climate, 19, 1624-1651.

68 Knutson et al. (ref. 67) state that their ``regional results provide 
        evidence for an emergent anthropogenic warming signal over 
        many, if not most, regions of the globe''.

69 Root, T.L., D.P. MacMynowski, M.D. Mastrandrea, and S.H. Schneider, 
        2005: Human-modified temperatures induce species changes: Joint 
        attribution. Proceedings of the National Academy of Sciences, 
        102, 7465-7469.

70 Examples include snowpack depth (refs. 71, 72), maximum and minimum 
        temperatures in mountainous regions of the western U.S. (refs. 
        71, 73), and the timing of streamflow in major river basins 
        (refs. 71, 74).

71 Barnett, T.P., et al., 2008: Human-induced changes in the hydrology 
        of the western United States. Science, 319, 1080-1083.

72 Pierce, D.W., et al., 2008: Attribution of declining western U.S. 
        snowpack to human effects. Journal of Climate, 21, 6425-6444.

73 Bonfils, C., et al., 2008: Detection and attribution of temperature 
        changes in the mountainous Western United States. Journal of 
        Climate, 21, 6404-6424.

74 Hidalgo, H., et al., 2009: Detection and attribution of streamflow 
        timing changes to climate change in the western United States. 
        Journal of Climate, 22, 3838-3855.

75 Allen, M.R., 2003: Liability for climate change. Nature, 421, 891-
        892.

76 Wigley, T.M.L., 1988: The effect of changing climate on the 
        frequency of absolute extreme events. Climate Monitor, 17, 44-
        55.

77 Meehl, G.A., and C. Tebaldi, 2004: More intense, more frequent, and 
        longer lasting heat waves in the 21st century. Science, 305, 
        994-997.

78 Stott, P.A., D.A. Stone, and M.R. Allen, 2004: Human contribution to 
        the European heatwave of 2003. Nature, 423, 61-614.

79 Tebaldi, C., K. Hayhoe, J.M. Arblaster, and G.A. Meehl, 2006: Going 
        to the extremes: An intercomparison of model-simulated 
        historical and future changes in extreme events. Climatic 
        Change, 79, 185-211.

80 Jones, P.D, and A. Moberg, 2003: Hemispheric and large scale surface 
        air temperature variations: an extensive revision and an update 
        to 2001. Journal of Climate, 16, 206-223.

81 Gillett, N.P., D.A. Stone, P.A. Stott, T. Nozawa, A.Y. Karpechko, 
        G.C. Hegerl, M.F. Wehner, and P.D. Jones, 2008: Attribution of 
        polar warming to human influence. Nature Geoscience, 1, 750-
        754.

82 Arendt, A.A. et al., 2002: Rapid wastage of Alaska glaciers and 
        their contribution to rising sea level. Science, 297, 382-386.

83 Paul, F., A. Kaab, M. Maisch, T. Kellenberger, and W. Haeberli, 
        2004: Rapid disintegration of Alpine glaciers observed with 
        satellite data. Geophysical Research Letters, 31, L21402, 
        doi:10.1029/2004GL020816.

84 Meier, M.F., et al., 2007: Glaciers dominate eustatic sea-level rise 
        in the 21st century. Science, 317, 1064-1067.

85 Luthcke, S.B. et al., 2006: Recent Greenland ice mass loss by 
        drainage system from satellite gravity observations. Science, 
        314, 1286-1289.

86 Cazenave, A., and R.S. Nerem, 2004: Present-day sea level change: 
        Observations and causes. Reviews of Geophysics, 42, RG3001, 
        doi:10.1029/2003RG000139.

87 Vinnikov, K.Y. et al., 1999: Global warming and Northern Hemisphere 
        sea ice extent. Science, 286, 1934-1937.

88 Stroeve, J., et al., 2008: Arctic sea ice plummets in 2007. EOS, 89, 
        2, 13-14.

89 Stroeve, J., M.M. Holland, W. Meier, T. Scambos, M. Serreze, 2007: 
        Arctic sea ice decline: Faster than forecast. Geophysical 
        Research Letters, 34, L09501, doi: 10.1029/200GL029703.

90 Ramaswamy, V. et al., 2006: Anthropogenic and natural influences in 
        the evolution of lower stratospheric cooling. Science, 311, 
        1138-1141.

91 Trenberth K.E., et al., 2007: Observations: Surface and atmospheric 
        climate change. In: Climate Change 2007: The Physical Science 
        Basis. Contribution of Working Group I to the Fourth Assessment 
        Report of the Intergovernmental Panel on Climate Change. 
        [Solomon S., Qin D., Manning M., Chen Z., Marquis M., Averyt 
        K.B., Tignor M., Miller H.L. (eds.)]. Cambridge University 
        Press, Cambridge, United Kingdom and New York, NY, USA, pp. 
        235-336

92 Wentz, F.J., and M. Schabel, 1998: Effects of orbital decay on 
        satellite-derived lower-tropospheric temperature trends. 
        Nature, 394, 661-664.

93 Mears, C.A., M.C. Schabel, and F.W. Wentz, 2003: A reanalysis of the 
        MSU channel 2 tropospheric temperature record. Journal of 
        Climate, 16, 3650-3664.

94 Fu, Q., C.M. Johanson, S.G. Warren, and D.J. Seidel, 2004: 
        Contribution of stratospheric cooling to satellite-inferred 
        tropospheric temperature trends. Nature, 429, 55-58.

95 Zou, C.-Z., M. Gao, and M.D. Goldberg, 2009: Error structure and 
        atmospheric temperature trends in observations from the 
        Microwave Sounding Unit. Journal of Climate, 22, 1661-1681.

96 Sherwood, S.C., J. Lanzante, and C. Meyer, 2005: Radiosonde daytime 
        biases and late 20th century warming. Science, 309, 1556-1559.

97 Mears, C.A., and F.W. Wentz, 2005: The effect of diurnal correction 
        on satellite-derived lower tropospheric temperature. Science, 
        309, 1548-1551.

98 Allen, R.J., and S.C. Sherwood, 2008: Warming maximum in the 
        tropical upper troposphere deduced from thermal winds. Nature 
        Geoscience, 1, 399-403.

99 Sherwood, S.C., C.L. Meyer, and R.J. Allen, 2008: Robust 
        tropospheric warming revealed by iteratively homogenized 
        radiosonde data. Journal of Climate, 21, 5336-5350.

100 Titchner, H.A., P.W. Thorne, M.P. McCarthy, S.F.B. Tett, L. 
        Haimberger, and D.E. Parker, 2008: Critically reassessing 
        tropospheric temperature trends from radiosondes using 
        realistic validation experiments. Journal of Climate, 22, 465-
        485.

101 Gates, W.L., 1992: AMIP: The Atmospheric Model Intercomparison 
        Project. Bulletin of the American Meteorological Society, 73, 
        1962-1970.

102 Gates, W.L. et al., 1999: An overview of the Atmospheric Model 
        Intercomparison Project (AMIP). Bulletin of the American 
        Meteorological Society, 80, 29-55.

103 Meehl, G.A. et al., 2007: The WCRP CMIP-3 multi-model dataset: A 
        new era in climate change research. Bulletin of the American 
        Meteorological Society, 88, 1383-1394.

    Chairman Baird. Thank you Dr. Santer.
    Dr. Alley.

STATEMENT OF RICHARD B. ALLEY, EVAN PUGH PROFESSOR, DEPARTMENT 
 OF GEOSCIENCES AND EARTH AND ENVIRONMENTAL SYSTEMS INSTITUTE, 
               THE PENNSYLVANIA STATE UNIVERSITY

    Dr. Alley. Yes. Thank you for the honor, Chairman Baird, 
Mr. Rohrabacher. It's a pleasure to be here.
    Your body has, in its wisdom, established mechanisms to 
gain an assessment of the science. Because, as you know, the 
lead scientists sometimes can argue about things. In fact, you 
pay us to argue about things. We love arguing about things. And 
so you have set up things such as the National Academy to give 
you assessments that are outside of the argument and say, what 
does the science say?
    And if you look at the assessments, the science is now very 
clear for my interests, or especially with ice as well as 
climate history. And the science says that the ice is melting 
almost everywhere, almost all of it consistent with warming.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    There are a few really cold places, the top of Greenland 
and the frozen ocean water around Antarctica, that increasing 
precipitation has still been controlling. And that is also 
consistent with our understanding of the effects of warming, 
and that is expected to switch to shrinkage in the fairly near 
future.
    So when we look at the world, what we see is ice shrinking 
because it's getting warmer. And in fact you can estimate the 
warming from looking at how much the ice shrinks. And that 
agrees with the thermometers.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This is the plot of melting of mountain glaciers 
contributing to the global sea level rise. You will find people 
that put the plummeting one there and say catastrophe, and you 
will find people that look at that blue one on top that's 
Norway that grew a little bit before it started shrinking, or 
they look at one wiggle in that black one, which is the 
Himalayas, and they say, oh, nothing's happening. If you look 
at those curves, the mountain glaciers assessed taken together 
are shrinking, and they are contributing to sea level rise. And 
there is really no serious question about that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Now, if we want to know what happens in the future, this is 
a very complicated plot, and I hope that you don't look in any 
great detail at it. This is how much warming we expect from 
rising CO<INF>2</INF>. And this particular one is if you just 
doubled CO<INF>2</INF> and then let the climate come into 
equilibrium how much warming. We may go way past doubled 
CO<INF>2</INF>. But the blue number up there, which is a little 
over five degrees Fahrenheit, is sort of the most likely. If 
you could bet on one horse, you would bet on that horse.
    You have heard Dr. Michaels and earlier you heard Dr. 
Lindzen arguing, well, couldn't it be lower than that, down the 
green arrow? And it certainly could be. That's within the realm 
of scientific possibility. But the orange arrow shows that it 
could be higher than that, and the red arrow shows it could be 
a lot higher than that.
    You have now sort of had a discussion or a debate here 
between people who are giving you the blue one and people 
giving you the green one. This is certainly not both sides. If 
you want both sides of it, we would have to have somebody in 
here who is screaming hairy panic conniption fit on the red 
end. But you are hearing just one, very optimistic side--we 
wish that Dr. Michaels and Dr. Lindzen were correct--against 
the assessed central value.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Now, when we look at the impacts of warming we get the same 
sort of story. The IPCC looked at sea level rise, and they 
said, well, this century it's probably not going to be huge. 
But that excludes anything weird that the ice sheets do. And we 
are very nervous because the ice sheets have started doing 
something weird, and they started doing it a hundred years 
before we expected them to from the previous assessment. So 
when you look at sea level rise, what you find is that it's 
going to rise. There is virtually no way to avoid that. But 
there is a big unknown.
    And so if you look at what people have been planning for, 
it's something. It might be a little better, a little worse, or 
a lot worse. But we don't find any evidence for a lot better. 
The ice sheets are already shrinking, and they are shrinking 
way before we expected them to.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Now, we do not believe in any way that you could melt a 
whole ice sheet in mere decades. But we are very nervous that 
within decades we could get warm enough to melt a whole ice 
sheet. Now, Greenland would be seven meters plus of sea level. 
Antarctica is very much bigger than Greenland. The last 
estimate I saw, ten percent of the world population lives 
within 10 meters of sea level. So the amount of ice which is in 
play is huge for people and where they live and what they do.
    We don't have really reliable projections, but we do see 
sea level rising and the possibility that this century we get 
to a point where we are committed to very, very large rises. So 
what the planning people have been doing on this is our best 
estimate. It could be a little better, a little worse, or a lot 
worse, where worse I mean larger impacts on people.
    So, just to summarize then, it's getting warmer. That's 
melting ice. This is all consistent with what we understand 
about what should happen. Everything is in there. We keep 
hoping that we have overestimated the impacts, it will be 
better than that. But if you plot all of the unknowns, it could 
be a little better, a little worse, or a lot worse.
    Thank you.
    [The prepared statement of Dr. Alley follows:]
                 Prepared Statement of Richard B. Alley

    Introduction. My name is Richard Alley. I am Evan Pugh Professor of 
Geosciences and Associate of the Earth and Environmental Systems 
Institute at the Pennsylvania State University. I have authored over 
200 refereed scientific papers, which are ``highly cited'' according to 
a prominent indexing service, and I have made many hundreds of public 
presentations concerning my areas of expertise. My research is 
especially focused on the great ice sheets of Greenland and Antarctica, 
their potential for causing major changes in sea level, the climate 
records they contain, and their other interactions with the 
environment; I also study mountain glaciers, and ice sheets of the 
past. I have served with distinguished national and international teams 
on major scientific assessment bodies, including chairing the National 
Research Council's Panel on Abrupt Climate Change (report published in 
2002), and serving the Intergovernmental Panel on Climate Change (IPCC) 
in various ways, and the U.S. Climate Change Science Program. I had the 
honor of testifying to the Subcommittee on Investigations and Oversight 
of the House Committee on Science and Technology in 2007; my testimony 
today updates and extends the material I presented then.

    Background on Climate Change and Global Warming. Scientific 
assessments such as those of the National Academy of Sciences of the 
United States (e.g., National Research Council, 1975; 1979; 2001; 2006; 
2008; 2010a; 2010b), the U.S. Climate Change Science Program, and the 
Intergovernmental Panel on Climate Change have for decades consistently 
found with increasingly high scientific confidence that human 
activities are raising the concentration of CO<INF>2</INF> and other 
greenhouse gases in the atmosphere, that this has a warming effect on 
the climate, that the climate is warming as expected, and that the 
changes so far are small compared to those projected if humans burn 
much of the fossil fuel on the planet.
    The basis for expecting and understanding warming from CO<INF>2</INF> 
is the fundamental physics of how energy interacts with gases in the 
atmosphere. This knowledge has been available for over a century, was 
greatly refined by military research after World War II, and is 
directly confirmed by satellite measurements and other data (e.g., 
American Institute of Physics, 2008; Harries et al., 2001; Griggs and 
Harries, 2007).
    Although a great range of ideas can be found in scientific papers 
and in statements by individual scientists, the scientific assessments 
by bodies such as the National Academy of Sciences consider the full 
range of available information. The major results brought forward are 
based on multiple lines of evidence provided by different research 
groups with different funding sources, and have repeatedly been tested 
and confirmed. Removing the work of any scientist or small group of 
scientists would still leave a strong scientific basis for the main 
conclusions.

    Ice Changes. There exists increasingly strong evidence for 
widespread, ongoing reductions in the Earth's ice, including snow, 
river and lake ice, Arctic sea ice, permafrost and seasonally frozen 
ground, mountain glaciers, and the great ice sheets of Greenland and 
Antarctica. The trends from warming are modified by effects of changing 
precipitation and of natural variability, as I will discuss soon, so 
not all ice everywhere is always shrinking. Nonetheless, warming is 
important in the overall loss of ice, although changes in oceanic and 
atmospheric circulation in response to natural or human causes also 
have contributed and will continue to contribute to changes. The most 
recent assessment by the IPCC remains relevant (Lemke et al., 2007). 
Also see the assessment of the long climatic history of the Arctic by 
the U.S. Climate Change Science Program (CCSP, 2009), showing that in 
the past warming has led to shrinkage of Arctic ice including sea ice 
and the Greenland ice sheet, and that sufficiently large warming has 
removed them entirely.
    The large snowfalls that closed much of Washington, D.C. last 
winter are successfully explained by the accidental ``weather'' of El 
Nino and the North Atlantic Oscillation (Seager et al., 2010), and do 
not undermine our understanding of the long-term effects of warming on 
snow and ice. The existence of such variability virtually guarantees 
that any climate record will be ``bumpy'', but scientific techniques 
successfully identify the long-term trends in such bumpy records.
    For sea ice (frozen ocean water), the trends in Arctic sea-ice area 
and volume have been strongly downward. The reports of the National 
Snow and Ice Data Center (a research institute at the University of 
Colorado with funding from NSF, NASA, and NOAA) provide up-to-date 
data; also see Kwok and Rothrock (2009) among many other studies. Note 
that the observed shrinkage of Arctic sea ice with warming is 
consistent with (although somewhat faster than) expectations from a 
great range of climate models. The models generally project shrinkage 
of Antarctic sea ice once warming becomes notably larger, but for the 
warming to date some models have projected growth of Antarctic sea ice 
in response to changing winds and ocean conditions in the very cold 
Antarctic winter including freshening of the surface waters from 
increasing precipitation and shrinkage of the land ice, consistent with 
observations (e.g., Manabe et al., 1992; Turner et al., 2009; Liu and 
Curry, 2010).
    Glaciers and ice caps occur primarily in mountainous areas, and 
near but distinct from the Greenland and Antarctic ice sheets. On 
average, the world's glaciers were not changing much around 1960 but 
have lost mass since, generally with faster mass loss more recently. 
Glacier melting contributed almost an inch to sea-level rise during 
1961-2003 (about 0.50 mm/year, and a faster rate of 0.88 mm/year during 
1993-2003). Glaciers experience numerous intriguing ice-flow processes 
(surges, kinematic waves, tidewater instabilities), allowing a single 
glacier over a short time to behave in ways that are not controlled by 
climate. Care is thus required when interpreting the behavior of a 
particular iconic glacier (and especially the coldest tropical 
glaciers, which interact with the atmosphere somewhat differently from 
the great majority of glaciers). But, ice-flow processes and regional 
effects average out if enough glaciers are studied for a long enough 
time, allowing glaciers to be quite good indicators of climate change. 
Furthermore, for a typical mountain glacier, a small warming will 
increase the mass loss by melting roughly 5 times more than the 
increase in precipitation from the ability of the warmer air to hold 
more moisture. Thus, glaciers respond primarily to temperature changes 
during the summer melt season. Indeed, the observed shrinkage of 
glaciers, contributing to sea-level rise, has occurred despite a 
general increase in wintertime snowfall in many places (Lemke et al., 
2007). An erroneous paragraph about Himalayan Glaciers in the IPCC 
assessment from Working Group II in 2007 was identified by a 
distinguished scientific team with ties to the IPCC (Cogley et al., 
2010), and this in no way changes the reality that strong glacier 
melting has been occurring, with more warming expected to cause more 
melting (Meehl et al., 2007).

    Ice-sheet changes. The large ice sheets of Greenland and Antarctica 
are of special interest, because they are so big and thus could affect 
sea level so much. Melting of all of the world's mountain glaciers and 
small ice caps might raise sea level by about 1 foot (0.3 m), but 
melting of the great ice sheets would raise sea level by just over 200 
feet (more than 60 m). We do not expect to see melting of most of that 
ice, but even a relatively small change in the ice sheets could matter 
to the world's coasts; roughly 10% of the world's population lives 
within 10 m of sea level (McGranahan et al., 2007).
    Data collected recently show that the ice sheets very likely have 
been shrinking and contributing to sea level rise over 1993-2003 and 
with even larger loss by 2005 and more recently, as noted in the IPCC 
report and updated elsewhere (e.g., Allison et al., 2009). Thickening 
in central Greenland from increased snowfall has been more than offset 
by increased melting in coastal regions. Many of the fast-moving ice 
streams that drain Greenland and parts of Antarctica have accelerated, 
transferring mass to the ocean and further contributing to sea-level 
rise.
    Measurements of mass loss from the ice sheets rely on multiple 
techniques, implemented by multiple groups. Techniques include 
repeatedly ``weighing'' the ice sheets using the GRACE gravity 
satellites, measuring changes in surface elevation using radar or laser 
altimeters from satellite or aircraft, and comparing snow delivered to 
the ice sheets (estimated from measurements on the ice or from 
atmospheric models) to loss of ice by melting or flow into the ocean; 
the results are checked against changes in the ocean level (together 
with estimates of sea-level rise from other sources) and against 
changes in Earth's rotation caused by the water moving from ice sheets 
into the ocean (e.g., Allison et al., 2009; Cazenave et al., 2009; 
Lemke et al., 2007). To date, sea-level rise has been controlled more 
by mountain-glacier melting and expansion of ocean water as it warms, 
but ice sheets have the greatest potential to increase their 
contribution in the future.

    Ice-sheet behavior. An ice-sheet is a two-mile-thick, continent-
wide pile of snow that has been squeezed to ice under the weight of 
more snowfall. All piles tend to spread under their own weight, 
restrained by their own strength (which is why spilled coffee spreads 
on a table top but the stronger table beneath does not spread), by 
friction beneath (so pancake batter spreads faster on a greased griddle 
than on a dry waffle iron), or by ``buttressing'' from the sides (so a 
spatula will slow the spreading of the pancake batter). Observations in 
Greenland have shown that meltwater on top of the ice sheet flows 
through the ice to the bottom and reduces friction there. More melting 
in the future thus may reduce friction further, speeding the production 
of icebergs or exposing more ice to melting from warmth at low 
altitude, and thus speeding the increase in sea level (Parizek and 
Alley, 2004).
    Some early gothic cathedrals suffered from the ``spreading-pile'' 
problem, in which the sides tended to bulge out while the roof sagged 
down, with potentially unpleasant consequences. The beautiful solution 
was the flying buttress, which transfers some of the spreading tendency 
to the strong earth beyond the cathedral. Ice sheets also have flying 
buttresses, called ice shelves. The ice reaching the ocean usually does 
not immediately break off to form icebergs, but remains attached to the 
ice sheet while spreading over the ocean. The friction of these ice 
shelves with local high spots in the sea floor, or with the sides of 
embayments, helps restrain the spreading of the ice sheet much as a 
flying buttress supports a cathedral. The ice shelves are at the 
melting point where they contact water below, and are relatively low in 
elevation hence warm above. Ice shelves thus are much more easily 
affected by climatic warming than are the thick, cold central regions 
of ice sheets. Rapid melting or collapse of several ice shelves has 
occurred recently, allowing the ``gothic cathedrals'' behind to spread 
faster, contributing to sea-level rise. Many additional ice shelves 
remain that have not changed notably, and these contribute to 
buttressing of much more ice than was supported by those ice shelves 
that experienced the large recent changes, so the potential for similar 
changes contributing to sea-level rise in the future is large.
    Although science has succeeded in generating useful understanding 
and models of numerous aspects of the climate system, similar success 
is not yet available for ice-sheet projections, for reasons that I 
would be happy to explore with the committee. We do not expect ice 
sheets to collapse so rapidly that they could raise sea level by meters 
over decades; simple arguments point to at least centuries. However, 
the IPCC (2007) is quite clear on the lack of scientific knowledge to 
make confident projections of ice-sheet behavior. The changes in ice-
sheet flow that have been contributing to sea-level rise were not 
projected in the 2001 assessment (see Lemke et al., 2007), part of the 
reason why best-estimate projections of sea-level rise have fallen 
below observations (Rahmstorf et al., 2007). For 2007, the IPCC noted 
that the sea-level-rise projections provided excluded contributions 
from ``future rapid dynamical changes in ice flow'' (Table SPM-3) 
``because a basis in published literature is lacking'' (page SPM14), so 
that it was not possible to ``provide a best estimate or an upper bound 
for sea level rise'' (page SPM15). (The 2007 report also noted a 
similar difficulty arising from lack of knowledge of feedbacks in the 
carbon cycle, referring to the possibility that warming will cause much 
release of methane and carbon dioxide from soils in the Arctic, 
sediments under the sea, or elsewhere, contributing to more warming.)
    In the absence of an assessed estimate of sea-level rise, various 
``back-of-the-envelope'' estimates have been provided. Without in any 
way representing an assessed projection, these estimates show that a 
meter or more of sea-level rise this century, with additional and 
probably faster rise beyond that, falls within the realistic scientific 
discussion (e.g., Pfeffer et al., 2008; Vermeer and Rahmstorf, 2009).

    Tipping Points, and Abrupt Climate Change. A golden retriever 
leaping to the side will force a canoe to lean, but usually the canoe 
will remain upright. If an ice chest slides across the seat towards the 
retriever, this positive feedback will cause the canoe to lean further. 
In exceptional circumstances a tipping point may be crossed, leading to 
an abrupt change as the canoe dumps the dog, ice chest, and paddlers 
into the water.
    Much scientific and popular discussion has focused on the 
possibility that human-caused climate change may force the Earth to 
cross one of its tipping points. Paleoclimatic history shows clearly 
that very large, rapid and widespread changes occurred repeatedly in 
the past (e.g., National Research Council, 2002; CCSP, 2008). An ice-
sheet collapse, a large change in the circulation of the North Atlantic 
Ocean, a rapid outburst of methane stored in sea-floor sediments, a 
sudden shift in rainfall patterns, or others are possible based on 
available scientific understanding (CCSP, 2008).
    The available assessments, and in particular that of the U.S. 
Climate Change Science Program (CCSP, 2008), do not point to a high 
likelihood of triggering an abrupt climate change in the near future 
that is large relative to natural variability, rapid relative to the 
response of human economies, and widespread across much or all of the 
globe. However, such an event cannot be ruled out entirely, and rapidly 
arriving regional droughts seem more likely than the others considered, 
with potentially large effects on ecosystems and economies.
    Projections of warming from a given release of greenhouse gas 
generally include a best estimate, the possibility of a somewhat 
smaller or somewhat larger rise, and the slight possibility of a much 
larger rise; because of the way feedbacks interact in the climate 
system, very large changes remain possible if unlikely, and are not 
balanced by an equal probability of very small changes (e.g., Meehl et 
al., 2007). The possibility of an abrupt climate change gives a similar 
shape to the uncertainties about damages from whatever warming occurs, 
with a chance of very large impacts.

    Synopsis. With high scientific confidence, human CO<INF>2</INF> and 
other greenhouse gases are having a warming influence on the climate, 
and the resulting rise in temperature is contributing to changes in 
much of the world's ice. Shrinkage of the large ice sheets was 
unexpected to many observers but appears to be occurring, and the poor 
understanding of these changes prevents reliable projections of future 
sea-level rise over long times. Large, rapid changes in the ice sheets, 
or in other parts of the Earth system, may be unlikely but cannot be 
excluded entirely, and such an event could have very large effects.

References Cited

Allison, I., R.B. Alley, H.A. Fricker, R.H. Thomas and R.C. Warner. 
        2009. Ice sheet mass balance and sea level. Antarctic Science 
        21, 413-426, doi:10.1017/S0954102009990137 (2009).

American Institute of Physics. 2008. The Discovery of Global Warming, 
        by Spencer Weart, http://www.aip.org/history/climate.

Cazenave, A., K. Dominh, S. Guinehut, E. Berthier, W. Llovel, G. 
        Ramillen, M. Ablain and G. Larnicol. 2009. Sea level budget 
        over 2003-2008: a reevaluation from GRACE space gravimetry, 
        satellite altimetry and ARGO. Global and Planetary Change 65, 
        83-88.

CCSP. 2008. Abrupt Climate Change. A report by the U.S. Climate Change 
        Science Program and the Subcommittee on Global Change Research 
        [Clark, P.U., A.J. Weaver (coordinating lead authors), E. 
        Brook, E.R. Cook, T.L. Delworth, and K. Steffen (chapter lead 
        authors)].

U.S. Geological Survey, Reston, VA, 244 pp.

CCSP. 2009. Past Climate Variability and Change in the Arctic and at 
        High Latitude. A report by the U.S. Climate Change Program and 
        Subcommittee on Global Change Research [Alley, R.B., Brigham-
        Grette, J., Miller, G.H., Polyak, L., and White, J.W.C. 
        (coordinating lead authors). U.S. Geological Survey, Reston , 
        VA 461 pp.

Cogley, J.G., J.S. Kargel, G. Kaser and C.J. Van der Veen. 2010. 
        Tracking the Source of Glacier Misinformation. Science 327, 
        522-522.

Griggs, J. A. and J. E. Harries. 2007. Comparison of spectrally 
        resolved outgoing longwave radiation over the tropical Pacific 
        between 1970 and 2003 using IRIS, IMG, and AIRS. Journal of 
        Climate 20, 3982-4001.

Harries, J. E., H. E. Brindley, P. J. Sagoo and R. J. Bantges. 2001. 
        Increases in greenhouse forcing inferred from the outgoing 
        longwave radiation spectra of the Earth in 1970 and 1997. 
        Nature 410, 355-57.

IPCC. 2007. Summary for Policymakers. In Solomon, S., D. Qin, M. 
        Manning, Z. Chen, M. Marquis, K. B. Averyt, M.Tignor and H. L. 
        Miller (eds.), Climate Change 2007: The Physical Science Basis. 
        Contribution of Working Group I to the Fourth Assessment Report 
        of the Intergovernmental Panel on Climate Change (Cambridge 
        University Press, Cambridge and New York).

Kwok, R., and D. A. Rothrock. 2009. Decline in Arctic sea ice thickness 
        from submarine and ICESat records: 1958-2008. Geophysical 
        Research Letters 36, L15501, doi: 10.1 029/2009GL03903 5.

Lemke, P., J. Ren, R. B. Alley, I. Allison, J. Carrasco, G. Flato, Y. 
        Fujii, G. Kaser, P. Mote, R.H. Thomas and T. Zhang. 2007. 
        Observations: Changes in Snow, Ice and Frozen Ground, in 
        Solomon, S., D. Qin, M. Manning, Z. Chen, M. Marquis, K. B. 
        Averyt, M. Tignor and H. L. Miller [eds.], Climate Change 2007: 
        The Physical Science Basis. Contribution of Working Group I to 
        the Fourth Assessment Report of the Intergovernmental Panel on 
        Climate Change [Cambridge University Press, New York

Liu, J. and J. A. Curry. 2010. Accelerated warming of the Southern 
        Ocean and its impacts on the hydrological cycle and sea ice. 
        Proceedings of the National Academy of the United States of 
        America 107, 14,987-14,992

Manabe, S., M. J. Spelman and R. J. Stouffer. 1992. Transient responses 
        of a coupled ocean-atmosphere model to gradual changes of 
        atmospheric CO2. Part II: Seasonal response. Journal of Climate 
        5, 105-126.

McGranahan, G., D. Balk and B. Anderson. 2007. The rising tide: 
        Assessing the risks of climate change and human settlements in 
        low elevation coastal zones. Environment and Urbanization 19, 
        17-37

Meehl, G.A., T.F. Stocker, W.D. Collins, P. Friedlingstein, A.T. Gaye, 
        J.M. Gregory, A. Kitoh, R. Knuth, J.M. Murphy, A. Noda, S.C.B. 
        Raper, LG. Watterson, A.J. Weaver and Z.C. Zhao. 2007. Global 
        Climate Projections. In: Climate Change 2007: The Physical 
        Science Basis. Contribution of Working Group I to the Fourth 
        Assessment Report of the Intergovernmental Panel on Climate 
        Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. Marquis, 
        K.B. Averyt, M. Tignor and H.L. Miller (eds.)]. Cambridge 
        University Press, Cambridge, United Kingdom and New York, NY, 
        USA.

National Research Council, National Academy of Sciences, National 
        Academies Press, Washington, DC:

                 1975: United States Committee for the Global 
                Atmospheric Research Program, Understanding Climate 
                Change: A Program for Action

                 1979: Ad Hoc Study Group on Carbon Dioxide and 
                Climate, Carbon Dioxide and Climate: A Scientific 
                Assessment

                 2001: Committee on the Science of Climate Change, 
                Climate Change Science: An Analysis of Some Key 
                Questions

                 2002: Committee on Abrupt Climate Change, Abrupt 
                Climate Change: Inevitable Surprises

                 2006: Committee on Surface Temperature Reconstructions 
                for the Last 2,000 Years, Surface Temperature 
                Reconstructions for the Last 2,000 Years

                 2008: Understanding and Responding to Climate Change: 
                Highlights of National Academies Reports

                 2010a: Committee on Stabilization Targets for 
                Atmospheric Greenhouse Gas Concentrations, Climate 
                Stabilization Targets: Emissions, Concentrations, and 
                Impacts over Decades to Millennia

                 2010b: Panel on Advancing the Science of Climate 
                Change, Advancing the Science of Climate Change

Parizek, B.R. and R.B. Alley. 2004. Implications of increased Greenland 
        surface melt under global-warming scenarios: ice-sheet 
        simulations. Quaternary Science Reviews 23, 1013-1027.

Pfeffer, W.T., J.T. Harper and S. O'Neel. 2008. Kinematic constraints 
        on glacier contributions to 21st-century sea level rise. 
        Science 321, 1340-1343.

Rahmstorf, S., A. Cazenave, J. A. Church, J.E. Hansen, R.f. Keeling, 
        D.E. Parker and R.C.J. Somerville. 2007. Recent climate 
        observations compared to projections. Science 316, 709-709.

Seager, R., Y. Kushnir, J. Nakamura, M. Ting and N. Naik. 2010. 
        Northern Hemisphere winter snow anomalies: ENSO, NAO and the 
        winter of 2009/10. Geophysical Research Letters 37, L14703, 
        doi:10.1029/2010GL043830.

Turner, J., J. C. Comiso, G. J. Marshall, T.A. Lachlan-Cope, T. 
        Bracegirdle, T. Maksym, M.P. Meredith, Z. Wang and A. On. 2009. 
        Non-annular atmospheric circulation change induced by 
        stratospheric ozone depletion and its role in the recent 
        increase of Antarctic sea ice extent. Geophysical Research 
        Letters 36, L08502.

Vermeer, M. and S. Rahmstorf. 2009. Global sea level linked to global 
        temperature. Proceedings of the National Academy of Sciences of 
        the United States of America 106, 21,527-21,532.

                     Biography for Richard B. Alley
    Dr. Richard Alley is Evan Pugh Professor of Geosciences and 
Associate of the Earth and Environmental Systems Institute at The 
Pennsylvania State University, University Park, where he has worked 
since 1988. He was graduated with the Ph.D. in 1987 from the University 
of Wisconsin-Madison and with M.Sc. (1983) and B.Sc. (1980) degrees 
from The Ohio State University-Columbus, all in Geology. Dr. Alley 
teaches, and conducts research on the climatic records, flow behavior, 
and sedimentary deposits of large ice sheets, to aid in prediction of 
future changes in climate and sea level. His experience includes three 
field seasons in Antarctica, eight in Greenland, and three in Alaska. 
His awards include election to the US National Academy of Sciences, the 
Tyler Prize for Environmental Achievement, the Revelle Medal of the 
American Geophysical Union and the Horton Award of their Hydrology 
Section and Fellowship in the Union, the Seligman Crystal of the 
International Glaciological Society, the Agassiz Medal of the European 
Geosciences Union Cryospheric Section, Fellowship in the American 
Association for the Advancement of Science and the American Academy of 
Arts and Sciences, the US Presidential Young Investigator Award, the 
Public Service Award of the Geological Society of America, the 
Easterbrook Award of their Quaternary Geology and Geomorphology 
Division and Fellowship in the Society, the American Geological 
Institute Award For Outstanding Contribution To Public Understanding of 
the Geosciences, and at Penn State, the Eisenhower Teaching Award, the 
Evan Pugh Professorship, the Faculty Scholar Medal in Science, and the 
College of Earth and Mineral Sciences Wilson Teaching Award, Mitchell 
Innovative Teaching Award and Faculty Mentoring Award. Dr. Alley has 
served on a variety of advisory panels and steering committees, 
including chairing the National Research Council's Panel on Abrupt 
Climate Change and participating in the UN Intergovernmental Panel on 
Climate Change (which was co-recipient of the 2007 Nobel Peace Prize), 
and has provided requested advice to numerous government officials in 
multiple administrations including a US Vice President, the President's 
Science Advisor, and committees and individual members of the US Senate 
and the House of Representatives. He has published over 200 refereed 
papers, and is a ``highly cited'' scientist as indexed by ISI. His 
popular account of climate change and ice cores, The Two-Mile Time 
Machine, was chosen science book of the year by Phi Beta Kappa in 2001. 
Dr. Alley is happily married with two daughters, two cats, two 
bicycles, and a pair of soccer cleats.

    Chairman Baird. Thank you, Dr. Alley.
    Dr. Feely.

STATEMENT OF RICHARD A. FEELY, SENIOR SCIENTIST, PACIFIC MARINE 
  ENVIRONMENTAL LABORATORY, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Dr. Feely. Good morning Chairman Baird, Ranking Member 
Inglis, and Members of the Subcommittee. Thank you for giving 
me the opportunity to speak today about ocean acidification, 
its impacts on marine life, and our economic values.
    I know this issue is one that this subcommittee has the 
strongest interest in; and I would like to recognize and thank 
you for your bipartisan leadership in passing the seminal 
legislation, the Federal Ocean Acidification Research and 
Monitoring Act of 2009, that is now the driving force behind a 
NOAA, interagency, and academic effort throughout this country 
to understand this new phenomenon.
    Fundamental changes in seawater chemistry are occurring 
throughout the world's oceans. Over the past two-and-a-half 
centuries, the release of carbon dioxide from the industrial, 
agricultural activities has resulted in atmospheric carbon 
dioxide concentrations that have increased from 280 to about 
390 parts per million.
    To date, the oceans absorbed about one-third of the carbon 
dioxide emissions by human activities during this period. This 
natural process of absorption has benefited humankind by 
significantly reducing global warming in the atmosphere and 
reducing some of the impacts of global warming as well. 
However, decades of ocean observation and research from NOAA, 
the National Science Foundation, and the Department of Energy 
has shown that the daily uptake of 22 million tons of carbon 
dioxide is having a significant effect on the oceans' chemistry 
and biology.
    When carbon dioxide reacts with seawater, chemical changes 
occur that causes a decrease in seawater pH and carbonate ions. 
These chemical changes are largely referred to as ``ocean 
acidification'' because of the direction of change involved. 
Scientists have estimated that ocean pH has fallen about .1 pH 
units since the beginning of the industrial period.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    This first slide want to I show you shows the atmospheric 
concentration of CO<INF>2</INF> at the Mauna Loa site that Dr. 
Charles Keeling started in 1957, and underneath it you find the 
Hawaiian Ocean Time-Series data that's maintained by the 
University of Hawaii under the direction of the National 
Science Foundation. You can see the increase in surface ocean 
CO<INF>2</INF> is commensurate in terms of the rate of change 
with the atmospheric CO<INF>2</INF> concentration, about 1.7 
parts per million per year. Underneath that is the 
corresponding pH measurements from this site, and we see a .02 
pH change at this site over the last decade. So you can see 
from measurements alone we can see the acidification process.
    Since the pH scale is like the Richter scale, it is 
logarithmic. This change in pH represents a 20 percent increase 
in the hydrogen ion concentration of seawater or the acidity of 
seawater. Further predictions out through the end of the 
century suggest that we could have a 150 percent increase in 
the acidity of seawater using the IPCC business-as-usual 
scenario.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Now, it's important to note that at present we are 
exceeding the CO<INF>2</INF> emission scenarios to date. Many 
marine organisms that produce calcium carbonate shells and 
skeletons are negatively impacted by increasing ocean 
acidification and have been shown to reduce their ability to 
produce their shells and skeletons. For example, in a recent 
paper just published last week, coral reef biologists have 
shown that acidification could compromise fertilization and 
settlement of elkhorn coral. Elkhorn coral is an endangered 
species, and we are causing further harm to these organisms. 
These research results suggest that ocean acidification could 
severely impact the ability of coral reefs to recover from any 
kind of disturbances, including major storms.
    Other research indicates that by the end of this century 
coral reefs may erode faster than they can be rebuilt. This 
could compromise the long-term viability of those particular 
ecosystems that perhaps impact over a million species that 
depend on coral reefs for their survival.
    Ongoing research that decrease in pH may also negatively 
affect commercially important fish and shellfish species is 
well under way. Both crab and sea bream larvae exhibit high 
mortality rates in a high CO<INF>2</INF> world. The 
calcification rates of edible mussels and Pacific oysters 
decline linearly with increasing CO<INF>2</INF> levels. Since 
2006, some oyster hatcheries in the Pacific Northwest along 
Washington, Oregon, and California have experienced massive 
mortalities of oyster larvae in association with a combination 
of factors, including the upwelling of cold, high 
CO<INF>2</INF>-rich waters.
    Scientists have also seen a reduced ability of some types 
of marine plankton that produce calcium carbonate shells, and 
these organisms are food sources for many marine species. One 
type of free-swimming mollusk called the pteropod is eaten by 
organisms ranging in size from all the way from krill to 
whales. Pteropods are the major food source for North Pacific 
salmon and are a major food for mackerel, herring, and cod.
    You can see the importance of these species to our ocean 
ecosystem as they rise through the food chain. The impact of 
ocean acidification in our fisheries and coral reef ecosystems 
could reverberate through the United States and global economy. 
The United States is the third largest seafood consumer in the 
world, and total consumer spending on fish and shellfish is 
about $70 billion per year. Coastal and marine commercial 
fisheries generate up to $35 billion per year and employ 70,000 
people.
    In conclusion, ocean acidification is caused by the buildup 
of carbon dioxide in the atmosphere and can have significant 
impacts on marine ecosystems. Ocean acidification is an 
emerging scientific issue and much research is needed before 
all the ecosystem responses are understood. However, to the 
limit of the scientific understanding we have about this issue 
right now, the potential for environmental, economic, and 
societal risks are very high, hence demanding serious and 
immediate attention.
    Thank you for your attention, and I look forward to your 
questions.
    [The prepared statement of Dr. Feely follows:]
                 Prepared Statement of Richard A. Feely

Introduction

    Chairman Baird and members of the Subcommittee, thank you for 
giving me the opportunity to speak with you today on the evidence of 
climate change and ocean acidification. My name is Richard Feely. I am 
a Senior Scientist at the Pacific Marine Environmental Laboratory of 
the National Oceanic and Atmospheric Administration (NOAA) in Seattle, 
WA. My personal area of research is the study of the oceanic carbon 
cycle and ocean acidification processes. I have worked for NOAA for 36 
years and have published more than 300 peer-reviewed scientific journal 
articles, book chapters and technical reports. I serve on the U.S. 
Ocean Carbon and Biogeochemistry Scientific Steering Committee and I am 
the co-chair of the U.S. Repeat Hydrography Program Scientific 
Oversight Committee. I am also a member of the International Scientific 
Advisory Panel for the European Program on Ocean Acidification and the 
Interagency Working Group on Ocean Acidification, under the Joint 
Subcommittee on Science and Technology. Today I will discuss observed 
ocean acidification, its impacts on marine life, and potential economic 
impacts.

What is Ocean Acidification?

    Over the past two and a half centuries, the release of carbon 
dioxide (CO<INF>2</INF>) from our collective industrial and 
agricultural activities has resulted in atmospheric CO<INF>2</INF> 
concentrations that have increased from about 280 parts per million 
(ppm) to 392 ppm. The atmospheric concentration of CO<INF>2</INF> is 
now higher than experienced on Earth for at least the last 800,000 
years, and is expected to continue to rise, leading to significant 
temperature increases in the atmosphere and oceans by the end of this 
century. To this day, the oceans have absorbed more than 500 billion 
tons of carbon dioxide from the atmosphere, equivalent to about one 
third of the anthropogenic CO<INF>2</INF> emissions released during 
this period (Sabine and Feely, 2007). This natural process of 
absorption has benefited humankind by significantly reducing the 
greenhouse gas levels in the atmosphere and reducing the magnitude of 
global warming experienced thus far.
    Unfortunately the ocean's daily uptake of 22 million tons of 
CO<INF>2</INF> is having a significant impact on the chemistry and 
biology of the oceans. Over the last three decades, NOAA, the National 
Science Foundation and the Department of Energy have co-sponsored 
repeat hydrographic and chemical surveys of the world's oceans, 
documenting their response to increasing amounts of carbon dioxide 
being emitted to the atmosphere by human activities. These surveys have 
confirmed the oceans are absorbing increasing amounts of carbon 
dioxide. Both the hydrographic surveys and modeling studies reveal that 
chemical changes in seawater resulting from absorption of carbon 
dioxide are increasing the acidity of seawater or lowering of its pH. A 
drop in pH indicates an increase in acidity, as on the pH scale 7.0 is 
neutral, with points lower on the scale being ``acidic'' and points 
higher on the scale being ``basic'' (Raven et al, 2005; Feely et al., 
2009). Scientists have estimated that the pH of our ocean surface 
waters has already fallen by about 0.1 units from an average of about 
8.2 to 8.1 since the beginning of the industrial revolution. Because 
the pH scale, like the Richter scale, is logarithmic, a 0.1 unit 
decrease represents approximately a 26 percent increase in acidity.
    Future predictions indicate that the oceans will continue to absorb 
carbon dioxide and become even more acidic. (Feely et al., 2004; On et 
al., 2005; Caldeira and Wickett, 2005; Doney et al., 2009a; Feely et 
al., 2009). The United Nation's Intergovernmental Panel on Climate 
Change emission scenarios and numerical circulation models indicate 
that by the middle of this century, future atmospheric carbon dioxide 
levels could reach more than 500 ppm, and near the end of the century 
they could be as much as 700-800 ppm (On et al., 2005). This would 
result in a surface water pH decrease of approximately 0.3 pH units as 
the ocean becomes more acidic, which is equivalent to a doubling of 
acidity. To put this in historical perspective, the resulting surface 
ocean pH would be lower than it has been for at least the last 20 
million years (Feely et al., 2004). When CO<INF>2</INF> reacts with 
seawater, fundamental chemical changes occur that cause seawater to 
become more acidic. The interaction between CO<INF>2</INF> and seawater 
also reduces the availability of carbonate ions, which play an 
important role in shell formation for a number of marine organisms such 
as corals, marine plankton, and shellfish. This phenomenon, which is 
commonly called ``ocean acidification,'' could affect some of the most 
fundamental biological and geochemical processes of the sea in coming 
decades. This rapidly emerging issue has created serious concerns 
across the scientific and marine resource management communities.

Evidence of Ocean Acidification Effects on Coral Reefs

    Many marine organisms that produce calcium carbonate shells are 
negatively impacted by increasing carbon dioxide levels in seawater 
(and the resultant decline in pH). For example, increasing ocean 
acidification has been shown to significantly reduce the ability of 
reef-building corals to produce their skeletons, affecting growth of 
individual corals and making the reef more vulnerable to erosion 
(Kleypas et al., 2006; Doney et al., 2009a; Cohen and Holcomb, 2009). 
Some estimates indicate that, by the end of this century, coral reefs 
may erode faster than they can be rebuilt. This could compromise the 
long-term viability of these ecosystems and perhaps impact the 
thousands of species that depend on the reef habitat. Decreased 
calcification may also compromise the fitness or success of these 
organisms and could shift the competitive advantage towards organisms 
that are not dependent on calcium carbonate. Carbonate structures are 
likely to be weaker and more susceptible to dissolution and erosion in 
a more acidic environment. Furthermore, recent findings suggest that 
the calcium carbonate cementation that serves to bind the reef 
framework together may be eroded (Manzello et al., 2008). Such effects 
could compromise reef resiliency in the face of other threats, such as 
thermal stress, diseases, storms, and rising sea level (e.g., Silverman 
et al., 2009). For example, in CO<INF>2</INF>-enriched waters around 
the Galapagos Islands, reef structures were completely eroded to rubble 
and sand in less than 10 years following an acute warming disturbance 
(1982-83 El Nino event; Manzello et al., 2008). In long-term laboratory 
and mesocosm experiments, or contained laboratory model ecosystems 
under controlled conditions, corals that have been grown under lower pH 
conditions for periods longer than one year have not shown any ability 
to adapt their calcification rates to the lower pH levels. In fact, two 
studies showed that the projected increase in CO<INF>2</INF> is 
sufficient to dissolve the calcium carbonate skeletons of some coral 
species (Fine and Tchernov, 2007; Hall-Spencer et al., 2008).

Evidence of Ocean Acidification Effects on Fish and Shellfish

    Ongoing research is showing that decreasing pH may also have 
deleterious effects on commercially important fish and shellfish 
larvae. Both king crab and silver seabream larvae exhibit very high 
mortality rates in CO<INF>2</INF>-enriched waters (Ishimatsu et al., 
2004). Some of the experiments indicated that other physiological 
stresses were also apparent. Exposure of some fish and shellfish to 
lower pH levels can cause decreased respiration rates, changes in blood 
chemistry, and changes in enzymatic activity. The calcification rates 
of the edible mussel (Mytilus edulis) and Pacific oyster (Crassostrea 
gigas) decline linearly with increasing CO<INF>2</INF> levels (Gazeau 
et al. 2007). Squid are especially sensitive to ocean acidification 
because it directly impacts their blood oxygen transport and 
respiration (Portner et al., 2005). Sea urchins raised in lower-pH 
waters show evidence for inhibited growth due to their inability to 
maintain internal acid base balance (Kurihara and Shirayama, 2004). The 
supply of these commercially valuable species is in jeopardy from ocean 
acidification.
    Scientists have also seen a reduced ability of marine algae and 
free-floating plants and animals to produce protective carbonate shells 
(Feely et al., 2004; On et al., 2005; Doney et al., 2009b). These 
organisms are important food sources for other marine species. One type 
of free-swimming mollusk called a pteropod is eaten by organisms 
ranging in size from tiny krill to whales. In particular, pteropods are 
a major food source for North Pacific juvenile salmon, and also serve 
as food for other salmon species, mackerel, pollock, herring, and cod. 
Other marine calcifiers, such as coccolithophores (microscopic algae), 
foraminifera (microscopic protozoans), coralline algae (benthic algae), 
echinoderms (sea urchins and starfish), and mollusks (snails, clams, 
and squid) also exhibit a general decline in their ability to produce 
their shells with decreasing pH (Kleypas et al., 2006; Fabry et al., 
2008).

Evidence of Ocean Acidification Effects on Marine Ecosystems

    Since ocean acidification research is still in its infancy, it is 
impossible to predict exactly how the individual species responses will 
cascade throughout the marine food chain and impact the overall 
structure of marine ecosystems. It is clear, however, from both the 
existing data and from the geologic record that some coral and 
shellfish species will be negatively impacted in a high-CO<INF>2</INF> 
ocean. The rapid disappearance of many calcifying species in past 
extinction events has been attributed, in large part, to ocean 
acidification events (Zachos et al., 2005; Vernon, 2008). Over the next 
century, if CO<INF>2</INF> emissions continue to increase as predicted 
by the IPCC CO<INF>2</INF> emissions scenarios, humankind may be 
responsible for increasing oceanic CO<INF>2</INF> and making the oceans 
more corrosive to calcifying organisms than at anytime in the last 20 
million years. Thus, the decisions that are made about carbon dioxide 
emissions over the next few decades will probably have a profound 
influence on the makeup of future marine ecosystems for centuries to 
millennia.

Potential Economic Impacts of Ocean Acidification

    The impact of ocean acidification on fisheries and coral reef 
ecosystems could reverberate through the U.S. and global economy. The 
U.S. is the third largest seafood consumer in the world with total 
consumer spending for fish and shellfish around $70 billion per year. 
Coastal and marine commercial fishing generates upwards of $35 billion 
per year and employs nearly 70,000 people (NOAA Fisheries Office of 
Science and Technology; http://www.st.nmfs.gov/stl/fus/fus05/
index.html). In a recent study by Cooley and Doney (2009) the total 
value of U.S. commercial harvests from U.S. waters and at-sea 
processing was approximately $4 billion in 2007. Almost a quarter (24%) 
of all U.S. commercial harvest revenue was from harvesting fish that 
prey directly on calcifying organisms. Different species dominate 
different regional revenues; mollusks are more important in the New 
England and mid- to south-Atlantic regions, crustaceans contribute 
greatly to New England and Gulf of Mexico fisheries, and predators 
dominate the Alaskan, Hawaiian, and Pacific territory fisheries. On the 
west coast shellfish industries bring in more than $110 million in 
revenue each year. Bivalves, such as oysters, also filter marine and 
estuarine waters and create habitat for other species, serving 
important ecosystem services (NOAA OA Plan, 2009; Feely et al., 2010). 
Since 2006, some oyster hatcheries in the Pacific Northwest region have 
experienced mass mortalities of oyster larvae in association with a 
combination of factors, including unusually saline surface waters and 
the upwelling of cold, CO2- and nutrient-rich waters (Feely et al., 
2008).
    Healthy coral reefs are the foundation of many viable fisheries, as 
well as the source of jobs and businesses related to tourism and 
recreation. Increased ocean acidification may directly or indirectly 
influence the fish stocks because of large-scale changes in the local 
ecosystem dynamics. It may also cause the dissolution of the newly 
discovered deepwater corals in the West Coast and Alaskan Aleutian 
Island regions, where many commercially important fish species in this 
region depend on this particular habitat for their survival. In the 
Florida Keys alone, coral reefs attract more than $1.2 billion in 
tourism annually (English et al., 1996). In Hawaii, reef-related 
tourism and fishing generate $360 million per year, and their overall 
worth has been estimated at close to $10 billion (Cesar et al., 2002). 
In addition to sustaining commercial fisheries, tourism, and 
recreation, coral reefs also provide vital protection to coastal areas 
that are vulnerable to storm surges and tsunamis.

NOAA Ocean Acidification Research

    Ocean acidification is an important new scientific frontier which 
we must understand better given its potentially adverse consequences. 
NOAA research activities offer significant contributions to improving 
our understanding and assessing the impacts of this rapidly emerging 
issue. In response to the Federal Ocean Acidification Research and 
Monitoring Act of 2009 (FOARAM Act), NOAA is in the process of hiring a 
permanent ocean acidification program director as a final step to the 
establishment of a new NOAA ocean acidification program, per section 
12406 of the FOARAM Act. NOAA has also developed an integrated Ocean 
Acidification and Great Lakes research and long-term monitoring plan 
for assessing climate change impacts on living marine resources and the 
businesses and communities that depend on their sustainable use. The 
primary goals of this plan are to:

        <bullet>  Assess the ecological and socioeconomic effects of 
        ocean acidification on commercial fish species and the greater 
        ecosystems on which they rely;

        <bullet>  Develop and provide sensors to monitor ocean 
        acidification both for fixed platforms and for mobile use by 
        researchers and coastal managers in the field;

        <bullet>  Determine and monitor the status and potential 
        effects of ocean acidification on coral reefs and other 
        protected areas such as National Marine Sanctuaries; and

        <bullet>  Expand carbonate analytical capabilities at NOAA 
        science centers in order to meet the growing demand for quality 
        control on samples being collected both in the field from U.S. 
        waters and from researchers studying the impacts of ocean 
        acidification on critical species through laboratory 
        experiments.

    The results of this research will help to inform future strategies 
to help communities, ecosystems, and industries respond to ocean 
acidification. The increased research capabilities will complement, 
accelerate, and enhance current NOAA ocean acidification activities 
within the Office of Oceanic and Atmospheric Research, National Ocean 
Service, and National Marine Fisheries Service.

Interagency Planning
    The FOARAM Act directed the Joint Subcommittee on Ocean Science and 
Technology (JSOST) of the National Science and Technology Council to 
create an Interagency Working Group on Ocean Acidification (IWG-OA), 
chaired by NOAA. The IWG-OA was charged with developing a strategic 
plan for Federal research and monitoring on ocean acidification that 
will provide for an assessment of the impacts of ocean acidification on 
marine organisms and marine ecosystems and the development of 
adaptation and mitigation strategies to conserve marine organisms and 
marine ecosystems. The IWG-OA has developed a draft strategic plan that 
is presently undergoing review, in preparation for delivery in early 
spring 2011 as requested by the FOARAM Act.

Conclusion

    In conclusion, ocean acidification is caused by the buildup of 
carbon dioxide and other acidic compounds in the atmosphere and is 
expected to have significant impacts on marine ecosystems. Results from 
laboratory, field and modeling studies, as well as evidence from the 
geological record, clearly indicate that marine ecosystems are highly 
susceptible to the increases in oceanic CO<INF>2</INF> and the 
corresponding decreases in pH. Because of the very clear potential for 
ocean-wide impacts of ocean acidification at all levels of the marine 
ecosystem, from the tiniest phytoplankton to zooplankton to fish and 
shellfish, we can expect to see significant impacts that are of immense 
importance to humankind. Ocean acidification is an emerging scientific 
issue and much research is needed before the breadth and magnitude of 
ecosystems'' responses are well understood. However, to the limit that 
the scientific community understands this issue right now, the 
potential for environmental, economic and societal risk is quite high, 
hence demanding serious and immediate attention. Thank you for giving 
me the opportunity to address this Subcommittee. I look forward to 
answering your questions.

References and Additional Sources

Caldeira, K., and M.E. Wickett 2005. Ocean model predictions of 
        chemistry changes from carbon dioxide emissions to the 
        atmosphere and ocean. Journal of Geophysical Research (Oceans) 
        110, C09SO4, doi:10.1029/2004JC002671.

Cesar, II., P. van Beukering, S. Pintz, and J. Dierking, 2002. Economic 
        valuation of Hawaiian reefs. Cesar Environment Economics 
        Consulting, Arnham, The Netherlands, 123 pp.

Cohen, A.L., and M. Holcomb. 2009. Why corals care about ocean 
        acidification: Uncovering the mechanism. Oceanography 
        22(4):118-127.

Doney, Scott C., Victoria J. Fabry, Richard A. Feely, and Joan A. 
        Kleypas. 2009a. Ocean Acidification: The Other CO2 Problem. 
        Annual Review of Marine Science 1 (1):169.

Doney, S.C., W.M. Balch, V.J. Fabry, and R.A. Feely. 2009b. Ocean 
        Acidification: A Critical Emerging Problem for the Ocean 
        Sciences. Oceanography 22(4): 16-25.

English, D.B.K., W. Kriesel, V.R. Leeworthy and P.C. Wiley, 1996. 
        Economic contribution of recreating visitors to the Florida 
        Keys/Key West. National Oceanic and Atmospheric Administration, 
        Strategic Environmental Assessments Division. 22 pp.

Fabry, Victoria J., Brad A. Seibel, Richard A. Feely, and James C. Orr. 
        2008. Impacts of ocean acidification on marine fauna and 
        ecosystem processes. ICES J. Mar. Sci. 65 (3):414-432.

Feely, R. A., C. L. Sabine, K. Lee, W. Berrelson, J. Kleypas, V. J. 
        Fabry, and F. J. Millero. 2004. Impact of anthropogenic CO2 on 
        the CaCO3 system in the oceans, Science, 305(5682): 362-366.

Feely, R., S. C. Doney, and S. Cooley. 2009. Ocean acidification: 
        present conditions and future changes in a High-CO2 World. 
        Oceanography 22 (4):36-47.

Feely, R.A., S.R. Alin, J. Newton, C.L. Sabine, M. Warner, A. Devol, C. 
        Krembs, and C. Maloy. 2010. The combined effects of ocean 
        acidification, mixing, and respiration on pH and carbonate 
        saturation in an urbanized estuary. Estuar. Coast. Shelf Sci., 
        88, 442-449.

Fine, M. and D. Tchernov . 2007. Scleractinian coral species survive 
        and recover from decalcification, Science (315): 1811.

Gazeau, F., Quiblier, C., Jeroen M. Jansen, J. M. Jean-Pierre Gattuso, 
        J.-P., Middelburg, J. J., and C. H.R. Heip. 2007. Impact of 
        elevated CO2 on shellfish calcification, Geophysical Research 
        Letters, 34, L07603, doi:10.1029/2006GL028554.

Hall-Spencer, J.M., R. Rodolfo-Metalpa, S. Martin, E. Ransome, M. Fine, 
        S.M. Turner, S.J. Rowley, D. Tedesco, and M.C. Buia. 2008. 
        Volcanic carbon dioxide vents show ecosystem effects of ocean 
        acidification. Nature 454(7200): 96-99.

Ishimatsu, A., Kikkawa, T., Hayashi, M., Lee, K.-S., and . J. Kita. 
        2004. Effects of CO2 on marine fish: Larvae and adults, Journal 
        of Oceanography, Vol. 60, pp. 731-741.

Kleypas, J.A., R.A. Feely, V.J. Fabry, C. Langdon, C.L. Sabine, and 
        L.L. Robbins. 2006.. Impacts of ocean acidification on coral 
        reefs and other marine calcifiers: A guide to future research. 
        Report of a workshop held 18-20 April 2005, St. Petersburg, FL, 
        sponsored by NSF, NOAA, and the U.S. Geological Survey, 88 PP.

Kurihara, K. and Shirayama, Y. 2004. Impacts of increased atmospheric 
        CO2 on sea urchin early development, Mar. Ecol;. Prog. Ser., 
        274, 161-169.

Marshall, P. and H. Schuttenberg. 2006. A Reef Manager's Guide to Coral 
        Bleaching, Great Barrier Ref Marine Park Authority, Townsville, 
        Australia, 139pp.

Manzello D.P., Kleypas J. A., Budd D.A, Eakin C.M., Glynn P.W., Langdon 
        C. 2008. Poorly cemented coral reefs of the eastern tropical. 
        Pacific: possible insights into reef development in a high-CO2 
        world. Proc Natl Acad Sci USA 105:10450-10455

NOAA Ocean and Great Lakes Acidification Research Plan. 2010. Feely, 
        R.A., R. Wanninkhof, J. Stein, M.F. Sigler, E. Jewett, F. 
        Arzayus, D.K. Gledhill, and A.J. Sutton, NOAA Special Report, 
        April 2010, 143 pp.

On, J. C., V. J. Fabry, O. Aumont, L. Bopp, S. C. Doney, R. A. Feely, 
        A. Gnanadesikan, N. Fruber, A. Ishida, F. Joos, R. M. Key, K. 
        Lindsay, E. Maier-Reimer, R. Matear, P. Monfray, A. Mouchet. R. 
        G. Najjar, G.-K. Plattner, K. B. Rodgers, C. L. Sabine, J. L. 
        Sarmiento, R. Schlitzer, R. D. Slater, I. J. Totterdel, M.-F. 
        Weirig, Y. Yamanaka, and A. Yool. 2005. Anthropogenic ocean 
        acidification over the twenty-first century and its impact on 
        calcifying organisms, Nature, 437: 681-686.

Portner, H.O., M. Langenbuch, and B. Michaelidis (2005) Synergistic 
        effects of temperature extremes, hypoxia. and increases in CO2 
        on marine animals: From Earth history to global change, J. 
        Geophys. Res. 110, C09S 10, doi:10.1029/2004J0002561.

Raven, J. Caldeira, K. Elderfield, H. Hoegh-Guldberg, O. Liss, P. 
        Riebesell, U. Shepherd, J. Turley, C. Watson, A. 2005.. 
        Acidification due to increasing carbon dioxide. In Report 12/
        05. London, T.R.S.o. (ed.) London: The Royal Society, pp. vii + 
        60.

Sabine, C.L., and R.A. Feely. 2007. The oceanic sink for carbon 
        dioxide. In Greenhouse Gas Sinks, D. Reay, N. Hewitt, J. Grace, 
        and K. Smith (eds.), CABI Publishing, Oxfordshire, UK.

Silverman, Jacob, Boaz Lazar, Long Cao, Ken Caldeira, and Jonathan 
        Erez. 2009. Coral reefs may start dissolving when atmospheric 
        CO2 doubles. Geophys. Res. Lett. 36.

Vernon, J.E.N. 2008. A reef in time: the Great Barrier Reef from 
        beginning to end, The Belknap Press, Cambridge, MA, 289pp.

Zachos, J. C., U. Rohl, S. A. Schellenberg, A. Sluijs, D. A. Hodell, D. 
        C. Keely, E. Thomas, M. Nicolo, I. Raffi, L. J. Lourens, H. 
        McCarren, and D. Kroon. 2005. Rapid acidification of the ocean 
        during the Paleocene-Eocene thermal maximum, Science, 308: 
        1611-16.

                     Biography for Richard A. Feely
    Dr. Richard A. Feely is a Senior Scientist at the NOAA Pacific 
Marine Environmental Laboratory in Seattle. He also holds an affiliate 
full professor faculty position at the University of Washington School 
of Oceanography. His major research areas are carbon cycling in the 
oceans and ocean acidification processes. He received a B.A. in 
chemistry from the University of St. Thomas, in St Paul, Minnesota in 
1969. He then went to Texas A&M University where he received both a 
M.S. degree in 1971 and a Ph.D. degree in 1974. Both of his post-
graduate degrees were in chemical oceanography. He is the co-chair of 
the U.S. CLIVAR/CO2 Repeat Hydrography Program. He is also a member of 
the Steering Committee for the U.S. Carbon and Biochemistry Program. He 
is a member of the American Geophysical Union, the American Association 
for the Advancement of Science and the Oceanography Society. Dr. Feely 
has authored more than 200 refereed research publications. He was 
awarded the Department of Commerce Gold Award in 2006 for research on 
ocean acidification. In 2007, Dr. Feely was elected to be a Fellow of 
the American Geophysical Union. He recently was awarded the Heinz Award 
for his pioneering research on ocean acidification.

                               Discussion

    Chairman Baird. Thank you, Dr. Feely. Thanks to all the 
witnesses.
    At this point, I will recognize myself for five minutes and 
follow-up questions from my colleagues.

                  Ocean Acidification and Coral Damage

    Dr. Feely, you focused on the evidence of ocean 
acidification. It appears to be a pretty strong connection. Two 
questions for you, one tangential. There has, my understanding, 
been an enormous coral die-off worldwide, particularly in the 
Caribbean, as we have seen coral bleaching from high sea 
temperatures. Can you very briefly comment on that?
    And then, secondly, are there alternative explanations that 
seem credible to explain the acidification levels that you have 
been measuring?
    Dr. Feely. To answer your first question, because of the 
increasing level of temperatures in the ocean, we have seen 
coral die-offs of as much as 16 percent globally. And the 
projections are that out to the end of this century we may not 
see very many of the coral reefs be able to survive. That's the 
dire situation we are faced with.
    The concern we have in terms of the acidification is that 
some of the preliminary research has shown that the combination 
of increased CO<INF>2</INF> and the increased temperature 
associated with global warming enhances the bleaching impact on 
those corals. So their risk of survival is even greater.
    Chairman Baird. Do you want to--are there other 
alternatives? What is another alternative explanation for the 
measured increase in acidity or, in other words, lowered pH, 
other than the CO<INF>2</INF> hypothesis?
    Dr. Feely. The major alternative suggestion is that perhaps 
CO<INF>2</INF> evolution from volcanic activity, hydrothermal 
activity in the deep sea, could be enriching the CO<INF>2</INF> 
levels in the surface oceans. But we have published papers on 
this subject to show that the amount of CO<INF>2</INF> from 
volcanic activity in any given year is 1/100 of the amount of 
CO<INF>2</INF> that enters the atmosphere.
    Chairman Baird. Thanks, Dr. Feely.

                       Measuring Glacial Changes

    Dr. Alley, two questions. One, tell us a little bit about 
how--from your graph, it looked like you feel pretty confident 
that the data suggests the ice sheets, glaciers around the 
world are melting, with a few exceptions. Tell us a little bit 
about the methodology by which that is measured first.
    And secondly, haven't there been times in the past when we 
have seen receding glaciers and receding ice sheets and 
comments about my goodness, things seem to be going in the 
opposite direction. Glaciers--you know. And what is the 
difference now?
    Dr. Alley. Right. So for measuring, say, what Greenland is 
doing, some of that work is done by weighing the ice sheet 
using the GRACE gravity satellites, which is truly wonderful. 
It is like watching cars on a roller coaster and the one going 
down gets away from the one that is going up, and then the one 
going down catches up. And you watch----
    Chairman Baird. As I understand it, it is fascinating with 
satellites sort of pursuing each other and gravitational 
attraction slows one down, relative to the other. And by 
measuring the rate of that different speed, you can tell how 
much mass is underneath you. And as that mass declines, there 
is less slowing down.
    Dr. Alley. Perfect. I should retire and let you teach this.
    Chairman Baird. I just think it is beautiful.
    Dr. Alley. So you weigh them using GRACE, but then you 
measure changes in surface elevation, is it going down or up, 
using a radar or a laser from a plane or a satellite, and all 
of those have been done. And then you figure out how much snow 
is being added and how much melt water is leaving and how much 
ice is leaving. And then you compare all of these to see if 
they give the same answer. And all of them indicate shrinkage 
of Greenland.
    You are certainly correct that the ice has grown and shrunk 
in the past. And I had the honor of serving for the United 
States Government on the Climate Change Science Program on a 
report of the history of the arctic. And what we found was very 
clear for Greenland. When nature made it warmer, Greenland got 
smaller. And when nature made it colder, Greenland got bigger. 
And we are now making it warmer and Greenland is getting 
smaller.

                    Evidence of Anthropogenic Change

    Chairman Baird. How do we know it is we, not nature? I 
mean, we have the increase in CO<INF>2</INF>. But the skeptic 
would argue, well, wait a second, I can go back to 1927 and 
find articles about glaciers retreating. What is the 
difference? I mean, you know, you can look at a football team 
and say they were losing back then and they are losing now, so 
what is the difference?
    Dr. Alley. Right. So the first one is the physics. We just 
cannot get away from the warming effect of CO<INF>2</INF>. It 
has been known for over a century. It was really clarified by 
the Air Force who were actually interested in what wavelength 
should I use for the sensor on my heat-seeking missile. But 
CO<INF>2</INF> interacts with radiation and there is enough 
CO<INF>2</INF> to make a difference. And we just can't get away 
from that physics.
    The second one is--is looking at is there any other 
possible thing to explain this. And it really took--I am sorry, 
sir, it took a few billion dollars of your money and about 30 
years to say that there is nothing else that we can find in 
nature to do this. And this is because satellites are 
expensive.
    But someone says it is the sun. Well, then you need a 
satellite to watch the sun to see if the sun is getting 
brighter, but it isn't. And if someone says, well, it is 
volcanoes, then we need a history of volcanoes and we need to 
know what they are doing. And someone says it is cosmic rays, 
we need cosmic ray monitors. And it has taken sort of 30 years 
to get to the point of saying, no, we have looked really hard, 
we can't find anything else.
    And there is a third piece, which is the fingerprinting, 
which is what Dr. Santer was discussing. If you were to say, 
okay, yeah, I know we spend a lot of money on satellites and 
the satellites say the sun is not getting brighter, but maybe, 
maybe, maybe the satellites are wrong and the sun is getting 
brighter and we can't see it. That makes a prediction. It gets 
warmer down here and it gets warmer way up at the top of the 
stratosphere. CO<INF>2</INF> says warm down there or colder up 
there. What is going on is warmer down here and colder up 
there? So the fingerprinting and time in space says that we got 
it right on the other two pieces. It is mostly us now.
    Chairman Baird. I want to be clear. It is not my money. It 
is your money.
    Dr. Alley. Thank you, sir. Absolutely.
    Chairman Baird. It is the taxpayers' money. I never forget 
it. But I think at the same time, if we don't address our 
energy dependence and if we don't address appropriately, then 
by my judgment, real impacts of this will vastly exceed a 
billion dollars. And if we can make some measured changes to 
reduce that impact, the savings will exceed the expenditures 
by--Dr. Santer, you might want to comment, Dr. Michaels? And 
then I will recognize my colleague.
    Dr. Santer. Yeah. I just wanted to comment briefly on what 
Dr. Alley said about the fingerprinting. We have known that 
increases in CO<INF>2</INF> have this characteristic 
fingerprint of warming the lower atmosphere, the troposphere, 
and cooling the upper atmosphere since about the late 1950s, 
early 1960s, when people performed the first numerical model 
experiments and doubled CO<INF>2</INF>. And they saw this 
characteristic pattern of cooling of the stratosphere and 
warming of the troposphere. Very robust. We see that in 
virtually every model experiment that has been performed. And 
as mentioned, we also see it in observations, too. We see it in 
satellite data. We see it in weather balloon data.
    Now, people often say these computer models are not 
falsifiable. They make predictions that we can't test. That is 
not true. Back in the 1960s, when Suki Manabe and his 
colleagues at the Geophysical Fluid Dynamics Lab in Princeton 
made these calculations and doubled atmospheric CO<INF>2</INF> 
and saw this fingerprint, we didn't really have the 
observational data to see whether the stratosphere was actually 
cooling, whether the troposphere was warming. They have. The 
stratosphere has cooled. The troposphere has warmed. That 
fingerprint is robust and it is just not consistent with other 
natural causes.
    Chairman Baird. Dr. Michaels, did you care to comment on 
any of this?
    Dr. Michaels. I have several comments I would like to make. 
It would probably take up the rest of the day. So I will just 
limit--that won't happen, no, it certainly won't. I will limit 
it to the notion of--what we are talking about here, you've 
noticed, is everybody says that the planet has warmed up and 
that people have something to do with it. So what really 
matters is the magnitude of it.
    If I can have the clicker, this is just going to take a 
second. It is not going to be as bad as you think. There it is. 
Right there. This is the warming from the IPCC--from the CRU 
record from 1950. And our Environmental Protection Agency 
which, as you know, has taken over the regulatory aspect of 
this because of what happened in the Congress, issued an 
endangerment finding on warming. And they asserted in their 
endangerment finding that more than half of the warming of the 
late 20th century is a result--very likely a result of human 
greenhouse gases. More than half means more than 50 percent. 
Late 20th century means after 1950. Do you agree with that?
    Second--sorry. I said second half of the 20th century. 
Well, in fact there are four different factors that are totally 
independent of the greenhouse effect. One that we 
overestimated--underestimated sea surface temperatures from 
1944 to 1965. That was published by Thompson in Nature 
Magazine. Number two, that there are nonclimatic subtle effects 
on the temperature history. That was published by McKitrick in 
the Journal of Geophysics Atmospheres. Susan Solomon found that 
water vapor in the stratosphere is responsible for a lot of the 
secular changes. And we don't know why water vapors fluctuate 
in the stratosphere. It is not a greenhouse effect. I mean, it 
is not--it is not, apparently, from greenhouse gas emissions. 
And number four, Rominoffon at Stanford said, well, about 25 
percent of the warming is a result of black carbon going in the 
atmosphere. That is also not a greenhouse gas.
    When you add all of those up, the warming drops from .7 to 
.3 degrees. So the assertion that over half the warming is a 
function of greenhouse gases is challenged by four completely 
independent factors. I think we have got a lot more work to do 
on this frankly.
    Chairman Baird. Any very quick response to that? And then 
Mr. Inglis.
    Dr. Santer. Yes, might I respond to that?
    Chairman Baird. Very quickly.
    Dr. Michaels. Dr. Michaels' analysis is wrong. I am sorry. 
It is just completely incorrect. What he has attempted to do 
here is explain the observed temperature change over the last 
60 years from 1950 through 2010. And he said that the estimated 
total change in temperature is .7 degrees. Now, he has 
identified four things--economic activity, black carbon, errors 
in the sea surface temperature data and stratospheric water 
vapor--and he said, I think all of those things have had a 
warming influence, so I am going to subtract them from this .7 
degrees and I am left with .3. Point 3 is less than half of .7, 
therefore the IPCC is wrong. And the conclusion that more than 
half of the observed warming over the 20th century was very 
likely due to increases in greenhouse gases is one of the 
central conclusions of the IPCC. So if Dr. Michaels is right, 
that central conclusion is wrong.
    What Dr. Michaels did not mention either here or in his 
written testimony is the cooling effect of sulfate aerosols, 
which has already been discussed at this hearing. If you 
indulge me for a moment, I am just going to bring up one slide 
here.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Now, this is a slide from a paper published in 2006 by 
Peter Stott at the Hadley Center. So what you see in the bottom 
are three different climate models, and it is the estimate of 
their sulfate cooling caused by the scattering effects of 
sulfate aerosols over the 20th century. It is negative.
    Now, if you assume conservatively that that cooling effect 
over 1950 to 2010 period Dr. Michaels looked at was, say, minus 
.4 degrees Celsius over that 60-year period and you assume that 
Dr. Michaels was completely correct in estimating the magnitude 
of the four factors that he removed from the observations, you 
would be adding minus .4 and plus .4. You would get to zero. So 
you still need to explain .7. You need to get to the observed 
total temperature change over the 60-year period.
    What could that be? Could it be the sun? No way. It 
couldn't be the sun. If solar effects were that large on the 
60-year time scale, we could see a huge 11-year cycle in the 
temperature data. We don't. Could it be volcanoes? No, it 
couldn't be volcanoes. Could it be some mode of natural 
variability, some internal oscillation of the climate system 
that could generate that .7 degree temperature increase? Not 
plausible.
    The most plausible explanation is an increase in 
atmospheric CO<INF>2</INF>. We know CO<INF>2</INF> has changed. 
Again, that is not some assertion. That is not supposition. We 
know that. So what the IPCC found here and what they reported 
on was that actually the change in temperature due to 
greenhouse gases, which is what you see in red, was larger than 
the actually observed change in temperature, which is that 
horizontal black line. So the greenhouse gas signal was offset. 
That is our best understanding by the cooling caused by these 
sulfate aerosols. They scatter incoming sunlight and they also 
change cloud properties.
    Dr. Michaels. Excuse me. Excuse me. I beg your pardon for a 
second. The IPCC gives the range of prospective forcing from 
sulfate aerosol at zero, a range from zero to minus two watts 
per meter square. That gives you an incredible wiggle room any 
time you want to make an argument, doesn't--doesn't it now?
    It is very interesting to look at sulfate aerosol in terms 
of the history of science. The first book I ever read at the 
University of Chicago was ``The Structure of Scientific 
Revolutions'' by Thomas Kuhn. I recommend it to everyone. It 
predicts that when a paradigm experiences anomalous data, then 
increasingly strange explanations are brought forth.
    In 1985, Tom Wigley, who was Ben's advisor, recognized in a 
paper that the greenhouse gas models were producing too much 
warming and invoked sulfates. And then you can tune models with 
sulfates and get things to work perfectly well. Well, the fact 
of the matter is that our understanding of what the radiative 
effects of these things are is so wide that I can give you 
virtually any answer. And So I am just assuming to leave that 
alone.
    Chairman Baird. I recognize Mr. Inglis.
    Mr. Inglis. And I think it is worth following up on that 
because--and this is why this hearing is so valuable, because 
these are the kind of things that confuse people and confuse 
the public a great deal. So, Dr. Santer, do you want to 
continue with your--what is your retort?
    Dr. Santer. Yes, if I could. Dr. Michaels was wrong again. 
He claimed that the IPCC's published estimate of the radiative 
effect of sulfate aerosols was zero to minus two watts per 
square meter. That serves for the indirect effect. That is for 
the effect of aerosols on clouds, on cloud cover and on cloud 
brightness, which is very uncertain.
    The IPCC's estimate of the direct scattering of effect of 
aerosols, how they scatter incoming sunlight back into space, 
does not intersect with zero. It is negative. And the best 
estimate is an order of minus .5 watts per square meter.
    The cooling effect of sulfate aerosols has been established 
not only observationally and in models and theoretically. In 
dozens of studies, we can see these things from space. They are 
not supposition. This is not science fiction. And leaving out 
this negative forcing in his testimony to you is misleading 
you. I am sorry.
    Dr. Michaels. The problem here is that the error bars 
around these things are very, very large. And furthermore, 
there is an issue with the sensitivity. Excuse me. I would like 
to finish.
    This discussion is really about the sensitivity of 
temperature to various and sundry forcings. And there is quite 
a discussion as to, in fact, what the change in temperature is 
per change in watt per meter squared down while in flux. If it 
is on the order of I think what Lindzen thinks it is, then the 
sulfates aren't going to be all that important. So this is 
just--this is an open matter for discussion. I am sorry. We 
just don't know everything.
    Chairman Baird. Dr. Santer.
    Dr. Santer. Might I respond very quickly? I am glad that 
Dr. Michaels raised the issue of uncertainties. In the 
fingerprinting work that we do, we constantly look at 
uncertainties. They are part and parcel of our lives. We look 
at uncertainties in the fingerprints, those patterns I showed 
you that arise from use of different models. We look at 
uncertainties in model estimates of natural climate noise. And 
we look at uncertainties in the statistical methods that we use 
to compare models and observations. We spend all of our time 
looking at uncertainties.
    In this analysis here on Dr. Michael's slide, you will see 
there are no error bars. In this subtraction exercise, no error 
bars, and the temperature changes are given to within a 
thousandth of a degree C.
    Now, to me, again, that is just completely ignoring the 
significant scientific uncertainties in this partitioning of 
natural and human effects. You have to account for them. You 
have to look at all effects, both positive and negative. You 
can't forget sulfate aerosols. This analysis has not done that. 
And anything that claims to overturn the central finding of the 
IPCC's fourth assessment report should do it as thoroughly and 
comprehensively as possible. This analysis fails in that 
regard.
    Dr. Michaels. Is that why one would use 1963 through 1987, 
when there was data through 1995? Is that why one would, in 
fact, begin a volcanic analysis in 1883 when the atmosphere was 
loaded with volcanic junk prior to then?
    Chairman Baird. I am going to intervene just a little bit. 
I think for understandable reasons, people have published 
different papers. And the challenge is if two individuals are 
sort of in the scientific community going at it with each 
other, it is an interesting and important discussion.
    So I want Dr. Santer to respond to that because you 
addressed it earlier, Mr. Michaels. But I don't want to 
dominate. I am interrupting my colleague's time here. But I 
just want to set a little bit of ground rules. We won't go on 
forever with this particular debate. Is that all right with 
you, Bob?
    Mr. Inglis. Yeah.
    Chairman Baird. I will give my colleague more time to 
finish.
    Dr. Santer. Thank you, Chairman Baird. I really appreciate 
the opportunity go on the record on this issue. I thank Pat 
Michaels for referring to this as the most famous paper 
published in climate science. And he criticized this analysis 
back in 1996 when it was published.
    I would like to address three aspects of that criticism 
very briefly. The first aspect was that the editorial process 
of Nature magazine had been interfered with, that somehow I had 
imposed on Nature to publish this paper shortly before the 
conference of the parties. That is wrong. That is incorrect.
    The second claim is that there was selective data analysis 
that we looked at a time period from 1963 to roughly 1988 in 
observational weather balloon data, compared computer model 
output with that. And then if you looked at a longer period of 
record, you got different results.
    First of all, Professor Michaels was right. If you looked 
at a longer period of record, you did get different results. 
Had there been intent to fool people to manipulate data? No. We 
were doing a fingerprint analysis pattern--observational data, 
grided data. And at that time they were only available from one 
source. That source extended from 1973 through to 1988.
    When Professor Michaels criticized our paper, we responded 
as scientists do, we addressed the scientific criticism. What 
we found was that when we looked at a newly available weather 
balloon data set that went through to 1995, he was right, and 
this change in the temperature asymmetry between the Northern 
Hemisphere and Southern Hemisphere had this sort of u-shape.
    What we were able to show and what others have convincingly 
repeated since then is that that change is forced behavior. If 
you look at models with combined changes in greenhouse gases 
and sulfate aerosols, indeed the Stott paper that I mentioned 
earlier shows that models--including greenhouse gases and 
aerosol changes--replicate that behavior. It was not, as 
Professor Michaels mentioned, some representation of natural 
causes alone.
    Actually doing the additional science strengthened our 
confidence in the ability of the models to reproduce this 
subtle interhemispheric temperature change difference. He has 
not reported, unfortunately, on those responses to his 
scientific criticism, which I do not think is correct.
    Dr. Michaels. Can I--one thing.
    Chairman Baird. I am going to recognize Mr. Inglis.
    Dr. Michaels. Ask me questions after the hearing on this, 
written questions.
    Mr. Inglis. Okay. Good. I think it is very interesting to 
kind of back-and-forth because it does show that scientists are 
involved in trying to criticize each other's work and hope to 
reach better science, which is very helpful. And then there are 
some things that are sort of basic.

                Ocean Acidification and Economic Impacts

    And so, you know, I am not a scientist, but I play one on 
the Science Committee when I am here. So we did this little 
science experiment that I hope to convince some folks about the 
ocean acidification. You know, what it is is an egg that we put 
in vinegar, a vinegar water. And you come back in a couple of 
days and--this is a science experiment you did in seventh 
grade. There is no more shell. Now, this is of rather worldly 
concern, because--rather than other-worldly and perhaps 
academic debate in that--you know, my brother is a shrimper. If 
he had his choice in what he would like to do. He has got to do 
other things because you really can't make a living in South 
Carolina shrimping. And so he has got a pickup truck in the 
back. And the back of it says no wetlands, no seafood. Richard 
is no tree-hugging environmentalist, but he is a guy who loves 
to go shrimping. And he knows that if you don't have wetlands, 
you don't have any seafood. And he is, I think, beginning to 
see that if you melt the shells of these calcium-based 
plankton, you end up with a hole in the bottom of the food 
chain. It is a little bit of a problem to have a hole in the--
at the top of the food chain. You lose a polar bear, it is a 
really bad day. But if you open a hole in the bottom of the 
food chain--Dr. Feely, I think it is what you are talking 
about--you have really ruined a lot of people's day. Because as 
I understand it, there is something like a billion people 
around the world that depend on the ocean for food, right? It 
is something like that.
    Dr. Feely. About 20 percent of the protein resources that 
we as humans require come from the oceans.
    Mr. Inglis. Yeah. And so--why don't you speak to the--am I 
right about this, that this is sort of a seventh grade science 
explanation of how it might work and the risk that we face and 
the real-world consequences of Richard Inglis, a shrimper off 
of Hilton Head?
    Dr. Feely. Well, if we start at the marine phytoplankton 
level which is the marine plants, about 11 percent of the 
abundance of marine plants form calcium carbonate shells. These 
are called coccolithophores. And they clearly show that the 
formation of shell is decreased in a higher CO<INF>2</INF> 
world. It is anywhere from nine to 45 percent. And then we go 
up at the next level. The coccolithophores are generally eaten 
by the zooplankton, and the zooplankton such as protozoans, 
such as foraminifera, for example, or the pteropods that I 
talked about, these free-swimming pteropods, you can see them 
with your naked eye. That is the primary food source for 
juvenile fish. That is what they want to eat because they don't 
want to eat plankton per se. So they are dependent on those 
pteropods and those species.
    While living pteropods are placed in high CO<INF>2</INF> 
water while still alive, well, the shell will begin to dissolve 
within 48 hours. And the shell will be gone within a few weeks. 
So this is a significant problem for that ecosystem.
    Mr. Inglis. Is there doubt about the chemistry of higher 
CO<INF>2</INF> levels and impact on ocean acidification?
    Dr. Feely. There is no doubt about that. And let me explain 
why. We have worked at the international level with--through 
the 1990 WOCE program, a Lowes hydrographic survey, with 8 
countries working together, collecting over 72,000 samples in 
the 1990s from surface to bottom along every portion of the 
ocean, from Antarctica to the Arctic Ocean, from Japan to the 
United States. All these countries worked together. The data 
sets were brought to my laboratory. We processed the entire 
data set and made all the corrections to the data set and that 
allowed us to determine exactly where all the anthropogenic 
CO<INF>2</INF> was going. We did this by determining the 
changes in anthropogenic CO<INF>2</INF> since pre-industrial 
times, using a combination of observations and models working 
together.
    We also had colleagues on those same cruises collecting 
samples for the isotopic signature of that CO<INF>2</INF>, and 
the changes in the isotopic signature were consistent with the 
increase in anthropogenic carbon dioxide, which has a very 
unique isotopic signature. And that penetration of the 
anthropogenic CO<INF>2</INF> goes down to, for the most part, 
the upper 1,500 meters of the water column. So most of the 
anthropogenic CO<INF>2</INF> is still in the upper part of the 
water count where most of our organisms live. And we know that 
extremely well.
    Now, in this decade, in 2000-2010, we have been repeating 
those cruises. So we can see the direct changes to the uptake 
of carbon dioxide from the atmosphere from the 1990s to the 
present. And on those cruises, we see the same rate of change 
of pH that we do at the time series sites at HOTS and BATS. So 
we know now from the large extended surveys across our oceans 
that we are seeing an exact rate of change of pH and CO<INF>2</INF> 
increases in the water column. This is the only extreme one. 
There is no debate about that at all.
    Mr. Inglis. I think I am way over time, Mr. Chairman.
    Chairman Baird. Thank you. I am not sure if it would be Dr. 
Bartlett or Mr. Rohrabacher. Mr. Rohrabacher. Thank you, Dr. 
Bartlett for your----

                   Science and the Federal Government

    Mr. Rohrabacher. Thank you very much. And for the record, I 
would like to place in the record a----
    Chairman Baird. I cannot hear.
    Mr. Rohrabacher. Can you hear me now? Let me--I would like 
to place in the record a portion of President Eisenhower's 
farewell remarks to the country in which he warned about what 
happens when science and politics gets too intertwined and 
government grants become the goal for various researchers.
    Chairman Baird. Will that include the military-industrial 
complex portion of it?
    Mr. Rohrabacher. This was--that is exactly right.
    Chairman Baird. I understand. I read the whole document. I 
would never object to Mr. Eisenhower being entered into the 
record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Mr. Rohrabacher. What you need to understand is that 
Eisenhower equated the threat of the military-industrial 
complex with--similarly, with intertwining science and the 
government.
    Chairman Baird. Without objection.

         More on Glaciers and Evidence of Anthropogenic Change

    Mr. Rohrabacher. All right. Dr. Alley, with all due 
respect, you didn't answer the Chairman's question. You know, 
can--the question was a very good question. There have been 
these back-and-forth between--on glaciers and the melting that 
we have seen over and over again. Why did it happen, then, if 
these same factors that you are blaming it on didn't exist 
then?
    Dr. Alley. I can give you as much or as little answer that 
you would like.
    Mr. Rohrabacher. Give me 15 seconds.
    Dr. Alley. Okay. Give me 30 if I may.
    Mr. Rohrabacher. Okay. Go ahead.
    Dr. Alley. The ice ages are caused by features of Earth's 
orbit. Your brightness is the sun. This, my head, is the earth. 
This, through my nose, is the equator. Here, the top of my 
head, is the North Pole. If the North Pole stood straight up, 
you could never give me a sunburn on my bald spot. But in fact 
as you know, it is tipped over a little bit and it nods a 
little more and a little less over 41,000 years. Now, when it 
nods more, my bald spot ice melts and the equator is a little 
more shaded and now the ice grows and now the ice melts. But it 
takes 41,000 years for this change to happen. We know what that 
is doing right now and it is not fast enough to explain what we 
are seeing.
    Mr. Rohrabacher. No. You are trying to tell me all of the 
other melts and backs-and-forth took all those thousands of 
years? There wasn't a situation where on Mount Kilimanjaro you 
had it--10 years you had this much ice and then the next year 
you didn't and vice versa?
    Dr. Alley. On Kilimanjaro, the records are fairly short. It 
would be not the best one to lean on, unfortunately. You know, 
what you do with glaciers--and I had hoped that I had made that 
point--is that one glacier can do interesting things. The 
world's glaciers tend to listen to the climate. And so you need 
to take a large data set of glaciers to know what is going on. 
What you then do find is that----
    Mr. Rohrabacher. We all know that these things happen. The 
major question that we will debate today--and I am again very 
grateful to the Chairman for bringing this and having an honest 
exchange of ideas--is what role mankind is playing. And thus if 
mankind is playing a minor role, how does that then justify 
some of what we consider to be Draconian solutions in 
controlling human behavior that has been offered to us by 
people who are espousing this particular theory?
    Mr. Santer, I--let me ask you this. You said--I think it 
was you who said--the sun--or some people try to say the sun 
explains everything. No. A lot of people are trying to say the 
sun explains a lot. Maybe you could explain to me why we have 
noticed that there are similar trends of these meltings of the 
polar ice cap that are going on on Mars. If it is not the sun 
that is a major factor and human activity, why is that?
    Dr. Alley. If I--if I may?
    Mr. Rohrabacher. Sure. Go ahead.
    Dr. Alley. Mars actually is linked a lot to the orbit as 
well. It also has some dust storm issues to deal with.
    Mr. Rohrabacher. Well, of course it does. But if we have 
the same thing going on at the same time, and you are blaming 
human activity for what is going on on Earth but you see it at 
the same time on Mars, why do you automatically assume, well, 
that must be human activity?
    Dr. Alley. If, sir, I wanted to get a measure of how bright 
the sun was and whether it was getting brighter or dimmer, 
looking at an ice cap on Mars, which is changing its orbit, has 
features which would change the sunshine, and it has dust 
storms which change the sunshine. That is a very, very 
indirect, imprecise measure when we have very precise 
satellites that the people paid for with their taxpayer money, 
which are measuring and then show no increase in the sun's 
brightness.
    Mr. Rohrabacher. You will have to correct me if I am wrong 
because I am not a Ph.D.
    Dr. Alley. Mars is a bad solar sensor and the satellites 
are actually very good solar sensors.
    Mr. Rohrabacher. But if you have a situation on Mars that--
you have that situation, is it just--when people talk about 
solar activity, are we just talking about the brightness? Are 
we talking about other type of solar activity that has an 
impact on human--or not human climate, but the climate of this 
planet and the other planets of the hemisphere?
    Dr. Alley. It is a very interesting question that you ask, 
sir, because at some level we know that we see the sun spot 
cycle and we see a very weak response in the temperature. So we 
know that the sun spots are affecting the climate. And it 
actually looks like they are affecting it just a tiny bit more 
than you would expect from the change in the brightness. So 
there is a little possibility of a fine-tuning knob on the sun, 
which is not just the brightness, it is other factors.
    Mr. Rohrabacher. But we do know there has been these 
changes because we do know that there was a medieval warming 
period, even though we can see that there has been attempts 
over the research--history of this research into global warming 
of trying to basically negate the changes that took place 
between the medieval period and the current period of time. But 
was the temperature higher on the Earth during the medieval 
period? Is there any evidence that the temperature got to be as 
high? And if it did, how could we blame that, then, on the 
production of CO<INF>2</INF>?
    Dr. Alley. Yeah, we have fairly high confidence that--that 
is why we call it the medieval climate anomaly. And it reflects 
a low in volcanos blocking the sun and a slight high in the 
brightness of the sun. And the best reconstructions that we 
have indicate that it is not as warm as what we are having now. 
But with uncertainties, that if you sort of go to the far 
fringe, it just might be about where you are.
    Now, this is a very interesting thing you bring up because 
nature--you know, when the snow melts and the glaciers melt and 
then they reflect less sun and they soak up more heat and get 
us warmer, those positive feedbacks don't care whether we made 
it warmer or whether the sun made it warmer, other things made 
it warmer. They just care that it got warmer. So we actually 
use the size of the medieval anomaly as one of many ways to 
find out how much warming we might get from CO<INF>2</INF>.
    Mr. Rohrabacher. That is the essence of the discussion 
today. It comes down to whether or not this has--it is Mother 
Nature or the master of the universe versus human beings doing 
something that now--they now need to be controlled about. Dr. 
Michaels, before my time is up, I should give you a chance to 
comment.
    Dr. Michaels. On that one? Well, I would look beyond the 
medieval warm period and I would look at the end of the--what 
is called the beginning of the postglacial period, for several 
millennia where we know, based upon fallen trees--when a tree 
falls in the tundra--or in the northern part of the 
distribution--falls into acid, an acid environment and it is 
saved, it is preserved so we can date the tree with carbon 
dating and find out when it existed. We know that the boreal 
forest, the north woods extended all the way to the Arctic 
Ocean in Eurasia and, in fact, on to the Arctic Ocean islands. 
We know that it has to be about 6 to 7 degrees Celsius. That 
is, like, 12 degrees warmer in July for that forest to exist. 
That is how much warmer it had to be.
    Mr. Rohrabacher. And that is before human kind had any type 
of impact on this. And let us note this.
    But let us note this. Okay. Let us note this. But let us 
note this. The actual statistics when you start your statistics 
of how much warmer it is getting now, you are starting--you are 
starting your calculations at the bottom of a 500-year decline 
in world temperature which is the mini Ice Age. Is that right, 
Dr. Michaels or Dr. Alley?
    Dr. Alley. Yeah. No, it is very, very clear. A lot of my 
work is reconstructing the history. Nature has changed climate 
a lot by itself, for reasons that we understand reasonably 
well, and we know are not active in this one.
    Mr. Rohrabacher. That is the point.
    Dr. Alley. If we were not here--you know, if humans weren't 
here and we didn't care about anything that lives here--If this 
were a video game, I would push the button and see what 
happens, because it would be really exciting. But it is not a 
video game.
    Dr. Michaels. Well, the reason I brought up the Eurasian 
arctic is because--again, it appears it was quite warmer for 
millennia up there, and the only way you can get it--get it 
that warm is to run water into the Arctic Ocean that is very 
warm. And there is only one gate for the water. It is the 
strait between Greenland and Europe. So that means the 
temperature of at least eastern Greenland had to be quite a bit 
warmer for a very long time, and the integrated warming is 
probably greater than what we could produce if we tried to burn 
as much carbon fuel as we could. And the ice still didn't 
rapidly fall off of Greenland, as some people are saying it is 
going to fall off in 100 years. Well, it didn't fall off a 
couple of thousand years.
    Dr. Alley. Central Greenland was about one degree warmer, 
1-1/2 degree warmer based on about five lines of evidence that 
I could summarize for you. Greenland was smaller during this 
warm time by something like half a meter of sea level.
    Dr. Michaels. But again, the scenario of the rapid loss of 
ice simply didn't occur and that is--that is what is really 
driving the policy on this. It is not the gradual warming that 
is driving it.
    Chairman Baird. For the record here, the stenographer here 
can't record that Dr. Alley is periodically pointing to the top 
of his head. And it is actually substantive, because his 
argument was illustrated by the point that the angle of the 
Earth relative to the sun can change over time with a bit of a 
wobble and axis of the Earth. And the top of Dr. Alley's head 
presumably represents the North Pole. I won't speculate where 
the South Pole is. But the symbolism is apparently that the 
Earth tips towards the sun and that may be accounting for some 
of these prior periods in the absence of anthropogenic 
CO<INF>2</INF>. I want to recognize----
    Mr. Rohrabacher. Which is fine.
    Dr. Michaels. And the polar bear survived and the Inuit 
culture developed.
    Chairman Baird. I want to recognize Dr. Bartlett.

                Fossil Fuel Resources and Climate Change

    Mr. Bartlett. Thank you very much. I apologize for my 
absence. The Chevy Volt is on the Mall and I have been 
scheduled for quite some time to speak briefly to the group 
there at the introduction of the Chevy Volt to the Capitol 
Hill. So I am very sorry that I missed your testimony.
    You know, in the past, the Earth has been very much warmer. 
We had subtropical seas at the north slope of Alaska or we 
wouldn't have oil there, and there weren't any humans there 
then. So clearly something else caused it. That does not mean 
that our activities today aren't enormously important in 
climate change because you are at--if you are at the tipping 
point--if a car is half way over a cliff and it is at the 
tipping point and then a little baby comes up and pushes on the 
rear end of it, it is going over, isn't it? So if we are at the 
tipping point, it is irrelevant whether our contribution is 
small or great. If we are at the tipping point and we tip it 
over, we have done it.
    I had a chart that I had hoped that the staff could get up 
on the screen. Can you get that up on the screen? Okay.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    And I want to apologize for my question to the first panel 
because I know--I am a scientist. I know that scientists 
shouldn't be concerned with policy. But the only reason you are 
here is because we are concerned with policy and we would like 
science to illuminate our policy. And so my question was better 
directed to other people, you know, regardless of what the 
science is, whether you agree with it or you disagree with it.
    What the people want to do who want to move to less fossil 
fuels is exactly the right thing to do for two other very good 
reasons. If we can get that--this was the chart--and this is 
quite a startling chart because just a few years ago nobody 
would have predicted that--that we would be saying this today, 
because our USGS was predicting that oil was going to be ever 
more and more abundant, that the consumption of oil is going up 
and up forever. That is in spite of the fact that in 1956 M. 
King Hubbert predicted the United States would peak in 1970, 
and we did right on schedule.
    There is the chart up on the little screen over there. The 
dark blue area--here it is on the screen behind you. The dark 
blue area is conventional oil that we now know about that 
peaked in 2006. And for the three or four years before the 
recession, the production of oil worldwide was static and 
demand was going up. With static supply and increasing demand, 
the price went up 50, 100, $150 a barrel. Then we had the 
recession which we should have capitalized on because it gave 
us a little breather.
    Of course we did none of that. And SUVs and pickup trucks 
are back on the road in grand style in our country. But you 
look at that chart there and what we are predicting--you see 
that light blue area? You know, that is a dream. That is a 
dream that says that we are going to find enough--more oil or 
produce more oil from the sites that we have found. And many of 
these new sites are deepwater sites, enormously difficult to 
get at, enormously expensive to get at. I don't think that 
there is even a prayer that we are even going to come close to 
producing as much oil as they say we are going to produce by 
developing the fields we now know and finding new fields.
    If you look at the oil chart in the discovery zone, most of 
them were in the past. The new oil--by the way, a large 
discovery of oil is 10 billion barrels of oil. Every 12 days, 
the world uses a billion barrels of oil. That is pretty simple 
arithmetic. But 84 million barrels a day--84 goes into a 1,000 
roughly 12 times, doesn't it? So if you have a 10 billion 
barrel discovery of oil, oh, you breathe a sigh of relief. It 
is all over, guys, we have got oil, 120 days that will last the 
world. Big deal.
    So, you know, what we are trying to do--I know the 
scientists are concerned about science and I am a scientist, 
but we are concerned about policy. And the only reason you are 
here is because we want you to illuminate our policy. And 
whether you agree with my colleague that we are a major factor 
in this or not is totally irrelevant, because the right policy 
is to do exactly what people want to do. If you believe that 
human activity is increasing CO<INF>2</INF> and changing the 
climate, you want to move to fossil fuel. That is exactly the 
same thing that those are concerned about national security 
want to do. We have only two percent of the oil. We use 25 
percent of the oil. We import 2/3 of what we use. Exactly the 
same thing that people want to do who recognize--by the way, 
the first person to recognize this was Hyman Rickover in 1957. 
Pull up his speech. You can find the link on our website or do 
a Google search for Rickover and energy speech. And one of the 
really important things he said in that speech was that how 
long the age of oil lasted was important in only one regard. 
The longer it lasted, the more time we would have to plan an 
orderly transition to other sources of energy.
    I will close, Mr. Chairman, by noting that we in this 
country have now blown 30 years. We knew of an absolute 
certainty in 1980--when we look back to 1970, which is when M. 
King Hubbert said that oil would peak in this country, we knew 
with an absolute certainty that he was right about the United 
States. Now, we tried to make him out a liar by doing a lot of 
things. We have drilled more oil wells than all the rest of the 
world put together. We have found oil, a lot of it, in Alaska 
and the Gulf of Mexico. But in spite of those things, today we 
produce half of the oil, less than half the oil than we did in 
1970. He predicted the world would be peaking about now and we 
are.
    And so--if the policy we are looking for is whether or not 
we have got to be moving away from fossil fuels to 
alternatives, absolutely.
    Just one more word. There are two kinds of energy that we 
use--electricity and liquid fuels. The future will have all the 
electricity that we need with more nuclear plants producing 80 
percent with nuclear, with more wind and solar and micro hydro 
and true geothermal. That is not your heat pump looking at 50, 
60 degrees rather than 90 degrees in the summer and 10 degrees 
in the wintertime. We will use as much electricity as we would 
like to use.
    The real crunch is going to be liquid fuels. If you are 
wildly optimistic about every one of the possibilities for 
liquid fuels, they don't--alternatives--they don't even come 
close to 84 million barrels a day. Two bubbles have already 
broken. One is the hydrogen bubble. Have you heard anybody talk 
about hydrogen anymore? They finally figured out it is not an 
energy source. It is just the equivalent of a battery that 
carries energy from one place to another. Although real clean 
when you use it. You get water when you burn it.
    The second bubble that broke was the corn ethanol bubble. 
The National Academy of Sciences has said that if we could turn 
all of our corn into ethanol and discount it for a fossil fuel 
input, still leaves you to pretend you are displacing fossil 
fuels if you are simply using them in another form.
    We would displace 2.4 percent of our gasoline--this is not 
Roscoe Bartlett--this is the National Academy. They further 
said--and this is their statement--that we would save more gas 
than we would by turning all of our corn into ethanol if we 
just tuned up our car and put air in the tires.
    Now, the next bubble that is going to break is going to be 
the cellulosic ethanol bubble. We will get something from 
biomass. It will not even come close to what they hoped to get. 
Life on this Earth is dependent largely, except what comes from 
the sea, on about 8 or 10 inches of topsoil. That is topsoil 
because it has organic material in it. This year's weeds grow 
largely because last year's weeds died and are fertilizing 
them. We can only for a short period of time rape the topsoil 
and get away with it.
    What is the sustainability of cellulosic ethanol? That is 
the next bubble that will break. We just have to come to the 
realization that fossil fuels or liquid energy in the amounts 
that we would like to use it just aren't going to be there. We 
are going to go largely to an electric world, an electric car. 
You can't electrify the airplane, by the way. And big trucks 
won't run on batteries very well. So we are going to have a 
very--and this is a very challenging future for me, Mr. 
Chairman, because every six hours we go another billion dollars 
in debt and every 12 hours we have another billion dollar trade 
deficit.
    The jobs that went overseas aren't coming back, so we have 
got to create new ones. And my dream is that we can create 
those new jobs in the green area and we can once begin--become 
a major exporting country. And this Committee is going to be 
very important in that regard in sponsoring the basic science 
that will make this green technology.
    I am sorry I ran over my time, but this is something 
obviously that I am kind of passionate about. Thank you very 
much for holding the hearing.
    Chairman Baird. One would not detect the passion. Dr. 
Bartlett, I appreciate the eloquence and the sentiments and 
echo them myself. I share them. And as I mentioned at the 
outset, you have embodied them in your own choices about how 
you power your own life. And it is admirable that you do.

            The Impacts of Current CO<INF>2</INF> Emissions

    One last question for Dr. Feely, if I may. One of the 
concerns that many of us have about--about this phenomenon is 
to what extent are we making decisions now that put us well 
down the road of a long-term impact even if we make changes 
today? And so the--sort of at what point do we start bending 
the curve in the right direction?
    My understanding is that--is that--well, enlighten us. To 
what extent is the CO<INF>2</INF> already present going to 
cause problems for the ocean?
    Dr. Feely. That is the exact question that the scientific 
community is wrestling with right now. And there is already 
evidence from looking at organisms in sea water; we already see 
that we have already had an impact. Foraminifera shells are 
getting smaller. You can compare shells that are collected at 
present with living organisms to which shells that were on the 
bottom of the sea from 200 years or longer ago; there is a 
significant difference. So we already know that we are having 
impacts.
    We know with our own shellfish industry on the west coast 
that we are having significant impacts. Have we reached a 
tipping point yet? This is the question we are really asking 
ourselves. And it is very hard to answer that question. What we 
do know for sure, if we get above 450 parts per million, we 
will cause the Arctic Ocean and the Antarctic Ocean to go 
corrosive from top to bottom. That is a tremendous impact on 
that----
    Chairman Baird. Say that again. To go corrosive----
    Dr. Feely. Corrosive from top to bottom throughout the 
entire water column.
    Chairman Baird. Corrosive to the marine organisms at----
    Dr. Feely. To the calcifying organisms, which means that 
the pH would be about 7.7 or so. And consequently, that is not 
too far away. And we have to begin to concern ourselves of 
whether or not we will go much farther in terms of CO<INF>2</INF> 
levels beyond that which would impact large areas of the 
Pacific and Atlantic Oceans as well.
    The projections out to the end of the century say that we 
would have CO<INF>2</INF> levels as high as 800 parts per 
million, which would have impacts on the entire southern ocean, 
would impact the coral reefs throughout the world oceans, and 
would even impact our deepwater corals which we know very 
little about.
    Chairman Baird. So let me just make sure I understand. We 
are already having problems with current rates of CO<INF>2</INF> 
in the atmosphere. At projected increases with economic 
development, et cetera, if we don't change, as Dr. Bartlett has 
been talking about, if we don't change our energy system to a 
less fossil fuels-based energy system, the projected levels 
could reach levels where in the major polar regions and 
elsewhere in the oceans, the water itself would become 
corrosive to the organisms that have evolved over many millions 
of years to live there, and the base food chain for much of 
ocean life could be significantly impacted. Is that a fair 
statement?
    Dr. Feely. That is absolutely correct.
    Chairman Baird. Now, this highlights something that is 
fundamental to this hearing and it is this. It goes back to my 
friend Dr. Bartlett's analogy. If your car might be at the 
tipping point and even if there is some uncertainty about that, 
do you tell the baby to stop pushing? It just seems to me if 
the car is going to go off the bloody cliff, if there is doubt, 
you stop pushing, especially when the solution can be 
beneficial to your economy, beneficial to your national 
security perspective, beneficial to your environment, 
beneficial to human health. Why not stop pushing, for goodness' 
sake, if there is doubt?
    And Bob Inglis had the example earlier, the analogy. We 
have bent over backwards on this Committee and this hearing 
today to include folks like Dr. Michaels, Dr. Lindzen. But the 
reality is surveys of topflight scientists have shown the vast 
majority suggest that there is real reason for concern. And if 
there is real reason for concern, should we not tell the baby 
to stop pushing if we have ways to do it?
    So I thank this panel. We are now going to talk further 
about what possible impacts might be. I thank the panel. It has 
been a spirited discussion, a constructive one. Again, as I 
have done before for folks--please, Dr. Bartlett.
    Mr. Bartlett. I cannot stay. But I would like to note that 
the importance of these hearings is not the fact that some 
Congressman is up here listening to you. The importance of this 
hearing is that it is on the record. And so thank you very much 
for coming.
    The next panel will be on the record. I really regret that 
I can't be here. But my Chairman will ask the questions that I 
might have asked and do it better than I.
    Chairman Baird. Well, Doctor, I can't do it better than 
you, I am sure, my friend. But one thing I am certain of--and I 
was going to say--you anticipated it. The transcript, the 
written transcripts, the oral transcripts, the video of this 
will be on the record. So people can actually access the 
Committee website if you can't sit through the whole thing or 
don't want to.
    And having had the privilege to read all the transcripts. I 
note for example, Dr. Cullen, if you want to get a really 
marvelous, understandable grasp of the history of this, I think 
Dr. Cullen's testimony is just spectacular in that regard. And 
all of the others are. Some of it is, frankly, too deep for me 
and others, but you will get the sense. And I think it is good. 
And, Dr. Bartlett, thanks.
    With this, I thank our panelists for their presentations 
today and their years of scientific work. We will take a five-
minute recess followed by the final panel. Let's reconvene in 
about 30 seconds if we can. I know we are having spirited 
discussion. But let's try to reconvene so that we can hear from 
our extraordinarily distinguished final panel whose patience I 
greatly appreciate and--as do I appreciate that of our guests 
in the audience today and my colleagues who have, for very 
understanding reasons, had to depart. But I am very, very 
grateful, again.
    This is available to Members of Congress, their staff, and 
to the general public and media on our website. And so I hope 
you will not consider the fact that we have very important and 
unfortunately timed organizational meetings on both the 
Democratic and Republican side happening as we speak. Again, we 
did our level best to be sure people were here and in the 
process made sure people were somewhere else, which was a 
misfortune. But the fact that you are all here is what matters 
the most in my judgment. And the fact that our colleagues who 
care--and I hope they do care--will have a chance to review all 
of the testimony is tremendously important. And thus we begin 
our final panel as soon as I can find the introductory page.
    [Recess.]

Panel III
    Chairman Baird. Thus we begin our final panel, as soon as I 
can find the introductory page.
    Here we go. Again, appreciate the witness's presence.
    Rear Admiral David W. Titley is the Oceanographer and 
Navigator of the United States Navy. I love that title. The 
Navigator for the United States Navy. Every time a ship crashes 
into another ship it's your fault, right?
    Admiral Titley. Yes, sir.
    Chairman Baird. Mr. James Lopez, Senior Advisor to the 
Deputy Secretary for the U.S. Department of Housing and Urban 
Development. Mr. Lopez, thanks for being here.
    Mr. William Geer is the Director of the Center for Western 
Lands of the Theodore Roosevelt Conservation Partisanship; and 
Dr. Judith Curry, the Chair of the School of Earth and 
Atmospheric Sciences at Georgia Institute of Technology. Thank 
you, Doctor, for being here.
    We will begin our testimony. As you saw, we will try to 
limit the initial comments to around five minutes, and then we 
will follow up with questions. Thank you.
    We will begin with Admiral Titley. Thank you.

 STATEMENT OF REAR ADMIRAL DAVID W. TITLEY, OCEANOGRAPHER AND 
                   NAVIGATOR OF THE U.S. NAVY

    Admiral Titley. Thank you, sir.
    Mr. Chairman, and distinguished colleagues, I want to thank 
you for the opportunity to address you today regarding why the 
Navy cares about climate change and how we are responding to 
the opportunities and challenges it presents. Rather than read 
from my written statement, sir, I will provide brief 
introductory remarks on the topic and invite any questions from 
you.
    The 2010 Quadrennial Defense Review, or----
    Chairman Baird. You have a voice that I could hear, but 
without the mic apparently the others didn't.
    Admiral Titley. Are we on? Okay. Have to be five percent 
smarter than the microphone.
    The 2010 Quadrennial Defense Review, or QDR, and 2010 
National Security Strategy both require the Department of 
Defense to take action regarding climate change by recognizing 
the effects climate change may have on its operating 
environment, roles, missions, facilities, and military 
capabilities. Taking into account this guidance, the Navy 
recognizes the need to adapt to climate change and is closely 
examining the impacts that climate change will have on military 
missions and infrastructure.
    The Navy is watching the changing Arctic environment with 
particular interest. The changing Arctic has national security 
implications for the Navy. The Navy's maritime strategy 
identifies that new shipping routes have the potential to 
reshape the global transportation system.
    The QDR identifies the Arctic as a region where the 
influence of climate change is most evident in shaping the 
operating environment and directs the Department of Defense to 
work with the Coast Guard and the Department of Homeland 
Security to address gaps in Arctic communications, domain 
awareness, search and rescue, and environmental observation and 
forecasting capabilities.
    There are other impacts of climate change on missions that 
the Navy must consider, including water resources and fisheries 
redistribution, shifting precipitation patterns, and 
implications for humanitarian assistance and disaster relief. 
The Navy must understand where, when, and how climate change 
will affect regions around the world and work with Federal 
partners to develop the capabilities needed to ensure readiness 
in the 21st century.
    The Navy must also be aware of impacts to military 
infrastructure both within and outside the continental United 
States due to increased sea level rise and storm surge. The 
Navy's operational readiness hinges on continued access to 
land, air, and sea training and test spaces; and many overseas 
bases provide strategic advantage to the Navy in terms of 
location and logistic support. Any adaptation efforts 
undertaken are required to be informed by the best possible 
science and initiated at the right time and cost.
    The Navy is currently beginning assessments that will 
inform Navy strategy, policy, and plans. The Department of 
Defense is already conducting adaptation efforts through a 
variety of activities, including two Navy roadmaps on the 
Arctic and global climate change and the leveraging of 
cooperative partnerships to ensure best access to science and 
information. For example, the Navy is partnering with the 
National Oceanic and Atmospheric Administration [NOAA] and the 
United States Air Force to advance U.S. environmental 
prediction capability to mitigate the impact of severe weather 
and answer operational requirements facing our Nation.
    The Navy understands the challenges and opportunities that 
climate change will present to its missions and installations. 
We are beginning to conduct the assessments necessary to inform 
future investments and are initiating adaptation activities in 
areas where we have enough certainty with which to proceed.
    Thank you, sir, and I stand ready to answer any questions 
the Subcommittee may have.
    [The prepared statement of Admiral Titley follows:]
                   Prepared Statement of David Titley
    Mr. Chairman, members of the subcommittee and distinguished 
colleagues, I want to thank you for the opportunity to address you 
today regarding the Navy's climate change interests. My name is Rear 
Admiral David Titley and I am the Oceanographer of the Navy and the 
Director of Navy's Task Force Climate Change. The Chief of Naval 
Operations, Admiral Gary Roughead, established Task Force Climate 
Change in May of 2009 to address implications of climate change for 
national security and naval operations. Today I am speaking about why 
the Navy cares about climate change and how we are responding to the 
challenges and opportunities it presents.
    The 2010 Quadrennial Defense Review (QDR) identifies climate change 
as an issue that will play a significant role in shaping the future 
security environment, and directs the Department of Defense to take 
specific action to reduce the risks associated with climate change, 
while also identifying climate change and energy security as 
``inextricably linked.'' In addition, climate change is addressed in 
the 2010 National Security Strategy, which states that the issue is a 
key challenge requiring broad global cooperation.
    The QDR discusses how climate change will affect the Department of 
Defense (DoD) in two broad ways: first, by shaping the operating 
environment, roles, and missions that we undertake due to physical 
changes such as rising temperature and sea level, retreating glaciers, 
earlier snowmelt, and changing precipitation patterns and geopolitical 
impacts resulting from these changes; and second, the QDR describes the 
need for DoD to adjust to the impacts of climate change on our 
facilities and military capabilities by constructing a strategic 
approach that considers the influence of climate change.
    In addition, DoD participates in the Interagency Climate Change 
Adaptation Task Force. In October, the Task Force submitted a progress 
report to the President with recommendations for how Federal policies 
and programs can better prepare the Nation to respond to the impacts of 
climate change. The Task Force recommended that Agencies and 
Departments, including DoD, make adaptation a standard part of planning 
to minimize climate risks and damages and to ensure that resources are 
invested wisely and that services and operations remain effective in a 
changing climate.
    Taking into account the DoD guidance and Interagency Climate Change 
Adaptation Task Force recommendations, the Navy recognizes the need to 
adapt to climate change and is closely examining the impacts that 
climate change will have on its military missions and infrastructure.
    In terms of climate change impact on missions, the Navy is watching 
with great interest the changing Arctic environment. September 2007 saw 
a record low in sea ice extent and the declining trend has continued--
September 2010 was third lowest extent on record and the overall trend 
has shown an 11.2 percent decline per decade in seasonal ice coverage 
since satellites were first used to measure the Arctic ice in 1979. 
Perhaps more significantly, estimates from the University of 
Washington's Applied Physics Lab show that the amount of sea ice 
continues to decrease dramatically. September ice volume was the lowest 
recorded in 2010 at 78 percent below its 1979 maximum and 70 percent 
below the mean for the 1979-2009 period. Regardless of changes to sea 
ice, the Arctic will remain ice covered in the winter through this 
century and remains a very difficult operating environment. The 
changing Arctic has national security implications for the Navy. The 
QDR identifies the Arctic as the region where the influence of climate 
change is most evident in shaping the operating environment and directs 
DoD to work with the Coast Guard and Department of Homeland Security to 
address gaps in Arctic communications, domain awareness, search and 
rescue, and environmental observation and forecasting capabilities. The 
Navy's Maritime Strategy identifies that new shipping routes have the 
potential to reshape the global transportation system. For example, the 
Bering Strait has the potential to increase in strategic significance 
over the next few decades as the ice melts and the shipping season 
lengthens, and companies begin to ship goods over the pole rather than 
through the Panama Canal.
    While the Arctic is a bellwether for global climate change, there 
are other impacts of climate change on missions that the Navy must 
consider, including water resources, fisheries, and implication for 
humanitarian assistance and disaster relief. Availability of freshwater 
will change with the redistribution of precipitation patterns and 
saltwater intrusion resulting from sea level rise. Furthermore, 
alterations in freshwater systems will present challenges for flood 
management, drought preparedness, agriculture, and water supply. On the 
other hand, some areas of the world, such as Russia, will likely see 
longer growing seasons and an increase in water availability, 
potentially providing opportunities for economic growth. In addition to 
water supply, large scale redistribution of fisheries catch potential 
is a concern in areas of the world that depend heavily upon this 
industry as a primary food source. Leading fishery scientists estimate 
decreases of up to 40% in overall catch potential for most major 
fisheries near the tropics over the next four decades due to warming 
and changes in ocean chemistry, while the Arctic region may see an 
increase in overall catch potential. Further impacts to marine 
ecosystems will be caused by ocean acidification, often referred to as 
``global warming's silent partner.'' Shifting precipitation patterns 
and frequency of floods and droughts may generate humanitarian 
assistance and disaster response requirements and the Navy, with its 
expeditionary capabilities, may be tasked to support these requests in 
accordance with the 2010 National Security Strategy, which states that 
``a changing climate portends a future in which the United States must 
be better prepared and resourced to exercise robust leadership to help 
meet critical humanitarian needs.'' The Navy must understand where, 
when, and how climate change will affect regions around the world and 
work with federal partners to develop the capabilities needed to ensure 
readiness in the 21st century.
    In addition to impacts to Navy missions, we must be aware of 
impacts to military infrastructure, both within and outside of the 
Continental United States. The recent National Research Council Report, 
``Advancing the Science of Climate,'' notes that many United States 
military bases are located in areas likely to be affected by sea level 
rise and tropical storms. The Navy's operational readiness hinges on 
continued access to land, air, and sea training and test spaces. 
Coastal infrastructure is particularly vulnerable because it will be 
affected by changes in global and regional sea level coupled with a 
potential increase in storm surge and/or severe storm events. Overseas 
bases may be impacted by sea level rise, changing storm patterns, and 
water resource challenges. Bases such as Guam and Diego Garcia provide 
a strategic advantage to the Navy in terms of location and logistics 
support.
    The potential impacts of climate change on Navy missions and 
infrastructure require adaptation efforts that are informed by the best 
possible science, and initiated at the right time and cost. For 
example, the Strategic Environmental Research and Development Program 
(the DoD's environmental science and technology program) is currently 
funding four research projects, situated in different geophysical 
settings along the US coastline, that collectively are developing the 
physical process models and assessment methodologies needed to assess 
the impacts of sea level rise and associated storm surge on DoD coastal 
installations. In addition, via its recently submitted Strategic 
Sustainability Performance Plan mandated by Executive Order 13514, DoD 
has articulated is strategy for a QDR-directed, comprehensive 
assessment of military installations to assess the potential impacts of 
climate change on DoD's missions. The associated research and 
development aspects of this effort will result in impact and 
vulnerability assessment tools designed for military installations, 
regionally applicable climate change information, and adaptation 
strategies appropriate for DoD requirements. The Defense Science 
Board's Task Force on Trends and Implications of Climate Change for 
National and International Security is making recommendations on the 
role DoD should play in dealing with other U.S. government agencies to 
mitigate potential consequences of environmental change in areas 
important to U.S. national security. The Navy has sponsored the 
National Research Council's Naval Studies Board to study the national 
security implications of climate change on U.S. Naval forces, and is 
currently conducting a Capabilities Based Assessment for the Arctic to 
identify capabilities required for future operations in the region and 
possible capability gaps, shortfalls, and redundancies. Assessments 
such as these will inform Navy strategy, policy, and plans to guide 
future investments.
    The Navy is already executing adaptation efforts through a variety 
of activities. The Navy is conducting wargames that include climate 
change impacts on future tactical, operational, and strategic Naval 
capabilities. Within the last year the Navy promulgated two roadmaps 
concentrated on the Arctic and global climate change. The roadmaps 
guide strategy, future investment, action, and public discussion on the 
Arctic and global climate change. The Navy Arctic Strategic Objectives, 
released in May 2010, specify the objectives required to ensure the 
Arctic remains a safe, stable, and secure region where U.S. national 
and maritime interests are safeguarded and the homeland is protected. 
This past summer, the Navy participated in Canada's largest annual 
Arctic exercise, Operation NANOOK, which provided our sailors valuable 
operating experiencing in the region. The Navy established Task Force 
Energy to meet the growing energy challenges that we face as a service 
and a nation, and subsequently, the five energy goals as outlined by 
the Secretary of the Navy. Task Force Climate Change and Task Force 
Energy work closely to ensure that overlapping issues of climate change 
and energy security are addressed.
    Furthermore, the Navy is actively leveraging interagency, 
international, and academic partnerships to ensure it has access to the 
best science and information and to avoid duplication of efforts. We 
are participating, in coordination with appropriate DoD offices, in 
many of the interagency efforts being conducted on climate change, 
including the National Science and Technology Council's Roundtable on 
Climate Information and Services, co-chaired by the Office of Science 
and Technology Policy, the National Oceanic and Atmospheric 
Administration, and the U.S. Geological Survey and the U.S. Global 
Change Research Program's National Climate Assessment, which in part 
are coordinating agency climate science needs and adaptation efforts 
across the federal government. Finally, the Navy is joining an effort 
with the Air Force and the National Oceanic and Atmospheric 
Administration to advance U.S. environmental prediction capability to 
mitigate the impact of the severe weather and answer operational 
requirements facing our nation. This capability will combine the 
forecasting skills of the Navy's and the National Weather Service's 
global numerical weather, ocean, and ice models to provide a better 
Earth Systems Prediction Capability.
    I would like to close with a quote from Vice Admiral Richard Truly, 
former NASA Administrator, and Director of Department of Energy's 
National Renewable Energy Lab. ``The stresses that climate change will 
put on our national security will be different than any we've dealt 
with in the past . . . this is why we need to study this issue now, so 
that we'll be prepared and not overwhelmed by the required scope of our 
response when the time comes.'' The Navy understands the challenges and 
opportunities that climate change presents to its missions and 
installations. We are beginning to conduct the assessments necessary to 
inform future investments and are initiating adaptation activities in 
areas where we have enough certainty with which to proceed.
    Thank you Mr. Chairman and I look forward to answering any 
questions the Subcommittee may have.

                       Biography for David Titley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    A native of Schenectady, N.Y., Rear Admiral Titley was commissioned 
through the Naval Reserve Officers Training Commissioning program in 
1980. While aboard USS Farragut (DDG 37) from 1980-1983, Titley served 
as navigator, qualified as a surface warfare officer, and transferred 
to the Oceanography community the following year.
    Subsequent sea duty included tours as oceanographer aboard USS 
Belleau Wood (LHA 3) 1985-1987, USS Carl Vinson (CVN 70) in 1990, 
Carrier Group 6 1993-1995 and U.S. 7th Fleet 1998-2000. Titley has 
completed seven deployments to the Mediterranean, Indian Ocean and 
Western Pacific theaters. His Belleau Wood deployment included winter-
time amphibious operations north of the Aleutian Islands.
    Titley has commanded the Fleet Numerical Meteorological and 
Oceanographic Center in Monterey Calif., and was the first commanding 
officer of the Naval Oceanography Operations Command. He served his 
initial flag tour as commander, Naval Meteorology and Oceanography 
Command.
    Previous shore tours include assignments at the Regional 
Oceanography Centers at Pearl Harbor and Guam, the Naval Oceanographic 
Office, on the staff of the Assistant Secretary of the Navy (Research, 
Development and Acquisition), Office of Mine and Undersea Warfare, as 
the executive assistant to the Principal Deputy Assistant Secretary of 
the Navy (Research, Development and Acquisition) and as chief of staff, 
Naval Meteorology and Oceanography Command.
    Titley also served on the U.S. Commission on Ocean Policy, as 
Special Assistant to the Chairman (Admiral (ret.) James Watkins) for 
Physical Oceanography and as senior military assistant to the Director 
of Net Assessment in the Office of the Secretary of Defense.
    In 2009, Titley assumed duties as oceanographer and navigator of 
the Navy.
    Education includes a Bachelor of Science in meteorology from the 
Pennsylvania State University, a Master of Science in meteorology and 
physical oceanography and a Ph.D in meteorology, both from the Naval 
Postgraduate School. His dissertation concentrated on better 
understanding Tropical Cyclone Intensification. In 2003-2004, Titley 
attended the Massachusetts Institute of Technology Seminar XXI on 
Foreign Politics, International Relations and National Interest. He was 
elected a Fellow of the American Meteorological Society in 2009.

    Chairman Baird. Thank you very much, Admiral.
    Mr. Lopez.

    STATEMENT OF JAMES LOPEZ, SENIOR ADVISOR TO THE DEPUTY 
  SECRETARY, U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Lopez. Thank you very much.
    Is that on? No? How about now? Good?
    Good morning, Chairman Baird, Ranking Member Inglis, 
Members of the Subcommittee. My name is Jim Lopez, and I am the 
Senior Advisor to Deputy Secretary Ron Sims at HUD. Thank you 
for the opportunity to testify today.
    On behalf of Secretary Shaun Donovan and Deputy Secretary 
Sims, I appreciate this opportunity to tell you how HUD--
individually and in partisanship with other federal agencies--
is working to develop more sustainable, resilient communities 
across the Nation. In fact, we believe that sustainable 
communities are resilient communities.
    Before coming to HUD, I worked on climate change issues in 
King County, Washington State; and over the past year, I have 
had the opportunity to serve as part of the President's 
Interagency Climate Change Adaptation Task Force, which is 
chaired by the Council on Environmental Quality, NOAA, and the 
Office of Science and Technology Policy and includes 20 federal 
agencies and executive branch offices.
    The Council last month released its progress report, with 
charts and a roadmap for federal action on climate adaptation 
and resilience. The report highlights the need to better 
understand and prepare for climate change and offers a flexible 
framework for federal agencies to engage in that important 
work.
    The fact is that even if we could halt greenhouse gas 
emissions today, the scientific evidence, as we have heard 
today, suggests that the world would still experience changing 
climate for decades to come. While government efforts have 
tended to focus on reducing greenhouse gas emissions, climate 
mitigation, there should be an increasing focus on preparing 
for and responding to the threat that climate change impacts 
already represent to our social well-being, the economy, and 
the environment. That is climate resilience, and that is where 
I would like focus my remarks today.
    I would like to make three quick points.
    First, as noted before above, we must continue to work to 
reducing GHG emissions. We must also step up our efforts to 
prepare for and respond to climate change. Across the country, 
cities, counties, and states are putting in place strategies to 
adapt to risks and stresses caused by climate change such as 
flooding and extreme precipitation, temperature spikes, and 
urban heat island effects, water shortages and drought, and 
rises in sea level in coastal communities.
    Second, there is a growing recognition that if we are to 
make progress on climate change, we need to focus on the built 
environment. That is on where we build, how we build, and how 
we move people and goods to the places we live, work, and play.
    And, third, it's important that we tackle climate change in 
ways that respect and protect the most vulnerable populations: 
infants and children, pregnant women, the elderly with chronic 
medical conditions, low-income households, and outdoor workers.
    And I am pleased to report to you that the Federal 
Government is paying attention to climate resilience. Federal 
agencies are supporting local efforts to adapt the built 
environment to these new challenges and to protect vulnerable 
populations through innovative programs and partnerships.
    In HUD, we have formed an unprecedented partisanship with 
EPA and DOT, the Partisanship for Sustainable Communities, 
which will, we hope, result in reduced carbon emissions as we 
draw attention to the benefits of more compact, walkable, and 
climate-friendly communities.
    We also hope to show that sustainable communities are 
resilient communities as HUD requests for proposals explicitly 
encourage communities to address climate adaptation and 
resilience as part of their regional planning efforts.
    Another important component of HUD and the Federal 
Government's work to support sustainable communities is in the 
area of energy efficiency and green building. Properly 
implemented and maintained, investments in energy retrofits can 
significantly reduce energy use in existing buildings, 
improving comfort for residents and lowering carbon emissions.
    Let me conclude by briefly touching on what we are doing to 
foster similar cooperation between federal agencies on climate 
adaptation. The Interagency Climate Change Adaptation Task 
Force, of which HUD is a member, submitted a report to the 
President emphasizing the importance of this issue to the 
Federal Government. President Obama signed an executive order 
in October, 2009, that called on the task force to recommend 
how federal agencies could play a role in a national climate 
change adaptation strategy. In the progress report we released 
last month, we reaffirmed the Obama Administration's commitment 
to mitigating greenhouse gas emissions and in the long term to 
improve our ability to manage the impact these emissions have 
on our lives. Mitigation and adaptation are inextricably linked 
and both are required in order to reduce the impacts of climate 
change.
    The task force recommended in its progress report that 
federal agencies make adaptation a standard part of strategic 
planning to ensure that resources are invested wisely and that 
federal programs, services, and operations remain effective in 
a changing climate. In short, the federal response is rising to 
the level of the challenges before us.
    Thank you, Mr. Chairman. I looked look forward to answering 
your questions.
    [The prepared statement of Mr. Lopez follows:]
                  Prepared Statement of James C. Lopez
    Good morning, Chairman Baird, Ranking Member Inglis, members of the 
Subcommittee. My name is Jim Lopez, and I am Senior Advisor to Deputy 
Secretary Ron Sims at HUD, who has been tasked by Secretary Donovan to 
lead HUD's climate change efforts. Thank you for this opportunity to 
testify today.
    On behalf of the Deputy Secretary and Secretary Donovan, I want to 
thank and commend you for your leadership in developing and pushing for 
innovative and integrated approaches to the critical issue of climate 
change. I appreciate this opportunity to tell you how we at HUD--
individually and in partnership with other federal agencies--are 
working to develop more sustainable, resilient communities across the 
nation.
    I should note that this is an issue with which I've had hands-on 
experience at the local level. Before coming to HUD, I coordinated King 
County's climate change preparedness initiative in Washington State and 
I was a contributing author to Preparing for Climate Change. A 
Guidebook for Local, Regional and State Governments.\1\ My experience 
at the county level has given me an important perspective on what the 
federal government could and should be doing on this critical issue.
---------------------------------------------------------------------------
    \1\ ICLEI, University of Washington, 2007.
---------------------------------------------------------------------------
    Efforts to curb greenhouse gas emissions, known as climate change 
mitigation, have become a widespread imperative for all levels of 
government. However, scientific evidence indicates that even if we 
could halt greenhouse gas (GHG) emissions today, the world would still 
experience a changing climate for decades to come due to the long-lived 
nature of carbon dioxide and other greenhouse gases as well as the 
absorption of heat by oceans.\2\ While federal, state, and local 
efforts, including HUD's, have tended to focus on reducing GHG 
emissions, there is an increasing focus on developing complementary 
climate resilience strategies, defined by the National Research Council 
of the National Academy of Sciences as the ``capability to prepare for, 
respond to, and recover from significant multi-hazard threats with 
minimum damage to social well-being, the economy and the 
environment.\3\ ''
---------------------------------------------------------------------------
    \2\ Council on Environmental Quality, Progress Report of the 
Interagency Climate Change Adaptation Task Force, p. 15.
    \3\ National Academy of Sciences, National Research Council, 
Adapting to the Impacts of Climate Change, Prepublication Copy.

Climate Change and the Built Environment

    The consequences of climate change are complex and far reaching. It 
is becoming increasingly clear that GHG emissions, the primary cause of 
climate change, are in large part a result of energy use in our built 
environment--either as a result of energy use in buildings themselves, 
or transportation energy used to move people and goods.\4\
---------------------------------------------------------------------------
    \4\ Energy Information Administration, http://www.eia.doe.gov/oiaf/
1605/ggccebro/chapter1.
html. Buildings generate about 40 percent of emissions overall, and 
transportation generates 28 percent.
---------------------------------------------------------------------------
    Climate change is affecting many aspects of our society, our 
livelihoods and our environment. Communities across the nation are 
experiencing climate change impacts, such as changes in average 
temperatures, more extreme weather events, and rising sea levels.\5\
---------------------------------------------------------------------------
    \5\ Karl, Thomas R, Melillo, Jerry M. Peterson, Thomas C Global 
Climate Change Impacts in the United States (2009), cited in Progress 
Report, of the Interagency Climate Change Adaptation Task Force, p. 15 
(2010).
---------------------------------------------------------------------------
    The effects of climate change are expected to be significant for 
both rural communities and metropolitan regions (where most of the 
built environment is located). As a federal cabinet agency focused on 
the built environment, on strengthening metropolitan areas as well as 
rural communities, and expanding opportunity for all Americans, we at 
HUD recognize the need to take action.
    Reducing GHG emissions in the built environment is essential to 
making progress on climate change at the speed and scale required. 
Across the country, cities, counties and States are finding innovative 
solutions to climate change that involve the built environment--from 
King County to Miami-Dade County, from Chicago to Los Angeles, from 
Milwaukee to New York City, and from Phoenix to San Francisco. In 
addition, home builders and community- and faith-based organizations, 
public housing authorities and private building owners, and financial 
institutions and foundations are taking action to prepare the built 
environment for climate change.\6\
---------------------------------------------------------------------------
    \6\ Center for Clean Air Policy, Ask the Climate Question: Adapting 
to Climate Change Impact in Urban Regions (June 2009).
---------------------------------------------------------------------------
    These communities--and many others--are putting in place strategies 
to adapt to risks and stresses caused by climate change, such as 
flooding and extreme precipitation; temperature spikes and urban heat 
island effects; water shortages and drought; and rises in sea-level in 
coastal communities.\7\
---------------------------------------------------------------------------
    \7\ Ibid, p. 11-14.

Addressing Vulnerable Populations

    Critical to all of these efforts is the need to pay particular 
attention to the impact of climate change on vulnerable populations. As 
noted in the National Research Council's Report, Adapting to the 
Impacts of Climate Change, groups with increased vulnerability to 
climate change are infants and children, pregnant women, the elderly 
with chronic medical conditions, low-income households, and outdoor 
workers.\8\
---------------------------------------------------------------------------
    \8\ Adapting to the Impacts of Climate Change, National Academies 
of Sciences, 2010, pp.32-33.
---------------------------------------------------------------------------
    Low-income, often minority, families are frequently most at risk 
from the effects of extreme heat that will become more frequent due to 
climate change. They may be unable to afford the high cost of utilities 
in these conditions, or invest in the cooling equipment needed to 
mitigate these effect--often with tragic results.\9\
---------------------------------------------------------------------------
    \9\ Center for Clean Air Policy, Ask the Climate Question: Adapting 
to Climate Change Impact in Urban Regions, p.12, June 2009. In Chicago, 
for example, upward of 600 mostly poor, elderly and African American 
persons died in the wake of a sever heat wave in that city. As a 
result, Chicago has adopted an aggressive plan to enhance its 
capability to manage heat waves.
---------------------------------------------------------------------------
    As noted by the U.S. Global Science Research Program, ``in the 
future (as in the past), the direct impacts of climate change are 
likely to fall disproportionately on the disadvantaged. People with few 
resources often live in conditions that increase their vulnerability to 
the effects of climate change. The fate of the poor can be permanent 
dislocation, leading to the loss of social relationships and community 
support networks provided by schools, churches and neighborhoods.'' 
\10\
---------------------------------------------------------------------------
    \10\ Karl, Melillo and Peterson, Global Climate Change Impacts in 
the United States (2009).
---------------------------------------------------------------------------
    That's why we asked grant applicants for HUD's new regional 
sustainability planning grants (described below) to pay particular 
attention to addressing the needs of low-income and underserved 
populations; and why we are expanding our efforts to lower carbon 
emissions through improved energy efficiency in the affordable housing 
sector. Let me describe these initiatives in more detail.

HUD's Role--Sustainable Communities Initiative

    I am pleased to report that through the Sustainable Communities 
Initiative HUD is supporting a new generation of community and regional 
planning that we think will result in more climate resilient 
communities. Just last month Secretary Donovan announced the first 
Regional Planning Grants to be awarded under the Sustainable 
Communities Initiative--our flagship effort to enable communities to 
develop more integrated regional responses to both mitigating, and 
adapting to the effects, of climate change.
    This initiative is being implemented through an unprecedented 
partnership with EPA and DOT, the Partnership for Sustainable 
Communities. This important cross-agency collaboration is designed to 
encourage integrated solutions to the multidimensional environmental, 
housing and transportation challenges faced by cities and suburbs and 
rural areas.
    The initiative will foster collaboration across jurisdictional 
lines and enable metropolitan leaders to ``join up'' housing, 
transportation, and other policies to address the critical issues of 
affordability, competitiveness, and sustainability. Moreover, our 
partnership with EPA encourages recipients to consider water 
infrastructure planning and conservation along with their housing and 
transportation plans. As noted in the National Academy of Sciences 
Report, climate change will place additional burdens on already 
stressed water resources. More intense droughts and flooding events are 
projected to become common in some regions.\11\
---------------------------------------------------------------------------
    \11\ National Academy of Sciences, Adapting to the Impacts of 
Climate Change, p.34 (2010).
---------------------------------------------------------------------------
    HUD's Notice of Funds Availability (NOFA) for the regional 
sustainability planning grants encouraged communities to address 
climate adaptation and resilience as part of their regional planning 
efforts. Eligible activities include:

         Conduct comprehensive climate change impacts assessments to 
        guide regional planning and implementation strategies. 
        Assessments may comprehensively evaluate a range of likely 
        climate change impacts or may focus on an impact area of 
        special concern in the region (e.g.: sea level rise or reduced 
        water availability. Findings from climate impact assessments 
        should be used as a basis for defining adaptation actions to be 
        implemented in appropriate plans and strategies.

    Some of the grant awards were to regional planning bodies in areas 
most vulnerable to flooding and extreme weather conditions: the South 
Florida Regional Planning Council (Hollywood, Florida), the Houston-
Galveston Area Planning Council and the Gulf Regional Planning Council 
(Gulfport, Mississippi). The goal of these grants is not just to 
develop plans--it is to articulate a vision for growth tailored to 
specific metropolitan markets that federal housing, transportation, and 
other federal investments can support.
    Funding to these metropolitan regions and rural communities can be 
used to support the development of integrated, state-of-the-art 
regional development plans that use the latest data and most 
sophisticated analytic, modeling, and mapping tools available.
    In addition to these regional sustainability grants, HUD 
collaborated with DOT to award another $75 million in Community 
Challenge grants for local communities to initiate innovative housing, 
transportation, rural development and urban revitalization initiatives 
that are also likely to yield lower carbon emissions in these 
communities.
    These efforts will benefit urban, suburban and rural communities 
alike. The 2007 American Housing Survey estimates that nearly 50 
percent of people who live in rural places today live within the 
boundaries of metropolitan statistical areas. This requires a level of 
integrated planning that spans jurisdictional boundaries in new and 
unprecedented ways.

Energy Efficiency and Green Building

    Another important component of HUD's work to support sustainable 
communities is in the area of energy efficiency and green building. 
Properly implemented and maintained, relatively modest investments in 
energy retrofit improvements can significantly reduce energy use in 
existing buildings, as well as improve comfort for residents.\12\
---------------------------------------------------------------------------
    \12\ Hendricks, Goldstein, Detchon and Shickman, Rebuilding 
America: A National Policy Framework for Investment in Energy 
Efficiency Retrofits, Center for American Progress (August 2009). In 
the residential sector, investments of $5,000 to $20,000 per unit can 
achieve energy savings of 20--40 percent on average. In commercial 
properties, investments of $10 to $30 per square foot can deliver 
energy savings of up to 40 percent.
---------------------------------------------------------------------------
    HUD itself spends more than $5 billion on utilities in public 
housing and other federally-assisted and public housing, and is taking 
steps to lower energy consumption in this stock, which houses some of 
our more vulnerable populations, including the elderly.
    Through the Recovery Act, we have invested heavily in energy 
efficiency in housing, including, for example through the Green 
Retrofit Program, which has provided grants and loans to owners of 
privately-owned multifamily buildings. Average expenditure will be 
approximately $10,000 per unit, and we expect to retrofit some 20,000 
units through the program.
    In addition, significant investments have been made in public 
housing. Through the Recovery Act, 1,500 new units will be built to 
green standards or achieve the Energy Star for New Homes and another 
35,000 units of public housing should lower energy use by at least 20 
percent \13\. We also provide incentives for public housing authorities 
to utilize third-party Energy Performance Contracts, and plan to 
retrofit another 15,000 units through this mechanism over the next two 
years. We have also established a partnership with the Department of 
Energy to lower barriers to the use of DOE's Weatherization Assistance 
Program in housing stock supported by HUD.\14\
---------------------------------------------------------------------------
    \13\ U.S. Department of Housing and Urban Development Capital Fund 
Recovery Competition Grants, Notice of Funds Availability, May, 2009.
    \14\ See www.hud.gov/recovery/weatherization.

Interagency Climate Change Adaptation Task Force and the Federal Role

    The same level of interagency cooperation that underlies the 
Partnership for Sustainable Communities and our partnership with DOE to 
improve the energy efficiency of our buildings is now shaping federal 
actions to address climate adaptation and resilience. Last month, the 
Interagency Climate Change Adaptation Task Force, of which HUD is a 
member, submitted a report to the President emphasizing the importance 
of this issue to the Federal government.
    The Task Force began meeting in the Spring, 2009. It is co-chaired 
by the Council on Environmental Quality (CEQ), the National Oceanic and 
Atmospheric Administration (NOAA), and the Office of Science and 
Technology Policy (OSTP.) Recognizing the important role of the Federal 
Government in adaptation, President Obama signed an Executive Order on 
October 5, 2009 that called on the Task Force to recommend how the 
policies and practices of Federal agencies can be made compatible with 
and reinforce a national climate change adaptation strategy. The 
Executive Order charged the Task Force with delivering a report through 
the Chair of the CEQ to the President within one year.
    The Task Force's Report to the President reiterated the scientific 
consensus that climate change is a scientific fact, and that human 
activities are a major contributing factor. It re-affirmed the 
Administration's commitment to both take steps to mitigate greenhouse 
gas emissions, as well as develop adaptation strategies to enable 
communities to withstand and respond to the effects of climate change:

         There is scientific consensus that the Earth is warming due to 
        increased concentrations of greenhouse gases (including carbon 
        dioxide) in the atmosphere (IPCC 2007, GCCI 2009, NRC 2010). 
        Increased energy trapped in the atmosphere and the oceans due 
        to these higher concentrations of greenhouse gases is already 
        leading to impacts, in the United States and globally, 
        including warmer average water and air temperatures.

         The Obama Administration is committed to mitigating (i.e., 
        reducing) greenhouse gas emissions to minimize the future 
        impacts of climate change. However, the climate impacts we are 
        observing today will continue to increase, at least in the 
        short-term, regardless of the degree to which greenhouse gas 
        emissions are managed. Even under lower emissions scenarios, 
        global average temperatures are predicted to rise by over 2+F 
        over the next 100 years (Figure 2) due to factors such as the 
        long-lived nature of certain greenhouse gases in the atmosphere 
        and the absorption of heat by the Earth's oceans. In the long-
        term, the ability to manage greenhouse gas emissions and 
        moderate or reduce atmospheric concentrations of greenhouse 
        gases will affect the magnitude of the impacts that we will 
        need to adapt to (NRC 2010). Therefore, mitigation and 
        adaptation are inextricably linked, and both are required in 
        order to reduce the impacts of climate change.\15\
---------------------------------------------------------------------------
    \15\ Council on Environmental Quality, Progress Report of the 
Interagency Climate Change Adaptation Task Force: Actions and 
Recommendations In Support of a National Climate Change Adaptation 
Strategy, October 5, 2010.

The Federal Role

    The Task Force found that the Federal Government has an important 
and unique role in climate adaptation--but it is only one part of the 
broader effort that must be supported by multiple levels of government 
and various other private and non-governmental partners throughout the 
country.
    In particular, ``Federal leadership, guidance, and support are 
vital to empowering others to act and to enabling decisions based on 
the best available information and science. Just as importantly, the 
Federal Government can learn from and build off the efforts of others, 
as many cities and states within and outside the United States have 
already begun to implement adaptive measures.''
    The Task Force also acknowledged that the Federal Government has an 
important stake in adaptation because climate change directly affects a 
wide range of Federal services, operations and programs, particularly 
those associated with management of public lands, infrastructure, and 
national security, among others.
    The Task Force recommended in its Progress Report that Federal 
Agencies make adaptation a standard part of strategic planning to 
ensure that resources are invested wisely and that Federal programs, 
services and operations remain effective in a changing climate.
    The Task Force also recommended that the Government continue to 
enhance climate services that enable informed decisions based on the 
best available science, and to work with the international community to 
improve knowledge sharing and coordinate adaptation investments.
    We also need to pay more attention to the unintended consequences 
of policies that may increase our vulnerability to climate risks and 
thus make adaptation more costly and difficult; for example, certain 
policies may lead to high risk activities in the very areas that 
climate science would suggest people avoid.
    The Interagency Task Force adopted a set of Climate Adaptation 
Principles (see Attachment A), as well as five Policy Goals that we 
hope will shape federal action in this arena. In addition, we expect to 
initiate a number of pilot projects where these principles and goals 
can be tested in partnership with local communities.
    Thank you Mr. Chairman, and members of the Committee--I look 
forward to answering your questions.

Attachment A: Federal Interagency Task Force Climate Adaptation 
                    Principles

    Adopt integrated approaches. Climate change preparation and 
response should be integrated into core policies, planning, practices, 
and programs whenever possible.

    Prioritize the most vulnerable. Adaptation plans should prioritize 
helping people, places, and infrastructure that are most vulnerable to 
climate impacts. They should also be designed and implemented with 
meaningful involvement from all parts of society. Issues of inequality 
and environmental justice associated with climate change impacts and 
adaptation should be addressed.

    Use best-available science. Adaptation should be grounded in best-
available scientific understanding of climate change risks, impacts, 
and vulnerabilities. Adaptive actions should not be delayed to wait for 
a complete understanding of climate change impacts, as there will 
always be some uncertainty. Plans and actions should be adjusted as our 
understanding of climate impacts increases.

    Build strong partnerships. Adaptation requires coordination across 
multiple sectors, geographical scales, and levels of government and 
should build on the existing efforts and knowledge of a wide range of 
stakeholders. Because impacts, vulnerability, and needs vary by region 
and locale, adaptation will be most effective when driven by local or 
regional risks and needs.

    Apply risk-management methods and tools. A risk management approach 
can be an effective way to assess and respond to climate change because 
the timing, likelihood, and nature of specific climate risks are 
difficult to predict. Risk management approaches are already used in 
many critical decisions today (e.g., for fire, flood, disease 
outbreaks), and can aid in understanding the potential consequences of 
inaction as well as options for risk reduction.

    Apply ecosystem-based approaches. Ecosystems provide valuable 
services that help to build resilience and reduce the vulnerability of 
people and their livelihoods to climate change impacts. Integrating the 
protection of biodiversity and ecosystem services into adaptation 
strategies will increase resilience of human and natural systems to 
climate and non-climate risks, providing benefits to society and the 
environment.

    Maximize mutual benefits. Adaptation should, where possible, use 
strategies that complement or directly support other related climate or 
environmental initiatives, such as efforts to improve disaster 
preparedness, promote sustainable resource management, and reduce 
greenhouse gas emissions including the development of cost-effective 
technologies.

    Continuously evaluate performance. Adaptation plans should include 
measurable goals and performance metrics to continuously assess whether 
adaptive actions are achieving desired outcomes. In some cases, the 
measurements will be qualitative until more information is gathered to 
evaluate outcomes quantitatively. Flexibility is a critical to building 
a robust and resilient process that can accommodate uncertainty and 
change.

Attachment B: Federal Interagency Task Force Policy Goals

Encourage and mainstream adaptation planning across the Federal 
        Government.

Improve integration of science into decision making.

Address key cross-cutting issues.

Enhance efforts to lead and support international adaptation.

Align and coordinate capabilities of the Federal Government to support 
        national adaptation.

                      Biography for James C. Lopez
    James (Jim) Lopez is the Senior Advisor to Deputy Secretary Ron 
Sims at the Department of Housing and Urban Development. Under the 
Deputy Secretary's Office, he has played a leading role in creating and 
implementing several of HUD's interagency initiatives including HUD's 
work on sustainable and livable communities, climate change adaptation, 
and energy efficiency.
    Before joining HUD, Jim served in various senior advisor positions 
for King County in Seattle, Washington. Of note, he was the Director of 
Strategic Planning and Performance Management in the office of King 
County's former Executive Ron Sims. He also served as Executive Sims' 
Deputy Chief of Staff and key policy strategist. Jim led King County's 
internationally recognized Climate Change program and helped create the 
county's award winning Health Reform Initiative.
    Prior to his entry into government, Jim practiced law for nine 
years in Boston, Massachusetts.
    Jim received a law degree from Case Western Reserve in 1992 and a 
M.P.A. from Harvard University's John F. Kennedy School of Government 
in 2003. He resides in Gaithersburg, MD with his wife and two 
daughters.

    Chairman Baird. Thank you, Mr. Lopez.
    Mr. Geer.

 STATEMENT OF WILLIAM GEER, DIRECTOR OF THE CENTER FOR WESTERN 
       LANDS, THEODORE ROOSEVELT CONSERVATION PARTNERSHIP

    Mr. Geer. Thank you, Mr. Chairman.
    We appreciate the opportunity to sit before this committee 
and share the concerns we have on climate change and recite 
what we are doing about it, what we see in the field, what we 
are doing about it today.
    I have no PowerPoint slides, but I represent a community of 
people, both professionally and in terms of passionate views, 
that have a great concern about what's happening in 
environmental change.
    Professionally, I represent fish and wildlife biologists. I 
have been one for 38 years, and so I have had a chance to work 
on a lot of impacts and a lot of development projects, and I 
have seen changes. I don't always know the causes of all those 
changes, but the people in my field always have to deal with 
the consequences and manage accordingly, even if we can't 
always decide where exactly did that change come from.
    In terms of the passionate users, I represent hunters and 
anglers. Many of these hunters and anglers are not scientists. 
Some in fact are; most are not. But they have a passion for use 
of the resource, and we often feel that they also are some of 
the first observers of change in the field. They see things in 
a natural environment because it affects the distribution of 
animals, or perhaps they pursue hunting and fishing, and of 
course they want us to do something about it.
    I live in Montana, where about half the population actually 
hunts and fishs. Twenty percent still hunt, and about half of 
them hunt or fish. And that's a sustainable outdoor recreation 
economy, in a state of less than a million people, of over a 
billion dollars a year. It's economically pretty significant.
    And I meet frequently with these sportsmen in more than 32 
cities scattered around the state on a regular basis. I talk 
about many conservation issues, climate change being one. And 
what I have found over the past few years in talking about 
climate change is, while some sportsmen won't utter the words 
climate change--it's partisan right now and it's almost a toxic 
phrase--most of them will readily acknowledge that the shorter 
winters, reduced snow pack, increasing spring rainfall, lower 
stream flows, melting glaciers, and mountain pine beetle 
epidemic reflect an environmental change that does not bode 
well for fish and wildlife or hunting and fishing as 
recreational activities.
    As a consequence, in 2008, nine of the Nation's leading 
hunting and fishing conservation organizations released a book 
called Seasons' End, a report predicting the impacts of climate 
change on fish and wildlife habitat and its implications for 
sustainable hunting and fishing, and some of the conclusions 
are based on the best available predictions from scientists.
    We heard earlier that upland birds face disruptions in life 
cycles that will sever reproduction and the emergence of 
critical food resources. In cold, wet springs, young birds 
sometimes suffer fatal exposure to cold from loss of thermal 
snow cover. Reduced nesting success leading to losses in 
specific age classes and eventually to population instability, 
coupled with increased predation and an influx of invasive 
species, result in fewer birds in the hunters' bags.
    In Montana, though, we have some complications. Because 
climate change isn't the only stressor on the landscape. We 
find that sage grouse declines have also been tied to natural 
gas drilling disturbance too close to leks and brood rearing 
areas. So we have to integrate many sources of stress on a 
resource and try to manage around them and be successful.
    There are species like mountain goats and bighorn sheep 
that have a much more narrowly defined habitat and are much 
more sensitive to a changing climate. They will have to compete 
for increasingly isolated, fragmented, and diminished habitat. 
Rising temperatures in the Rockies potentially will allow trees 
and shrubs to overwhelm sagebrush ecosystems that now provide 
desirable winter forage for pronghorn, elk, and mule deer; and 
big game hunters in Montana are already having less success 
because winter snows are arriving later in the fall, keeping 
elk and mule deer at a higher elevation and less accessible 
areas for most of the hunting season.
    It's not just a matter of we enjoy hunting. Hunting is a 
necessary management tool. If you are in the business of 
managing wildlife, many of our hunts are based on population 
management and migrations downhill into areas where people can 
get to provide the hunting necessary for herd size management.
    Shorter winters will affect the availability of waterfowl 
food and cover and quality of habitat. Longer ice-free seasons 
will lead to changes in migratory timing, routes, and wintering 
locations. Sea level rise on the coasts certainly will inundate 
coastal wetlands and squeeze waterfowl into narrowing bands of 
habitat. And the prairie pothole region, of which Montana is 
part, could lose up to 90 percent of its wetlands--small 
wetlands to climate change and reducing the region's breeding 
ducks by as much as 69 percent in an area that we call 
America's duck breeding factory. Hunters throughout the country 
now report that waterfowl migrations are occurring later in the 
season and in some cases not occurring at all.
    Warming waters will slow trout growth rates, increase 
stress and susceptibility to toxins, parasites, and disease. 
Trout will be forced to congregate in constricted habitats and 
compete with invasive species.
    Nonnative smallmouth bass have already moved 40 river miles 
upstream in the Yellowstone River, displacing Yellowstone 
cutthroat trout, a very cold water species, because of warming 
water. The physical habitat was there, but now the water's 
warmed up. There is lower June runoff, lower August 
precipitation, lower August flows. Water warms up, we change 
the species mix.
    Declining stream flows with less snow pack have already 
decimated fishing opportunities in some western states, where 
trout populations could be reduced by up to 50 percent. Trout 
fishing spots and success will change significantly, and mostly 
not for the better.
    Climate change could fundamentally change the participation 
rates of America's 13 million hunters and 28 million freshwater 
anglers. As fish and wildlife habitat, abundance, and 
distribution shift in response to a changing climate, patterns 
of recreational activities will shift as well. The loss of big 
game and upland bird hunting opportunities in Idaho, Montana, 
and Wyoming in the northern Rockies would impair a sustainable 
recreational economy that currently supports more than 4.3 
million hunter days annually and generates more than $3.45 
billion annually in economic value. Nationally, outdoor 
recreation, including hunting and fishing activities, 
contribute 6.5 million jobs, which are pretty necessary in 
today's economy, and a total economic value of $725 billion per 
year.
    We have another new report now. It's not just a matter of 
reporting impacts, but it's what are we going to do about it? 
We are in the business of doing adaptive management; and we 
have presented ideas and adaptation strategies which we 
distributed in a book called Beyond Seasons' End yesterday to 
the committee in which we identify candidate types of 
strategies and projects that we could do, along with the likely 
costs, to help alleviate and ameliorate the effects of climate 
change.
    There is going to be species that win and species that 
lose. We can't change the climate necessarily. We are not the 
greenhouse gas emission experts. What we specialize in is how 
do we adapt to what's left.
    The report gives numerous examples of what can be done on 
the ground, real-world stuff to restore and protect crucial 
habitat for waterfowl, warm and cold water fisheries, big game 
and upland birds and saltwater fish and to secure connective 
corridors between habitats, allocate water for sport fish, 
adjust population management and harvests and develop state and 
national adaptation plans.
    We already have some mechanisms that you fund through 
Congress called state wildlife grants, state wildlife action 
plans--they are now at landscape level--that will help become 
fundamental tools for managing landscapes of changing 
environment in the field. We estimate that the cost of such an 
adaptational plan nationally is likely at the start to be in 
the neighborhood of, nationwide, at $1 to $3 billion a year.
    But we think that the consequences of not taking action now 
are going to be much more expensive in the future. It will have 
economic consequences to the economy, and certainly the quality 
of living for our children and grandchildren are going to be 
affected.
    I have one statement I would like to make, one sentence I 
thought was pertinent that economists made back in March, not 
biologists like me. I think it reflects today's attitude 
somewhat: Action on climate is justified not because the 
science is certain, but precisely because it is not.
    Thank you.
    [The prepared statement of Mr. Geer follows:]
                 Prepared Statement of William H. Geer
    I want to thank the chairman and members of the committee for the 
opportunity to present testimony on this important issue.
    I live in Montana, where 20 percent of the population hunts and 
fishes, supporting a sustainable outdoor recreation economy exceeding a 
billion dollars every year. In fact, the hunting-and-fishing economy in 
Montana is at least as big as the state's energy economy. A bumper 
sticker recently spotted in Montana said, ``Hunting is not matter of 
life or death--it's much more important than that.'' Needless to say, 
we place great value on our sporting traditions in the Treasure State.
    I meet frequently with sportsmen across Montana and have traveled 
to rod and gun clubs in 32 towns throughout the state to discuss 
climate change and its impacts on fish and wildlife. Sportsmen tell me 
that they both feel and see the effects of the average air temperature 
increase of 2.3 degrees Fahrenheit that has occurred since 1951. They 
are observing delayed onset of winter conditions, a snowpack that has 
declined 17 percent over the past 60 years and spring rainfall amounts 
that have increased nearly 6 percent. They also are experiencing late 
summer precipitation that has declined more than 20 percent and flows 
in coldwater streams that are declining noticeably throughout Montana. 
They realize that the glaciers in Glacier National Park are likely to 
disappear by 2030 (at this time, only 26 remain of the 150 that existed 
in 1850). And, finally, they see that Montana's warmer winters and 
drier summers have allowed the mountain pine beetle to expand its 
natural infestation of Montana's lodgepole pine forests to epidemic 
levels, resulting in 2 million acres of beetle-killed trees.
    While some of these sportsmen might never utter the words ``climate 
change,'' they readily acknowledge that the later and shorter winters, 
reduced snowpack, increasing spring rain, lower streamflows, melting 
glaciers and widespread pine beetle epidemic reflect an environmental 
change that is beyond rational debate. They also know that this 
magnitude of environmental change will eventually result in serious 
declines in many species of fish and wildlife. Global climate change 
does not bode well for the future of fish and wildlife and recreational 
hunting and fishing.
    The Theodore Roosevelt Conservation Partnership's fundamental 
beliefs regarding climate change are

        <bullet>  Global climate change is real.

        <bullet>  Sportsmen likely will be the first to experience the 
        repercussions of climate change.

        <bullet>  We need to safeguard fish and wildlife resources from 
        climate change with adaptation strategies.

        <bullet>  How we address global climate change now will dictate 
        whether future generations will continue to enjoy sporting 
        traditions.

    In 2008, the Wildlife Management Institute and eight of the 
nation's leading hunting and fishing organizations released Seasons' 
End: Global Warming's Threat to Hunting and Fishing 
(www.seasonsend.org), a report detailing the predicted impacts of 
climate change on fish and wildlife habitat and its implications for 
sustainable hunting and fishing. Some of the report's conclusions 
follow.
    Upland birds face a severe future as climate change progresses. 
Disruptions in life cycles likely will sever reproduction and the 
emergence of critical food sources. Young birds could suffer fatal 
exposure to winter cold from loss of thermal snow cover, with reduced 
nesting success and increased predation leading to major population 
reductions. These declines coupled with an influx of invasive species 
will result in fewer birds in the hunters' bags. Increasing droughts 
could devastate food sources for upland birds, with prairie chickens, 
sage grouse, sharp-tailed grouse and pheasants among the species most 
likely to be diminished in number. Many eastern Montana ranchers 
consider the prime prairie grouse and pheasant hunting on their lands 
to be an important cash crop, along with cattle and wheat.
    Big game likely will be adversely impacted in several ways. 
Mountain goats and bighorn sheep will compete for increasingly 
isolated, fragmented and diminished habitat. Rising temperatures in the 
Rocky Mountains will allow trees and shrubs to overwhelm sagebrush 
ecosystems that in the past provided desirable winter forage for 
pronghorn, elk and mule deer. As fragmentation and loss of critical 
winter range continues, mule deer and elk could dwindle in numbers, 
particularly in Montana, Wyoming, Utah, Colorado and New Mexico. Forage 
becomes less nourishing in prolonged droughts, and elk and mule deer 
are likely to remain at higher elevations longer. Big-game hunters in 
Montana already are having less success because winter snows are 
arriving later in the fall, keeping elk and mule deer at higher 
elevations and in less accessible areas through most of the hunting 
season.
    Unlike big game, waterfowl can move quickly and cover vast 
distances. Nevertheless, shorter winters will affect the availability 
of waterfowl food and cover and quality of habitat. Longer ice-free 
seasons will lead to changing migratory timing, routes and wintering 
locations. Sea level rise inundating coastal wetlands will squeeze 
waterfowl into narrowing bands of habitat. The prairie pothole region, 
which includes portions of Iowa, Minnesota, Montana and the Dakotas, 
could lose up to 90 percent of its wetlands to climate change, reducing 
the region's breeding ducks by as much as 69 percent in an area often 
called North America's duck breeding factory. No species can withstand 
the loss of 90 percent of its critical habitat base. Hunters throughout 
the United States report that waterfowl migrations are occurring later 
in the season and, in some cases, not occurring at all.
    The outlook for trout in the West is warming water that will slow 
trout growth rates, increase stress and increase susceptibility to 
toxins, parasites and disease. Trout will be forced to congregate in 
constricted habitats and compete with invasive species. Diminishing 
streamflows from declining snowpack already have decimated trout 
populations and fishing opportunities in some Montana streams, such as 
Lolo Creek south of Missoula where low flows have reduced once-thriving 
populations of cutthroat, rainbow, brown and brook trout. Western trout 
populations could be reduced by 50 percent. Trout fishing spots and 
success will change significantly--and not for the better.
    Global climate change has the power to fundamentally change the 
participation rates of America's 13 million hunters and 28 million 
freshwater anglers, as well as the geography of hunting and fishing in 
North America. As fish and wildlife habitat, abundance and distribution 
shift in response to a changing climate, patterns of recreational 
activities will shift as well. Today's carefully delineated protected 
areas may not even be encompassed within the new habitat zones where 
the mobile species of wildlife may be forced to migrate under a 
changing climate.
    Collectively, Idaho, Montana and Wyoming still harbor the finest 
hunting for big game and upland bird and trout fishing resources in the 
country. The loss of big game and upland gamebird hunting opportunities 
in these northern Rocky Mountain states would impair what has been a 
sustainable recreational economy that currently supports more than 4.3 
million hunter-days annually and annually generates more than $3.45 
billion in total economic value (Backcountry Bounty, Sonoran Institute, 
June 2006).
    Now, Beyond Seasons' End (www.seasonsend.org), a new report 
released in 2010 by 10 of the nation's leading hunting and fishing 
organizations, along with the TRCP, presents adaptation strategies, 
measures and costs to aid fish and wildlife in adapting to global 
climate change. The common-sense and science-based recommendations that 
are spelled out and ``cost out'' in Beyond Seasons' End are well-
conceived, field-tested and can be accomplished if funding can be 
provided. This application of science shows what can be done on the 
ground to restore and protect crucial fish and wildlife habitat, secure 
migration corridors and connectivity between habitats, allocate water 
for sport fish and develop regional and national adaptation plans.
    A number of state fish and wildlife agencies are in the process of 
revising their state wildlife action plans (funded largely by State 
Wildlife Grant appropriations from Congress) to incorporate 
comprehensive strategies for fish and wildlife adaptation to climate 
change. The state wildlife action plans, when based on landscape-level 
habitat management and conservation, will become one of the fundamental 
tools of state agencies for improving the resiliency and sustainability 
of fish and wildlife under a changing climate, particularly when they 
are developed in concert with neighboring states that share the habitat 
ranges and connective corridors for wildlife that do not recognize 
political borders.
    The Montana Department of Fish, Wildlife & Parks is updating its 
comprehensive fish and wildlife conservation strategy to include 
adaptive measures to better sustain and manage fish and wildlife across 
broad landscapes in a changing climate, using strategies presented in 
Beyond Seasons' End. The revised strategy will emphasize crucial areas, 
such as new areas of winter range for elk, and corridors that will 
enable mobile fish and wildlife species to move to suitable habitat. 
The agency's new Crucial Areas Planning System integrates many computer 
databases that provide wildlife managers with the physical, biological 
and social information to better predict impacts of climate change and 
development on fish and wildlife--and hunting and fishing--and develop 
more effective mitigation and adaptive management measures.
    The Yellowstone River Strategy is one example of the landscape-
level approaches identified by Montana Fish, Wildlife & Parks and a 
working group comprised of non-agency specialists to help Yellowstone 
cutthroat trout survive in a warming river environment. The June runoff 
and late summer flows have been declining since the early 1950s, and 
the water now is favoring smallmouth bass over cutthroats. The main 
factors behind a decline in Yellowstone cutthroat trout in the 
Yellowstone River have been contraction of coldwater habitats in upper 
reaches, increasing temperatures and loss of connectivity from reduced 
flows in lower reaches, loss of tributary connectivity from reduced 
flows and diversion dams and a decline of Yellowstone cutthroat trout 
with encroaching smallmouth bass upstream to Reed Point. The 
Yellowstone River System strategy would safeguard genetically pure 
Yellowstone cutthroat trout by conserving their strongholds in 
headwater tributaries; constructing temporary, high-elevation water 
storage to augment downstream flows in the summer; re-establishing 
stream connectivity to allow fish to disperse in mid-elevation 
downstream reaches; removing fish passage barriers and restoring 
riparian areas, wet meadows and wetlands in lower-elevation downstream 
reaches while maintaining the prime coldwater fishing opportunities for 
which the river is famous.
    Another example of a Montana Fish, Wildlife & Parks landscape-level 
climate adaptation project is the Sagebrush Steppe System Initiative in 
southwestern and eastern Montana. The sagebrush habitat community 
provides critical habitat to many of the big-game, waterfowl and upland 
bird species prized by hunters. These are the likely effects of climate 
change on these species in the sagebrush steppe area: elk, mule deer 
and pronghorn overwinter survival might improve with milder winters, 
but recruitment to the population likely will decline due to forage 
nutritional deficiencies; Greater sage-grouse are likely to be hurt by 
the declining extent and density of sagebrush for food and shelter; and 
waterfowl likely will decline from drier climate and loss of small 
wetlands.
    In the Sagebrush Steppe System Initiative, Montana Fish, Wildlife & 
Parks more closely coordinates with agencies, namely the U.S. Forest 
Service and Bureau of Land Management, which manage the majority of 
Montana's publicly owned habitat and which now are required to consider 
impacts of their management on the climate. Also, the agency will work 
closely with private agricultural landowners using private-land 
conservation incentives in the 2008 Farm Bill, such as the Conservation 
Stewardship, Environmental Quality Incentives and Farm and Ranchland 
Protection programs. Conserving and maintaining crucial areas and 
migratory corridors will receive special emphasis.
    As Congress develops climate and energy legislation, I urge you to 
ensure that such legislation establishes a national program to mitigate 
the causes of global warming by reducing emissions of greenhouse gases 
and sequestering carbon from the atmosphere.
    The unavoidable adverse effects of climate change on fish and 
wildlife and their habitats may be minimized or prevented in some cases 
through adaptation measures and management actions initiated at the 
earliest time possible. There is a compelling and urgent need for fish 
and wildlife managers to initiate specific conservation actions--such 
as ensuring crucial habitat availability and connectivity--that would 
help fish and wildlife maintain self-sustaining populations through an 
ongoing flexible management process of adaptive management. 
Specifically, a House bill should establish a national policy framework 
to help protect, reconnect and restore public and private lands; 
provide increased scientific capacity; identify wildlife migration 
corridors; coordinate and share information; and dedicate a sufficient 
amount of funding to federal, state and tribal agencies to implement 
identified actions needed assure the resiliency and sustainability of 
our fish and wildlife resources.
    The activities of the federal resource agencies needed to restore 
and protect fish and wildlife from the impacts of climate change should 
be directed and coordinated through a comprehensive national strategy, 
developed in close consultation with states, tribes and other 
stakeholders and with advice from the National Academy of Sciences and 
a science advisory board.
    The activities of the state resource agencies should be directed 
and coordinated through individual, state-based, comprehensive 
strategies for fish and wildlife adaptation to climate change that are 
approved by the Secretary of the Interior and integrated into state 
wildlife action plans, state coastal zone management plans and other 
state wildlife species or habitat plans. Opportunities should be 
provided for scientific and public input during the development and 
implementation of these strategies.
    Most sportsmen pay homage to President Theodore Roosevelt because 
he had the courage and foresight to advance a strong conservation 
agenda and restore depleted fish and wildlife against a political tide, 
bequeathing to us the rich fish and wildlife heritage sportsmen cherish 
to this day. Roosevelt had the foresight to recognize that Congress 
must take action at a critical time to safeguard this legacy for future 
generations of Americans. For the sake of our children and 
grandchildren, we now must act at what is another critical time. While 
no one has all the answers to the challenge of climate change, we know 
we are dealing with a rapidly changing world. We must step up today to 
do the conservation work that will ensure the future--not only of 
hunting and fishing, but of our very quality of life.
    Thank you.

                     Biography for William H. Geer
    William Geer joined the TRCP staff full time in 2005 as policy 
initiatives manager. After earning a bachelor of science from the 
University of Montana School of Forestry and a master of science in 
limnology from Montana State University, Bill has spent the past 38 
years as a professional fish and wildlife conservationist. Before 
joining the TRCP, he served as the director of the Utah Division of 
Wildlife Resources, coordinator for the North American Waterfowl 
Management Plan for the National Fish and Wildlife Foundation, vice 
president for both field operations and conservation programs for the 
Rocky Mountain Elk Foundation, Inland Northwest conservation manager 
for the Nature Conservancy in Idaho and executive director of the 
Outdoor Writers Association of America.

    Chairman Baird. Thank you, Mr. Geer.
    Dr. Curry.

STATEMENT OF JUDITH A. CURRY, CHAIR OF THE SCHOOL OF EARTH AND 
     ATMOSPHERIC SCIENCES, GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Curry. I would like to--Hello? Okay.
    I would like to thank the Chairman and the Committee for 
the opportunity to participate in this hearing.
    You have heard forceful arguments from climate scientists 
for a looming future threat from anthropogenic climate change. 
Anthropogenic climate change is a theory whose basic mechanism 
is well understood but whose magnitude is highly uncertain. 
This conflict regarding this theory is over the level of our 
ignorance regarding what is known about natural climate 
variability, about what is unknown about natural climate 
variability, and the feedback processes.
    Based on the background knowledge that we have, the threat 
from global climate change does not seem to be an existential 
one on the time scale of the 21st century, even in its most 
alarming incarnation. It seems more important that robust 
policy responses be formulated than to respond urgently with 
policies that may fail to address the problem and whose 
unintended consequences have not been adequately explored.
    How to deal with this complex problem presents many 
challenges at the interface between science and policy. Over 
the past 20 years, scientists have become entangled in an 
acrimonious scientific and political debate where the issues in 
each have become confounded. Debates over relatively arcane 
aspects of the scientific argument have become a substitute for 
what should be a real debate about politics and values.
    I have been publicly raising concerns since 2003 about how 
uncertainty surrounding climate change is evaluated and 
communicated. At this point, it seems more important to explore 
the uncertainties associated with future climate change, rather 
than to attempt to reduce the uncertainties in a consensus-
based approach.
    It's time for climate scientists to change their view of 
uncertainty. It's not just something that is merely to be 
framed and communicated to policymakers while mindful that 
doubt is a political weapon in the decision-making process. 
Characterizing, understanding, and exploring uncertainty is at 
the heart of the scientific process; and, further, the 
characterization of uncertainty is critical information for 
robust policy decisions.
    It's important to broaden the scope of global climate 
change research to develop a better understanding of natural 
climate variability and the impact of land use changes; and far 
more attention needs to be given to establishing robust and 
transparent climate data records, particularly the paleoclimate 
record. Regional planners and resource managers want accurate, 
high-resolution climate model projections to support local 
climate adaptation plans and climate-compatible development. 
The need for such models is unlikely to be met at least in the 
short term.
    In any event, anthropogenic climate change on time scales 
of decades is arguably less important in driving vulnerability 
than increasing population, land use practices, and ecosystem 
degradation. Regions that find solutions to current problems of 
climate variability and extreme weather events and address 
challenges associated with an increasing population will be 
better prepared to cope with any additional stresses from 
climate change.
    Climate researchers need to engage with regional planners, 
economists, military intelligence organizations, development 
banks, energy companies, and governments in the developing 
world. Such engagement can develop a mutual understanding about 
what kind of information is needed, promote more fruitful 
decision outcomes, and to find new scientific challenges to be 
addressed by research.
    The need for climate researchers to engage with social 
scientists and engineers has never been more important, and 
there is an increasing need for social scientists and 
philosophers of science to scrutinize and analyze our field to 
prevent dysfunction at the science-policy interface, which has 
been so evident this past year.
    Climate scientists and the institutions that support them 
need to acknowledge and engage with ever-growing groups of 
citizens, scientists, and extended peer communities that have 
become increasingly well organized by the blogosphere. The more 
sophisticated of these groups are challenging our conventional 
notions of expertise and are bringing much-needed scrutiny 
particularly into issues surrounding historical and 
paleoclimate data records. These groups reflect the growing 
public interest in climate science and a growing concern about 
possible impacts of both climate change and climate change 
policies.
    And, further, this interest has illuminated the fundamental 
need for improved and transparent historical and paleoclimate 
data sets and improved information systems so that these data 
are easily accessed and interpreted. We need to identify and 
secure the common interests in dealing with the climate, 
energy, and ocean acidification problems.
    A diversity of views on interpreting the scientific 
evidence and a broad range of ideas on how to address these 
challenges doesn't hinder the implementation of diverse, 
bottom-up solutions. Securing the common interest on local and 
regional scales provides a basis for the successful 
implementation of climate adaptation strategies and successes 
on the regional scale and then national scale make it much more 
likely that global issues can be confronted in an effective 
way.
    Thank you.
    [The prepared statement of Dr. Curry follows:]
                 Prepared Statement of Judith A. Curry
    I thank the Chairman and the Committee for the opportunity to offer 
testimony today on ``Rational Discussion of Climate Change.'' I am 
Chair of the School of Earth and Atmospheric Sciences at the Georgia 
Institute of Technology. As a climate scientist, I have devoted 30 
years to conducting research on a variety of topics including climate 
feedback processes in the Arctic, energy exchange between the ocean and 
the atmosphere, the role of clouds and aerosols in the climate system, 
and the impact of climate change on the characteristics of hurricanes. 
As president of Climate Forecast Applications Network LLC, I have been 
working with decision makers on climate impact assessments, assessing 
and developing climate adaptation strategies, and developing 
subseasonal climate forecasting strategies to support adaptive 
management and tactical adaptation. Over the past year, I have been 
actively engaging with the public (particularly in the blogosphere) on 
the issue of integrity of climate science, and also the topic of 
uncertainty.

The climate change response challenge

    Climate change can be categorized as a ``wicked problem.'' \1\ 
Wicked problems are difficult or impossible to solve, there is no 
opportunity to devise an overall solution by trial and error, and there 
is no real test of the efficacy of a solution to the wicked problem. 
Efforts to solve the wicked problem may reveal or create other 
problems.
---------------------------------------------------------------------------
    \1\ Rittel, Horst, and Melvin Webber; ``Dilemmas in a General 
Theory of Planning,'' pp. 155-169, Policy Sciences, Vol. 4, Elsevier 
Scientific Publishing Company, Inc., Amsterdam, 1973. http://
www.uctc.net/mwebber/
Rittel+Webber+Dilemmas+General<INF>-</INF>Theory<INF>-</INF>of<INF>-</INF>
Planning.pdf
---------------------------------------------------------------------------
    The United Nations Framework Convention on Climate Change (UNFCCC) 
and the Intergovernmental Panel on Climate Change (IPCC) have framed 
the climate change problem (i.e. dangers) and its solution (i.e. 
international treaty) to be irreducibly global. Based upon the 
precautionary principle, the UNFCCC's Kyoto Protocol has established an 
international goal of stabilization of the concentrations of greenhouse 
gasses in the atmosphere. This framing of the problem and its solution 
has led to the dilemma of climate response policy that is aptly 
described by Obersteiner et al. \2\:
---------------------------------------------------------------------------
    \2\ http://helda.helsinki.fi/bitstream/handle/1975/292/2001-
Managing<INF>-</INF>climate<INF>-</INF>risk.pdf?sequence=1

         The key issue is whether ``betting big today'' with a 
        comprehensive global climate policy targeted at stabilization 
        ``will fundamentally reshape our common future on a global 
        scale to our advantage or quickly produce losses that can throw 
---------------------------------------------------------------------------
        mankind into economic, social, and environmental bankruptcy.''

    In a rational discussion of climate change, the question needs to 
be asked as to whether the framing of the problem and the early 
articulation of a preferred policy option by the UNFCCC has 
marginalized research on broader issues surrounding climate change, and 
resulted is an overconfident assessment of the importance of greenhouse 
gases in future climate change, and stifled the development of a 
broader range of policy options.
    The IPCC/UNFCCC have provided an important service to global 
society by alerting us to a global threat that is potentially 
catastrophic. The UNFCCC/IPCC has made an ambitious attempt to put a 
simplified frame around the problem of climate change and its solution 
in terms of anthropogenic forcing and CO<INF>2</INF> stabilization 
polices. However, the result of this simplified framing of a wicked 
problem is that we lack the kinds of information to more broadly 
understand climate change and societal vulnerability.

Uncertainty in climate science

    Anthropogenic climate change is a theory in which the basic 
mechanism is well understood, but in which the magnitude of the climate 
change is highly uncertain owing to feedback processes. We know that 
the climate changes naturally on decadal to century time scales, but we 
do not have explanations for a number of observed historical and paleo 
climate variations, including the warming from 1910-1940 and the mid-
20th century cooling. The conflict regarding the theory of 
anthropogenic climate change is over the level of our ignorance 
regarding what is unknown about natural climate variability.
    I have been raising concerns \3\ since 2003 about how uncertainty 
surrounding climate change is evaluated and communicated. The IPCC's 
efforts to consider uncertainty focus primarily on communicating 
uncertainty, rather than on characterizing and exploring uncertainty in 
a way that would be useful for risk managers and resource managers and 
the institutions that fund science. A number of scientists have argued 
that future IPCC efforts need to be more thorough about describing 
sources and types of uncertainty, making the uncertainty analysis as 
transparent as possible. Recommendations along these lines were made by 
the recent IAC \4\ review of the IPCC.
---------------------------------------------------------------------------
    \3\ http://curry.eas.gatech.edu/climate/pdf/crc-102103.pdf
    \4\ http://reviewipcc.interacademycouncil.net/
---------------------------------------------------------------------------
    Because the assessment of climate change science by the IPCC is 
inextricably linked with the UNFCCC polices, a statement about 
scientific uncertainty in climate science is often viewed as a 
political statement. A person making a statement about uncertainty or 
degree of doubt is likely to become categorized as a skeptic or denier 
or a ``merchant of doubt,'' \5\ whose motives are assumed to be 
ideological or motivated by funding from the fossil fuel industry. My 
own experience in publicly discussing concerns about how uncertainty is 
characterized by the IPCC has resulted in my being labeled as a 
``climate heretic'' \6\ that has turned against my colleagues.
---------------------------------------------------------------------------
    \5\ Oreskes, N. and E.M. Conway, 2010: Merchants of Doubt: How a 
Handful of Scientists Obscured the Truth on Issues from Tobacco to 
Global Warming. Bloomsbury Press, 368 pp.
    \6\ http://www.scientificamerican.com/article.cfm?id=climate-
heretic

Climate change winners and losers

    A view of the climate change problem as irreducibly global fails to 
recognize that some regions may actually benefit from a warmer and/or 
wetter climate. Areas of the world that currently cannot adequately 
support populations and agricultural efforts may become more desirable 
in future climate regimes.
    Arguably the biggest global concern regarding climate change 
impacts is concerns over water resources. This concern is exacerbated 
in regions where population is rapidly increasing and water resources 
are already thinly stretched. China and South Asia (notably India, 
Pakistan, and Bangladesh) are facing a looming water crisis arising 
from burgeoning population and increasing demand for water for 
irrigated farming and industry. China has been damming the rivers 
emerging from Tibet and channeling the water for irrigation, and there 
is particular concern over the diversion of the Brahmaputra to irrigate 
the arid regions of Central China. China's plans to reroute the 
Brahmaputra raises the specter of riparian water wars with India and 
Bangladesh.
    The IPCC AR4 WGII makes two statements of particular relevance to 
the water situation in central and south Asia:

         ``Freshwater availability in Central, South, East and South-
        East Asia . . . is likely to decrease due to climate change, 
        along with population growth and rising standard of living that 
        could adversely affect more than a billion people in Asia by 
        the 2050s (high confidence).'' \7\
---------------------------------------------------------------------------
    \7\ http://www.ipcc.ch/publications<INF>-</INF>and<INF>-</INF>data/
ar4/wg2/en/ch10s10-es.html

         ``Glaciers in the Himalaya are receding faster than in any 
        other part of the world and, if the present rate continues, the 
        likelihood of them disappearing by the year 2035 and perhaps 
        sooner is very high if the Earth keeps warming at the current 
        rate. Its total area will likely shrink from the present 
        500,000 to 100,000 km2 by the year 2035 (WWF, 2005).'' \8\
---------------------------------------------------------------------------
    \8\ http://www.ipcc.ch/publications<INF>-</INF>and<INF>-</INF>data/
ar4/wg2/en/ch10s10-6-2.html

    The lack of veracity of the statement about the melting Himalayan 
glaciers has been widely discussed, and the mistake has been 
acknowledged by the IPCC.\9\ However, both of these statements seem 
inconsistent with the information in Table 10.2 of the IPCC AR4 WG II 
and the statement:
---------------------------------------------------------------------------
    \9\ http://www.ipcc.ch/pdf/presentations/himalaya-statement-
20january2010.pdf

         ``The consensus of AR4 models . . . indicates an increase in 
        annual precipitation in most of Asia during this century; the 
        relative increase being largest and most consistent between 
        models in North and East Asia. The sub-continental mean winter 
        precipitation will very likely increase in northern Asia and 
        the Tibetan Plateau and likely increase in West, Central, 
        South-East and East Asia. Summer precipitation will likely 
        increase in North, South, South-East and East Asia but decrease 
        in West and Central Asia.'' \10\
---------------------------------------------------------------------------
    \10\ http://www.ipcc.ch/
publications<INF>-</INF>and<INF>-</INF>data/ar4/wg2/en/ch10s10-
3.html#10-3-1

    Based on the IPCC's simulations of 21st century climate, it seems 
that rainfall will increase overall in the region (including wintertime 
snowfall in Tibet), and the IPCC AR4 WGII does not discuss the impact 
of temperature and evapotranspiration on fresh water resources in this 
region. The importance of these omissions, inconsistencies or mistakes 
by the IPCC is amplified by the potential of riparian warfare in this 
region that supports half of the world's population.
    A serious assessment is needed of vulnerabilities, region by 
region, in the context of possible climate change scenarios, 
demographics, societal vulnerabilities, possible adaptation, and 
current adaptation deficits. A few regions have attempted such an 
assessment. Efforts being undertaken by the World Bank Program on the 
Economics of Adaptation to Climate Change to assess the economics of 
adaptation in developing countries are among the best I've seen in this 
regard. This is the kind of information that is needed to assess 
winners and losers and how dangerous climate change might be relative 
to adaptive capacities.

Climate surprises and catastrophes

    The uncertainty associated with climate change science and the 
wickedness of the problem provide much fodder for disagreement about 
preferred policy options. Uncertainty might be regarded as cause for 
delaying action or as strengthening the case for action. Low-
probability, high-consequence events in the context of a wicked problem 
provide particular challenges to developing robust policies.
    Extreme events such as landfalling major hurricanes, floods, 
extreme heat waves and droughts can have catastrophic impacts. While 
such events are not unexpected in an aggregate sense, their frequency 
and/or severity may increase in a warmer climate and they may be a 
surprise to the individual locations that are impacted by a specific 
event. Natural events become catastrophes through a combination of 
large populations, large and exposed infrastructure in vulnerable 
locations, and when humans modify natural systems that can provide a 
natural safety barrier (e.g. deforestation, draining wetlands). For 
example, the recent catastrophic flooding in Pakistan \11\ apparently 
owes as much to deforestation and overgrazing as it does to heavy 
rainfall. Addressing current adaptive deficits and planning for climate 
compatible development will increase societal resilience to future 
extreme events that may be more frequent or severe in a warmer climate.
---------------------------------------------------------------------------
    \11\ http://judithcurry.com/2010/09/20/pakistan-on-my-mind/
---------------------------------------------------------------------------
    Abrupt climate change \12\ is defined as a change that occurs 
faster than the apparent underlying driving forces. Abrupt climate 
change, either caused by natural climate variability or triggered in 
part by anthropogenic climate change, is a possibility that needs 
investigation and consideration. Catastrophic anthropogenic climate 
change arising from climate sensitivity on the extreme high end of the 
distribution has not been adequately explored, and the plausible worst-
case scenario has not be adequately articulated. To what extent can we 
falsify scenarios of very high climate sensitivity based on our 
background knowledge? What are the possibilities for abrupt climate 
change, and what are the possible time scales involved? What regions 
would be most vulnerable under this worst-case scenario?
---------------------------------------------------------------------------
    \12\ http://www.nap.edu/openbook.php?isbn=0309074347
---------------------------------------------------------------------------
    Weitzmann \13\ characterizes the decision making surrounding 
climate change in the following way:
---------------------------------------------------------------------------
    \13\ http://dash.harvard.edu/bitstream/handle/1/3693423/
Weitzman<INF>-</INF>OnModeling.pdf7
sequence=2

         ``Much more unsettling for an application of expected utility 
        analysis is deep structural uncertainty in the science of 
        global warming coupled with an economic inability to place a 
        meaningful upper bound on catastrophic losses, from disastrous 
        temperature changes. The climate science seems to be saying 
        that the probability of a system-wide disastrous collapse is 
        non-negligible even while this tiny probability is not known 
---------------------------------------------------------------------------
        precisely and necessarily involves subjective judgments.''

    When a comprehensive decision analysis includes plausible 
catastrophes with unknown probabilities, the policy implications can be 
radically different from those suggested by optimal decision making 
strategies targeted at the most likely scenario. Weitzmann argues that 
it is plausible that climate change policy stands or falls to a large 
extent on the issue of how the high impact low probability catastrophes 
are conceptualized and modeled. Whereas ``alarmism'' focuses unduly on 
the possible (or even impossible) worst-case scenario, robust policies 
consider unlikely but not impossible scenarios without letting them 
completely dominate the decision.
    In summary, the IPCC focus on providing information to support the 
establishment of an optimal CO<INF>2</INF> stabilization target doesn't 
address two important issues for driving policy:

        <bullet>  reducing vulnerability to extreme events such as 
        floods, droughts, and hurricanes

        <bullet>  examination of the plausible worst case scenario.

There are no ``silver bullet'' solutions

    Xu, Crittenden et al.\14\ argue that ``gigaton problems require 
gigaton solutions.'' The wickedness of the climate problem precludes a 
gigaton solution (either technological or political). Attempts to 
address the climate change problem through a U.N. treaty for almost two 
decades have arguably not been successful. The climate change problem 
now walks hand-in-hand with the ocean acidification problem, the link 
between the two problems being the proposed stabilization of 
atmospheric CO<INF>2</INF>. The proposed solution to the wicked climate 
problem and ocean acidification in terms of stabilization of 
atmospheric CO<INF>2</INF> has revealed and created new problems in 
terms of energy policy. Energy policy is driven by a complicated mix of 
economics and economic development, energy security, environmental 
quality and health issues, resource availability (e.g. peak oil), etc.
---------------------------------------------------------------------------
    \14\ http://www.spp.gatech.edu/faculty/marilynbrown/sites/default/
files/attachment/Gigaton%20Problems %20Need%20Gigaton%20Solutions.pdf
---------------------------------------------------------------------------
    Even if climate change is not the primary driver in energy policy, 
the climate-energy nexus is a very important one. Not just in the sense 
of anthropogenic climate change motivating energy policy, but weather 
and climate are key drivers in energy demand and even supply. On the 
demand side, we have the obvious impact of heating and cooling degree 
days. On the supply side, we have oil and gas supply disruptions (e.g. 
hurricanes in the Gulf of Mexico) plus the dependence of hydro, solar, 
and wind power on weather and climate. What is perhaps the most 
important connection, and one often overlooked, is the energy-water 
nexus, whereby power plants requiring water for cooling compete with 
domestic, agricultural, industrial, and ecosystems for the available 
water supply.
    The complexity of both the climate and energy problems and their 
nexus precludes the gigaton ``silver bullet'' solution to these 
challenges. Attempting to use carbon dioxide as a control knob to 
regulate climate in the face of large natural climate variability and 
the inevitable weather hazards is most likely futile. In any event, 
according to climate model projections reported in the IPCC AR4, 
reducing atmospheric CO<INF>2</INF> will not influence the trajectory 
of CO<INF>2</INF> induced warming until after 2050. The attempt to 
frame a ``silver bullet'' solution by the UNFCCC seems unlikely to 
succeed, given the size and the wickedness of the problem. The wicked 
gigaton climate problem will arguably require thousands of megaton 
solutions and millions of kiloton solutions.

Moving forward

    Climate scientists have made a forceful argument for a looming 
future threat from anthropogenic climate change. Based upon the 
background knowledge that we have, the threat does not seem to be an 
existential one on the time scale of the 21st century, even in its most 
alarming incarnation. It is now up to the political process 
(international, national, and local) to decide how to contend with the 
climate problem. It seems more important that robust responses be 
formulated than to respond urgently with a policy that may fail to 
address the problem and whose unintended consequences have not been 
adequately explored.
    The role for climate science and climate scientists in this process 
is complex. In the past 20 years, dominated by the IPCC/UNFCCC 
paradigm, scientists have become entangled in an acrimonious scientific 
and political debate, where the issues in each have become confounded. 
This has generated much polarization in the scientific community and 
has resulted in political attacks on scientists on both sides of the 
debate, and a scientist's ``side'' is often defined by factors that are 
exogenous to the actual scientific debate. Debates over relatively 
arcane aspects of the scientific argument have become a substitute for 
what should be a real debate about politics and values.
    Continuing to refine the arguments put forward by the IPCC that 
focus on global climate model simulations projections of future climate 
change may have reached the point of diminishing returns for both the 
science and policy deliberations. Further, the credibility of the IPCC 
has been tarnished by the events of the past year. It is important to 
broaden the scope of global climate change research beyond its focus on 
anthropogenic greenhouse warming to develop a better understanding of 
natural climate variability and the impact of land use changes and to 
further explore the uncertainty of the coupled climate models and the 
capability of these models to predict emergent events such as 
catastrophic climate change. And far more attention needs to be given 
to establishing robust and transparent climate data records (both 
historical and paleoclimate proxies).
    Regional planners and resource managers need high-resolution 
regional climate projections to support local climate adaptation plans 
and plans for climate compatible development. This need is unlikely to 
be met (at least in the short term) by the global climate models. In 
any event, anthropogenic climate change on timescales of decades is 
arguably less important in driving vulnerability in most regions than 
increasing population, land use practices, and ecosystem degradation. 
Regions that find solutions to current problems of climate variability 
and extreme weather events and address challenges associated with an 
increasing population will be better prepared to cope with any 
additional stresses from climate change.
    Hoping to rely on information from climate models about projected 
regional climate change to guide adaptation response diverts attention 
from using weather and climate information in adaptive water resource 
management and agriculture on seasonal and subseasonal time scales. 
Optimizing water resource management and crop selection and timing 
based upon useful probabilistic subseasonal and seasonal climate 
forecasts has the potential to reduce vulnerability substantially in 
many regions. This is particularly the case in the developing world 
where much of the agriculture is rain fed (i.e. no irrigation). It 
would seem that increasing scientific focus on seasonal and subseasonal 
forecasts could produce substantial societal benefits for tactical 
adaptation practices.
    The global climate modeling effort directed at the IPCC/UNFCCC 
paradigm has arguably reached the point of diminishing returns in terms 
of supporting decision making for the U.N. treaty and related national 
policies. At this point, it seems more important to explore the 
uncertainties associated with future climate change rather than to 
attempt to reduce the uncertainties in a consensus-based approach. It 
is time for climate scientists to change their view of uncertainty: it 
is not just something that is merely to be framed and communicated to 
policy makers, all the while keeping in mind that doubt is a political 
weapon in the decision making process. Characterizing, understanding, 
and exploring uncertainty is at the heart of the scientific process. 
And finally, the characterization of uncertainty is critical 
information for robust policy decisions.
    Engagement of climate researchers with regional planners, 
economists, military/intelligence organizations, development banks, 
energy companies, and governments in the developing world to develop a 
mutual understanding about what kind of information is needed can 
promote more fruitful decision outcomes, and define new scientific 
challenges to be addressed by research. The need for climate 
researchers to engage with social scientists and engineers has never 
been more important. Further, there is an increasing need for social 
scientists and philosophers of science to scrutinize and analyze our 
field to prevent dysfunction at the science-policy interface.
    And finally, climate scientists and the institutions that support 
them need to acknowledge and engage with ever-growing groups of citizen 
scientists, auditors, and extended peer communities that have become 
increasingly well organized by the blogosphere. The more sophisticated 
of these groups are challenging our conventional notions of expertise 
and are bringing much needed scrutiny particularly into issues 
surrounding historical and paleoclimate data records. These groups 
reflect a growing public interest in climate science and a growing 
concern about possible impacts of climate change and climate change 
policies. The acrimony that has developed between some climate 
scientists and blogospheric skeptics was amply evident in the sorry 
mess that is known as Climategate. Climategate illuminated the 
fundamental need for improved and transparent historical and 
paleoclimate data sets and improved information systems so that these 
data are easily accessed and interpreted.
    Blogospheric communities can potentially be important in 
identifying and securing the common interest at these disparate scales 
in the solution space of the energy, climate and ocean acidification 
problems. A diversity of views on interpreting the scientific evidence 
and a broad range of ideas on how to address these challenges doesn't 
hinder the implementation of diverse megaton and kiloton solutions at 
local and regional scales. Securing the common interest on local and 
regional scales provides a basis for the successful implementation of 
climate adaptation strategies. Successes on the local and regional 
scale and then national scales make it much more likely that global 
issues can be confronted in an effective way.

                     Biography for Judith A. Curry
    Dr. Judith Curry is Professor and Chair of the School of Earth and 
Atmospheric Sciences at the Georgia Institute of Technology and 
President of Climate Forecast Applications Network (CFAN). Dr. Curry 
received a Ph.D. in atmospheric science from the University of Chicago 
in 1982. Prior to joining the faculty at Georgia Tech, she has held 
faculty positions at the University of Colorado, Penn State University 
and Purdue University. Dr. Curry's research interests span a variety of 
topics in climate; current interests include air/sea interactions, 
climate feedback processes associated with clouds and sea ice, and the 
climate dynamics of hurricanes. She is a prominent public spokesperson 
on issues associated with the integrity of climate science, and has 
recently launched the weblog Climate Etc. Dr. Curry currently serves on 
the NASA Advisory Council Earth Science Subcommittee and has recently 
served on the National Academies Climate Research Committee and the 
Space Studies Board, and the NOAA Climate Working Group. Dr. Curry is a 
Fellow of the American Meteorological Society, the American Association 
for the Advancement of Science, and the American Geophysical Union.

                               Discussion

    Chairman Baird. Thank you, Dr. Curry.
    I apologize. Our AV unit, which none of you, apparently, 
requires, is deciding to cool itself off, perhaps 
metaphorically. It may be smarter than we think.
    Thank you all for your testimony.
    The structure of today's hearing, as I mentioned from the 
outset, was to talk first about the basic science. Are we 
seeing impacts and then what are the impacts? What is happening 
and how does it impact our lives? We have got outstanding 
witnesses, and what I would like to do is follow up with each 
of you sort of on individual themes, but then, if there are 
crosscurrents to that, please address those.

                  The U.S. Navy and Weather Conditions

    Admiral Titley, I have had the privilege when I have been 
to Afghanistan, Iraq, and other theaters, you know, there are 
command daily briefings. And the idea is that a regional 
commander gets to look at all sorts of things: What's our force 
strength, what's our availability mobility, et cetera, et 
cetera.
    One of the key elements of that is always weather. You 
know, are there going to be dust storms? Are there going to be 
clouds? Can the drones see what their targets are? Will we have 
air cover? Et cetera.
    It must be especially acute in the Navy for your mission, 
and what occurs to me is you would be irresponsible as a 
commander if you did not take into account weather changes. The 
things you have talked to us today about, including the 
infrastructure commands, the changing potential in sea lanes, 
available access to ports, et cetera, that's a longer-term 
frame. But would you not be equally irresponsible if you didn't 
look ahead to that and try to make long-term strategic plans, 
not just tactics but strategy on the ground?
    Elaborate on how the Navy views this issue.
    Admiral Titley. Yes, sir. I am not sure I can say it much 
better than what you did, but at the risk of going downhill 
from here, I will try.
    You are absolutely right, sir. I have done weather 
forecasting in the Navy now for over 30 years. It starts off 
sort of at the unit level or the tactical level. We look at 
both the safety of the forces--really, you know, the Navy has 
learned that really from time immemorial going to sea.
    But certainly, in the typhoon of 1944, Admiral Halsey 
tragically lost three destroyers and over 700 sailors because 
we didn't know there was a typhoon out there. We fixed that. We 
have a Joint Typhoon Warning Center staffed by the Navy and the 
Air Force, and we have not had a repeat of that situation, 
thank God, since then.
    As you get more senior, you start looking at operational 
level. What will be weather and the ocean be in three, four, or 
five days? Where do I put my units to best have my chance of 
success?
    I think Heidi Cullen mentioned that climate is putting the 
odds in your favor, and that's how I look at the weather. I 
talk about the weather as we all operate in nature's casino, 
and I intend to count the cards. The bad news is there is a lot 
more than 52 cards. The good news, if you can do it, nobody 
breaks your kneecaps. So that is really what we are trying to 
do, is to put the odds in our favor.
    And now, sir, as you absolutely have it spot on, we are 
looking strategically out. So not just three, four, or five 
days, but what are the next 20, 30, 50 years going to look 
like?
    We can see the signal in the Arctic. The observations tell 
us what's going on. We see that the percentage of what's called 
multiyear, the thick ice has dropped to levels that, frankly, 
we have not recorded before. So although 2007 was in area 
extent the least amount of sea ice that was recorded, in '08, 
'09, and '10 the levels were slightly higher, when you look at 
the volume of ice, the volume as of last September has never 
been lower.
    And in respect to Congressman Rohrabacher, I should not say 
never. In the last several thousand years, it has not been 
lower.
    So we see the probable, probable opening of the Arctic. I 
have told Admiral Gary Roughead, our Chief of Naval Operations, 
that we expect to see about four weeks of basically ice-free 
conditions in the Arctic in the mid to late 2030s. By the 
middle of the century, we could be seeing quite easily two to 
three months of ice-free conditions. That's enough time to 
allow the trans-ocean shippers, assuming they have governance, 
search and rescue, charting, insurance, all of those other 
conditions, but by the middle of the century that's very, very 
possible.
    When I talk to my colleagues in Iceland, Iceland is 
actively thinking about how do they become the Singapore of the 
21st century? How do they become that southern terminus? This 
becomes a very different ocean and a very different world for 
our Navy to operate in.
    So this is just one example. I could talk about sea level. 
I could talk about ocean acidification. In the interests of 
time, sir, I will stop here.
    But you are exactly right. This is looking at what we 
believe, not guaranteed, but is likely to happen and looking at 
consequences, times probabilities, and planning for those kinds 
of situations. And that's what we have embarked on, sir.
    Chairman Baird. That's a very, very helpful summary.

                   Climate Monitoring Instrumentation

    A context of that also is that not with infrequency people 
here on the Committee will hear a suggestion that all the money 
that has been spent on climate change research has been wasted. 
Well, a fair bit of the instrumentation that has been used to 
gather the data that leads to the analysis came from Defense 
applications, whether it's satellites in the air, whether it's 
sensors on equipment. And certainly my hunch would be that down 
the road you folks will be mighty glad to have those sensors 
and the data that they have given you as you make your 
planning.
    Admiral Titley. Yes, sir. The data are very useful.
    We use data from a wide variety of sources. I am sure you 
know, sir, that the submarine missions that we had run not only 
in the Cold War but in the 1990s, they provide very, very 
valuable ground truth observations of how thick is that ice so 
we can then calibrate or basically tune our satellites.
    I would be remiss, though, sir, in saying this does not 
also work in the other direction. The Department of Defense is 
a big user of the civil structure that in part is appropriated 
from your committee. We work very closely with NOAA. I have a 
great relationship with Dr. Lubchenco.
    And one of the things, sort of on the practical adaptation 
side we are jointly looking at between the Navy and NOAA and 
the Air Force, also have Department of Energy and NASA 
involved, is how do we look at a next generation of weather, 
ocean, ice coupled prediction models so that by roughly 2020, 
in about ten years from now, we can predict that system as a 
whole and really going--spanning between weather time frames, 
say hours to days, out to say roughly about two or three 
decades.
    Because as we are planning for our infrastructure--or let's 
say if you are the port of New York and New Jersey, you are 
planning for your infrastructure. You want to be looking at 
that. There are--for very, very good reasons there are 
boundaries in the science community between the weather folks, 
the oceanographers, the glaciologists, the climatologists. But 
if you are a decision-maker, if you are running a business, if 
you are running a government agency, you know, with all due 
respect, you don't really care what those boundaries are. You 
need an answer, and your answers span these time frames.
    I wish I had thought of putting it this way, but the words 
of Rick Anthes, a former Director of the National Center for 
Atmospheric Research, he said, hey, Titley, what you are trying 
to do is go between a condition forced by initial conditions, 
you know, what is today's weather, to one forced by boundary 
conditions. What is the Sun doing? What are the greenhouse 
gases doing? How do we get through there? Open science 
questions.
    Big challenge. But I think it's a great challenge for this 
Nation of ours and one that will help us as we adapt in a cost-
constrained environment.
    Thank you, sir.
    Chairman Baird. Thank you. Thank you, very much.

               Adaptation Challenges and Poor Communities

    Mr. Lopez, I am intrigued by this issue of mitigation and 
adaptation, particularly as things apply to perhaps 
disadvantaged communities. And it seems there are two--well, 
there are multiple factors, but one is not only domestically in 
the United States but globally a lot of the folks who are going 
to get--if there are the impacts which are projected, which 
seems more probable than not, in many cases, anyway, if those 
impacts happen, they are going to impact some of the people who 
had the least to do with causing the problem and the fewest 
resources to cope with the problem. Can you elaborate on that 
domestically within our own sociodemographic span but also if 
you have insights into it globally how that impacts the world?
    Mr. Lopez. I think that's absolutely correct. I think 
that's of particular concern for us at HUD.
    As we implement our programs and policies, we want to make 
sure that the populations that we serve, we are thinking 
through adequately about the future stresses that might be 
imposed on those populations, knowing that the more stresses 
you have today the more likely you are impacted to be tomorrow. 
And I think there is a couple of points of insight, focusing 
more on the domestic side of things, that I would like to make.
    And, first, as the Admiral points out, you know, these 
decisions, they are being made today. It's not like we can 
wait. Moving beyond the military example, the hundred-year 
flood plan, the management of goods and services, agricultural 
economic development, the built infrastructure, which is what 
we deal with at HUD, we have to make decisions now about the 
future. And those decisions can't wait. So our challenge is how 
do you take that fact and build a system or a process that 
helps to mainstream or integrate the climate change variable? 
And I would suggest a couple of things.
    One, and I think it's endemic to these grants we put out, 
is to find the triggers. There are those communities that are 
aware of the assumptions of climate change, but there are 
opportunities that happen, planning opportunities like the 
challenge grants and the Regional Planning Grants that we have 
put out. Disaster recovery is an opportunity where you open up 
and start to say, okay, what does the future look like when we 
have to rebuild? Infrastructure investments. When you have to 
spend a billion dollars on a wastewater treatment facility you 
want to make the best decision you can. And it's really about 
learning as much as you can right now about what you need to 
know about the future.
    So I really think, Mr. Chairman, it comes down to better 
decisions. And for us it's the populations in large measure 
that you identified. So it's about scenario planning, and it's 
really about how do you help communities make a decision most 
compatible with uncertainty?
    We know there is uncertainty. Local governments and 
governments at all levels make decisions with uncertainty every 
day. It's about making the assumptions about climate in those 
decisions transparent, understanding them better, and making 
decisions in uncertainty.
    And one guiding lesson we learned, in my perspective coming 
from local government to the Federal Government, is to think on 
the margin. It's about the marginal cost of what you need do 
next. It's not necessarily about building a whole new system. 
It's about the marginal cost of building the reclaimed water 
system to the billion dollar investment you already made. And 
when you reach that point you can do a cost-benefit analysis 
based on the margins to see how much you know, how much you 
understand about the future, and whether or not the investment 
is worth it.
    And the final point I would make is you always have to 
consider the co-benefits. For us, we are acutely aware of where 
you build, how you build, how you help communities prepare for 
the future. That's what we do. Green roofs, green space, energy 
efficiency, water. It's reuse. It's conservation. All of these 
things are co-benefits to decisions that have to be weighed in 
I think when you are analyzing the marginal cost of the 
decision.
    Chairman Baird. Very well put.
    I had the privilege of riding on a cross-country flight 
with Secretary Sims, who I have great respect for and served 
our region very well. You mentioned the co-benefits. One of the 
things that I was so impressed with was the Secretary's 
analysis of things like health benefits from healthier 
communities. If we do if right, there is a positive synergy to 
this. If we preserve green space, that, if properly planted, 
can take up CO<INF>2</INF>. If we change how roofs are colored, 
that can produce greater reflectance, et cetera, and reduce 
temperatures inside homes, et cetera.
    One of the things I would hope we don't do as a body is 
those who are antagonistic to the climate change scenario, that 
they don't say anything that was ever done in the name of 
climate science we are going to reverse, sort of analogous to 
taking the photovoltaic panels off the White House as a 
statement. Well, if we do that, we are going to roll back a lot 
of things that have co-benefits in and of themselves, and I 
think that would be really unfortunate for all of the interests 
we have heard today.
    Briefly, I will particularly direct this to Rear Admiral 
Titley and Mr. Lopez, but if others want to comment as well, 
and then I will get back to specific questions.

                       A National Climate Service

    We in this committee have had significant discussion over 
whether or not a climate service is needed. If so, what would 
its benefits be? From Admiral Titley and then Mr. Lopez and 
then Mr. Geer and Dr. Curry, what are your thoughts about with 
whether or not a climate service would be useful to you? And 
what would be useful about it if it existed?
    Admiral Titley. Sir, thanks very much for the question.
    A climate service, I believe, would be very useful for the 
Navy. It provides--I almost hate the phrase--but a one-stop 
shop, if you will, or at least a source of both coherent and 
authoritative data. It would be ideally staffed by people who 
would be conversant with those data, as well as, of course, 
machine to machine ways of pulling these.
    We have lots of different places with very good quality 
that produce various types of climate models. The National 
Centers for Atmospheric Research, the Department of Energy have 
some tremendous programs, as do academia, et cetera. As a DOD, 
I do not want to replicate or duplicate. We cannot spend our 
taxpayers' dollars doing things that have already been done 
well, but I need access to that.
    Chairman Baird. But you need that data.
    Admiral Titley. But I need access, and I need to be able to 
get it without sort of the hunt and peck method, or whatever we 
call Google now on the hunted. Back when you and I were growing 
up, it would be the hunt and peck method.
    So having that, you know, probably in one agency. I know 
NOAA has looked at this. And, you know, that would make sense 
to us. So whatever the Committee and the Congress and the 
administration ultimately decide, the concept of a climate 
services would be very, very useful.
    Chairman Baird. The model of that would be that it would 
interface with a number of other areas like Agriculture, 
conceivably Fish and Wildlife, conceivably HUD, obviously, the 
Defense applications. That's the model that we had in mind. And 
you know, it's not a one-way street. It's not that the climate 
service tells you what's happening. Ideally, the climate 
service gathers information from your resources and expertise 
and data sets, and it's a synergistic model.
    Mr. Lopez or any others want to comment on that issue? Mr. 
Geer?
    Mr. Geer. Yes. From the Fish and Wildlife perspective, we 
support heavily the establishment of a national climate 
service. We feel that as additional information becomes 
available on a scientific basis we need to have that 
information to make intelligent management prescriptions on 
specific places around the country geographically. What's 
pertinent in the intermountain west, which is a relatively arid 
environment in a changing climate, may still be different than 
what it is in the Southeastern U.S. And what we need is 
geographically specific information, the best prediction we can 
get.
    So the strategies that we put on the ground are the ones 
that are pertinent and applicable for that particular area so 
we don't waste the money either for them to be effective. We 
need a information central kind of area where we can store the 
information, we can retrieve the information, we can find out 
where it comes from, we consult with others, we have a much 
better information base, we are better informed as 
professionals, and we can do a more effective job.
    We think that such a climate service ought to be 
coordinated among the state and federal agencies so everyone 
can--this is a worldwide issue. We can all participate in the 
data gathering and the data sharing and the interpretation.
    Chairman Baird. Dr. Curry and then Mr. Lopez.
    Dr. Curry. With regards to climate service, I think the 
fundamental need is really the information system. For example, 
the sea ice issue that was raised earlier, which of the 12 sea 
ice data sets that are out there should we be looking at? I 
mean, there is a bunch of different data sets. The average user 
doesn't know which one to use. There is no error assessments. 
And then they look at it and they see sea ice in Mediterranean 
and how are they supposed to interpret that? I mean, these data 
sets are not--
    Chairman Baird. There is no sea ice in the Mediterranean.
    Dr. Curry. I know, but some data sets give it to you there.
    Chairman Baird. Is that true?
    Dr. Curry. Oh, yeah.
    Chairman Baird. That's obviously not a data set.
    Dr. Curry. Certain satellite products, if there is clouds, 
they will mistake clouds for sea ice.
    Chairman Baird. Got you. Okay.
    Dr. Curry. And you can get sea ice in the Mediterranean. So 
how useful are those kind of data sets?
    Chairman Baird. Could we ski in it?
    Dr. Curry. My point is we need to establish authoritative 
climate data records, where people sift through the 
information, look at the uncertainties, and give somebody one 
data set that they can use.
    Chairman Baird. With some error boundaries.
    Dr. Curry. With some error bounds on it.
    And, also, it's an issue of accessibility. People need to 
be able to search and use the data sets. And, otherwise, trying 
to--even for somebody like me, sometimes trying to get the 
climate data I need, it's like--it's torture----
    Chairman Baird. Yeah.
    Dr. Curry. Okay--compared to somebody who is not even a 
climate researcher, who is just trying to use the data set. We 
have a very fundamental need for a climate data information 
system.
    Chairman Baird. So some kind of combination of open source 
but with a qualitative filter to it.
    Dr. Curry. Open source would be an interesting route to go.
    Chairman Baird. Mr. Lopez?
    Mr. Lopez. Thank you, Mr. Chairman.
    I think I would like to stay within the confines of the 
task force report, part of our charge, and what we were calling 
is a National Climate Change Adaptation Strategy. And I think a 
lot of the principles that we have discussed--the need to get 
information out, the need for a dialogue with the scientific 
community, a process by which we can evaluate that information 
and embed it into our mission of each agency and across the 
Federal Government and down to the states and local 
governments--is part of that process. And I think moving 
forward we hope to continue a dialogue with you as we work on 
that.
    Chairman Baird. Okay. Thank you.

         The Impacts of Climate Change on Recreational Fishing

    Mr. Geer, I want to ask you specifically, I represent an 
area where hunting and fishing is huge. The southwest 
Washington people love to hunt. I grew up as a hunter. We 
literally fed our family by hunting and fishing. That was our 
main source of protein, was venison or elk or antelope or 
rabbit or duck, whatever. If it moved, we shot it. If we shot 
it, we ate it. And we ate all of it. And that's the case in a 
lot of my district.
    And, in addition, the recreational pursuit is tremendously 
important to people. I had the opportunity to talk to--one of 
the ongoing fights back home is gill nets versus sports 
fishermen. I had a long conversation with a bunch of sports 
fishermen concerned about gill netting, and I think it's a 
legitimate and important debate. But, at the end of it, we 
began to talk about ocean acidification; and these folks really 
hadn't heard much about it. And it struck me that, you know, we 
are focusing so much on one issue sometimes.
    What impact do you see--if we have ocean acidification, as 
you heard Dick Feely testify to earlier, and you lose 
pteropods, you lose the basic food chain for salmonids, and if 
you increase the temperature of the water--back home, we go 
nuts, appropriately so, providing shade, et cetera, for streams 
and other tributaries so that the salmon can spawn in cool 
water. What do you see is the combination with more acidic 
water and higher temperature water on just, say, for example, 
salmonids to take one example?
    Mr. Geer. Well, I think it's a fairly simple prediction in 
some regards. If you have less food, you have a smaller 
population base perhaps of less healthy fish who are able to go 
upstream and spawn. Then you have an environment upstream 
that's not particularly inviting for them in the first place. 
There are some questions to be asked on whether or not, for 
example, will the chemical makeup of the water at that time 
change to the point they do not recognize their homing stream 
anymore, which will upset their spawning behavior? And if they 
do find the correct stream, or a stream, will they have a 
physical environment that still enables them not only to 
spawn--it's not just the act of spawning, the act of 
recruitment is you also have to have egg hatch.
    One of the things, if you have worked in fish hatcheries, 
we deal with things called degree days. A degree day is one 
Centigrade for one day. And, typically, an egg for a salmonid 
is going to require a little over 300 degree days to hatch. And 
if you have a species that's spawning in spring and is tied to 
the flow, you have fewer days with warming water than a species 
that spawns in the fall and has cold water for a longer time.
    But those cycles are timed to not only when the eggs hatch 
but what physical environment for the young-of-the-year fish 
exists at that time. Is there side water for younger-than-year 
fish, which are not muscular, they are small, they are prone to 
being washed away and to be preyed upon by big fish. Are there 
areas of flow at the time of year that they can escape to so 
you have successful recruitment, spawning, hatching, and 
survival of young fish to the next age class so they can go 
downstream?
    So it's a whole series of factors. But if you start with 
the fact that you have fewer fish to move upstream because you 
have a smaller body of fish in the ocean and they are of poorer 
health, they have physiologically a less suitable condition, 
you have a smaller population going up, you have a reduced 
spawn size, perhaps a less favorable environment, a lower 
recruitment, and you have a decline of salmonid populations. 
You are talking steelhead and Pacific salmon.

           Adaptation of Animal Species to a Changing Climate

    Chairman Baird. What you have hit upon seems so important 
to me. Because when we talk about this issue sometimes people 
say to themselves--I hear it a lot--wait a second, you are 
talking one degree, two degrees. My understanding of the 
biology of many species is that many of them live fairly near 
the upper bounds of their temperature tolerance. And a one 
degree change in water temperature over a period of time can be 
lethal. A change in pH level can be lethal. Integrated, they 
can have a terribly negative synergy. And now you are adding in 
all the of the other variables about stream flow, other habitat 
issues, nutrition supplies, et cetera. Even small changes can 
produce those impacts?
    Mr. Geer. Depending on where they are on the tolerance 
curve. If you have something, for example, like rainbow trout, 
that, if you are looking Fahrenheit, that have an optimal 
temperature of 55 degrees Fahrenheit, you have some wiggle room 
on either side where you can still have either good growth or 
slower growth and a viable population. But when you get up five 
degrees or something, you are getting to smallmouth bass range. 
Suddenly, you have physiologically less adaptable fish, you 
have lower reproductive success, and you have the opportunity 
for what we are calling invasive species, species that don't 
normally belong there intruding on their territory, which is 
what's happening in the Yellowstone River, the Clark Fork 
River, the Bitterroot River, and some other areas. You have 
species that are more competitive, that operate in a higher 
temperature range. When you get on the upper edge of their 
thermal tolerance, that's when you get the higher level of 
risk.
    One of the things I have noted over the years as sort of a 
general observation, though, that as humans we tend to think as 
the center of the universe, and we tend to think that what we 
understand is really what's important. We confuse lack of 
understanding with lack of importance. We don't understand how 
a small temperature difference can make a large difference to 
something else where it may not to us.
    We are in an insulated environment. We are in a comfortable 
room, thermostat controlled, comfortable. Well, if you are 
outside living in the environment without a thermostat, things 
are a little bit different, and they don't respond to the same 
stimuli that we respond to.
    And one of the things that we work on in animals, we can 
debate, for example, whether or not the science is exactly 
right, whether or not they are at the upper ends of the thermal 
tolerance or whatever. We can debate the policy outcomes that 
come out of this and even the range of the economy. But the 
animals don't get that vote.
    Chairman Baird. They don't get to turn the thermostat up.
    Mr. Geer. They go where the environment is within their 
life history and their tolerance. If their habitat's not here, 
if they are mobile enough, they will go to where it is. And 
some of them will not enjoy that advantage. They are already at 
the limits of their tolerance, and there is nowhere else to go. 
If you are a mountain goat, where do you go? You are already at 
the high end. So they go to where the habitat suits them. If it 
no longer suits them, then we have a decline in the species.
    Chairman Baird. And they don't have time to evolve to adapt 
at the pace of change.
    Mr. Geer. No, at the pace that we are changing things right 
now, we are talking evolutionary changes, maybe a hundred years 
or perhaps thousands of years. But we are talking things that 
are going to change much more rapidly, and they simply haven't 
got time to physiologically adapt in many cases to the 
environment that we predict may occur. And I hope that we are 
all wrong, actually, and that we have overestimated that. But 
the odds aren't looking good.
    Chairman Baird. Yeah.

                   Combined Factors Affecting Climate

    Dr. Curry, I was intrigued by one of your observations I 
thought was very telling and I think important. It's not just 
CO<INF>2</INF>. There are other factors. I caught at least two 
of them, population and land use. Those are also integrated, 
however, with CO<INF>2</INF> output. Can you elaborate? I mean, 
there is--they combine to have combined effects. Can you 
elaborate on that somewhat?
    Dr. Curry. Well, our vulnerability to global warming is 
largely associated with ever-increasing population, where we 
choose to build and what we do to our ecosystems and how we 
engineer our, you know, we get rid of some of our barriers. At 
the same time, as population increases this is, you know, a big 
part of the carbon dioxide problem. So it's a big, complex, 
wicked problem that's coupled in very complicated ways.
    And, again, I tried to make the point that there is no 
silver bullet solution. And there is all these intersecting 
problems. I mean, the climate problem doesn't stand alone. It's 
coupled to population, it's coupled to energy, increasingly to 
ocean acidification. And we need to look at the broad solution 
space, possible solution space for all these issues and try to 
figure out what makes sense.
    Chairman Baird. This population issue seems so important to 
me. Because if each individual has their own personal carbon 
footprint, if you will, the popular term, but basically what it 
takes for you to live your lifestyle, add a lot more people 
wanting a more carbon-intensive lifestyle, you just magnify the 
impact.
    Dr. Curry. Okay. And the population--where the population 
is growing is in central and south Asia. That's where the 
rapid, rapid, rapid population is growing. This is where 
economic development is huge. And what's going on there is 
going to totally dominate--well, it's already dominating the 
CO<INF>2</INF> story, and it's going to explode really in terms 
of dominating the carbon dioxide situation. And so that becomes 
a whole political issue about, you know, what India and China 
does and how we deal with risks.
    And the whole issue of who is a winner and loser, again, 
north China looks a lot more favorable in a warmer climate 
potentially, okay, with more water and a nicer climate, you 
know, during part of the year. And so what is going to be their 
motivation?
    You know, we haven't really looked at, you know, the 
winners and losers part of this story in the way that we should 
and really understood vulnerabilities. I mean, in the United 
States we have a fairly good of it. But in a lot of the 
developing world that are either very vulnerable, or like India 
and China, South Asia, that are going to be the big powerhouses 
in terms of emissions and populations, we just really haven't 
done a lot of the analysis that we need to do to really sort 
this out.
    Chairman Baird. What about the argument that, well, you 
know, there are so many Chinese, so many people in India and 
Indonesia, et cetera, they are going to pump out so much 
CO<INF>2</INF> that what we do here doesn't matter?
    Dr. Curry. Well, superficially, it doesn't, but the Chinese 
have already poisoned their environment in pretty serious ways. 
So their big motivation for doing something about it is really 
trying to stop the poisoning of their soil, water, and air. 
Okay. So that's their motivation.
    And on one hand it doesn't. But everybody's going to need--
there is no way that the developing world is going to be able 
to compete for, like, petroleum, you know, in terms of dollars, 
especially when we see peak oil or whatever. So there is going 
to have to be alternative energy sources of some sort. And the 
people who take the leadership in that area is going to be less 
vulnerable to price swings and global security issues and 
whatever. So there is a lot of motivation for being out there 
in front and taking a leadership position on all these 
alternative energy strategies.

         Blogging, Scientific Integrity, and Public Information

    Chairman Baird. One final question for you, and then we 
will bring it to a close, I suppose.
    I had the opportunity in almost every case here to look 
online at other things that you had done. And you mentioned the 
blogosphere. I will tell you I was pretty troubled by--I went 
on a few climate sites on both sides, and it was not the 
scientific dialogue that I am trained in. It was snarky, it was 
nonsubstantive, it was ad hominem, it was juvenile, and it was 
unconstructive.
    Dr. Curry. A lot of it is. Okay. But there is what I would 
call the technical climate blogs that have spun up, and these 
are people who have an interest in analyzing the data and 
looking into the science, and people from both sides of the 
debate show up. So some of the more high-profile ones are very 
snarky and polarizing. But the blogosphere has sort of 
developed this sort of lukewarmer technical blogging community 
where people are actually looking at the data, debating 
scientific papers, people from both sides in a fairly civilized 
way. And so I view this as something that it's important to tap 
into and acknowledge this interest, and there is potential for 
reducing polarization.
    Chairman Baird. Somehow there has got to be. And I 
mentioned at the outset--and I know you have written on this. I 
mentioned at the outset this issue of science integrity. We 
literally wrote it into the America COMPETES bill. Now you 
can't get a NSF grant. But you can blog with nothing. It's an 
important point. And the reason it's so important and the 
reason we are having this hearing is to try to say, look, this 
idea of science by ad hominem attack, by politicization, by 
false accusations, by conspiratorial theories, by labeling 
things hoaxes, that ain't science.
    Dr. Curry. I know it's not. But it's going to happen 
whether the blogosphere is there or not.
    I am just saying by engagement, a lot of it--so many people 
distrust climate scientists and climate science. I mean, they 
view them as arrogant and whatever, and they were worried about 
U.N. policies taking over everything, and they were sort of 
scared. And then when Climategate struck with the e-mails, you 
know, then people really had more of a concrete reason that 
they felt not to trust scientists.
    Chairman Baird. Would you say that that, though, 
obliterates all the legitimate data----
    Dr. Curry. Not at all. But it is an issue of the public 
trust, and a lot of the things like the IPCC assessment report 
is a heavy dose of expert judgment in those conclusions. And if 
you don't trust the experts, you know, what are we to make of 
their judgment? So the data and the fundamental research is 
there. It is how it is assessed, communicated, and by whom it 
becomes an issue.
    Chairman Baird. This is helpful.
    You know, I thank you all.

                     An Anecdote on Risk Management

    I will share an anecdote that occurs to me. Some years ago, 
I was climbing Mount Rainier. We were going up in the 
springtime. It was early and these wicked whiteouts happened. 
And if you have never been in a whiteout, it is really quite an 
experience. You literally have no sense of vertical, up or 
down. And we were walking with ski poles in front of us so we 
don't walk off. We are literally sort of probing because you 
can't see the earth. It is bizarre. And I had had the good 
fortune and maybe good sense to actually when we left this hut 
at Camp Muir to actually take my compass out and take a compass 
reading. And so we follow this compass reading.
    Everybody else was just walking the way they think we 
should walk, and I had the compass reading. And at some point I 
said, I just don't like the feel of this. We haven't come back 
across the trail I thought we should have and our intuition 
says we should go this way. If we are wrong, I knew from many 
climbs previously, there is about a 1,500 foot drop down to the 
Nisqually Glacier.
    Now, I said, you know, maybe what we ought to do is gather 
together and check our instruments. I happened to have an 
altimeter with me and a top map. It was mighty handy. So I had 
the top map. I had the topographic map, I had the altimeter, 
and I had the compass reading from where we had gone.
    Everybody else in the party pretty much was saying we are 
going to go this way. We are sure it is this way. And I said, 
well, here is the point on the map where my instruments tell me 
we are. If we walk another 200 meters this way, I think we walk 
off a 1,500 foot cliff as many others have done in equal 
conditions. The alternative, unfortunately--because we had gone 
this way this far--was unpleasant. We had to actually go 
uphill. And when you have climbed all day and you have got a 
heavy backpack on and it is deep snow and it is spooky and it 
is--you don't want to go back uphill. You hate it. It is hard 
work. You are tired. It is not what you want. Relative to a 
1,500 foot downhill----
    Well, we trusted the instruments because I had them, and we 
walked back. And I have never been so happy as I have in my 
life to see some spilled Gatorade on the snow about a half hour 
later. We had to literally change direction and walk uphill. 
The instruments gave us the data. And we could have gone where 
we wanted to go, where it seemed easy to go, where our 
intuition and our experience seemed to suggest it would go, but 
the data suggested something otherwise and we followed the 
data. And I probably wouldn't be here today because I was on 
the lead of the sharp end of the rope.
    The point of our hearing today--and I think the point of 
this committee I hope, which I am loath and sad to leave--is 
that we have an obligation to approach decision making in a 
constitutional democratic republic with rationale, empirical 
judgment and information, imperfect and uncertain but the best 
we can do. And the hope today was we had a model of how that 
can happen. We won't reach any conclusions.
    I don't think anybody is going to say, well, dang, I was a 
complete skeptic before, now it has turned. Maybe some will go 
the other way. But the process that we try to follow and the 
process of science is what is going to get us there. And I 
would hope that that process, that legacy on this committee, if 
no other, is one based on empirical decision making, mutual 
respect, critical analysis, objective analysis.
    I am grateful for the witnesses on all sides that have 
helped us put this forward, and I hope for the sake of the two 
5-1/2-year-old boys on which I make every fundamental decision 
in my life and countless others that are near and dear to you 
that we will weigh the consequences of inaction or inaccurate 
action against the consequences of acting in responsible, 
reasonable, rational ways for the broader good of not only our 
society but the globe itself. And the stakes are pretty darn 
high, and we have really got to get it right.
    I thank all of you for being here today and all of you who 
are--the audience for your perseverance and your patience and 
your expert input.
    Customarily, there will be two weeks allowed for anyone who 
wishes to enter additional extraneous comments into the record.
    And with that--thanks. And I would like finally to thank 
the staff on both the Majority side and Minority side for their 
participation in making this hearing in this last session of 
Congress so successful.
    With that, the hearing stands adjourned.
    [Whereupon, at 2:35 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Ralph J. Cicerone, President, National Academy of 
        Sciences

Questions submitted by Chairman Brian Baird

Human actions and climate change

    In your testimony you describe the basic energy balance of the 
Earth. In that explanation you state that the Earth's calculated 
temperature is lower than the measured temperature. You then state 
something must be missing in the calculated temperature of the Earth.

Q1.  Does this mean that global warming due to anthropogenic effects is 
the missing factor and that the increase in Earth's temperature is due 
to human activity?

A1. The big gap that I referred to is that the temperature which we 
calculate for the surface of the Earth by balancing the incoming energy 
from the Sun, with that which is emitted by the Earth, is about 30C 
lower than our actual temperature and this is due to the natural 
greenhouse effect. It does not include a human impact. The gap 
illustrates the fact that the greenhouse effect is a natural force and 
that if we calculate the temperature of Earth's surface or the 
temperature of Venus's surface without the greenhouse effect, we obtain 
answers which are far lower temperatures than are actually measured. 
The cause of this discrepancy is that we have ignored the greenhouse 
effect of gases in the atmospheres of Earth and Venus and of clouds in 
those atmospheres. The reason that we can calculate the correct 
temperature for Mars in this simple way is that Mars has such a thin 
atmosphere with so little carbon dioxide and water. This evidence for 
the existence of a natural greenhouse effect is one indication of why 
the human-enhanced greenhouse effect is also capable of changing 
Earth's climate.

Q2.  It is important to understand what the human contribution to the 
greenhouse effect means. Your testimony states that human's direct 
influence is small but we must consider all human energy usage (i.e. 
nuclear power, the burning of all fossil fuels, the burning of wood, 
etc). What sort of human impact does this translate into for the 
greenhouse effect and global warming?

A2. I hope that I did not confuse the issue by mentioning the fact that 
all of human energy usage today on Earth that is due to all fossil-fuel 
burning, coal, petroleum, and natural gas added to all the energy used 
from nuclear power plants, hydroelectricity, all renewable sources of 
energy together, add up to only about 1/100th, that is one percent, of 
the extra energy trapped near the surface of the Earth by the human 
enhanced greenhouse effect. I mention this comparison to show how 
powerful the greenhouse effect is as leverage over Earth's physical 
climate. I also mentioned it because sometimes I encounter people who 
when they hear ``fossil-fuel burning'' think that it is the waste heat 
from all of that fossil-fuel burning to which we refer as a possible 
cause of planetary climate change. Instead, of course, it is the extra 
greenhouse effect caused by the growth in atmospheric concentrations of 
the byproducts of fossil fuel usage such as carbon dioxide and methane 
which represents human leverage over the climate. Just to provide one 
more comparison, I note that all of human energy usage today is 
approximately 1/9000th of the energy Earth receives from the Sun while 
the human-enhanced greenhouse effect is approximately 1/90th of the 
solar energy received by the planet.

Questions submitted by Representative Ralph M. Hall

    Of the many revealing aspects of the ClimateGate email scandal, 
perhaps none are as disappointing as the great lengths at which 
scientists worked to block other researchers from gaining access to 
scientific data associated with key global warming findings.
    Climate scientist Phil Jones exemplified this attitude when he 
responded to a fellow researcher's request by saying ``Why should I 
make the data available to you, when your aim is to try and find 
something wrong with it?''
    This behavior is, at its core, unscientific. The National Academy 
of Sciences' Guide to Responsible Conduct in Research states that 
``When a scientific paper or book is published, other researchers must 
have access to the data and research materials needed to support the 
conclusions stated in the publication if they are to verify and build 
on that research . . . [G]iven the expectation that data will be 
accessible, researchers who refuse to share the evidentiary basis 
behind their conclusions, or the materials needed to replicate 
published experiments, fail to maintain the standards of science.''
    As President of the National Academies, you are obviously very 
influential in how scientists apply this basic principle of openness 
and data sharing. In an interview after ClimateGate, however, you said 
some climate scientists ``are now receiving requests that are bordering 
on harassment. They're being asked for all the data that went into a 
publication, sometimes in addition to all data analyses, all equations, 
used in interpretations, detailed descriptions of all statistical 
techniques, all computer programs used--even access to any physical 
samples. These are fishing expeditions.''

Q1.  Please help us reconcile your statement calling these requests 
``fishing expeditions'' with the Academies' guidance stating that 
researchers who refuse to share materials needed to replicate published 
experiments fail to maintain the standards of science.

Q2.  Do you think the Federal government should withhold funding from 
researchers that refuse to make their data and materials available for 
public scrutiny? Should such research be excluded from use in policy 
debates and scientific assessments such as those by the National 
Academies or IPCC?

A1, 2. I will address this array of questions and observations by 
outlining to you some of the things that the National Academy of 
Sciences and I have been doing in the last several years. First, we 
published in late 2009 a new report authored by a superb committee of 
academic scientists, people from corporations and legal experts, 
entitled Ensuring the Integrity, Accessibility, and Stewardship of 
Research Data in the Digital Age. This ``data integrity'' report dealt 
with a very large array of questions about the form, volume, and value 
of various kinds of research data. One of the findings was very similar 
to the statement which you quoted from the National Academy of 
Sciences' Guide to Responsible Conduct and Research, namely, that 
``research data, methods, and other information integral to publicly 
reported results should be publicly accessible.'' Implementing this 
principle would encourage scientific research to proceed more 
efficiently and openly, which is a goal that we all share. The report 
notes that in many fields of science, especially those which are of 
practical importance such as pharmaceutical development, intellectual 
property and software and manufacturing, many kinds of medical 
research, and environmental issues where there are sometimes competing 
forces at work, there are also specific factors which make it difficult 
for all data to be provided to all parties at all times. For example, 
there are proprietary restrictions on research that has been supported 
by industry. Similarly, there are issues of personal privacy in some 
kinds of medical and social research. Third, for example in climate 
change, there are datasets which are now the property of individual 
governments due to a move that began two or three decades ago to 
nationalize meteorological services so that the data and the weather 
forecasts can be sold to recover the costs of the government in 
establishing meteorological stations and meteorological satellites and 
models. Each of these limitations is potentially serious and they must 
be dealt with in ways which are appropriate for each field.
    Our ``data integrity'' 2009 report noted that in some scientific 
fields the individuals most knowledgeable in that particular field of 
research have created uniform standards to be employed by researchers 
in each specific field and in the journals where they publish. The 
report provides examples from a number of fields including space 
research, crystallography, and in molecular biology and genetic 
databases. In some cases, these field-by-field standards are 
promulgated and enforced through research journals, in other cases by 
Federal funding agencies, and in still further cases, by leading 
scientists in the field who have created a supportive culture for those 
standards. In several examples, Federal agencies have provided funds to 
create and maintain data repositories which accept data from scientists 
who are publishing results and the data repositories provide 
professional and permanent archiving of data. The National Academy of 
Sciences-National Research Council data integrity report of 2009 also 
noted that in the digital age, forms of data are becoming more varied 
and numerous, and data storage now involves the maintenance of 
supporting data (metadata) required to interpret the data such as 
statistical techniques, computer programs to maintain metadata or 
housekeeping data, for example, on the position of an Earth-orbiting 
satellite or other features of the research protocol that went into 
obtaining the data in the first place.
    I also note that it was in 2007 when the NAS and the NRC decided to 
launch the study that led to our 2009 data-integrity report. The study 
was funded by ourselves, several journals and scientific societies and 
private foundations, with about one third of the funding from Federal 
agencies.
    In the last couple of years I have focused my own efforts on how to 
create the most uniform set of standards we can in the field of climate 
science. For example, in February 2010, I made a special trip to the 
annual meeting of the American Association for the Advancement of 
Science in San Diego, to propose the need for such standards and to 
stimulate discussion among scientists from different disciplines. I 
also spoke at public meetings in San Diego on how and why these 
standards must be achieved. Just before that San Diego meeting, I wrote 
the enclosed editorial for SCIENCE magazine where I addressed these 
issues.
    In my 2010 annual address to the members of the National Academy of 
Sciences, I focused on the issue of the need for standards for data 
access across fields of science, again in our desire to advance science 
and also to be as responsible as possible to members of the public, to 
people with commercial and proprietary interests as well as to protect 
scientists from potential harassment. Also early in 2010, I met with 
the editors-in-chief of three of the world's major scientific journals 
to describe these issues to the journal editors and to learn what they 
were already doing to help to promulgate and maintain standards for 
access to data on which research publications are based. Following that 
meeting, I wrote to and telephoned the elected officers of two strong 
American scientific societies who publish important climate research 
papers, namely, the American Geophysical Union and the American 
Meteorological Society.
    In these meetings and contacts, it has become clear that climate 
science is an especially challenging field for which to create 
standards of data access because the field is comprised of many 
subfields such as remote sensing by Earth-orbiting satellites, by 
observations of the Sun, by observations of oceanography, of 
meteorology both on continents and ocean, and by observations from 
paleo objects such as fossilized biological specimens at the bottoms of 
lakes, oceans, and soil. The field of climate also includes 
mathematical modeling of Earth's climate which in turn generates 
enormous datasets, certainly of the order of a few terabytes per 
computer run. The field also includes records from sea-level changes 
from glaciology and isotopic data from biological and physical 
specimens worldwide. Accordingly, climate research is published in 
many, many different journals, some of which are owned by the private 
sector and are commercial enterprises, other journals of which are 
published by scientific societies which are nonprofit. And the rules 
governing these publications vary.
    In the fall of 2010, I have arranged for more meetings between 
myself and officials of the AGU and the AMS to continue to pursue these 
questions, and I have begun to reach out to individual leading 
scientists to ask them to identify best practices in their field and 
the potentials for creating more uniform standards for data access 
along with learning from them the pitfalls of trying to implement what 
might be seen as simple solutions of a one-size-fits-all nature but 
which would be counterproductive and extremely difficult to implement. 
I mentioned earlier that there are some kinds of requests for data, 
which appear to be harassing because the authors and the scientific 
researchers in question have provided reasonable amounts of data to 
requestors but have not been able to give away access to individual 
physical samples when, for example, the conditions under which the 
samples were obtained mitigates against the free distribution of the 
samples (as does their scarcity) and expense of distributing the 
samples intervenes.
    Some of our Federal agencies that conduct research and sponsor 
research extramurally, have already put in place standards and data 
repositories which are enabling some climate data to be archived, 
maintained, and made available in ways which are exemplary. For 
example, two of the leading providers of global temperature records, 
NASA and NOAA in the United States, have documented very well in a 
public way the sources of all of their data, the numbers involved, and 
any mathematical operations that they have applied to the data, 
including data which have been omitted or otherwise altered before 
being used in the dataset. These records are easily available through 
NASA and NOAA websites, and I think they have encouraged research by 
other people as well as making the results easily visible to anyone who 
will take the time to look. Similarly, there are procedures in place 
for certain NASA missions which have long time latency, that is, times 
during which satellite instruments are being conceived, being built 
before they can be flown, and then after the initial flight until the 
results can be presented in geophysically meaningful ways. There are 
rules promulgated and enforced by NASA on how to make those data 
accessible to the public as soon as possible. There are other rules in 
place at the National Institutes of Health on molecular, biological, 
and genetic data, so-called genebanks, as well as databanks for protein 
structures and crystallographic information on the crystals of 
proteins. There are additional rules and processes implemented by the 
National Science Foundation in certain fields, and these developments, 
some of which were summarized in our 2009 data integrity report, are 
very impressive and very encouraging. On the other hand, there is 
certainly additional financial cost associated with the curating, 
archiving, maintaining, and distributing these datasets, some of which 
are quite large and heterogeneous in nature.
    Accordingly, in response to your question as to whether the Federal 
government should withhold funding in various ways, I think the reply 
would be more that the Federal government should help to pay for 
constructive ways to provide better access to data which were generated 
with public funds especially those data which have appeared publicly in 
publications, in ways that are compatible with field-by-field standards 
that are now being developed. I worry that a one-size-fits-all solution 
could turn out to be clumsy and counterproductive. Instead, we require 
standards as specific as possible to be applied field-by-field in 
recognition of the different kinds, types, values, restrictions, and 
volumes of data in each research field.
    Thank you for attention to this important issue.
                   Answers to Post-Hearing Questions
Responses by Dr. Richard S. Lindzen, Alfred P. Sloan Professor of 
        Meteorology, Department of Earth Atmospheric and Planetary 
        Science, Massachusetts Institute of Technology

Questions submitted by Representative Ralph M. Hall

Q1a.  What is the contribution of clouds to global warming compared 
with the contribution of greenhouse gases to global warming?

A1a. Global warming refers to the response to external forcing. Thus, 
one doesn't usually refer to clouds as causing global warming. Clouds, 
however, can act as feedbacks that could amplify or reduce global 
warming. In models, clouds amplify the response, but explicit 
measurements suggest that they actually reduce the response.

Q1b.  Are the uncertainties in the effects of clouds large enough to 
upset model results?

A1b. Doubling CO<INF>2</INF> is associated with a 2% change in the 
earth's energy budget. Clouds are associated with a 40% contribution to 
the earth's energy budget. Thus, small changes in cloud distribution 
can easily swamp the contribution of CO<INF>2</INF>, and uncertainties 
as well as identifiable errors in model simulated cloudiness are large.

Q2a.  Approximately what percentage of current and expected future 
warming is anthropogenic, and what percentage is natural? Is it 50%? 
75%?

A2a. At this point, we don't know, but as I noted in my testimony, even 
if the answer were 100%, it would still be consistent with small 
warming. Remember, we are talking about tenths of a degree. My own work 
suggests that about 33% of current warming is anthropogenic. For the 
future, this implies that the contribution of added CO<INF>2</INF> will 
be much less than 1C. No percentages can be offered because the natural 
internal climate variability is, itself, not currently predictable.

Q2b.  And how much are estimates on this question based on actual 
climate observations versus computer modeling?

A2b. High estimates are based on models. Low estimates are based on 
observations. All estimates for future are based on either models or 
theory.

Q2c.  If we don't know the answer to this question with any precision, 
how can we have any idea whether policies aimed at addressing projected 
warming will have any impact?

A2c. Actually, almost all proposed policies will have so little impact 
on levels of CO<INF>2</INF>, that it is widely acknowledged that they 
will have no discernible impact on climate regardless of what one 
believes about climate. Only policies that involve almost complete 
elimination of fossil fuels will have significant impacts on CO<INF>2</INF> 
levels so that they might have some impact on climate if sensitive 
climate models are correct, but this too seems doubtful.

Q3.  Some members of the scientific community seem to discount the 
affects clouds and aerosols have on global warming. In fact, the IPCC 
states that ``Confidence, in attributing some climate change phenomena 
to anthropogenic influences is currently limited by uncertainties in 
radiative forcing, as well as uncertainties in feedbacks and in 
observations.''

        a.  Can you explain what is currently known and what is not 
        known about the effect of clouds and aerosols on climate 
        change?

A3a. The uncertainty in both the nature of aerosols and their 
distribution is on the order of a factor of 10. This means that 
sensitivity cannot be derived from observed temperature time series. It 
also means that there is enough scope for arbitrary adjustment in 
aerosols to permit any model to be consistent with any observations. As 
to clouds, there is enough known to be confident that all models badly 
misrepresent clouds, and that the misrepresentation is sufficient to 
swamp anthropogenic influences. Observations of clouds and aerosols are 
improving and strongly suggest that many models are exaggerating the 
influence of aerosols and that clouds are, indeed, constituting a 
negative rather than a positive feedback, and that this negative 
feedback is sufficient to dominate the response of the climate system 
to anthropogenic forcing..

Q3b.  Can you describe the level of uncertainty related to radiative 
forcing and feedbacks?

A3b. There is, by now, ample evidence that feedbacks in nature are 
negative rather than positive (which is what they are in models). 
Radiative forcing by greenhouse gases is reasonably well determined, 
but the contribution of aerosols to radiative forcing is poorly 
constrained (see previous answer).

Q4.  It has been reported that global average temperatures have 
increased 0.6+C in the last century.

        a.  How much of that increase is attributable to each of the 
        following: natural variability, land-use change, and emissions 
        of greenhouse gases?

A4a. Precise attribution is currently impossible. What can be said is 
that it is possible to simulate the observed change in global mean 
temperature anomaly by natural internal variability (ie El Nino, 
Pacific Decadal Oscillation, Atlantic Multidecadal Oscillation), and it 
is also possible to simulate it with anthropogenic effects--provided 
that one is allowed to adjust unknowns like aerosol forcing and solar 
forcing arbitrarily. With respect to land use change, it is entirely 
possible that it is a significant contributor to the small observed 
change in global mean temperature anomaly--as are changes in 
instruments and changes in instrument placement.

Q4b.  What is the level of uncertainty in each of these answers?

A4b. The commonly stated uncertainty in the temperature record, itself, 
is +/- 0.2C. This is probably an underestimate, and already constitutes 
a significant part of the total change. As concerns attribution, the 
presence of large adjustable factors makes attributions totally 
unreliable, though, at least, the attempts to simulate the past with 
natural internal variability do not need the egregious adjustments that 
the attempts to simulate with anthropogenic forcing need.

Q5a.  Do you believe the current IPCC processes are working?

A5a. It depends on what one thinks the purpose of the IPCC is. The 
stated purpose is to produce summaries of the research in support of 
the negotiating process. Given the intrinsic bias of this purpose, the 
IPCC is doing what it is supposed to do. That said, the work of IPCC 
working groups II and III is pretty useless since it assumes the worst 
for the science and proceeds to spin implausible impacts and responses. 
The full Working Group I report on the science is not terrible (though 
an index would make it vastly more accessible). Unfortunately, for most 
people, however, the only science from Working Group I that they hear 
about comes from the press release that accompanies the release of the 
Summary for Policymakers (which generally precedes the release of the 
full report). For last three reports, the iconic statements have been 
that current warming is unprecedented for for 400 years (the infamous 
hockey stick), that the balance of evidence points to a human role in 
recent warming, and that it is highly likely that man has contributed 
most of the warming over the past 50 years. None of these statements 
(whether true or not) is actually alarming, but the public is made to 
think otherwise.

Q5b.  If so, why?

A5b. See preceding answer.

Q5c.  If not, what specific actions can be taken to repair them, and in 
the meantime, why should the product of a process that isn't working be 
relied upon as the basis for policy actions that would impose enormous 
costs on the United States economy?

A5c. Frankly, the IPCC reports are not the basis for various proposed 
policies. Rather, the IPCC is exploited to claim the existence of a 
scientific argument for the proposed policies. Thus, the problem is the 
existence of the IPCC, and its statutory authority derived from the Rio 
Framework Convention of 1992 plus the fact that policymakers never try 
to understand what is actually in the WG I report or even to understand 
how vacuous the iconic statements are.
                   Answers to Post-Hearing Questions
Responses by Dr. Patrick J. Michaels, Senior Fellow in Environmental 
        Studies, Cato Institute

Questions submitted by Chairman Brian Baird

Q1.   Please explain how you get increased levels of black carbon 
without also having increased greenhouse gases.

A1. You don't. Black carbon is a result of incomplete combustion of 
hydrocarbon fuels or vegetation. My point was that this is not a 
greenhouse-gas-induced warming effect, and my point was in response to 
EPA's December, 2009 Endangerment Finding in which it states,

         Most of the observed increase in global average temperatures 
        since the mid-20th century is very likely due to the observed 
        increase in anthropogenic GHG [greenhouse gas] concentrations. 
        [italics added]

    Black carbon is not a gas, nor does it cause an ``observed increase 
in global average temperature'' through absorption of upwelling 
infrared radiation (i.e. an enhanced greenhouse effect). Whether or not 
black carbon is a result of the combustion of fossil fuels is not 
germane to this point.

Q2.   How is water vapor in the atmosphere not connected to increased 
greenhouse gases?

A2. I don't believe I ever stated that. However, there is an emerging 
stream of evidence based upon actual observation of what happens in the 
atmosphere during major El Nino/La Nina cycles indicating that the 
carbon dioxide-water vapor-cloud feedback may have been overestimated, 
and even possibly of the wrong sign. (Spencer and Braswell, Journal of 
Geophysical Research, 2010, article D16109).
    If you are referring to stratospheric (rather than ``atmospheric'' 
water vapor), Solomon states that she sees variations in stratospheric 
water vapor that are not monotonic as are changes in carbon dioxide; in 
fact the sign of the relationship with sea surface temperature changes 
with time. (Solomon et al., Science, March 5, 2010).

Questions submitted by Representative Ralph M. Hall


Q1.   There have been claims that the models and observations of 
average surface temperature are in agreement and there have been claims 
that they are not. Which is it? Can you explain how they are or are not 
in agreement? How do you explain a different interpretation of the 
numbers.

A1. I showed in my written and spoken testimony that the IPCC's 
midrange suite of models predicts that warming should be taking place 
at a constant rate. Indeed, if one looks at the East Anglia temperature 
history since 1975, the rate has been remarkably constant. 
Mathematically, any departure from a constant rate is not statistically 
significant. So the models have the ``form'' of the warming right.
    However, if you look at the magnitude of the warming it is clearly 
below the mean and median values projected by these models going back 
at least 15 years. So you might say that we have the form correct, but 
not the size. This latter should be very important to policymakers.

Q2.   During the hearing, you and Dr. Santer were engaging in a debate 
regarding his 1996 paper. Dr. Santer brought up 3 aspects of the 
criticism laid against his paper, specifically: the editorial process 
of the scientific journal Nature had been interfered with; the selected 
data analysis that showed an upward trend in temperature, and; the 
additional scientific work conducted since then that has strengthened 
confidence in the ability of the models to reproduce the temperature 
change first characterized in the 1996 paper. Unfortunately, time 
limitations prevented you from having a chance to respond to Dr. 
Santer's claims: Please provide the response to these claims that you 
were unable to testify to at the hearing.

A2. Dr. Santer claimed that I stated that the editorial process at 
Nature had been interfered with.
    I have written much on his 1996 Nature paper. The core error was 
using data from 1963 through 1987, when data were available from 1957 
through 1995. Using the complete data set completely invalidates his 
headline-making finding.
    Either peer-reviewers did in fact note this problem and were 
ignored, or they simply did not note it, which would mean that each of 
the peer-reviewers missed a glaring and obvious error. I can't tell 
which it was--perhaps you should ask the appropriate editors at Nature 
for the peer reviews and their response. Whatever happened, it was the 
most egregious error I have ever seen in a major climate paper.
    Santer's claim that our criticism was invalid in using all the data 
at the time is simply false. I know of no other word to describe this. 
In fact, as is shown in my testimony, the behavior of the important 
warm spot in the Southern Hemisphere changes in sign when all the data 
are used!
    I should point out that Dr. A. H. Oort, of MIT, who assembled the 
upper-air record that began in 1957 was in fact one of the co-authors 
of the infamous 1996 Santer paper. I think it is impossible to believe 
that Oort did not know of the problem. He either mentioned it and was 
ignored, or chose not to mention it.
    With regard to the timing of the paper, I believe its publication 
just days before the Geneva UN conference was no accident. Perhaps the 
peer reviewers wanted it rushed to print, perhaps the editors ignored 
negative reviews in order to do so . . . we will never know until you 
ask Nature.

Q3.   In your testimony, you talk about publication bias. That a 
substantial number of the papers published today (at least in Science 
and Nature) claim that future climate prospects are worse than 
previously suggested. How does one regain some balance in a particular 
science field's publication rate?

        a.  Is it appropriate for scientists to encourage or lobby 
        other-scientists to not publish in a particular journal because 
        that journal published something that was contrary to their 
        thinking?

        b.  Is it appropriate for scientists to conspire to stack 
        editorial boards so that only one view of a scientific field is 
        accepted for publication?

        c.  Is it ethical to then refuse to consider papers for larger 
        assessments that were not published in popular journals with 
        skewed editorial boards because their content went against the 
        ``consensus''?

A3. You ask, ``How does one regain some balance in a particular science 
field's publication rate''?
    My thesis is that an additional finding with regard to a previously 
unbiased projection has an equal probability of essentially raising or 
lowering the forecast. This is clearly true for weather forecasting 
models; climate models share many of their characteristics, as was 
noted by other witnesses at your Hearing.
    The problem probably lies in the nature of modern science. It is 
almost all taxpayer-funded, and individual ``problems'' compete for 
finite resources. As a result, the ``problems'' have to be portrayed in 
increasingly stark and dire terms, and whole fields are financed upon 
the premise of disaster. What incentive is there for anyone to write a 
paper that would argue otherwise? What incentive is there for Science, 
the journal of the American Association for the Advancement of Science, 
to publish such a result? The Association is the scientific community's 
Washington lobby. They should be expected to be make it very difficult 
to publish anything counter to the interests of its supporters.
    You ask if it is appropriate for scientists to encourage their 
colleagues to not publish in a journal because it published something 
they disagree with. Of course it is not appropriate; in fact it is 
deadly wrong and poisons the free exchange of ideas. I think it would 
be appropriate for you to ask Dr. Mann of Penn State University this 
question. A counter witness should be Chris deFreitas from Auckland 
University, whom Mann claimed was inserting papers into the journal 
Climate Research that were inappropriate. The two should testify 
together, despite the problems with bringing Dr. deFreitas in from New 
Zealand.
    While it is inappropriate to stack editorial boards in favor of the 
disastrous view of climate change, that is the natural result of the 
incentive structure, is it not? We spend billions of dollars per year 
on this ``problem'', which results in promotion, tenure, and honors at 
major Universities. This will never stop until Congress stops feeding 
it. Rather, the distortions of science will grow ever larger and 
louder.
    Of course it is not ethical to bar papers in the peer-reviewed 
literature from assessments like those of the IPCC. Even if these 
papers were disproven it is important to note their existence, and the 
subsequent arguments against them. But, again, is there any incentive 
to include things that disagree with the hypothesis that global warming 
is a terrible problem?

Q4.   Do you believe the current IPCC processes are working? If so, 
why? If not, what specific actions can be taken to repair them, and in 
the meantime, why should the product of a process that isn't working be 
relied upon as the basis for policy actions that would impose enormous 
costs on the United States economy?

A4. In a word, ``no''; in two words, ``they can't''. Again it is the 
problem of incentives. Congress has been presented with the disaster 
that it bought. Corrective action will take much decades, and will 
probably impossible to achieve. You will never get a strong counter-
consensus as long as it is professionally dangerous to espouse it. My 
profession knows well of the treatment of climate scientists who have 
not bought into the apocalyptic view of climate change.
    I would not rely on any of these large-scale assessments unless the 
editorial panels showed some semblance of balance--but again, that is 
very difficult to achieve this given that the professional rewards 
handed out on one side, while punishment is meted out to the other. .
                   Answers to Post-Hearing Questions
Responses by Dr. Benjamin D. Santer, Atmospheric Scientist, Program for 
        Climate Model Diagnosis and Intercomparison, Lawrence Livermore 
        National Laboratory

Questions submitted by Chairman Brian Baird

Terminology--climate change versus global warming

    Some people are unclear or unhappy about the use of ``climate 
change'' instead of the less-precise term ``global warming.''

Q1.  Can you explain why ``climate change'' is a more accurate 
representation of the phenomenon?

A1. ``Global warming'' is a potentially misleading term. In my opinion, 
use of the term ``global warming'' implies two different expectations 
about the ``climate signal'' arising from human-caused changes in the 
atmospheric concentrations of greenhouse gases. The first is that 
climate scientists expect every location on Earth's surface--and every 
layer of Earth's atmosphere and oceans--to warm in response to human-
caused changes in greenhouse gases. The second is that climate 
scientists expect each year to be successively warmer than the previous 
year (in some global average sense).
    Neither expectation is correct.
    Consider first the ``every location should warm'' expectation. 
Since the late 1980s, climate scientists have known that this 
expectation is incorrect. Pioneering work at a number of different 
research groups around the world (1, 2, 3, 4, 5, 6) helped scientists 
to understand the complex of effects of sulfate aerosol particles on 
climate.
    The main source of sulfate aerosols is fossil fuel burning (7). 
Sulfate aerosols affect climate in two ways--by direct scattering of 
incoming sunlight back to space, and by influencing the optical 
properties and lifetime of clouds. In areas where the atmospheric 
burdens of sulfate aerosol particles are high, they can cause local or 
regional cooling of the Earth's surface.\1\ The cooling effects of 
sulfate aerosols on surface temperatures have been identified in many 
different ``fingerprint'' studies, which involve rigorous statistical 
comparisons of modeled and observed patterns of climate change (8, 9, 
10, 11, 12, 13, 14, 15).
---------------------------------------------------------------------------
    \1\ Because of the dynamic nature of the atmospheric general 
circulation, sulfate aerosols can also induce ``far field'' climate 
effects, at locations remote from regions where there are high 
atmospheric burdens of sulfate aerosol particles. The IPCC Fourth 
Assessment Report (7) concluded that the best current estimate of the 
radiative forcing associated with the direct scattering effects of 
sulfate aerosols is ^0.4  0.2 Wm<SUP>-2</SUP>. The indirect effects of 
sulfate aerosols on clouds are more uncertain.
---------------------------------------------------------------------------
    The local and regional-scale cooling caused by sulfate aerosols is 
occurring against the backdrop of the broad, global-scale surface 
warming arising from human-caused changes in greenhouse gases.
    Other human influences can also have important local or regional 
effects on climate. Examples of such influences include human-caused 
changes in black carbon aerosols (which cause warming), and in the 
properties of the land surface (which can cause either cooling or 
warming, depending on the nature of the modification to the land 
surface) (7).
    The bottom line is that human effects on climate are complex over 
space and time. The human-caused climate change ``fingerprint'' is a 
mixture of climate forcings which cause global-scale warming of the 
Earth's surface (like changes in well-mixed greenhouse gases) and 
forcings which cause local to regional-scale surface cooling (like 
changes in the atmospheric concentrations of sulfate aerosols). In a 
global average sense, the net human-caused forcing of climate is 
positive. The warming effects of greenhouse gases and soot aerosols 
more than compensate for the cooling influences of sulfate aerosols, 
other reflective aerosols, and land use changes (7). But at individual 
locations--such as in heavily-polluted areas, where atmospheric burdens 
of sulfate aerosols are large--the cooling effects associated with 
negative forcing factors can predominate. Thus the term ``global 
warming'' does not capture the very complex nature of human effects on 
climate, and does not convey the message that even local or regional 
surface cooling can be human-induced.
    As I mentioned above, ``global warming'' also implies that each 
year will be inexorably warmer than the previous year. This is not what 
climate scientists expect to observe.
    Climate change is not an either/or proposition--either all due to 
human factors, or all due to natural causes. It is due to both human 
and natural factors. The human-caused climate change ``signal'' is 
embedded in the background ``noise'' of natural climate variability.\2\ 
As has been recognized since the late 1970s, identifying human effects 
on climate is a signal-to-noise problem (16), requiring the application 
of signal processing techniques similar to those used in electrical 
engineering.
---------------------------------------------------------------------------
    \2\ This ``climate noise'' has both externally-forced and 
internally-generated components. The externally-forced contributions to 
``climate noise'' are caused by natural changes in 1) the Sun's energy 
output; and 2) the amount of volcanic dust in the atmosphere. The 
internally-generated component of ``climate noise'' arises from natural 
oscillations of the coupled atmosphere-ocean-sea ice system. Examples 
of such ``unforced'' oscillations include El Ninos and La Ninas, the 
Pacific Decadal Oscillation, and the Atlantic Decadal Oscillation.
---------------------------------------------------------------------------
    Because of the effects of climate noise, we do not expect each year 
to be warmer than the preceding year. For example, during a year with a 
large La Nina event, climate scientists expect global-mean surface 
temperature to be slightly cooler than average. One could not infer 
from a single cool ``La Nina'' year that the gradual warming of the 
Earth's surface over the past 150+ years had ceased!
    This is why climate scientists look at signal-to-noise behavior 
over many decades rather than over very short periods (10 years or 
less). Over longer periods of time (decades to centuries), there are 
larger changes in the human-caused factors which influence climate, 
leading to larger climate-change ``signals''. Furthermore, the 
``climate noise'' in most meteorological and oceanographic time series 
tends to be largest on year-to-year timescales, and becomes smaller 
over longer averaging periods (17, 18). So when analysts search for a 
human effect on climate, they focus their attention on long, multi-
decadal records, with more favorable signal-to-noise ratios.
    If there were more widespread understanding of such basic signal-
to-noise concepts, little attention would be paid to invalid claims 
that a single cool year--or even a single cool decade--provided 
``evidence of absence'' of a human effect on climate.
    The key point here is that even in the presence of strong human-
caused ``forcing'' of the climate system, natural climate variability 
will continue. Because of this natural variability, each of the next 90 
years in the 21st century will not be warmer than the preceding year--
which is the expectation that ``global warming'' conveys.

IPCC reliable information

Q1.  Based on your experience as a contributor to four previous IPCC 
assessments, do you regard the IPCC as an effective means of providing 
policymakers with reliable information on the nature and causes of 
climate change?

A1. Yes.
    First let me explain why I believe I am qualified to answer this 
question.\3\ I contributed to all four Scientific Assessment Reports of 
the Intergovernmental Panel on Climate Change. I served as Convening 
Lead Author of Chapter 8 of the 1995 IPCC Second Assessment Report 
(19).\4\ I was also a Contributing Author to the ``Detection and 
Attribution'' chapters of the IPCC's First, Third, and Fourth 
Assessment Reports.
---------------------------------------------------------------------------
    \3\ I note that many of the public commentators on the reliability 
of the scientific information provided by the IPCC have little or no 
direct IPCC experience.
    \4\ This chapter was entitled ``Detection of Climate Change and 
Attribution of Causes''. Chapter 8 concluded that ``the balance of 
evidence suggests a discernible human on global climate''. After 
publication of the Second Assessment Report in 1996, I spent over a 
year of my scientific career defending the ``discernible human 
influence'' finding, and defending the process by which this finding 
had been reached.
---------------------------------------------------------------------------
    Since its inception in 1988, the IPCC--and many climate scientists 
who have worked in its service--have been the subject of much 
unjustified criticism. I'd like to briefly address three areas of 
criticism. All relate to issues I am directly familiar with.

``Political interference'' and ``scientific cleansing'' allegations
    After publication of the IPCC's Second Assessment Report (SAR), 
parties critical of the IPCC's finding of a ``discernible human 
influence'' on global climate alleged that Chapter 8 of the SAR had 
been modified for political purposes, and ``cleansed'' of all 
scientific uncertainties. Such allegations are baseless. They have been 
rebutted in many different fora. Chapter 8 was not subjected to 
``political tampering'' or ``scientific cleansing''. Changes made to 
Chapter 8 after the November 1995 IPCC Plenary Meeting in Madrid were 
made for scientific reasons, not for political reasons. Changes were in 
response to Government review comments and to the scientific 
discussions which took place in Madrid.
    Unfortunately, some individuals have persisted in resurrecting 
these false ``political tampering'' and ``scientific cleansing'' 
allegations. My response to these allegations (and the IPCC's response) 
is a matter of public record.\5\
---------------------------------------------------------------------------
    \5\ http://www.realclimate.org/index.php/archives/2010/02/close-
encounters-of-the-absurd-kind/

Accommodation of the ``full range of scientific views''
    Some parties critical of the IPCC have claimed that the IPCC does 
not accommodate the full range of scientific views on the subject of 
the nature and causes of climate change. In my opinion, such claims are 
specious. I would contend that IPCC Scientific Assessment Reports have 
dealt with alternative viewpoints in a thorough and comprehensive way. 
For example, the IPCC has devoted extraordinary scientific attention to 
a number of highly-publicized claims. Examples include the claim that 
the tropical lower troposphere cooled over the satellite era; that the 
water vapor feedback is zero or negative; that solar irradiance 
variations explain all observed climate change. The IPCC and the 
climate science community have not dismissed these claims out of hand. 
Scientists have performed the research necessary to determine whether 
these ``alternative viewpoints'' are scientifically credible. They are 
not.
    Furthermore, I note that holders of these ``alternative 
viewpoints'' are often directly involved in the IPCC process, either as 
Lead Authors or reviewers.

Openness and data sharing
    Another frequent criticism relates to data sharing, particularly 
with regard to model data. This issue is discussed in my written 
testimony of November 17, 2010.
    The database of coupled model output produced in support of the 
IPCC's Fourth Assessment Report (FAR) has transformed the world of 
climate science. At present, 35 Terabytes of data from the so-called 
CMIP-3 project are archived at Livermore, and nearly 1 Petabyte of data 
has been distributed to well over 4,300 users. To date, over 560 peer-
reviewed publications have used CMIP-3 data. These publications formed 
the scientific backbone of the IPCC FAR. There is no substance to the 
criticism that the IPCC is some kind of ``closed shop'', and does not 
open its doors to detailed scrutiny of the climate model data used in 
its Assessment Reports.

``Groupthink''
    Several public critics of the IPCC have argued that it engages in 
``groupthink''. I fundamentally disagree with this criticism.
    My own personal experience of the IPCC (obtained during my service 
as a Convening Lead Author and Contributing Author) is that the IPCC, 
like other scientific assessments, brings together a very diverse group 
of experts, with a diverse set of skills and knowledge. IPCC Lead 
Author meetings are the antithesis of ``groupthink'' encounters. 
Participants in such meetings do not engage in continuous self-
congratulatory behavior. They behave like scientists at any other 
scientific meeting. They challenge accepted wisdom and orthodoxy. They 
revisit old academic debates and rivalries. They are combatants in an 
arena of scientific facts and theories. They argue over the robustness 
of different analysis methods and findings. They debate the strengths 
and weaknesses of simple and complex numerical models. They struggle to 
quantify and reduce scientific uncertainties. They spend many hours 
trying to explain difficult technical issues in plain English, trying 
to capture what is known with confidence and what is not.
    Anyone who has witnessed such IPCC Lead Author meetings would never 
use the word ``groupthink'' to describe them.
    In summary, I believe that the IPCC is the best mechanism we have 
for providing policymakers with reliable information on the nature and 
causes of climate change, the likely impacts of climate change, and 
possible mitigation and adaptation strategies. The scope and rigor of 
IPCC assessments is extraordinary.
    Yet the IPCC is not infallible. Inaccurate information can make its 
way into an IPCC Report, despite exhaustive review procedures. Several 
inaccuracies in a 1,000-page Report do not undermine the entire science 
of climate change. The IPCC is working hard to further improve its 
review procedures, and to guard against the inclusion of erroneous 
information in subsequent Assessment Reports.

Peer review process

    You noted in your testimony, ``Extraordinary claims demand 
extraordinary proof.'' The scrutiny and study of climate change has 
been extraordinary.

Q1.  Are most scientific claims subject to the same amount of 
scientific rigor and review before they are considered affirmed? Less?

A1. The IPCC's claim that ``most of the observed increase in global 
average temperatures since the mid-20th century is very likely \6\ due 
to the observed increase in anthropogenic greenhouse gas 
concentrations'' (20) has indeed been subjected to extraordinary 
scrutiny. In my opinion, most scientific claims are not subject to a 
similar degree of review ``before they are considered affirmed''.
---------------------------------------------------------------------------
    \6\ Where the term ``very likely'' signified >90% probability that 
the statement is correct.
---------------------------------------------------------------------------
    At its core, science is about reproducibility. Findings of a 
``discernible human influence'' on global climate have been 
independently reproduced by many research groups around the world.
    As I noted in my testimony of November 17, 2010, climate scientists 
have now analyzed changes in many different components of Earth's 
climate system. They have looked at surface and atmospheric 
temperature, ocean heat content, Atlantic salinity, sea-level pressure, 
tropopause height, rainfall patterns, atmospheric moisture, continental 
river runoff, and Arctic sea-ice extent. The general conclusion is that 
for each of these variables, natural causes alone cannot explain the 
observed climate changes over the second half of the 20th century. The 
best statistical explanation of the observed changes invariably 
involves a large human contribution. These results are robust to the 
processing choices made by different groups, and show a high level of 
physical consistency across different independently-monitored climate 
variables.
    Findings of a ``discernible human influence'' on global climate do 
not rest on a single observational dataset, a single scientific study, 
or a single scientific assessment, as some uninformed commentators have 
claimed. Such findings are subject to multiple review phases during the 
course of developing an IPCC report. These review phases involve 
literally hundreds of climate scientists.
    I would like to contrast this rigorous review of IPCC findings with 
the apparent absence of detailed peer review of the material presented 
to the House Science and Technology Committee by Professor Patrick 
Michaels. In his written testimony of November 17th, 2010, Professor 
Michaels showed an analysis of the causes of changes in global-average 
temperature over 1950 to 2009. He claimed that this analysis does not 
support the IPCC's 2007 finding that ``most of the observed increase in 
global average temperatures since the mid-20th century is very likely 
due to the observed increase in anthropogenic greenhouse gas 
concentrations'' (20). If Professor Michaels' claim were correct, and 
if the analysis he presented were sound, it would be a very serious 
matter.
    Prior to casting doubt on one of the central findings of the IPCC's 
Fourth Assessment Report, most scientists would ensure that their work 
was subjected to rigorous review by their peers. They would check that 
their data, analysis methods, and inferences were sound.
    Yet despite the extraordinary nature of the claim made in his 
testimony, Professor Michaels provides no information on the source of 
his analysis of the causes of global-mean temperature changes. It is 
unclear where (or even whether) his analysis has been published. He 
does not give any description of the method he used in subtracting the 
effects of four different factors \7\ from an observed record of 
global-average temperature change. There is no discussion or treatment 
of uncertainties in his selected method of removing ``non-
CO<INF>2</INF>'' warming influences from observational data. His 
analysis provides no error bars.
---------------------------------------------------------------------------
    \7\ The four factors identified by Professor Michaels were 1) 
errors in sea-surface temperature data; 2) ``non-climatic influences; 
3) stratospheric water vapor changes; and 4) changes in black carbon 
aerosols.
---------------------------------------------------------------------------
    One asymmetry is particularly troubling. Professor Michaels argues 
that black carbon aerosols--which cause net warming--are important. The 
warming effects of these soot aerosols are included in his analysis of 
the factors contributing to global-mean temperature change. However, 
Professor Michaels does not account for the cooling effects of sulfate 
aerosols. These cooling effects have been studied for over 20 years by 
dozens of research groups around the world (see response to ``Questions 
for the Record'' #1).
    Professor Michaels does not provide a rigorous quantitative 
assessment of the contributions of different forcing factors to 
observed global-mean temperature changes. His analysis serves to 
highlight the differences between the thoroughly reviewed IPCC claim of 
a ``discernible human influence'' on global climate, and Professor 
Michaels' unreviewed claim of a very small human impact on climate.

References

<SUP>1</SUP> Wigley, T.M.L., 1989: Possible climatic change due to 
        SO<INF>2</INF>-derived cloud condensation nuclei. Nature, 339, 
        365-367.

<SUP>2</SUP> Charlson, R.J., J. Langner, and H. Rodhe, 1990: Sulfate 
        aerosol and climate. Nature, 348, 22.

<SUP>3</SUP> Charlson, R.J., J. Langner, H. Rodhe, C.B. Leovy, and S.G. 
        Warren, 1991: Perturbation of the Northern Hemisphere radiative 
        balance by backscattering from anthropogenic sulphate aerosols. 
        Tellus, 43A-B, 152-163.

<SUP>4</SUP> Charlson, R.J., et al., 1992: Climate forcing by 
        anthropogenic aerosols. Science, 255, 423-430.

<SUP>5</SUP> Taylor, K.E., and J.E. Penner, 1994: Anthropogenic 
        aerosols and climate change. Nature, 369, 734-736.

<SUP>6</SUP> Kiehl, J.T., and B.P. Briegleb, 1993: The relative role of 
        sulfate aerosols and greenhouse gases in climate forcing. 
        Science, 260, 311-314.

<SUP>7</SUP> Forster, P., et al., 2007: Changes in atmospheric 
        constituents and in radiative forcing. In: Climate Change 2007: 
        The Physical Science Basis. Contribution of Working Group I to 
        the Fourth Assessment Report of the Intergovernmental Panel on 
        Climate Change [Solomon, S., D. Qin, M. Manning, Z. Chen, M. 
        Marquis, K.B. Averyt, M. Tignor and H.L. Miller (eds.)]. 
        Cambridge University Press, Cambridge, United Kingdom and New 
        York, NY, USA.

<SUP>8</SUP> Santer, B.D., K.E. Taylor, T.M.L. Wigley, J.E. Penner, 
        P.D. Jones, and U. Cubasch, 1995: Towards the detection and 
        attribution of an anthropogenic effect on climate. Climate 
        Dynamics, 12, 77-100.

<SUP>9</SUP> Mitchell, J.F.B., T.C. Johns, J.M. Gregory, and S.F.B. 
        Tett, 1995: Transient climate response to increasing sulphate 
        aerosols and greenhouse gases. Nature, 376, 501-504.

<SUP>10</SUP> Hegerl, G.C., K. Hasselmann, U. Cubasch, J.F.B. Mitchell, 
        E. Roeckner, R. Voss, and J. Waszkewitz, 1997: Multi-
        fingerprint detection and attribution of greenhouse-gas and 
        aerosol-forced climate change. Climate Dynamics, 16, 737-754.

<SUP>11</SUP> Stott, P.A., and S.F.B. Tett, 1998: Scale-dependent 
        detection of climate change. Journal of Climate, 11, 3282-3294.

<SUP>12</SUP> Stott, P.A., et al., 2006: Observational constraints on 
        past attributable warming and predictions of future global 
        warming. Journal of Climate, 19, 3055-3069.

<SUP>13</SUP> Mitchell, J.F.B. et al., 2001: Detection of climate 
        change and attribution of causes. In: Climate Change 2001: The 
        Scientific Basis. Contribution of Working Group I to the Third 
        Assessment Report of the Intergovernmental Panel on Climate 
        Change [Houghton, J.T. et al., (eds.)]. Cambridge University 
        Press, Cambridge, United Kingdom and New York, NY, USA, pp. 
        695-738.

<SUP>14</SUP> IDAG (International Detection and Attribution Group), 
        2005: Detecting and attributing external influences on the 
        climate system: A review of recent advances. Journal of 
        Climate, 18, 1291-1314.

<SUP>15</SUP> Hegerl, G.C., F.W. Zwiers, P. Braconnot, N.P. Gillett, Y. 
        Luo, J.A. Marengo Orsini, J.E. Penner and P.A. Stott, 2007: 
        Understanding and Attributing Climate Change. In: Climate 
        Change 2007: The Physical Science Basis. Contribution of 
        Working Group I to the Fourth Assessment Report of the 
        Intergovernmental Panel on Climate Change [Solomon, S., D. Qin, 
        M. Manning, Z. Chen, M. Marquis, K.B. Averyt, M. Tignor, and 
        H.L. Miller (eds.)]. Cambridge University Press, Cambridge, 
        United Kingdom and New York, NY, USA, pp. 663-745.

<SUP>16</SUP> Hasselmann, K., 1979: On the signal-to-noise problem in 
        atmospheric response studies. In: Meteorology of Tropical 
        Oceans (Ed. D.B. Shaw). Royal Meteorological Society of London, 
        London, U.K., pp. 251-259.

<SUP>17</SUP> Santer, B.D., U. Mikolajewicz, W. Bruggemann, U. Cubasch, 
        K. Hasselmann, H. Hock, E. Maier-Reimer, and T.M.L. Wigley, 
        1995: Ocean variability and its influence on the detectability 
        of greenhouse warming signals. Journal of Geophysical Research, 
        100, 10,693-10,725.

<SUP>18</SUP> Santer, B.D., K.E. Taylor, T.M.L. Wigley, T.C. Johns, 
        P.D. Jones, D.J. Karoly, J.F.B. Mitchell, A.H. Oort, J.E. 
        Penner, V. Ramaswamy, M.D. Schwarzkopf, R.J. Stouffer, and S. 
        Tett, 1996: A search for human influences on the thermal 
        structure of the atmosphere. Nature, 382, 39-46.

<SUP>19</SUP> Santer, B.D., T.M.L. Wigley, T.P. Barnett, and E. 
        Anyamba, 1996: Detection of Climate Change, and Attribution of 
        Causes, in Climate Change 1995: The Science of Climate Change, 
        edited by J.T. Houghton, L.G. Meira Filho, B.A. Callander, N. 
        Harris, A. Kattenberg and K. Maskell, Cambridge University 
        Press, Cambridge, 407-443.

<SUP>20</SUP> IPCC, 2007: Summary for Policymakers. In: Climate Change 
        2007: The Physical Science Basis. Contribution of Working Group 
        I to the Fourth Assessment Report of the Intergovernmental 
        Panel on Climate Change [Solomon, S., D. Qin, M. Manning, Z. 
        Chen, M. Marquis, K.B. Averyt, M. Tignor, and H.L. Miller 
        (eds.)]. Cambridge University Press, Cambridge, United Kingdom 
        and New York, NY, USA.
                   Answers to Post-Hearing Questions
Responses by Dr. Judith A. Curry, Chair of the School of Earth and 
        Atmospheric Sciences, Georgia Institute of Technology

Questions submitted by Representative Ralph M. Hall

    I would like to thank the Committee for this opportunity to expand 
upon my testimony. I found the questions to be particularly insightful 
and profound. The answers to these questions about a very complex 
situation are not simple or straightforward. In preparing my answers to 
these questions, I sought input from participants in my blog Climate 
Etc. (at http://judithcurry.com/2010/12/03/testimony-follow-up/), which 
received 265 comments from a diverse group of scientists, other 
professionals and anonymous citizens, from the U.S. as well as 
internationally. The diversity of opinions and ideas regarding these 
questions is evidenced by the broad range of thoughtful and insightful 
viewpoints expressed on the blog, and I acknowledge the contributions 
expressed on my blog in preparing this statement.

Q1.  It is clear from your public statements that you generally agree 
with the mainstream view of global warming and cannot easily be 
characterized as a climate change ``denier'' or ``skeptic.'' 
Nonetheless, you have been quite critical of the process under which 
climate science is conducted, saying that ``it is difficult to 
understand the continued circling of the wagons by some climate 
researchers with guns pointed at skeptical researchers by apparently 
trying to withhold data and other information of relevance to published 
research, thwart the peer review process, and keep papers out of 
assessment reports.''

        a.  Why are so many scientists ``pointing their guns'' at 
        skeptics when sharing data and embracing debate seems to be an 
        obvious way for scientists to increase the credibility of their 
        arguments and influence public debate?

A1a. While the majority of climate scientists are not engaged in these 
adversarial tactics, the CRU emails revealed a siege mentality adopted 
by a group of influential and highly visible climate researchers. 
Understanding how and why this situation evolved in the way it did is a 
topic that should be investigated by historians and sociologists of 
science.
    My own understanding of this is described in the context of the 
IPCC/UNFCCC ideology. What I'm referring to as the IPCC/UNFCCC ideology 
is described in my blog post at http://judithcurry.com/2010/11/07/no-
ideologues-part-iii/ and is apparent in this interview with Michael 
Mann http://bos.sagepub.com/content/66/6/1.full. The basic elements of 
this ideology are outlined as:

        1.  Anthropogenic climate change is real.

        2.  Anthropogenic climate change is dangerous and we need to 
        something about it.

        3.  The fossil fuel industry is trying to convince people that 
        climate change is a hoax.

        4.  Deniers are attacking climate science and scientists, and 
        their disinformation is misleading the public.

        5.  Deniers and the fossil fuel industry are delaying UNFCCC 
        mitigation policies, providing a political motivation to 
        counter the disinformation from the deniers.

    The book ``Merchants of Doubt'' by Oreskes and Conway describes 
``how a loose-knit group of high-level scientists, with extensive 
political connections, ran effective campaigns to mislead the public 
and deny well-established scientific knowledge over four decades. . . 
showing how the ideology of free market fundamentalism, aided by a too-
compliant media, has skewed public understanding of some of the most 
pressing issues of our era.'' The ``circling the wagons'' strategy 
revealed in the CRU emails was designed to counter the tactics of the 
merchants of doubt and other deniers in delaying the UNFCCC mitigation 
policies. This strategy was apparently designed under the tutelage of 
advocacy groups, learning lessons from the wars with big tobacco, etc.
    While free market fundamentalism and ``big oil'' may have been a 
major source of skepticism in the past, the current dominant group of 
skeptics, enabled by the blogosphere, seeks accountability. Many of 
these skeptics have professional backgrounds and extensive experience 
with the practical application of science and regulation, without any 
particular political motivations and certainly without funding from 
``big oil.'' Failing to recognize this new breed of climate skeptics, 
and dismissing them as politically motivated deniers or merchants of 
doubt, led to the events that were revealed by the CRU emails.
    An additional motivation for circling the wagons seems to be 
insecurity and fear that uncertain or flawed analyses will damage 
professional reputations, as a result of this extraordinary scrutiny of 
their research. This motivation is revealed by Phil Jones' email to 
Warwick Hughes saying: ``Why should I give you my data when you only 
want to find fault in it?'' Scientists who have invested considerable 
work and their professional reputations in developing a certain line of 
research want to be ``right'', and defend their research against 
challenges from skeptical researchers. The normal process of scientific 
debate eventually sorts things out. However, when the battle lines were 
drawn between the ``virtuous'' scientists and the anti-science deniers, 
other scientists lined up in a ``consensus'' to fight against the 
forces of anti-science, without a careful examination of the scientific 
issue at hand. The end result is that genuine skeptical arguments were 
marginalized and ignored, which diminishes the credibility of science 
that is being defended.
    Another issue is the evolving importance and changing dynamic of 
climate research. Two decades ago, climate science was conducted in a 
purely academic environment and there were no data quality requirements 
or regulatory requirements for models. As climate science has become 
increasingly policy relevant, demands on quality and traceability 
(particularly retrospective ones) could not be met. This produced 
defensiveness amongst the scientists, who did not want to provide any 
ammunition for the merchants of doubt; they sought refuge in the 
``consensus'' and argued by appealing to their own authority.
    In the midst of all this, scientific best practices became 
compromised.

        b.  Given the potentially enormous influence of climate science 
        on economic and environmental policy--which ultimately boils 
        down to jobs--shouldn't it be held to a higher standard in the 
        public debate? For example, should Congress consider blocking 
        funding for researchers that do not make their data and 
        materials available for public scrutiny?

A1b. The key issue is openness and traceability. Scientists supported 
by government funding should ensure that their data and methods are 
made available to any researcher for purposes of replication. However, 
the practical aspects of wholesale enforcement of this are not 
straightforward. U.S. agencies that supervise and fund climate research 
(e.g. USGCRP, NSF, NOAA, NASA) already have substantial requirement in 
place for data archival and full and open access to data. Many journals 
also have requirements for archiving data and ensuring that the data 
and methods used are made available for purposes of replication. These 
requirements are not uniformly enforced. How to enforce these 
requirements in a cost effective way is an important topic to address.
    Climate science used for public policy should be held to a higher 
standard, in a manner similar to medical/pharmaceutical research that 
is used in the health marketplace. There is normal academic peer 
reviewed medical research, but higher standards are required in the 
context of regulated science before a drug or procedure can be 
marketed. The analogy for climate science is normal academic peer 
reviewed science, versus an accountable assessment process for policy 
makers. As part of the assessment process, greater accountability is 
required, which might consist of fact checking, statisticians auditing 
the statistical methods, computer scientists auditing the algorithms, 
etc.
    With regards to funding, as part of the proposal process, 
scientists should state how they will archive their data or otherwise 
make available data and other information to others attempting to 
reproduce their results. Scientists should be held accountable for 
actually having made their data available in consideration for future 
funding. I am aware of some funding programs and program managers that 
actually do this, but overall this does not seem to be enforced.
    The principal climate data records should be maintained by 
government agencies, with full documentation, quality and version 
control, complete documentation, and support to respond to user 
queries. University research groups are ill equipped to handle this, 
and researchers generally find the painstaking work of quality control 
to be scientifically boring.

        c.  Should such research be excluded from use in policy debates 
        and scientific assessments such as those by the National 
        Academies or IPCC?

A1c. There is no prima facie reason to exclude any relevant information 
from policy and scientific debates. The ``scientific juries'' of the 
IPCC and National Academies will use their own standards to decide 
which scientific studies are suitable for inclusion in their assessment 
reports. However, there is a significant gap between a scientific 
assessment of research and accountable information for actual policy 
making and regulatory purposes. Accountability for issuing regulations 
under the EPA endangerment finding could demand that all relevant 
information be independently assessed for its accuracy and reliability 
to determine its usefulness. Information that has not been assessed or 
cannot be assessed owing to unavailability of data and other source 
materials would not be used in this context. Such a requirement would 
motivate the science community to ensure that its products are useful 
in the context of policy making and government regulations.

Q2.  You state in your testimony that the conflict regarding the theory 
of anthropogenic climate change is over the level of our ignorance 
regarding what is unknown about natural climate variability. For a long 
time, the scientific community did not consider uncertainty a bad 
thing. In fact, the word ``certainty'' was something that was almost 
never used (you are not certain the sun will rise tomorrow morning, but 
you are reasonably sure that it is very likely to occur).

        a.  At what point did uncertainty become a bad thing in the 
        climate community?

A2a. Uncertainty became a bad thing in the climate science community 
with the creation of the UN Framework Convention on Climate Change 
(UNFCC) Treaty in 1992. The UNFCCC states that future greenhouse gas 
emissions are uncertain, as are climate change damages. However, 
following the precautionary principle, ``lack of full scientific 
certainty shall not be used as a reason for postponing cost-effective 
measures to prevent environmental degradation.'' While lack of full 
certainty does not preclude action, the level of certainty needs to 
reach some sort of threshold before action is triggered under the 
precautionary principle. While this threshold of certainty is vague, 
reducing the uncertainty makes action more likely.
    In the 1980's and 1990's, climate research programs were aimed 
explicitly at the reduction of uncertainties in future climate 
projections. By the mid 1990's, climate modelers were beginning to 
realize that the increasing complexity of climate models and the 
fundamentally chaotic nature of climate system precluded full 
predictability of the climate system. Nevertheless, the emphasis from 
policy makers and funding agencies was on the reduction of uncertainty. 
The U.S. Climate Change Science Program Science Plan (published in 
2003) emphasized reducing uncertainty, using the phrase in many of its 
goals.
    Classical decision making theory involves reducing uncertainties 
before acting. There has been a growing sense of the infeasibility of 
reducing uncertainties in global climate models owing to the continued 
emergence of unforeseen complexities and sources of uncertainties. 
While reducing the overall uncertainty isn't viable, at the same time 
not acting could be associated with catastrophic impacts. Since a 
higher level of confidence would make decision makers more willing to 
act, political opponents to action sold doubt and the scientists 
countered by selling certainty and consensus. Scientific statements 
about uncertainty became viewed as political statements.

        b.  How did this shift within the scientific community occur? 
        How does it shift back?

A2b. Climate science got caught up in a highly charged political 
debate: the consequences predicted by the models were dire, and many of 
the climate scientists were persuaded by the predictions of the models. 
Climate science is a relatively young field, and one that was ill 
prepared for participation in such a highly charged political debate. 
The traditions of science in disclosing all of the weaknesses of their 
work were at odds with this adversarial political process.
    The actual shift within the community seems to have occurred in the 
context of the IPCC process. The entire framing of the IPCC was 
designed around identifying sufficient evidence so that the human-
induced greenhouse warming could be declared unequivocal, and so 
providing the rationale for developing the political will to implement 
and enforce carbon stabilization targets in the context of the UNFCCC. 
National and international science programs were funded to support the 
IPCC objectives. Scientists involved in the IPCC advanced their 
careers, obtained personal publicity, and some gained a seat at the big 
policy tables. This career advancement of IPCC scientists was done with 
the complicity of the professional societies and the institutions that 
fund science. Eager for the publicity, high impact journals such as 
Nature, Science, and PNAS frequently publish sensational but dubious 
papers that support the climate alarm narrative. Especially in 
subfields such as ecology and public health, these publications and the 
media attention help steer money in the direction of these scientists, 
which buys them loyalty from their institutions, who appreciate the 
publicity and the dollars. Further, the institutions that support 
science use the publicity to argue for more funding to support climate 
research and its impacts. And the broader scientific community 
inadvertently becomes complicit in all this. When the IPCC consensus is 
attacked by deniers and the forces of ``anti-science,'' scientists all 
join in bemoaning these dark forces fighting a war against science, and 
support the IPCC against its critics. The media also bought into this, 
by eliminating balance in favor of the IPCC consensus.
    The bottom line is that scientists worked within the system to 
maximize their professional reputations, influence, and funding. Rather 
than blame the scientists for optimizing their rewards within the 
system, we need to take a careful look at the system, most particularly 
the climate science-policy interface and the federal funding of climate 
science.
    How does it shift back? Change the system to improve the science-
policy interface and change the funding priorities. A top priority for 
research funding should be exploring the significance and 
characteristics of uncertainty across the range of climate science, not 
only the climate models themselves, but also solar forcing, surface 
temperature datasets, natural internal modes of climate variability, 
etc. Change the decision making framework from the classical ``reduce 
the uncertainty before acting'' paradigm to a robust decision making 
framework that incorporates understanding of uncertainty as information 
in the contemplation and management of environmental risks.
    Changing the funding priorities is key. We need to reduce reliance 
on building ever more complex climate models for being the primary 
source of reducing uncertainties regarding climate change. Climate 
researchers need to engage with a broader range of expertise in and 
build strong links to disciplines experienced in complex nonlinear 
modeling and statistical inference, among others. We need a much better 
understanding of natural climatic variability. More research is needed 
on understanding abrupt climate change and developing a more extensive 
archive of paleoclimate proxies. And finally, greater resources need to 
be provided to accelerating the establishment of definitive climate 
data records.
    Openness and transparency enables critical examination by a broad 
range of scientists and citizens. Recognition of the extended peer 
review communities enabled by the blogosphere is essential, and frank 
discussions with skeptics are needed. We need to eliminate the elitism 
that argues that certain scientists are more ``important'' voices in 
the debate than others (by virtue of their academic recognitions, 
citations, etc), that scientists with expertise outside of the 
traditional climate disciplines can be ignored, and that the only valid 
contributions come in the form of peer reviewed journal publications. 
With regard to the latter point, well-documented analyses/audits of 
data sets occurring on technical blogs have provided significant 
contributions to understanding and improving data quality. This elitism 
is counter to the traditions of science, characterized by physicist 
Richard Feynman as ``Science is the belief in the ignorance of the 
experts.'' It is the merits of the scientific argument that count; not 
the qualifications of the person making the argument.

        c.  Are there any efforts within the scientific community to 
        self-correct this paradigm shift? If there is not, what does 
        this mean for the decision-makers needing objective and 
        unbiased scientific information to inform their policies?

A2c. Science is subject to human fallibility, and such shifts have 
happened in the past. Science always manages to correct itself, but the 
process is not necessary quick or painless. Scientific professional 
societies and universities have a key role to play in setting the 
standards for scientific research and for establishing a useful 
interface between science and policy.
    That said, the first reaction of the climate establishment to the 
release of the CRU emails and the errors identified in the IPCC reports 
has generally been one of defensiveness, and lacking introspection and 
discussion of correction. Some of the climate scientists at the center 
of ``storm'' seem to be battling a scientific version of post traumatic 
stress syndrome, overwhelming their ability to cope with the issues. 
Dealing with these issues requires active involvement by the broader 
climate research community and particularly by the institutions that 
include climate researchers but are not dominated by them, including 
the American Geophysical Union, the American Association for the 
Advancement of Science, the National Academies.
    If the government wants objective and unbiased scientific 
information to inform their policies, then the guidelines and 
incentives need to be changed. Stop asking for scientists to reduce the 
uncertainties; rather, ask for our understanding of the range of risks 
that we might be facing from climate change (both natural and 
anthropogenic). Fund climate research that is much broader, not just 
studies designed to support the IPCC/UNFCCC. Support the development of 
improved connections with disciplines that conduct research into 
complex nonlinear systems, statistical inference, and decision making 
under uncertainty. Change the nature of the ``carrot'' and the 
scientific community will respond.
    Finally, I have to state that my own efforts to stimulate such a 
correction have been highly controversial within the field of climate 
research, and relatively few climate researchers are speaking out 
publicly in support of what I am trying to do. I regard my own 
scientific reputation as secure, as well as my research funding, so I 
don't feel that I am risking anything that I can't afford to lose by 
speaking out. But other scientists feel much more vulnerable if they 
were to attempt to rock the boat in some way, and I have received many 
emails from scientists expressing this kind of concern. This culture 
that has developed in climate science that greatly concerns me, 
particularly in the context of university departments and government 
labs. Ten years ago, I used to think that university tenure was 
irrelevant in my field. Right now, the controversy surrounding climate 
science makes tenure seem essential. Scientific debate should be the 
spice of academic life; climate research lost this in the midst of the 
politicization of the subject.

Q3.  Do you believe the current IPCC processes are working? If so, why? 
If not, what specific actions can be taken to repair them, and in the 
meantime, why should the product of a process that isn't working be 
relied upon as the basis for policy actions that would impose enormous 
costs on the United States economy?

A3. A number of people have put forth arguments that the IPCC is 
structurally unsound and fatally flawed, owing to its connection with 
the UNFCCC. Some people who have been supportive of the IPCC view its 
work as being finished. I view the major flaws of the IPCC to be:

        <bullet>  A focus on providing scientific information on 
        anthropogenic climate change for use as justification of a 
        Treaty, at the expense of a thorough assessment of natural 
        climate variability, the limitations and uncertainties 
        associated with climate model projections, etc.

        <bullet>  The requirement for broad based international 
        participation in the IPCC assessment, resulting in a heavy 
        emphasis on participation by scientists that are merely 
        industrious rather than those that are exceptionally qualified, 
        experienced and insightful. Compare the list of authors on the 
        IPCC AR4 report with those involved in the 1979 Charney Report 
        on Carbon Dioxide and Climate, which included the premier U.S. 
        scientists of the time. The broad geographical and 
        international distribution of authors, some with relatively 
        meager qualifications and experience, seems motivated more by 
        political reasons to gain support for the Treaty rather than by 
        the needs of the scientific assessment itself.

        <bullet>  Working Groups II and III on impacts and mitigation 
        have produced reports that are judged by many to be inaccurate 
        and misleading. The emphasis of these reports seems to be to 
        convince policy makers that anthropogenic climate change is 
        dangerous and the problem of carbon mitigation can be addressed 
        feasibly and without economic damage.

    So in one sense, the IPCC process is ``working'' in terms of 
garnering support for the UNFCCC treaty. But as a scientific assessment 
of climate variability and change and the vulnerabilities to climate 
change, I would judge the IPCC process not to be working. I don't think 
that the IPCC can be repaired without a major overhaul of its 
justification and organization. For an IPCC under the auspices of the 
UN, I would recommend that the WG I assessment be undertaken under the 
auspices of the WMO/WCRP (and not the UNEP and UNFCCC).
    Many other initiatives with international implications are 
undertaken without the involvement of the UN. An approach whereby 
disparate organizations conduct assessments would be beneficial, 
producing new ideas and new directions and a more diverse scientific 
and policy debate. An alternative to the IPCC is to conduct assessments 
within individual nations or a group of nations who share a common 
interest. However, the recent U.S. assessment reports seem to mostly 
parrot the IPCC assessment, with many of the people participating in 
the U.S. assessments having also participated in the IPCC. A broader 
base of scientists should participate in the assessments, including 
those whose scientific reputations and funding aren't tied to climate 
change. Skeptical perspectives should be sought and included.
    Regarding use of the scientific assessments as a basis for policy 
actions, I argue that an intermediate step is required, analogous to 
that for regulated science such as pharmaceuticals, food safety, human 
genetic manipulation, etc. Independent assessment, auditing, due 
diligence, whatever you want to call it, can insure that quality 
standards are met and that the assessment addresses the wider interests 
of the public.
    There are no simple answers to addressing the complex and wicked 
problem of climate change, but a rethinking of our broader strategies 
is needed.

                                   

</pre></body></html>
